No. mm21 A-422

In the 422nd J udicial District Court
of Kaufinan County, T exas

Ex parte
Eric Lyle Williams

Court's Amended Findings of Fact and Conclusions of Law

- ~-.~.

....

.

.

-.

TABLE OF CONTENTS
Legend for Record Citations ....... .. .... :...... ................ ... ............................................ 6
l\ackground Facts; ... ................................................................................................ 7
State's Punishment Evidence ................................................. ......................... 13
Defense Punishment Evidence ............................................. .......................... 28
Procedural H istory ...................................... ................... ............ ..... .... .. .......... ..... 45
Clai1ns R.aised .............. ............................................................... ..... ....... .. ............ 45
Motion to Disqualify District Attorney Pro Tern Bill Wirskye ..... .................... .. .... 46
l\ackground Facti; ..... ......................... ................... .... ............ ............ .......... .... 46
Applicable I ,avv ........................................ ... ..... ... ........ ........... .......... ............... 4 7
Applicant Failed to Show Sufficient Grounds for Disqualification ................. .. 48
Claim l: Prosecutorial Misconduct ............. ................. .. ...................................... SO
Deal with Kim Williams .... ........................................ .... ........ ......................... SO
Applic;tble Facts ............... ............. ....................... ........... .. ...................... ... 50
Applicant's Evidence of a Deal ........................ .. .................................... 58
Predictions and Actions of Kim Williams's Attorneys ....................... 58
Kim Williams's Participation in Ride A longs Without Counsel. ........ 60
Bill Wirskye's Email Exchange with Paul Hasse ...... ... ....................... 62
Kim Williams's Letters ........................................... .......................... 63
In mate Yolanda Barton ......................... ................. .......................... 64
Inmate Ray'la MrCurry............ .. .............. ....................... .................. 65
Article Written by Pro Tern Bill Wirskye .......... ............................... 66
Applicant's Trial Attorneys ... .... .............................. .......... ..... .. ......... 67
Suppression of Evidence of Kim's Mental Health and Criminal History ...... 69
False rr esti1nony ...... ....... ....... ....... .. ..... .. ... ....... .... .............. .... ...... ... .......... ....... 70
Punish1nent Phase ........ .... ................... ............... ...... .................................. 71
Kim vVilliams's Denial of a Deal with the State ...... .. ............................ .. 71
Kim Williams's Role in the Otlenses & Her Portrayal of Applicant.. ...... 72
Kim Williams's Testimony and Statements to Law Enforcement ........... 75
Applicant's Relationship With Tina Hall ..... .. .................. ...................... 79

2

c;uilt Phase of 'frial .................................................................................... 82
Participation of Recused Assistant D istrict Attorney .............. ...... .................... 82
13ackground Facts ..... ..... .................................. ....... ........... ...... ........ .... .. ..... 83
'l'he l•:1nails at Issue .... ....... ............. .... .................... ............. ......... .............. 87
Applicable I..a,"' ........................................................................................... 88
No Actual Conflict Existed .......................... ... .. ...... .. ........... ... ..................... 90
The Large-Scale Investigation .................... ..... ....................................... 90
'1'11e f> rosecut1on
. 'l'ea1n ...... ...... ........ ............................ .............. ......... ... 94
Korioth's Duties at the Kaufman County DA's Office Overlapped with
Issues that Arose in the Prosecution of Applicant.. ......... ..... .... .. ... .......... 96
Wirskye Sought Korioth's Assistance as a Friend, Former Colleague, and
Respected Appellate Attorney, but Not as a Decision Maker ................. 98
Evidence Korioth was Partial, " Interested" and an Actual Conflict of Interest
.... .............. .... ...................................................... ............. ............. .... .. 101
Kaufman County DA's Office Was Voluntarily Recused ....... ....... ........ 102
Mark Hasse ............... ............. ................... ..... ... ... ... ...... ....... ..... .. ........ 103
District Attorney \ t\liley's Personal Conflict of Interest .. .... .... .. ............. 104
The Otlice as Part of the Crime Scene ............. ........ .... ........... ... .......... 105
Fl3 I Interview ............................................... ..................... ......... ........ .. 105
Applicant ...................................... ... ...... ... .. ................... .... ........ ... ....... 106
No Due Process Violation ...................................................... .................. 110
Applicant's Conflict of Interest Claim is Sul~ject to a Pr~judice Re,·iew. 110
Applicant Cannot Show He Was Actually Pr~judiced .. ........................ 112
Commu11ications with .Jury ... ............................... ..... ............ ..... .. ..... ..... ...... .. 113
Procedurally 13arred ................... .......... ........... ....................... ................... 114
Applicant Fails to Allege Facts that Entitle H im to Relief........................... 115
Claim 2: Ineffective Assistance of Trial Counsel. .......................... .... ............. ..... 117
Punishment Phase Representation ........................................ .......... .. ............ 119
Mitigation Investigation ........................................................... .................. 119
Brain Damage Investigation Not Deficient ............... .... ... ..................... 120
'l'he Investigation .............................. ....... ............... ........... .. .. ........ . 121
Sound Strategic Choice ................................................................... 125
Brain Damage Evidence ot Credible or Persuasive ... ............. ............ 126
Investigation into Applicant's Background, Family History, & Health .. . 132
3

Investigation Not Deficient ....................................................... .... .. 133
Defense ot Pr~judiced by Investigation ......................................... 142
Investigating and Challenging State's Punishment Evidence ... ............... ..... 144
Impeachment of Kim Williams ........ .......... .. ...... .... ........ .............. ........ 144
Spousal Privilege Ol~jectiou ......................................... ...... ............ ..... . 149
Impeachment with Tina Hall Affair ................................... ..... ... .......... 152
Challenge to D NA Evidence ..... .............. .. ......... ...... ...... ....... ..... .......... 154
Extraneous Victim Impact Evidence ........................ .... ... ........... .......... 158
Challenge to Exclusion of Mitigating Evidence .................................. ........ 160
Challenge to State's Closing Argument .......... ..... ........... .. .. ...... ................ .. 163
Guilt Phase Representation ..................... .. ......... .. ..... ........... ....... ........ ...... .... 167
Challenge to State's Version of Events ........................................... ....... ..... 167
Kim Williams's Level' oflnvolvement in Murders ........................... .... . 168
Time of McLelland s' Murders ....... .............................. ....... ............. .... 169
'rhird Participant ........... ................................... .......... ......... ... ... ......... . 171
Suppression of LexisNexis Search Results ...... ............. ...... ........... .. .... ....... 172
Legality of Chitty Warrants .................... ........................... ........................ 174
J udicial l~ias ................... .... ........... ...... ........... ............... .... ........... .. .. ..·.... ... 177
Challenge to J etfress '1'estimony .......... ............... ............... ....... ..... ......... ... 178
Challenge to Fingerprint Evidence ...... ....................... ....... ................... .... . 185
Challenge to Chain of Custody.................................................................. 190
Challenge to State's Closing Argument .. ........... ............ ........ ...... ............ ... 193

Clai1n ~: Cronic ................................................................................................. 195
Claim Not Previously Raised on Direct Appeal. .. ...................... .................... 195
l o Cronic Violation ......... .... ................................. ... .................. ......... .... ..... 196
Claim 4: Disco,·ery Due Process ......... ..... .... ........ ....... .... .. ........ ...................... ... 203
Claim Not Previously Raised on Direct Appeal. .... ............... ...... ................... 203
No Due Process Violation ...... ............ ................ ...................... .................... 204
Claim 5: Judicial Bias ............................... .... .. ............................ .. ........... ........... 208
Procedural l~ar .. ...... ......... ..... ........... ......... ................ ........... ........ .. ... ...... .... . 210
No Violation of Due Process .................................... ............ ....... .... .. .. ... ... ... 211
Comments and Demeanor. ........... .... .......... ....... ............... ................... ..... 212
4

Inconsistent Rulings ... .... .. .......... ......... ............................................... ....... 215
Sentencing Re1narks .. ..... ..... ...... ......... ........... ........... ........... ............... ...... 216
Letter a.nd Book Signing .............. ... ...... ........ ........... ........... .......... .. ......... . 217
Facial Expressions ...... ........ ............. ................ ........................... .. ... .. ........ 218
Claim(>: Ineffective Assistance of Appellate Counsel .. .. ....... .............................. 220
Appellate Counsel ........... ................... .... ... ........ ... ... .. ............. ... ... ..... ........... 220
Continuance Claim .... .................................. .. .... ... .... ..................... ....... ... ..... 221
Second Change of Venue Motion Claim .......................................... ............. 222
Death Qualified Jury Claim .............................. ..................... ....................... 224
Incendiary Device Claim ........... .......... .... ............................ .... ... ......... .... ...... 225
Victim Impact Evidence Claim ....................... ..... .......................... ......... .... .. 227
Individualized Sentencing Claim ......................................................... ...... ... . 229
Inadequate Briefing Claims ....... ............ ......................... .. ..................... .. ...... 230
Cu,nulative l·:tlect ...... .......... ................................. ............. .. ............ ..... ........ 231
Claim 7: J ury Ta1npering ........................................ ........................................... 232
Claims 8-l l: Challenges to Texas's Death Penalty Scheme .... .............................. 232
Procedurally l\arred ............................. ......... ..... ....... .. .......... ... ............. ........ 232
Challenges to Death Penalty Scheme .... ... ........ ........... .......... ... ... .................. 233
Claim 8: Constitutionality of the Texas Death Penalty Scheme ................ .. 233
Claim 9: Constitutionality of the 12-10 Rule ......................... ...................... 236
Claim l 0: Constitutionality of the Future Dangerousness Issue ... .... ........... 237
Claim 11: Constitutionality of the Mitigation Instructions ........................... 238

5

Legend for Record Citations
Trial Record: "RR" refers to the reporter's record of the trial. "DX" rders to
the defense exhibil'i. "SX" refers to the State's exhibits. "CX" refers to tl1e Court's
exhibits. SX-MNT refers to the State's exhibits in the motion for new trial proceeding.
DX-MNT refers to the defense exhibits in the motion for new trial proceeding. "CR"
refers to the clerk's record.

WritRecord: "WRR" refers to tl1e reporter's record of the hearing. "AX" refers
1
'lHts.
. "SWX"
. "CWX" re t·e rs to tI1e
to A pp I.ICant's ex111
,
re t·ers to tl1e ,State ' s ex !u·1 Hts.
Court's exhibits. "App." refers to the writ application.

6

After considering Applicant's Ohjections to the Trial Court's findings of Fact
and Conclusions of Law filed April 27, 2020, the court amends the findings of fact
and conclusions of law adopted by the prior order.
Accordingly, having reviewed (I) the application for writ of habeas corpus, (2)
the State's answer, G·H official court documents and records from the trial, direct
appeal, and these writ proceedings, (4) e vidence presented at the hearing conducted
the week of August 12, 2019, (5) evidence filed after the hearing with appro,·al of the
court, (G) arguments presented by the parties, and (7) applicant's ol~jections to the trial
court's finding:s of fact and conclusions of law, the court makes the following findings
of fan and conclusions of law.

Background Facts

:-w,

Early Saturday morning, March
20 I a, Applicant shot and killed Kaufman
County Criminal District Attorney Mike McLelland and his wife, Cynthia, in their
home.
Friends discovered the bodies later that day. (44 RR 84-89). The murder scene
was confined to the entryway, living room, and a hallway. (44 RR 118-19, 12]-24).
Cynthia ·was found in the living room; Mike was found in the hallway outside the
bathroom. (44 RR 88, 119, 125-26). Cynthia had been shot between 5-8 times,
suffering wounds to her pelvis, chest, arm, and head. The shot to her head entered
the top of her skull and exited her chin. (44 RR 1G8-88). Mike had been shot l {j times.
He suffered wounds to his chest, abdomen, arm, buttock, hip, and leg. (44 RR 1~)420G). Many or Mike's i.,vounds were consistent \-vith being shot whi le he was lying down.
(44 RR 208-09).
Although numerous projectiles and casings were found at the scene and several
additional prqjectiles were recovered in the autopsies, it appeared only one gun was
used in the murders. (45 RR 126-28, I a7-:-3m. A firearm and tool mark examiner
determined that all of the casings fc>Und at the scene were tired from the same gun and
that all of the prqjectiles suitable for comparison were fired from the same gun. (45
RR 125-29; SX 285-86, 289, 291 ). The casings were .22~-3 caliber and manufactured
by Lake City. (44 RR 126-27; 45 RR I:-3:-n. In addition, the prqjectiles were consistent
with having been loaded into a .22~-3 caliber cartridge. (SX 285). This caliber bullet is
most commonly tired rrom an AR-LS or an M Hi firearm. (4.S RR 9G).
7

No evidence indicated forced entry, and nothing was taken. (44 RR 120). By all
appearances, the couple was awakened and taken unaware by the killer. Although
Mike ovmed numerous firearms, all were found still stored, indicating he had no time
to reach them. (44 RR l:-36-:-37). Mike and Cynthia appeared dressed for bed, she in
her nightgown and he in sweatpants and no shirt. (44 RR 119-20). The security system
detected no motion in the house from 11: 14 pm the night before until (>:40 am on
Saturday, March :10 when the screen door and front door opened and dosed, and
there was movement inside. Two minutes later, the screen door and front door
opened and dosed again. No other movement occurred in the house until the bodies
were discovered that evening. (45 RR l 0-12, 20-25).
McLelland had successfully prosecuted Applicant the year before for a felon y
oflense. At the time of the otlense, Applicant was a justice of the peace in Kaufman
County. As a result of his conviction, Applicant lost his bench, his bar license, and his
position in the Texas State Guard. (44 RR 7:-3-76, 2:-35<-36) .
In light of these events, the she riff sent a deputy to locate and interview
Applicant. (45 RR 155-56). Just hours alter the bodies were discm·t:rccl, a deputy
reached Applicant by phone and asked where he was. Applicant said he was with his
wife "in the Quinlan area," which is near Lake Tawakoni. Applicant agreed to meet
the deputy at a Kautinan restaurant, and he arrived with his wite, Kim, around l 0::-30
pm. (45 RR 155-!>8). Applicant told the deputy he had been at his in-laws' home earlier
that day and had not fired a weapon since his prior arrest. (4!, RR l !>9-G0). Applicant
consented to J.,'llnshot residue (CSR) handwipings, and he and Kim agreed to an
examination of their cellphones' contents. (45 RR 159, WI). GSR particles were
detected 011 Applicant's handwipi11gs, indicating he had fired a gun, been near a gun
when it was fired, or touched a surface that had CSR on it. (4G RR 1:1, 22; SX :-300).
Around l 0:00 pm the next day, the Kaufman Sheriffs Otlice received an
anonymous Crime Stoppers tip about the murders. It stated, "Do we have your full
attention now. Only a response from Judge Bruce Woods 1 will be answered. You have
48 hours." Believing the killer may have sent the tip, a sheriffs deputy responded,

1

At the time,Jwlgc \Noods served as Coun1yJudge

8

or Kaulinan County.

"You have our attention. How can the county judge contact youi>" The "tipster"
responded,
Your act of good faith will result in no other attacks this week. Judge
vVoods must ofle r a resignal ion of one of the ,1, main judges i11 Kaufma11
- district o r county court. List stress or family concerns, or \-vhate,·er else
sounds deniable. The media will understand. My superiors will see this
as a first ste p to ending our actions. Do not re port any d etails of this
arrangement. You have until Friday @ 4pm. W e are not u nreasonable,
but we will not be stopped.

(45 RR 18:-3-87; SX 29:-3a).
Again, the deputy responded. This time, he asked for information known only
to the killer but received no reply. Attempts to trace the IP address of the tipste r were
unsuccessful, and the tipster never logged back into the Crime Stoppers system. (45
RR 188-W); SX 2~r~a).
Over a week after the murders, Ranger Dewayne D ockery and C hief D e puty
. Rodney Evans contacted Applicant at his in-laws' home, and Applicant agreed to
speak to them. During the inten·iew, Applicant denied conducting any internet
searches related to McLelland. Dockery and EYans repeatedly asked Applicant, a
known firearms enthusiast, if he still had any guns; each time, Applicant d enied that
he did. Applicant said he had sold all but one - a Desert Eagle .44 automatic pistol after his felony conviction. Applicant consented to a search of his home for ti rearms,
during which the Desert Eagle pistol was recovered. (44 RR 2:-37; 45 RR 19 I -9(j),
The next day, autho rities searched Applicant's house. (45 RR 58-59) . They
found Applicant's black Ford Explorer Sport Trac in the driveway. (45 RR 6 l-(>2).
Inside the vehicle, they found a yellow sticky note with the address for the Angry Dog,
a Dallas restaurant, written o n it. (4j RR :-3a; 4(j RR 28). In a file cabinet in the garage,
they found the title to a Crown Victoria alo ng with a cell phone. The title had been
transferred to a " Richard G reene." (45 RR GG-68). Inside the house were several
computers, over $6000 in cash, two lock-pick kit'i, and two handwritten notes. On one
note was a Lexis. exis ID number and password. On the other was the web address
for TipSubmit and several series of numbers. (45 RR 62-66). The numbers
corresponded to the unique identifying n umbers and passwords assigned to the March
:-3 J and April l, 20 la anonymous Crime Stoppers tips claiming responsibility for the
9

murders. (45 RR l 7~)-87; SX 98, 2~J:-H. The identifyi ng numbers and passwords were
provided to the tipster by the tip sofovare. (45 RR 180-8 l).
In an initial search of the compute rs found in the home, police found a TOR
browser, which prevent-; recipients from tracing a message back to the sender. (4(i RR
9:1-94). The TOR browser on A pplicant's computer was last accessed minutes before
the Kaufinan County Sheriffs Office received the April 1, 201 Crime Stoppers tip.
(46 RR 90-92, 94-95). The computer's internet browser history showed entries for
Lexis.com, Kaufinan County Crime Stoppers, Tips Online, and TipSoft. (46 RR 9596). It also showed searches for "2004 Ford Crown Victoria trunk release" and how
to make an anonymous tip. (46 RR 95-98, l 0 I). Subsequent forensic analysis of the
computers recovered an email sent by an "Alex Knight" on February 1:1, 20 la
regarding a Crmvn Victoria for sale on Craigslist. (4(i RR l 08-1 O; SX :-{ l.~) . It also
recovered a PayPal receipt emailed to Applicant for the purchase of shoe coYers on
J a nuary 14, 201:-{. (46 RR 111; SX ~116).

a

When word of the search of Applicant's house got out, two men who sen-ed
in the Texas State Guard (TSG) with Applicant, Rodger Williams1 and Scott Hunt,
contacted the police. Hunt told polic:e A pplicant contacted him in December 2012,
asking him to meet for lunch. Applicant told Scott he had a favor to ask. Hunt thought
Applicant's request was unusual because they were not friends and hadn 't seen each
other in over a year but he agreed to meet in.January at the Angry Dog restaurant. (4!,
RR 29-:1:1; SX 280). During lunch, Applicant behaved oddly. The conversation was
awkward and forced, and Applicant told Hunt he was "financially al the e nd of his
rope." (45 RR 34, 39). At one point, Applicant asked Hunt, who was considered to
be a firearms expert, what he knew about armor piercing ammunition. (45 RR :16).
He also asked Hunt to help him "get rid of an AR upper." Initially, Hunt thought
Applicant wished. to sell an upper, but then Applicant asked, " If I ga,·e it to you, would
you just ... make sure it never sees the light or day?" Disturbed by the question, Html
changed the topic without answering Applicant's. (4,i; RR 37-:-3~)). Concerned
Applicant might be suicidal, Hunt told Applicant as they parted not to do anything
stupid. Then, before leaving the restaurant parking fot, Hunt contacted Rodger (aka
Barton) Williams, who was his superior in the T exas State Guard. (45 RR 40-41). The
two met the next day, and Hunt shared his concerns about Applicant. Hunt contacted

2 vVilliams

is not related

lo

Applicant. (.U RR 2:l0).

10

Williams again when he lea.med authorities were searching Applicant's home, and the
two men decided to come fmward together. (45 RR 41-42).
\ ,Villiams told police, in late December 20 12, he rented a storage unit for
Applicant. Applicant selected the facility, Gibson's Storage l lnit'i in Seagoville, and he
gave Williams cash to cover the rental f-ee for a year. Williams rented the unit in his
own name, but the contract gave Applicant access to the unit and vVilliams gave
Applicant the passcode. Applicant told \ 1/illiams he needed the unit to store some of
his brother-in-law's belongings and did not want to rent it in his own name. Civen his
conviction, Applicant believed authorities could search anything tied to him; he
claimed he did not want to sul~ject his in-laws to such scrutiny. Williams offered to
help Applicant move the belongings into the unit, but Applicant declined. vVilliams
never accessed the unit himself. (44 RR 2:-37-4:-3; SX 27 4-279).
The day after VVilliams and Hunt came fonvard, authorities searched and
processed the unit for l 0 hours. (4!> RR 70-71 ). Inside, they found a Ford Crown
Victoria, a police surplus vehicle. The plates had been remm·ed and were found 011
the floorboard. (45 RR 72, 84-85; SX 126-27, 1:12). Stored along the walls of the unit
were knives, magazines, .223 caliber ammunition manufactured by Lake City, gun
cases, police tactical gear, a sniper's mat, law enforcement badges and patches, ballistic
vests, a crossbow, a homemade incendiary device, and the box of shoe covers
Applicant had purchased online. (45 RR 74-77, 79-8:-3; SX 105-06, 122-24, 1:-~5-40,
154-55). Applicant's name was found 011 many items in the unit, including a
footlocker. Authorities fc>urnl no items belonging to Rodger \ 1\/illiams or anyone else.
(4!> RR 80-81, 84; SX 10€>, lf>0, 1!>~-3).
The unit also contained at least ~-30 firearms, one with Applicant's fingerprint on
it. (45 RR 75; 46 RR 48-50; SX 304, 306-07). Among the firearms were two AR lowers
without a rorresponding upper/ (45 RR 87-88, 105, 109-11; SX 110, 11~-3). One of
these lowers was found in a blue bag; the lower was a ttached to ,t sling strap. The bag
also contained a Velcro "SHERIFF" patd1 designed to be worn 011 a ballistir vest. (4!>
RR 77-80; SX l 02, 14!J-4(j, 148-49). Additional tactical gear was found in a black 5 1Ibrand bag. In the bottom of that bag, agents found one live .22a caliber Lake City
3

AR-l5's arc comprised of two parts - an upper and a lo,..vcr. The upper is l11c portion from which
the prqjcctik is fired and, thus, leaves idc11Liliablc markings. The lower bears the weapon's serial
number. The two parts arc readily detachable from each other. (;l.5 RR 99-100, lOG).

11

round. (45 RR 77-78; SX 102, 140). A firearm and tool mark exammer found
markings 011 the live round consistent with it having been chambered and then ejected
.without being tired. Those markings matched the markings 011 the 20 casings found
at the McLelland murder scene, indicaling that the round had o nce bee n chambered
in the murder weapon. (45 RR 129-:-30; SX 287). T he markings on the casings from
the scene and the live round also matched those o n .22:-3 caliber casings t<.>und at an
isolated underpass on high way US 175, just north of Kaufman. (44 RR L'>:-3; 45 RR
I :-37 <-38; SX 221-:-34, 2B6, 290). Someone had fired multiple .22:-3, 5. 7, and 9-millimeter
caliber rounds into the underpass. (44 RR 149-56; SX 189-200). The firearm and tool
mark examine r determined the ,0.7 caliber casings found at the underpass were fired
from one of the A R-l.1>'s recm·ered from the storage unit. (4!, RR 1:-37-:-38; SX 290).
Authorities traced the Crown Victoria back to its prior owner, Edward Cole.
(4,4 RR 212-1 4). Cole identified Applicant as the "Richard Greene" he sold the car to
in February 2018. (44 RR 222). According to Cole, Applicant arrived in a black Sl IV
like a Ford Sport Trac, did not take much of a test drive, and paid in cash. (44 RR
215-16). Cole produced an email exchange between himself and "Richard Greene"
about the car.. (44 RR 214-15, 219-20; SX G:-3). Cole also produced the envelope
Applicant used to mail him back the garage door opener inadvertently lefr in the car.
(44 RR 217-18; SX 64). The postage meter stamp on the envelope was traced to the
meter registered to Applicant. (45 RR 172-74; SX 641>). Also, the phone number from
·which Applic;rnt called Cole belonged to the cell phone found in the cabinet in his
garage together with the Crown Victoria's title and manual. (46 RR l l l-I:1; SX 217).
And Applicant's prints were found inside the \'ehide. (4€> RR 29, 4:-3-44; SX :·302-:-30:1) .
Security system record s for G ibson's Storal{e showed unit I 8 - the storage unit
Rodger Williams rented for Applicant - had been accessed j ust before an d right after
th e McLellarn ls were murdered. ' Surveillance foo tage from a fast-food restaurant
adjacent to Gibson's showed what appeared to be a black Ford Sport Trac entering
Gibson's at G:OO am on the morning of the murders. Then, 11 minutes late r, 'vvhat
appeared to be a white Crown Victoria or Mercury Grand Prix exited Gibson's. Bo th
vehicles utilized the passcode for unit 18. In add ition, surveillance footage from four
area businesses showed what appeared to be a v.1hite Crown Victoria or Mercury
4

Earh unit had a unique passcode. To access the facility, one had lo provide that code upon entry
and exit. Also, if any unit other t..han the one corresponding lo the passcodc was accessed, an alarm
went off. (11!. RR 260-61).

12

Grand Prix traveling in the direction of the McLelland home. The fast-food
restaurant's surveillance footage showed what appeared to be the same white vehicle
returning at (j:40 am. The n, 17 minutes later, what appeared to be a black Sport Trac
exited Gibson's.· (44 RR 272; 4G RR 12fJ-:)8; SX G5b, 272-270, :) l8-o22).
Suspecting Applicant and his wite, Kim, had disposed of evidence in Lake
Ta'vvakoni on the day of the murders, DPS divers spent weeks searching an area off of
Two Mile Bridge. The weapon used to murder the McLellands wasn't recovered
though one diver found a bag containing items later connected to the McLe lla11ds'
murders. Some were connected to Applicant.; Among the items was a cellphone
appearing to have been intentionally broken. (4:, RR 128-29, 158; 4G RR (jl-67; SX

288, :-W8-:-H 0).

State's Punishment Evidence
On the morning of.January ol, 20 I:~, about two months bef<xe the McLe lland
m urders, Applicant shot and killed Kautinan County Assistant District Attorney Mark
H asse 011 the sidewalk beside the employee parking lot of the Kaufman County
Courthouse. Hasse and McLelland successfully prosecuted Applicant the year before
for burglary and theft by a public servant. While serving as a justice of the peace,
Applicant entered the sub-courthouse alter hours and took three computer monitors
from the IT departme nt. (5 l RR 229-2aO; 52 RR 119-21; 54 RR 19-24; SX :124).

On the morning of the murder, Hasse parked his burgundy Ford pickup truck
in his usual spot. (48 RR 4:-3). H e was walking toward the courthouse whe n Applicant
confronted him and shot him multiple times. (48 RR !>7, GO-G2, 8!>-87). Hasse suflered
wounds to the head, arms, chest, and bark. The wounds to his head and chest were
fatal. (48 RR 14!>-15:1; SX 51-61, :·3:12, !>~9).
Three people ..,,~tnessed Hasse's murder: Patricia Luna - a county mail clerk
who was working out in the county fitness room beside the lot; Lenda Bush - an
attorney and former police otlicer driving toward the parking lot; and Martin Cerda a mechanic working at Gomez Paint and Body across the street from the lot. (48 RR
as-:1G, SG-57, Rm.

5

Some of the recovered items were related to the Hasse murder and, thus, were not spccilically
identified or admit.led until the punishment phase.

13

Luna heard a weird noise, turned off her workout music, and peered through
the blinds of the fitness room. She saw a man wearing a mask with holes for the eyes,
a bulletproof vest, and army hoots. The masked man fired a gun into the air. Then he
\,v alked to the passenger side of a light-colored car parked on the street, and the car
slowly dro,·e away. (48 RR :-P-42).
Bush witnessed two men in a confrontation 011 the sidewalk as she drove tmvard
the lot. A larger man approached H asse as he walked toward the courthouse. The
larger man wore a big black coat and a hood covering his head and face. The two men
appeared to be speaking and started shoving each other. Then the larger man shot
Hasse. H asse straightened up, and the shoving match resumed until the larger man
put his gun to H asse's neck and repeatedly fired downward. Bush counted three shots
but she heard more. She saw the shooter run to a parked car. She turned her car in
front of the shooter's car hoping to get the license plate number, but there was no
front plate. She described the car as silver, four-door, and medium sized ; she could
not identify the model, but she knew it was nol a Taurus. The car drove off and she
followed it for a couple of blocks. She called 911 and returned to the scene to help
H asse. vVhen she arrived , Hasse was unconscious and never spoke to her. Although
Bush knew both Hasse and Applicant, she recognized neither of them. Also, she did
not think Applicant was the shooter because of his size, although she later learned he
had put on weight. (48 RR 54-72).
Cerda was working on a car with the garage's door open when he beard a
.1,11.mshot. He looked out the door and saw Hasse in an altercation with an armed man.
Cerda recognized Hasse; he regularly saw him walk by in the morning 011 his way to
work. He did not recognize the armed man and sa'vv him only from behind. H e
described him as tall and \Vlde, wearing a jacket with a hood, and holding a p istol by
his side. The armed man grabbed Hasse by the jacket. Hasse tried to push the gun
. l 111s
. gun
away aml saH. 1, " I' m sorry, I ' m sorry, I ' m sorry. " rl'h en t I1e armec l man pomtec
at H asse's chest and fired. Hasse fell to the ground, and the armed man moved closer,
pointed his pistol down toward Hasse, and fired several more times. He fired so many
shot<; that he emptied one pistol, pulled out another, and began tiring again. As he
calmly walked away from the scene, the armed man fired two or three more times into
the air. To Cerda, the shooting looked like a vendetta killing; both men appeared to
know each other and the shooting seemed personal. (48 RR 82-94).

14

Kauhnan Police Officer J ason Stastny, who was investigating a burglary a few
blocks from the courthouse that morning, heard the gunlire. He heard fo·e shots, and
then he heard three more. The shots sounded slow and methodical. Stastny and his
partner drove toward the sound of the gunfire and found Bush performing CPR on
Hasse on the sidewalk beside the lot. Stastny saw the ,1.,11mshot wound to Hasse's head,
but he was still breathing. Stastny took over CPR until the EMTs arrived. H ~ts:Se took
his last breath as the EMTs loaded him into the ambulance. (48 RR 9!>-108; SX 528).
He was pronounced dead in the hospital emergency room at 9:08 am. (48 RR 11
118-1 20) .

a,

Hasse arrived at the hospital still wearing his coat. l Jnderneath it, he vvore a
tm!stc~l firearm . Hasse was a certified peace officer, and he carried a Glock pistol.
staff removed Hasse's clothing while assessing his condition, and a bullet
~ ti*
nt fell out. The fra,g rnent and c:Iothing were collected, and Hasse's hands were
ba'gged. (48 RR 2:1-24, l lf>-118, 121-124; SX 42:1). Meanwhile, the authorities
searched for a light-colored car like a Ford T aurus, and they processed the scene.
They searched the entire parking lot as well as nearby side streets, and they took aerial
photographs. The scene itself yielded little evidence; authorities discm·ered only two
bullet fragments or prqjectiles. (48 RR 27, I Oa, 125-1:19; SX 422, 425, 445). The
medical examiner later recm·ered add itional fragments from H asse's brain. (48 RR
154-!>!>; SX 424). A tool mark examiner determined that three of the recovered
projectiles - one from the scene, one found in Hasse's clothing, and one found in the
autopsy - were fired from the same, unidentified weapon. A lso, all three were
consistent with .:18 or .af>7 caliber rounds. (49 RR 9-19; SX f>:-38-!>41).

- ~>Jtfi

Immediately after learning of H asse's death, Mike McLelland and Kaufman
Sheriff David Byrnes spoke at the hospital. Afterward, Byrnes sent Deputy Barry
D yson to "go find IApplican tl ." Dyson took another deputy and a constable with him
to Applicant's house. vVhen they approached the house, a construction wo rker across
the street informed them that someone had just arrived home. The man had heard
the sirens in downtown Kautinan, and then minutes later, he heard a vehicle drive
down the street at a high speed and abruptly stop. \ 1Vhen he looked out the window
as the vehicle passed, he saw a black Sl lV. (48 RR 170-179, 182-1 87).
Dyson knocked on the front door, and Applicant answered dressed in a nylon
sweat suit with h is left arm in a sling. H e appeared llushed and sweaty, and his hand
was ,,vet and clammy when D yson shook it. Applicant stepped outside to speak with

15

them. They told him Hasse had been shot and killed and they wan ted to know where
Applicant had been. Applicant acted shocked and told them he had just arrived home
from the pharmacy where he had been to pick up a prescription for his bedridden
and comatose wife. He also told them his arm was in a sling because he had just had
rotator-cuff surgery. Dyson collected gunshot residue handwipings from Applicant,
but the results were negative. Applicant allowed the constable to search inside his
house, but the constable only spent a couple of minutes inside and left. (48 RR 18719 I).
The Crime Stoppers unique identifiers found written on a document in
Applicant's house pertained to two diflerent tips - one sent between the murders and
one sent after. The first claimed that two men, one named "Frank," had killed Hasse
and then fled to Mexico. The sec:ond, which was the same tip d emanding the
resignation of a county judge, accurately identified the type of weapon and
ammunition used to kill Hasse - information not yet known to authorities. (48 RR
2 12-218;
29:1, 5:-30).

sx

A search of the computers found in Applicant's house revealed they had been
used to locate information on the internet related to the murders. Although the
browser history only ·went as far back as April 2, 201:-3, right after the McLe lla11d
murders, the computer had been used to access numerous news articles about all three
murders. It was also used to search for information about the prosecutors working the
case, the Texas Rangers, and the types of guns used in the murders. Additionally, the
Crime Stoppers website had been accessed _just tvvo days afrer authorities received one
of the tips from the killer. The LexisNexis database had been accessed to research
Hasse, to locate H asse's home address in Rockwall, T'exas, and to look up the license
plate number of Hasse's ne ighbor's car. The Hasse related searches began just alter
Applicant's burglary trial and ended right before H asse's murder. (49 RR 147-182; SX

584-.187).
The search of Applicant's computers also revealed he made an appointment at
W estway Ford on January 28, 20 la, days after purchasing the Sable. Then, the day
be fcxe he murdered Hasse, Applicant d eactivated his Facebook account. The search
also showed Applicant logged onto his compute r on April 1, 201 :1, the day after the
McLelland murders, and downloaded a copy of the search warrant for the McLelland
crime scene. (49 RR 1:-37-140; SX 580-581).

16

Records from the Gibson Storage l 111its showed that the day before Hasse's
murder, someone entered and exited the facility twice using the code for Applicant's
storage unit. The next day, someone using the same code entered about :-H) minutes
after the murder and exited about 15 minutes later. vVeeks later, at the end of
February, the facility's manager found a 2001 silver Mercury Sable parked behilld the
last building. It was not a stolen vehicle, but the manager could not locate its owner
and had it tm,ved. (48 RR 195-200; SX 272, 4G:-3). Authorities later recovered the
vehicle and searched it. The vehicle's license plate number alld VIN matched those
in the Lexis. exis database from one of Applicant's computers. (4~) RR 182). Also,
inside the Sable, the FBI found earplugs, a sunshade, and a piece of fiberboard. A
DNA p rolile matching Applicant's was found oil the earplugs, and his profile could
not be excluded from a profile found 011 one of the car's headrests. (49 RR 120-126;

sx 4a9, 4:-ma, 464-470, 54a, 577).
A D 1A profile matching the profile of the Sable's prior ovmer, J eff Reynolds,
was recovered from a toothpick found in the car and from the driver's side door. Also,
Reynolds' fingerprint was recovered from the fiberboard found inside. (49 RR :i0-:i5,
126-127; SX 544-549, 579). Three days before H asse's murder, Reynolds sold the car
for $ 1,500 to a man who answered his Craigslist ad. Reynolds was unable to identif)'
anyone in a police photo lineup, but he described the buyer as white, 45-4(> years old,
5' 10" tall, and weighing 220 pounds. The man arrived with a woman in a dark blue
Ford Explorer Sport Trac. H e told Reynolds he was buying the Sable for his daughter,
but he was uninterested in needed repairs or a test drive. And the woman in the Sport
Trac looked too o ld to be his daughter. (48 RR 158- 169; SX 42G, 4G:i).
In the search of the sto rage unit, authorities found not only the Crown Victoria
and the unfired .22J round cycled through the McLelland murder weapon, but an
arsenal of other firearms and weapons. The firearms included shotguns, rifles, an AR1!.i affixed to a tripod, AR lm,vers and uppers, semi-automatic pistols, and revolvers.
(49 RR 84-~)5; SX :-3:-3a, a:-35-:-342, :-344-a4G, 348-:-35G, a58-:1()0, :-3(j2, :-3(j4-:-3G7, ;-370-:-37 l,
37:\ :i77-:-378, :-380<i87, 5:-3 1, 5:-34, 5:-{(j). Authorities also found firearm components,
thousands of rounds of ammunition of various calibers, loaded magazines, lots of
tactical gear (e.g., helmets, a ballistic vest, etc.), a variety or police uniform apparel,
and several badges. In a canvas bag, they found bolt cutters, a fixed blade knif'e, two
jars of homemade napalm, a cigarette lighter, shoe covers, gloves, goggles, and
crossbow arrows with razor tips. (49 RR 48-57; 54 RR 112-116; SX 108, 115, 4:-30-4a7,

17

472-50!>, 595-596). A DNA prolile matching Applicant's profile 1,,vas found
gloves and goggles. (49 RR 12:-3-126; SX ,S78).

011

the

The items recovered from Lake Tawakoni by DPS divers included a black
stocking mask (originally thought to be a black bag) containing two revolvers and speed
strips full of .88 caliber ammunition. One revolver contained tive empty cartridge
casings; the other contained three empty casings and two unfired rounds. (48 RR 202211; 49 RR 19; SX 417-421, SX ,S0G-,S E)). The tool mark examiner determined the
three prqjectiles previously identified as having been tired from the same weapon (the
ones from the Hasse murder scene, clothing, and autopsy) were all tired from the
Ruger .:-3.S7 revolver recovered from the lake. (4~) RR 14- l 8; SX 5;37, ,S,12). The other
revolver found in the lake was traced back to Kim \!Villiams, who had purchased it in
the late 1990's. (49 RR 107-109).
Applicant was arrested atter the search of his house. (54 RR 76-77). A day or
so later, his wife, Kim, came to the Kautinan County Sheriffs Oflice to provide her
fi11gerprint'i, and she spoke to investigators at len.[,rt:h. For several hours, she denied
she and Applicant had anything to do with the murders, but she eventually revealed
Applicant had committed the murders with her help. Although she was not completely
truthful in the interview, afterwards, Kim began cooperating with the St.ate. She took
authorities to the bridge on Lake Tawakoni where Applicant had disposed of
evidence, and she led them to the underpass Applicant had used for target practice.
As a result, the State recovered evidence further implicating Applicant in the murders.
(54 RR 91 -92). Kim testified against Applicant at trial, describing how and why he
committed the murders and her own complicity in the crimes.
According to Kim, the murders were fueled by Applicant's anger m ·e r his
prosecution for stealing the computer monitors. When arrested for that crime,
Applicant called her from his attorney's phone and told her had done nothing wrong,
but he also instructed her to take one of the monitors on the kitchen counter, put it
back in its box, and take it to her parents' house. Despite this request, Kim believed
Applicant was innocent. (54 RR 20-22).
When Hasse and McLelland tried Applicant, Kim did not attend most of the
proceeding because she was home in bed all(! "drugged up." (54 RR 25-2G). She was
taking a cocktail of prescription medications including OxyContin, morphine, Valium,

18

and Provigil. In retrospect, she characterized herself as a drug addict.'; (54 RR l 0-11 ).
She only appeared to testity at punishment and was prepped beforehand hy Applicant
to say nice things about him. (54 RR 2€>).
Kim and Applicant met online in 19~)6, dated, and married in 19~)8. At first
their marriage was a happy one. Both were gainfully employed, she at a hospital and
he as.Judge Glen Ashworth's coordinator. Applicant went to law school while working
for the judge. Eventually, Applicant opened his own law practice and the couple
moved into their home on Overlook. But in 2005, their relationship began to
deteriorate. Kim, now addicted to prescription medications, had stopped working,
went on disability, and spent days at a time in bed. Applicant vvas unfaithful and
suggested divorce. Nevertheless, the two remained together, and Applicant was elected
as a justice of the peace in Kautinan, taking office in 20 l 0. (54 RR l 0-18, 90-91 ).

In 2011, when arrested for burg-la111 and theft, Applicant was suspended from
his bench and from practicing law. While awaiting trial, Applicant became increasingly
angry with McLelland and Hasse. He thought they were trying to set him up. He gave
them nicknames; he called H asse "fuckstick" and McLelland "sluggo." Ove r time,
Applicant became angrier with Hasse because he led the burglary prosecution. (54 RR
2:-3-25). Applicant also beca1ne very angry with.Judge Ashworth. He believed Ashworth
had given the prosecutors information about an extraneous armed assault he
committed against a former girlfrie11d ,Ja11ice Cray. (54 RR 27-28, 77-78).
Applicant was convicted in 2012; he received probation, but he lost his law
license and his bench. He spent his days on the computer and drank heavily, even
while taking prescription medications. This affected his diabetes and made his mood
worse. Applicant became obsessed with Christopher Domer7 and his manifesto and
he even attempted to friend Dorner on Facebook. Over time, Applicant's anger
toward H asse and McLelland grew, and he began talking about killing them and
Ashworth. Initially, Kim dismissed Applicant's statements. Applicant had talked of
killing Ashworth as far back as 2007, calling him prissy and a prima donna. But

6

Kim stated that her addiction began in 1999 when she developed rheumaloid arthritis and began
taking Vicodin, water pills, and prednisonc. (5 11- RR 16).

' Dorner was ,i former Lqs Angeles police olliccr who shot several people; his manilcsto dct.-tilcd his
gTievances agains.t certain people. (11-9 RR ,(.1).

19

Applicant's talk about the killings persisted, and after Thanksgiving, Kim realized he
was serious. (54 RR 2.'>, 28-:·H), 7a-74, 77-78).
Applirant told Kim he planned to kill Ashworth alt.er the Super Bowl by
shooting him with a crossbow, boring out his stomach, and putting napalm inside him.
Applicant also talked of kidnapping the judge and putting him in their freezer or
burying him in their flowerbed. Applicant took several steps to further these plans. H e
staked out the judge's house; he bought a crossbow 1vvith razor tips; he bought bolt
cutters to cut the fence on the back of the judge's property; he practiced shooting the
crossbow in his backyard; he made napalm; and he dug up the flowerbed to see if the
judge's body would fit. (54 RR :-H-:tl, 77-81; SX 414, 415a, 416a) . Also, authorities
found a key to Ashworth's property in Applicant's Sport Trac. T he key opened the
front gates of the property and a storage semi-trailer. \Nith the key, Applicant could
also gain access to the house because Ashworth left a house key hanging inside the
storage shed attached to his carport. (54 RR 111-112, 119-120; SX 9G).

l fltimately, Applicant killed Hasse tirst. In the beginning, he planned to shoot
Hasse from the Sonic near the courthouse. Then he considered going to H asse's
home in Rockwall, waiting for him in his driveway, and shooting him in his truck. H e
even went to Hasse's property to scope it out, taking Kim with hin1. (54 RR :-!2-:-rn. In
the end, Applicant chose to kill Hasse in the employee parking lot. Applicant named
his plan "Tombstone" after the western movie depicting street shootings in broad
daylight. Applicant wanted to shock people with his brazenness. He and Kim scouted
the location a couple of times beforehand, and Applicant described H asse's truck to
Kim. He told her he would kill H asse using a pistol. As a convicted felon, Applicant
was prohibited by law from owning a firearm, but he still posses5ed many. He had a
couple at home and the rest he moved to the storage unit Roger Williams rented for
him. Applicant took Kim to the unit to show it off. H e was proud of how neatly he
had organized it, and he knew where everything was. (54 RR :14-:17).
Applicant took Kim with him to purchase the Hasse getaway car - a Mercury
he found on Craigslist. Applicant wanted a car that would blend in. Applicant told the
seller he was buying the car for his daughter and he dressed to look like a dad. As they
were leaving the seller's, Applicant's Sport Trac stalled and they had to have it towed.
They took the Mercury home that night; the next day, they parked it behind the
O'Reilly Auto Parts store in Seagoville. Applicant chose this location because it ivould
be easier to get to on the morning of the murder. (54 RR :i8-:19).
20

Kim agreed to be Applicant's getaway driver. .She knew Applicant intended to
kill Hasse, but she agreed to help because she was drugged and believed everything
Applicant told her. According to Kim, "His anger was my anger." (,S4 RR :-m-:~4).
As the day of the murder approached, Applicant got more excited, happy, and
nervous; he was ready. The morning of the murder, they awoke at 8 am. Applicant
disguised himself in a black Halloween mask aud sunglasses, a black nylon jacket with
a bulletproof vest underneath, dark pants, gloves, and black combat boots. The mask
resembled a ghost face or ghoul. Applicant had purchased one like it for Kim to wear,
but she refused because she was driving. (54 RR :-39-40, 45) . Both were excited as they
left the house; they both wanted to murder Hasse. T'hey left the house in Applicant's
Sport Trac, retrieved the Mercury from the auto part-; store, and parked the Sport
Trac: next to the hospital. Applicant transferred the two murder weapons to the
Mercury and told Kim to drive toward the courthouse parking lot. (54 RR 42-44; SX
418-419). Kim parked in the lot facing the exit, kept the engine running, and put the
sun visor in the window to shield them from view. Applicant identified Hasse's usual
parking spot, and they waited for him to arrive. They watched Hasse park, get out of
his truck, and walk toward the courthouse. As Hasse passed behind the Mercury,
Applicant got out and caught up to him. Kim heard several shots, but she did not
watch the shooting. She said it hurt to watch Applicant kill someone. Afterward,
Applicant ran back to the Mercury, got in the passenger seat, and told Kim to drive.
Applicant still had his mask on and had put the guns in his pocket. They retrieved the
Sport Trac and then drove to the storage facility. Applicant parked the Mercury inside
the unit, ,,\~peel it down to remove any fingerprints, and changed his clothes. (54 RR
44-49).
Kim drove them home. They were both in a good mood. Appearing satisfied
with himself, Applicant described how Hasse begged for his life. Once home, Kim
took some valium and laid down. Faking ari iqjury, Applicant put his arm in a sling he
had previously used for a fro;,:en shoulder. H e ,,vatched televised reports of the
shooting and soon, the police arrived at their house. Applicant told Kim to remain
quiet while he went outside to speak with the otfo:ers. One of the officers came inside
and walked past Kim's bedroom, but she followed Applicant's instructions and did
not speak to him. (54 RR 49-52).
Later, Kim and Applicant watched a televised press conference in ·wh_ic h Mike
McLelland vowed to find Hasse's killer. Applicant shook his head and smiled a cocky

21

smile. Applicant planned to kill McLelland next. Applicant had planned to shoot
McLelland in the same employee parking lot, but his plan did not "pan out." Instead,
Applicant decided to kill McLelland in his own home on Easter weekend. (54 RR 525~1). Applicant chose a holiday weekend because he thought McLelland wou ld ha,·e
no police protection. H e bought a new getaway vehicle - a Crown Victoria - because
the Mercury's transmission blew. Applicant cleaned the Mercury before abandoning
it to be towed. He purchased the Crown Victoria from another Craigslist seller. For
McLelland's murder, he wanted a vehicle that looked like an undercover police car.
Kim went with Applicant to pick it up but did not meet the seller. (54 RR 5~1-!.i5).
Applicant planned to use a "long gun" for the McLelland murders. H e tested out
several weapons on the underpass between Seagoville and Kaufman, before choosing
one. (54 RR 55-56).
Between the Hasse and McLelland murders, Applicant repeatedly drm·e past
law enforcement's command post for the murder investigation. It was located in the
armory very near Applicant's home. H e would pretend to take pictures as they drove
past and spoke of how easy it would be go inside and just start shooting. At the same
time, Applicant became paranoid that law enforcement had bugged their house or was
listening to them through their home computers. So, he and Kim would go into the
kitchen pantry to discuss the murders. (54 RR 56-58).
In anticipation of the McLelland murders, Applicant and Kim drm·e to the
McLelland h ouse at night and took reconnaissance photos. Applicant planned to gain
entry by pretending he was law enl<xcement responding to a report that a gunman was
in the area. H e expected Cynthia Md.,elland to answer the d oor and let him inside.
Kim was to remain in the Crown Victoria and honk to alert Applicant to any trouble.
vVhile Applicant vvas angry with Mike McLelland, not Cynthia, he said she had to die
because she ,-vould be a witness. H e called her "collateral damage." (54 RR !.i8-!.i~J).

The ni~ht before the McLelland murders, Applicant was excited, happy, and in
a good mood. H e modeled the clothes he planned to wear; he looked like a SvVA' l '
team member. H e wore a bulletproof vest with a "SHERIFF" patch 011 it, a helmet,
ski goggles, and a black cotton covering that concealed his neck, mouth, and nose. (54
RR 60-61). The next morning, they awoke at 5:aO am, dressed, and left the house.
They drove the Sport Trac to the storage unit and traded it for the Crown Victoria.
Applicant drove them to the McLelland home, got out, left the driver's door open,
and walked to the front door. He wa.-; wearing blue booties over his boots. Kim

22

remained in the passenger seat. At first, no lights were on in the house, but some came
on after Applicant rang the doorbell. Someone opened the front door and let
Applicant inside. Next, Kim heard lots of loud gunfire. Kim thought, " H e's shooting
them. Oh my gosh!" But she was happy about it. After the shooting stopped, Applicant
returned to the car, put the long rifle he carried in the back seat, and drove them back
to the storage unit. (54 RR 61-66, 80). The mood in the car was happy and satisfied.
Applicant told Kim he had to shoot Cynthia an extra time becaus.e she was moaning;
that was the last shot he tired. (54 RR ()(j.()7).
Applicant parked the Crown Victoria back in the storage unit and cleaned it to
remove fingerprints. Then he changed clothes and they left. They had a cookout at
Kim's parent"' house that day. That night, Kim and Applicant dron:'. to Lake
Tawakoni where it vvas dark and few cars were on the road. Applicant directed Kim
to pull over on the bridge and got out, taking a bag from the back. seat with him. The
bag contained guns and Applicant's Razor phone. Applicant walked a short distance
and threw the bag into the water. On their way back home that night, someone in law
enforcement called Applicant and asked to meet. They stopped at a restaurant parking
lot in Kaufman. Applicant did not stop to wash his hands on the way, and the officers
performed a hrunshot residue test on him. (54 RR 68-71 ). Applicant and Kim also
willingly gave the officers their phones to search. Applicant had told Kim the police
could track their phones, so Kim had left hers at home during the McLelland murders.
(54 RR 71-72).
After the McLe llancl murders, Applicant spent a lot of time on his computer.
He sent online tips to law e nforcement, claiming he was m essing with them.
Eve ntually, the media c,une to the house and Applicant agreed to an interview. H e
watched the interview on television and was thrilled by it. Kim worried about attracting
attention, fearing they would get caught. Arni she knew there were more people
Applicant wanted to kill. (54 RR 7 4-75). In his head, Applicant maintained a hit list.
In addition to Hasse, McLelland, and Ashworth, the list included Kaufman County
J udge Erleigh Wiley. (54 RR 9, 7f>-7G). Applicant wanted to kill Wiley because he
thought she had "screwed him over for money" on CPS cases while he was in private
practice. After the McLellands, Applicant planned to kill Ashworth and then Wiley.
Kirn was unaware of any affirmative steps Applicant took to kill Wiley. (!J4 RR 82).
In addition to the murders and the hit list, Kim described several other acts of
violence perpetrated by Applicant. She recounted hovv he t hreatened another

23

attorney,Jon Burt, over a disagreement a bout rescheduling mediation. (!>4 RR 82-8:-3).
He also pulled a pistol on a couple in a church parking lot at Christmas time. Applicant
was attempting to catch one of their dogs that had gotten loose and the couple tried to
help, but Applicant thought they were t1)1ing to steal the dog. (,S4 RR 85-87). Applicant
once threatened Kim's elderly father during an aq..,rument over cell pho ne usage,
shining a flashlight in his face and threatening to hit h im with it. (54 RR 85, 87). Arni
Applicant had shot a cat in the field behind their house and thrown it in the street.
Applicant hated cats and was upset because their dogs were barking at this one. This
was not the first cat he killed. H e told Kim he had shot another cat in the eye. (!>4 RR

89).
Applicant repeatedly threatened Kim during their marriage saying if h e ever
decided to "take everybody out," he would kill her too, and then himself. And twice,
Applicant fired a gun at Kim. The first time, Kim was walking through the kitchen,
and Applicant was standing at the kitche n bar. On this occasion, she thought Applicant
was trying·to kill her. The second time, Kim was taking the garbage out while Applicant
was in the garage cleaning his guns. When she walked out, a gun '>vent off and struck
one of her car's tires. While Kim thought it possible the second shooting was
accidental, she noted Applicant was an excellent marksman. (!>4 RR 84,-8!J, 87-88).
Kim provided this testimony without the benefit of any d eal with th e State. She
denied being given immunity in exchange for her testimony. She cooperated because
she believed the victims' families deserved it and because she hoped and expected her
assistance would be given consideration in her own pending capital murder cases. (54
RR 92-9:-n. Although Appli<:ant had told her she could claim spousal pri\'ilegc and not
testii)' against him, she hacl chosen to wain~ the pri,·ilege. And she 110 longer lc)\'ed
him. (!>4 RR 9a-94).
Following Applicant's burgla1y and theft arrest in 2011, authorities searc bed his
Sport Trac. Inside, they found an AR-1 5 rifle and a Benelli 12 gauge shotgun mounted
in a roof rack above the front seats, as well as three Glock handguns, a Kel-Tec PLR
handgun, and a Rock River LAR-1 5. In the backseat were backp,1cks containing extra
magazines and ammunition. The search also yield ed a machete and an axe. (49 RR
l8G-19!J; SX 564-5G5, 572-57?,).
In 20 l a, during the consensual search of Applicant's home the week following
the McLelland murders, Ranger Dockery and Chief Evans fr)und more than just the
D esert Eagle pistol Applicant admitted having. Although Applicant insisted he had
24

sold his other firearms, Dockery and Evans found numerous firearm components,
including two gun sites that would tit AR or M4 platf<>rms. They also fou nd an
attachment used to punch out car windows, a box for an EOTech weapon site, a de,·ice
used to detect body heat, and se,·cral cell phones in a storage box. (41) RR f>9-7(i; SX
5a2). The r◄ BI collected these items during its subsequent search of the house. Agents
also recovered a copy of Christopher Dorne r's manifosto, multiple gun magazines,
ammunition, holsters, paperwork related to weapons purchases, and two handguns a .44 magnum and the aforementioned Desert Eagle pistol. (49 RR :-38-48).
In a search of one of Applicant's computers, authorities also found a 2007 e mail
Applicant sent attorney Sandra Hanvanl and late r forwarded to Kim. The email read :
IToKim: I
This 'vvas a pleasant email also - probably several criminal offices lsicl by
me.
Love, ERIC

Sandra,
I' m ready to eat barbed 'vvire and spit nails.
I'll drink gasoline and piss napalm.
Let me loose on these lawyers and tomorrow will be the first day o f
Armal-{eddon.
Put Robert Guest last on the docket and I'll announce that I want 2
hours, and will call the attorneys as witnesses, and request an immediate
transcript to deliver to the State Bar of Texas with My Grievance for
Disbarment. - sort of a bluff, but after this week, m aybe not.
As always, the most committed wins. If anything, I am cmrnnitted. I will
prevail. No amount of law or fac ts will prevent me from doing the right
thing. No judge in this county c:an stop me. They know il, and I know it.

25

:\o amount of posturing 1vvill prevent me from e11surinl-{ these child re n
are protected. I will take him down, hard if necessary.
\tVe'll do the "bad-cop" - "worse cop" routine on him. He ,gels no goodcop.
I'm also ready to effec t comple tely running him out of town. If I want,
no one will even re nt him space for an office. The phone company will
fuck up his number, and the computer service will actually give him a
\'lrUS.

Let me know how far to take it. I ha\'e no pro ble m sending him to the
hospital with a severed vertebrae, removing his childre n 's organs,
throwing his wite into a gang bang; train, or anything else <.Te;lti,·e you ca, 1
come up with. I just really don't like this guy and he should go
somewh e re else, if allowed to live.
How about we don't share this emaiP

ERIC
(49 RR 141-42; SX !.i80).

In 1999, while attending a conference for court coordinators, Applicant
threatened a former girlfriend, J anice Gray, at gunpoint in a bar. Applicant and Cray
met at prior conference in the early l 990's and dated briefl y. She thought he was
intelligent and a nice person. She e nded the relationship because she met someone
vvho lived closer to her. She asked Applicant to stop calling and he seemed tine. H e
called a couple o f times right before the I ~)~)9 co11fere11ce, and she saw him at the
conference i11 the hotel lobby. Applicant asked her out to dinner, but she declined.
She told him she did not think it was a good idea and she had plan s with frie nds. Then
Applicant told Gray he had a gift for her son, and pulled a gun from behind his back.
Applicant's possession of the gun was not unusual; he had shown her guns before and
h ad them in his home. Applicant seemed agitated and ne1Yous. Cray's friends joined
her in the lobby and she left with them. They went o ut to a sports bar, and Applicant
showed up the re. He tapped her 0 11 the shoulder and asked her to step back because
h e wanted to talk with her. They spoke briefl y about Cray's other relationship, and
th en Gray tolcl Applicant she was going to return to he r frie nds. A pplicant responded ,

26

"I have a gun," and drew it. H e said, "If you walk away, I'll use it." Shocked, Cray
stood still and began to cry. T wo of her friends came over and she walked away "'~th
them. H er friends took her to the conference head, and he called the police. An
otlicer was posted out~ide her hotel room that night, and the next day, he told her they
had not found Applicant. Thinking Applicant had lefr. town, the officer escorted Cray
to the conference, but 'vvhen she entered the room, she saw Applicant inside. The
officer sent Gray into the bathroom and instructed her to 1,,vait until they retrie,·ed her.
Later that day, she went to the police department and reported what had happened.
As a result, the police spoke to Judge Ashworth. To avoid Cray pressing charges, the
judge promised Applicant would never bother her again and had h im brought back to
Kauhnan. Cray assented, but the police agreed to hold onto her report in case
A pplicant contacted her again. Years later, Hasse and McLelland called Cray to testil)1
to this incident at Applican t's burglary trial. (.~O RR 7-2!>).
In 20 l 0, while in private practice, an angry and upset Applicant showed up at
the o ffice
attorney Jon Burt threatening to burn down Burt's house, to stab him,
and to kill him, his wife, and his children. Burt was out of the. office, but another
attorney who otliced nearby, Dennis.Jones, heard Applicant's threats and tried to calm
him down. When Burt returned to the office, J ones told him of Applicant's threats.
At the time, Applicant was serving as mediator in a civil case involving one o f Burt's
client-;. Kim Williams had called Burt a couple of days be fore to reschedule a
mediation session because Applicant had been hospitalized. Burt agreed and notified
his client, but a pparently, opposing counsel and his client were never contacted. They
showed up lc.>r the session and became upset when they learned it had been cancelled.
Opposing cou nsel got no answer when he called Applicant and he threatened
sanctions against him. Burt attempted to dissu,:L<le him. H e had had a good
relationship with Applicant before this and did not know why Applicant was mad at
him. Burt did not report the incident to police and no one in his family was e,·er
harmed, but A pplicant's threats concerned him. (!>O RR ~-30-44).

or

In 2008, while serving as a county court at law judge in Kaufman, Erleigh vViley"
took 011 the duty of managing the C PS cases. \i\lhen she took m·er, she re,·iewed the
billing previously submitted by attorneys handling the cases. She pulled any bills
totaling more than $ 1,000 and reviewed the case tile. Applicant served as a guardian
After Mike Mc.:Ldland's murder, the Covernor appointed vViky lo fill the position or Kaufman
County Criminal District Attorney. (5 1!. RR t:-35).

8

27

ad litem on many of the cases she reviewed and for years was paid upwards of
$200,000 annually. Wiley asked Applicant to meet with her privately to discuss ~1is
billing. She did not want to embarrass him and wanted to dear up any
misunderstanding. They met in Wiley's chambers; she explained she had taken m ·er
management of the CPS cases and was scrutinizing the bills. She asked Applicant why
he had billed two hours to review a document that only took her thirty seconds to
review. Applicant claimed the t\vo hours included other work related to the document,
such as calls to the caseworker. But \ i\!iley pointed out Applicant had billed elsewhere
for such calls. She told him to separate his calls in future billing, and then Applicant
leh. Ahenvards, Applicant asked Wiley to remove him from the list of attorneys who
handled CPS cases. She agreed, although she had no ol~jection to him remaining on
the list if he billed appropriately. Six months later, Applicant asked her to put him
back on the list. She agreed and Applicant thanked her. After the Mc Lellands'
murders, Wiley was one of the public otlicials afforded protection. Like others, she
feared for her safety describing the atmosphere in the Kauhnan community as
"unbelievable." (!>4 RR 124-1 :-36).

Defense Punishment Evidence
Many witnesses testified about Applicant's family, childhood, and young
adulthood, including Applicant's mother, aunt, cousins, grade school and high school
classmates, parent-, of his classmates, his scoutmaster, and his math team coach.
Applicant's mother, Jessie Ruth Williams, testified by deposition. At the time
of trial, J essie was undergoing cancer treatment. She talked about her marriage to Jim
Williams, and Applicant's lite from childhood to manhood.Jessie met.Jim at a square
dance when she was twenty-three. After a brief engagement, they married in 196G.
Applicant, their first child, \-vas born the next year.Jessie smoked ctiuring the pregnancy
and had kidney infections. Applicant was born three weeks early and was small. (DX
G8 at 4-8).
Applicant was a good boy who did not give them much trouble. H e attended
preschool at a Baptist church and kindergarten at West Creek Elementary. One year,
they gave Applicant a pony. Applicant was jumping up and down with excitement
when he got the pony, and named her Snow Princess. Their first house burl)ed down
from an electrical fire after they had lived in the house three weeks. The fire started
while they were sleeping. 13y the time Jessie reached Applicant, there was already a
28

soot outline around him. Applicant was only four years old at the time, and s he did
not think he remembered the tire. (DX 68 at 11-l(j).
Applicant's sister, Tera, was born when he was eight years old. Despite some
sibling rivalry, the t:vvo got along. And to her knowle dge, Applicant never hurt Tera.
Applicant had a dog named "Sweetie" that was hit by a car, but they told Applicant
they did not know what had happe ned to her. Once, when Applicant was young and
hts grandmother picked him up for school , he asked to see her drive r's license. When
Applicant was seven or eight years old , he helped his father dispose of a dead skunk;
he held his nose and pushed the body in a wheelbarrow a few feet at a time. Applicant
liked to read a nd did not like to get dirty, but he would play. She once swatted him
with a broom for reading in the chicken coop instead of cleaning it H e and T e ra road
the school bus; Applicant would keep to himself and Tera would socialize. Applicant
had trouble with his ears and needed tubes, but the problem disappeared after he went
to Tennessee one summer with his grandmother. (DX 68 at 16-28, 80).
Applicant did well in school, excelling in math and science. Applicant did not
care for sport,;;; he played the trumpet in the band. H e would do his home'vvork at
school or on the bus, and he had no discipline problems. H e became friends with
Brad Pense d u ring the tifth grade. The two would play Dungeon s and Dragons and
Star Wars. Applicant also became friends with Brad's parents; he remained friends
with Brad through high school. (DX 68 at 28-:-32).
The family attended First Methodist Church in Azle, but Applicant was not
baptized. Applicant became involved in scouting when he was six or seven years old.
At tirst, Applicant was a Cub Scout. 'l 'he de n mother would host m eetings at he r
home. Applicant seemed to enjoy it because he got to be a leade r. H e earned merit
badges on his own, only occasionally asking for help. J essie was more involved while
Applicant was a Cub Scout;Jim became active when Applicant graduated to Boy Scout
and began partic ipating in weekend campouts. Applicant attended a two-week Boy
Scout camp where the boys could swim and canoe. Although it wore him out,
Applicant seemed to eqjoy this. Eventually, Applicant became an Eagle Scout. They
invited friends and family to the ceremony and 2SO-aOO people showed up for it. (DX
G8 at :-t1-a7, 42-46).
Applicant made good grades in .school, and he joined the honor society. He
was in the math and scie nce team in junior high school and remained on the team
through high school. Andy Z apata was the teacher who spo nsored the team. J essie
29

helped raise money for the team, and traveled with the children for competitions.
Applicant won trophies in t hese competitions, and their team was photographed for
the local paper. J essie saved these newspaper clippings because she was proud of
Applicant. (DX G8 at :-rn-40, 4G-47).
Applicant dated Tammy Hobbs (a.k.a. Tamara Maas) and became dose Lo her
parents; they remain dose to this day. The family ran a local resort on Eagle Mountain
Lake where Applicant worked. Applicant was also good friends with the Spears family,
who had a couple of boys. (DX 68 at 40-42).
After high school, Applicant attended Texas Christian l I niversity. H e chose
TCl l because he had a chemistry scholarship and his father, Jim, worked for the
school. While in college, Applicantjoined the ROTC. He graduated with a criminal
justice degree and was commissioned into the Army at the same time as his cousin,
Ian Lyles. (DX 68 at 49-!>0, 74).
When he was twenty-seven years old, Applicant learned he suffered from type
1 diabetes. H e lost weight and looked terrible. Applicant had a hard time accepting
that he had diabetes. J essie was unaware of any incidents where Applicant lost
consciousness because of his diabetes and she was also unaware of any other health
issues he may h,-l\'e had. Applicant did line 011 insulin, but once his illness was
diagnosed, the possibility of a military career ended. This bothered Applicant quite a
bit because his family had a history of military se1Yice. (DX G8 at ,SO-/i2, Gl-62, 84).
Applicant worked for several police departments. Then he moved to Kaufman,
vvhere he worked at the Dobbs' resort and for a judge. Applicant decided to go to law
school while working full-time. The family and many of Applicant's friends, including
the judge he worked for, attended his law school graduation. (DX G8 at 52-!>4).
Before enrolling in law school, Applicant met Kim \tVilliams. J essie did not
think Kim was Applicant's type and she did not like her. She thought Kim was a
"bimbo" and not "down to earth" like Applicant. Kim '"'as proud and attractive, and
the two seemed "okay" as a couple. They married in Las Vegas without family p resent,
which made J essie unhappy. She was not around Kim much, and they only visited
their home on O verlook once. Kim worked at first, hut then stopped. She worked at
Applicant's law practice for a while, but that did not work out. Applicant told them
Kim sullered from arthritis and ~jogren's syndrome. Jessie was not familiar with Kim 's
illnesses, but she found a lot of Kim's medications when they were deaning out

30

Applicant's house. Applicant became the sole source of income, and he took Kim to
her doctor appointments. (DX G8 at S5-.r,9, G2-G:-3, 77, 80-82). Appellant also took care
of Kim's parents. Jessie met Kim's parents and liked them because they were "down
to earth." Both of Kim's parents became ill, and Applicant would take them to the
doctor as well. (DX G8 at 6a-65).
Applicant's law practice focused on working with children, even though he did
not seem to want children of his own. Applicant got Jessie and Jim to volunteer for
CASA, and he would visit them when he came to town to visit the relatives of the
children he worked with. (DX 68 at 59-60).
J essie was proud when Applicant became justice of th~ pe,Ke, although she did
not understand why he wanted the job and did not know much about his campaign.
When he was arrested on the burglary charge, Applicant called her. H e said "that he
didn't believe it," and she was heartbroken. She did not attend the trial because
Applicant did not want her to. He told her nothing about the offonse except to deny
he committed it. What she knew she read in the paper. (DX 68 ,tt 65-GG, G9-70, 76).
Atter the murders, the r◄BI came to J essie's and Jim's home; J essie spoke to
Applicant by phone. H e told her the FBI was trying to pin the murders 011 him alld
to tell them to leave. Police arrested Applicant the same day. J ess.ie had 11ot seen any
of Applicant's media interviev,1s. She wrote to Applicant and visited him in jail while
he awaited trial. He gave her no explanation for why he was a suspect in the murders.
She hoped the jury would not assess the death penalty; she felt Applicant could still
help children and other inmates. She acknowledged the possibility Applicant
committed the murders and how horrible they were, but she questioned whether any
purpose would be served by taking Applicant's life. (DX 68 at 70-7:1, 77-78, 84).
J essie stated she and Jim did all they could to instill good values in Applicant,
and provided him with opportunities. They gave him a normal childhood and taught
him right from wrong. She described Applicant as an intelligent and goal-driven adult.
Also, he liked firearms; he had a BB gun as a child and was allowed access to other
firearms as long as.Jim was present. J essie was u11aware Applicant had pulled a gun on
and threatened Janice Gray, a former girlfriend. (DX 68 75-7G, 84-85).
Throughout her testimony, J essie narrated numerous photographs of
Applicant. They depicted him in infancy, early chilclhoocl, high school, young
adulthood, and marria,l{e. (DX 2-1:1; DX 68 at 9-11, 2G-27, a2, :-~6-:17, 44-45, 48, 57-

31

58). At several points in her testimony, J essie became emotional ,rnd cried . (DX G8 at
10-11, 40, 50, 71, 78).
Lavon Humphries, one of Applicant's paternal aunts, d escribed the childhood
of Applicant's father, Jim. She also recalled Applicant as a child. At the time of her
testimony, H umphries was eighty years old and battling stage four cancer of th e bo ne
and brain. She and her brother, Jim, were raised by their mother afrer their father died
in an accident. There were eleven children, and the famil y struggled tina11cially. J im
quit school to work and take care of their mother. Humphries d escribed their mother
as strong but she was not affectionate, and members of their family did not d isplay
emotion. Applicant was much like Jim, a little standoffish and not emotional.Jim and
J essie wanted better for their children.Jessie showed Applicant affection, and Jim tried
to give Applicant a better life. Applicant was smart and better beha,·ed than his cousins.
She remembers him being a good kid who read a lot and did "boy stuff." Applicant
was expected to succeed, and his family depended on him. H e look care of
papen-vork, and m ·er the years his respo11sibilities increased. (51 RR 127 <~7) .
Two of Applicant's cousins, Ian Lyles and Cara H ervey, testilied.
Ian recalled joining the Army with Applicant. Ian was commissioned active d uty
and went on to become a colonel and faculty advisor in the Army. Applicant was
commissioned military police and went on to have a career in law enforcement. Ian
last saw Applicant in 200~) at a family gathering. H e conceded that they had not been
close in a long time, but he frequently visited Applicant as a child. He met Kim at a
Christmas party years before, and she and Applicant seemed happ y. Ian was unaware
Applicant had been tired from the Springtown Police Department. H e mistakenly
thought Applicant was an A rmy reservist and a bailiff, whe n he was actually a member
of the Texas State Guard and a court coordinator. Ian said the tria l had been
devastating for both Applicant's and the victims' families, and he agreed Applicant is
not a honorable man ifhe killed three people . (,'i l RR l .'>9-7~1) .
Cara was seven years old er than Applicant. During their childhood, she saw
him four or five times a year. Applicant did not want to make mud pies like the other
kids or go barefoot. H e did not try to attract attention, and she never saw him tight or
argue. He was not quick tempered; he was q uiet, sh y, reserved, and happy to play
alone. When Applicant wa:s seven years old, he nearly drowned at the lake and the
lifeguards did not see him; Cara had to p ull him from the water. When Applicant was
ten years old, be and Cara were bucked off a horse; Applicant was scared and shaken

32

by the i11cide11t. She described Applicant as a caring, gentle child \lvho never meant
harm to anyone. As an adult, Applicant remained shy and did not inflame or agitate
others. He worked hard and tried to keep the peace.
Cara thought Applicant's wife, Kim, was vivacious and outgoing at first. But she
got quieter after she got sick , and Applicant became her primary caregin~r. For se,·eral
years, Applicant missed famil y gatherings because he was taking care of Kim and her
parents. Applicant was excited about becoming a lawyer. He worked hard
professionally and personally, and he was devastated when he lost his job as Justice of
the Peace. She last spoke to Applicant a month before trial but had not seen him in
person in seYeral years and mistakenly believed he had been a court bailiff rather than
a court coordinator. She did not know if he committed the murders, but the person
she knew would not have killed anyone. (5:·{ RR 88-10:-~).
Miguel Gentolizo was friends with Applicant during high school. They hung
out with other boys that were into physics and calculus. They were "geeks" 'vvho liked
to play games like Star Trek. Miguel liked Applicant because he and Brad Pense stood
up to bullies at school. Miguel was a minority student, so it was unusual for someone
to stand up for him. At first, he did not believe Applicant committed the murders, but
he admitted he had not been in touch with Applicant in thirty years and cannot speak
to the man he is now. H e would contact Applicant and visit him in prison, however.
(51 RR 174-81 ).
Billy Sheets became friends with Applicant in high school. They were on the
math and science teams together and in the J unior Technical Society. Applicant was
smart and performed well in school; he vvas never a discipline problem. He could be
bl.unt, but he had a sense of humor and was upbeat. Billy was shocked to hear
Applicant was charged ·with murder; he never saw him hurt anyone. Billy and
Applicant tried to start a private investigation business together, and they worked
together as reserve otlicers at the Springiown Police Department. Billy did not know
how long Applicant worked for the \tVhite Settlement Police Department. H e did not
know why Applicant left the Springtown Police Department and last saw him twenty
years ago. (.Sl RR 182-202).
David H oupt also became friends with Applicant in high school. Applicant
welcomed David when he moved to town. They visited each other's homes and
Applicant was best man at David's wedding. Applicant was a good student and a rule
follower who wanted to be successful. He was not a loner; he had a good se nse of

33

humor. D,l\-icl lost touch with Applicant in E)92 when Da,·id mm·ed away; they just
drifred apart. David knew Applicant had a job as a police officer, hut he was uncertain
what department he worked for. He was not surprised to hear Applicant went to lavv
school. He was surprised to hear about Applicant's criminal charges, and he would
maintain a relationship with Applicant while he was incarcerated. (!> I RR 20:1-17) .
Chris Spears became friends with Applicant in high school. They were on the
math and science team together. Chris met Applicant through his brother Jesse.
Applicant was a surrogate brother to him, and their family was a seco11d family to
Applicant. He would drin! Chris to sd100I. He was helpful, friendly, and goodnatured, and Chris never saw him get angry. Chris thought Applicant ·was a '\·ery
respectful" kid and a "great guy." He recalled Applicant liked strategy games. He was
shocked to hear of Applicant's crimes. Although he doubted the media ga\'e the full
story, he thought Applicant was guilty. (52 RR 41-49).
J esse Spears became friends '"~th Applicant in high school. They met in band
and spent: a lot of time playing games together at each other houses. Both he and
Applicant dated Tammy Hobbs (Tamara Maas). J esse and Applicant had less contact
after Jesse's fam ily moved away from Azle, but he invited Applicant to his wedding.
He described Applicant as "fairly friendly"; he was not distant, unemotional, cold, or
indifferent. J esse never saw Applicant angry. Although he believed Applicant
committed the murders, he was shocked when he heard about them. He ne\'er
thought Applicant would end up here. He recalled Applicant attending a few gun and
knife shows but did not think he had an unusual interest in them. He also recalled
Applicant did not follow all traftic hn-vs and belie,·ed it was only illegal if you got caught.
(52 RR I G-27).
James Cummings became friends vvith Applicant when they were children and
they remained friends through high school. James and Applicant were in the Boy
Scout-; and on the math and science team together. Applicant convinced J ames to join
the team so he could win trophies and meet girls. The team was their social outlet.
Their group of friends was smart and less popular; they did not get into trouble. James
recalled going on scouting trips with Applicant; Applicant's dad was a scout leader.
Applicant was smart, helpful, and had a good sense of humor.James heard Applicant
got into law enforcement and went to law school; Applicant's career choices did not
surprise J ames. J ames last spoke to Applicant while they were in college. They slowly
drifted apart, but J ames would consider visiting Applicant in prison. James fi nds it
34

hard to reconcile the person who committed multiple murders with the person he
knew back then. Growing up, they all knew right from wrong. (52 RR 28-40).
Hugh Pense met Applicant in elementary school and they became best friends.
They both part icipated in scouting, band, and the math team. They spent a lot of time
at each other's homes. Applicant was like a brother to him. Their group o f friends was
considered "nerdy." Applicant and Hugh ,,vere in ROTC together, and App licant
commissioned Hugh into the military. H ugh knew Applicant's law enforce rnent career
did not work out. Hugh attempted a career as a police otlicer, too, but abandoned it
after iqjuring his hand. Hugh did not think Applicant committed the murders; he
could not reconcile it with the person he knew. He visited Applicant in jail while he
was awaiting trial, and he would help him while he is in prison. (53 RR 104-:·H ).
Tamara Maas and Applicant met in junior high school. They were both 011 the
math team; she was one of the tew girls 011 the team. Applicant later worked as security
and a lifeguard for her family's resort business - Twin Point\ Beach. She described
Applicant as "friendly, helpfol, caring, protective, gregarious," and kind. Applicant was
good at games that required strategizing and he ,vas good at jujitsu. He would not
tolerate people behaving rude or disrespectful and would threaten to remm'e them
from the resort. Applicant was and still is a great friend to her. They dated some and
went to prom together. She could not remember which of them ended the
relationship, but Applicant never expressed anger or said a mean word about it. He
did not stalk or threaten her. He continued to ,·isit her family, aud she attended his
boot ramp 1-,rraduation. Applicant "vas protective of her and other women and
cautioned her about marrying her ex-husband. She has seen Applicant get n:rbally
aggressive with someone "to detend what was going 011 that vvas unacceptable," but she
never saw Applicant get physically aggressive. She was shocked to hear of his crimes,
and she does not think he is guilty of them. She interpreted Applicant's not guilty plea
as a denial of guilt. She has spoken with Applicant, but they have not discussed the
murders. Still, she believes in Applicant's innocence, and she will remain friends with
him. (52 RR 50-68).
Lori Dunn met Applicant whe n he worked f<x the White Settlement Police
Department. Lori was a thirty-year-old dispatcher in the department. Applicant was
nick named "Opie" because he was baby-faced, quiet, shy, and timid. She and
Applicant worked the midnight shift together and began spending time together
outside of work. Their relationship was f>latonic, not romantic. This was a tough time

35

for Lori. H er children were living "'~th her ex-husband in Oklahoma, a nd she had
come to T exas to start over. She had been in a relationship with an ofticer, but he
cheated on her. Applicant was helpful a nd supportive of her during this time. H e once
drm·e her to ( )klahoma \-vhen her car b roke down; he babysat her kids when they
visited and she had to work; and he helped her remodel her house. Applicant was her
best friend. When Lori moved to New J e rsey, the two remained in touch and Lori
visited T exas. Applicant helped Lori's daughter with a wrongful termination case, and
Lori came to town and had dinne r with Applicant wh ile he was running for j ustice of
the peace. Applicant was excited and happy about his campaign. Lori met Kim and
thought she vvas odd; Kim was co mpletely d epend en t o n Applicant. Lori described
Applicant as qu iet and reserved. She said he can be perceived as standollish, but he is
warm, compassionate, and a good listener. She saw Applicant angry once, when he
got fired for taking sick time to take her to the doctor. But A pplica nt was not viole nt.
H e ""as good man who cared about others and had a lot to offer. Lori recalled when
Applicant's dog d ied as the result of a bad rabies vaccination and how he had alerted
others to prevent more dogs from dying·. Lori confirmed Applicant did not make it
th rough his probationary period with the police d e partment. Lo ri was shocked by
Applicant's arrest, but she still considers him a friend. She ,vrote Applicant while he
was awaiting trial and planned to ,·isit him in prison. (,1:1 RR 217-:15).
Three parents of Applicant's childhood friends also testified - Dorothy Spears,
D arlia H obbs, and Bobby Hobbs.
Dorothy, a retired teacher and mother of J esse and Chris Spears, recalled
Applicant and his friendship with her sons. The boys met in 1982 and were· pa rt of a
grou p of eight or nine boys that regularly played together. They spent many hours
together playing Dungeons ,md Dragons at the Spears' home. They would also watch
movies and go swimming. They were a "good bunch of kids." Most of the boys we re
sm art, but they were not mean to those less intelligent than them . Applicant was well
mannered, always did as he was asked, and never got in trouble. H e was not privileged
and was raised to know right from wrong. Dorothy came to trust him a great deal and
let him drive C hris to school. She last saw Applicant in 1991 , and she would contact
him in prison. (51 RR 217-27).
Darlia a nd Bobby Hobbs recalled Applicant's friendship with their daughter
Tamara and his work for them at their resort. Applicant was on the math team ,vith
Tamara. Darlia described him as a "good kid" and "one of the top ones." Bobh y said

36

he was a hard ""orker and helpful. Applicant started working for them not long after
they met him. He was good at his job, honest, and sincere. He wanted girls and their
families to feel sate there. Applicant dated Tamara; their break-up occurred vvithout
incident and the two remained friends. D arlia and Bobby also maintained contact with
Applicant, and he did some legal work fr>r them. Bobby said Applicant is not a bad
person, but he agreed he had never seen the side of Applicant that committed the
murders. Darlia was proud of Applicant, and she would \·isit him in prison. Both love
Applicant like a son. (5~-3 RR 18.'>-210).
Alvin Graham, Applicant's Scoutmaster, testified about Applicant as a child.
His last contact with Applicant was in 198a; Applicant was in his troop in E)78-79. He
described Applicant as smart, polite, and eager to learn. Applicant was induc:ted into
the Order of the Arrow and became an Eagle Scout. Graham talked of the summer
camp Applicant attended as a boy, describing the activities and the responsibilities the
boys were taug-ht and narrating se\·eral photographs of the boys, including Applicant.
He said Applicant's father loved him. (!>l RR t:-39-!>8; DX8, l!)-25).
Andy Zapata, Applicant's high school teacher and math and science team
coach, recalled Applicant and his involvement with the team. He testified Applicant
was an active member who attended competitions. The team members had to learn
concepts not taught in the regular school curriculum. Applicant worked hard, reached
the highest level of competition, and qualified for the state meet in science. H e was
respectful and dependable. Applicant's parents would come to the meets and support
him. They were invested and proud of him. Zapata had not seen Applicant since his
graduation, but was sad and surprised when he heard about the charges against him.
He never saw Applicant angry or vengeful. He could see Applicant sharing knowledge
with others as an adult. (53 RR Ia l-54; DX 49-5G).
H eather and Andrea J ones, the stepdaughters of Kim's brother Jaime, testified
Applicant and Kim let them live with them for a couple of summers. Jaime was
physically abusi,·e of the girls and their mother. The girls stayed with Applicant and
Kim to get away from their fath er. H eather trusted Applicant to protect her from him.
Neither girl saw much of Applicant during their stay, but he seemed like a nice person
and was never unkind or angry. H e kept to himself at home; he also worked late and
frequently missed dinner. Kim was focused 011 her appearance, spent a lot of money,
and spoiled their dogs. She stayed at home and spent lots of time on the computer.
(53 RR 13-29).

37

Michelle Stephens, the tenant of Applicant's rental house, got behind in her
rent, but he didn't evict her. Applicant allowed her to remain even though she owed
him thousands in rent. Applicant's parents finally evicted her. (52 RR 84-86).
Frank l·]liot, the Dean of Applicant's law school, told the jury the school
1
became accredited in 1994.! From 1995-1 ~)1)9, the school offered both day and night
classes to their stude n ts. At that time, it was a priYate school and cost more than state
1mv sc1wols. The students who attended during that time "really ,wmted it." Both
lrpplkant and McLelland attended the school, although Elliot did not personally
recall either of them. (!.i2 RR 87-99).
Several fellow Kaufman attorneys testified to their interactions with Applicant.
Mark Calabria and his wife, Becky, ran a law firm in Kaulinan. Applicant was a
court coordinator when Calabria first met him. H e thought Applicant \\'orked hard
and did a good job. H e recalled Applicant worked l'ull time while atte nding law school.
He and his wite hired Applicant afrer he became a Ja,.,vyer. Applicant got along well
with others and had no bad character traits. H e was professional and courteous, eventernpered , and affable, and he communicated and worked well with others. Applicant
was a nerd or geek, however, and some perceived him as "uppity." Calabria beard
Applicant had made threats against attorney J ohn Burt, but he did no t ta ke them
seriously. Calabria said Applicant had progressive plans for the JP court. H e described
Applicant's "vile, Kim, as nice enough but kind of aloof. He did not see Kim
encouraging o r being helpful to Applicant after his burglary com·iction, and he
regretted not getting involved in the situation. Calabria's wife tired Applicant from
their practice aher he failed to disclose fees he earned on h is CPS cases in violation of
their professional fee agreement. He knew Hasse offered Applicant a plea bargain on
the burglary case, but Applicant r~jected it. Calabria agreed H asse's murder was
precipitated by his prosecution of Applicant and said Hasse began carrying a pistol
after A pplicant's trial. (!>:i RR 6<>-78).

9

At the time Applicant attended the school, it was known as Texas \Veslcyan U niversity School of
Law. It is now known as Texas A&M School of Law. (52 RR 88).

38

Andrew J ordan, a former assistant district attorney and private practitioner,"'
described Applicant as ",·ery competent," knowledgeable about the law, prompt, and
prepared for hearings. Like Applicant, Jordan used to handle ad litem appointments;
most of those appointments were made by Judge Tygrett. Jordan confirmed that when
Judge Erleigh Wiley began managing the CPS cases, Applicant stopped getting
appointments. J ordan did not think an attorney appointed to guardian ad !item cases
would make $ 100,000 on them. At one time, J ordan ran the county law library. He
described the library as limited but confirmed it had access to the LEXIS online legal
research database. (52 RR 10~)-l 7).
Cathy Adams, a legal assistant and former attorney, met Applicant when he was
working as Judge Ashworth's coordinator. Applicant was good friends with J udge
Ashworth and regularly ate lunch with him. Adams continued to interact with
Applicant afrer he became an attorney. He knew the law and was always prepared,
cordial, punctual, and re~pectful, and he zealously represented his clients. She
recommended Applicant to others and sought his advice herself. Others sought his
advice as well. He was helpful and did not make her feel dumb. She socialized with
Applicant some and considered him a good friend. She opined that Applicant was a
good person, and his crimes were inconsistent with the man she knevv. Adams was
unaware of an affair between Applicant and attorney Tina Hall; she thought they were
just friends. Applicant took care of his wife, and Adams considered him an excellent
husband. Applicant defended his wife against criticism and was proud of her.
Moreover, when Adams was disbarred, Applicant stood by her, he frequently checked
o n her, and he told her to keep her chin up; only two or three other friends reached
out to her. (!>:1 RR 157-62, 182-84).
Adams recalled that Rick Harrison's last campaig-n for Kaulinan County
Criminal District Attorney was hotly contested and personal; sen:ral people ran
against him. According to Adams, when Applicant took otlice as justice of the peace,
he wanted to make improvements, such as upgrading the computers, securing money,
and redirecting certain mail. After Applicant's burglary trial, Adams was ,·isiting the
District Attorney's Otlice and saw a poster of Applicant's mugshot with the caption
"captured." Adams remained friends with Applicant after his conviction, and she and
a few others reached out to him. (5~'3 RR 16B-64, 176-77).

10

At the time or the murders, Jordan was employed as a public defender. (52 RR 110).

39

Adams was shocked by Applicant's arrest in this case. He was alway·s upbeat,
happy, optimistic, helpful, and outgoin~. He rared about others and took an interest
in other people's lives. She still cares about Applicant, and she did not think he was a
psychopath. She would \'isit him in prison and write him. She had experienced "a
breaking point" herself and wanted to kill others. But she never hurt anyone, and she
agreed most people who reach their breaking point stop short of killing people. (.r,;-3
RR 178-82).
Three different judges who 'vvorked with Applicant testified about his work as
an attorney. Retired Judge Ruth Blake recalled Applicant's participation in a custody
battle over a teenaged boy and a dispute over child support. Applicant was appointed
as guardian ad litem. Judge Blake said Applicant's work on the case was fine and was
of value to the child. (S2 RR l 00-08). Judge H oward T ygrett recalled Appl icant was
appointed as a mediator or a guardian ad !item on numerous cases; he received no
complaints about the quality of Applicant's work hut did say others complained about
hovv much Applicant was billing. Now the cases are spread out more evenly among
attorneys. (S2 RR 1:-32-:-36). Former.Judge William Martin testified Applicant practiced
before him as a guardian ad litem in CPS cases. Applicant did not always agree with
CPS about terminating parental rights, and he was not a "rubber stamp." H e would
interview everyone, including the child, caseworker, witnesses, and parents, and he
would review all the diagnostic material.Judge Martin described Applicant as engaged
and empathetic to the children he represented. In his opinion, Applicant deli\'ered
valuable services in his cases. (S:-3 RR 80-87).
Regina Fogarty, who worked for the ,iuslice of the peace, precinct 1, testified
about Applicant's performance. She described him as courteous, diligent, and
someone who took his work seriously. He tried to make technology improvements by
initiating video magistration and adding WI-FI to the JP courtroom. (SJ RR GI -GS).
Rhonda Hughey, Kauhnan County's District Clerk, told the jury she had known
Applicant since he was Judge Ashworth's court coordinator. He performed his
coordinator duties well. She recalled Applicant atte nding law school and going on to
become an attorney who was appointed as a guardian ad !item in many CPS cases.
She described Applicant as friendly, approachable, and helpful, and said he got along
with everyone. Applicant would answer questions and go out of his. way to help o thers.
Initially, Hughey could not believe Applicant had committed the murders because it

40

was so out of character. She thought he was normal and intelligent. Her opinion about
his guilt later changed. (52 RR l 24<-31).
Individ uals who benefited from Applicant's legal assistance also testified.
Applicant helped Cheryl.Joseph's stepdaughter adopt a boy whose parents were drug
addicts. Applicant was appointed as the hoy's guardian ad !item, met with the boy and
attended every court session. H e was kind, never lost his temper, and did a good job.
(5:-3 RR a0-40). Applicant helped Ronald Fudge through a contested divorce and a
two-year custody battle over his young sor1. Applicant continued representing him
even when he could not pay him. Fudge became friends with Applicant during the
process. At first, Fudge did not believe Applicant 'rvas guilty of the murders. His
opinion has changed, but he would still visit Applicant in prison. (.r,2 RR 74-81).
Applicant was appointed as Casie Acevedo's guardian ad !item during her parenL•i'
divorce. She wanted to live with her father; Applicant listened to her and successfully
advocated for this arrangement on her behalf. Casie described Applicant as kind and
said she felt safe and comfortable with him. (52 RR G9-7:-3). Applicant Wits also
appointed as guardian ad !item for Micah Tomasella during his parents' divorce-~
Applicant spoke to Micah about what. he wanted, advocated on his behalf in court,
and seemed genuinely concerned about him during the process. (!>:-3 RR 2 l 0-14,).
Rick Harrison, an attorney and f<.>rmcr Kaulinan County Criminal District
Attorney, recalled Applicant's support for him during his 2006 election campaign.
Harrison ran against Mike McLelland and beat him in a run-off election. Applicant
wrote a letter to the paper on Harrison's behalf. In the letter, Applicaut said
McLelland should explain wh y he no longer worked for CPS and claimed he vvas not
a lite-long Republican. Harrison thought he was more qualified than Mel ,elland
because he had more criminal experience. In 2009, Harrison "got a DWI," and in the
next election, Mcl,elland ran against him again and beat h im in the -primary.
Md,elland did not like Harrison, and this election was contentious. Harrison hired
Hasse when he was District Attorney, and H asse cont:inued to work for McLella11d.
(!rn RR 46-.5a, 55; DX a6).
H arrison supported Applicant in his campaign for justice of the peace and was
the first person to give him a campaign donation. H e gave his support because
Applicant asked for it and he was running against a D emocrat. H arrison knew
Applicant to be hardworking and certified in family law, but he did not deal with him
once he became a justice of the peace. (5:-3 RR 5~1-54).

41

Jenny Parks, a Kaufman attorney, tirst mel Applicant "vhen he worked as J udge
Ashworth's court coordinator. She thought he had a good work ethic, never heard any
complaint<; about him and had no issues with him herself. After Applicant became a
family law attorney, she once recommended him to someone. She sought his advice
and found him helpful. Applicant \lvas close friends with Judge Ashworth and would
go to lunch da ily with him and Gary ~ierven. Applicant appeared to be a happily
married, loving husband, and he took care of Kim when she became ill. Parks denied
she and Applicant were dose, but they were friends and she attended his burglary trial.
In her opinion, the prosecution was ridiculous and Applicant was wrongly convicted.
She thought the evidence did not support a conviction. Applicant h ad done only good
things for the county, and to her "and a lot of other people in the cou nty it didn't make
any sense." P,u-ks was also friends with Hasse. She described him as a ''\·ery aggressive"
prosecutor who would bra.t{ about destroying the lives of the people he prosecuted.
(50 RR 69-75, 82-8:·n.
Parks acknowledged that everyone was a little afraid after the murders, but she
did not suspect Applicant o f them and was surprised when he was arrested. She was
no longer surprised after seeing on television some of the evidence against him. She
had never seen Applicant angry. He was qu iet, rese1Yed, pretty shy, and a little
antisocial. She did not think Kautinan residents would resent her !'or her testimony,
but said others were afraid to do the same . She contacted Applicant after his burglary
conviction to see how he was doing, but she wished she had done more for him. (50
RR 7<,-82).
Sergeant Matthew Woodall, an investigator for the Kautinan County Sheritrs
Otlice, said Applicant was arrested for the burglary at the auxiliary building where his
court was located. His vehicle, parked in the building's lot, was searched and a
computer monitor was recovered. Sergeant Woodall inventoried the lireanns found
in Applicant's vehicle and all were later returned to Applicant. The IT department,
run by George York, was housed in the same building as the justice of the peace court.
The IT department and the court were connected by a hallway. (!, l RR 228-:1:1, 2aG:18).
Rockwall Sheriffs Captain Bob Guzik, the jail administrator, described the jail
facilities and fortifications, the security measures employed there, the disciplinary and
gTievance processes, and the education and work programs. When Applicant first
arrived at the Rockwall County jail, he was classified as "medium" security and was
42

ranked a "7" based on the seriousness of his oflense. \tVhen reassessed 90 days later,
Applicant remained classified as "medium" security, hut his rank was lowered to "6."
Applicant was under 24/7 observation and, given his law enforcement background,
segregated from other inmates, minimizing any opportunities for misconduct.
Applicant filed an inmate worker application claiming to be Jesus Christ, bur no
incident report was filed; inmates regularly "messed with" jailers like this. i\pplica11L
had several medical issues. H e periodically suffered from breathing problems and had
to be taken to the hospital for it once. Applicant was taken to the inlirmary twice for
insulin shots, and his blood sugar was monitored daily. According to Guzik, the
security employed in Applicant's case was unprecedented. H e acknowledged that no
security is perfect, inmates are watching all of the time, and Applicant had been outside
of the Rockwall County jail without his knowledge. (50 RR l 2~1-5G).
Assistam Chief Carla Stone, the Kauhnan County jail administrator, described
their handling of Applicant up until his transfer to the Rockwall County jail. Applicant
was familiar with the jail and it-; staff because of his prior sc1,;ice as JP. This was
considered when managing his security. Because of his medical issues and the nature
of his crime, Applicant was put on suicide watch and housed in administrative
separation. Applicant was found unresponsive in his cell a couple of times. The first
time, he fell and struck his nose. Applicant was diabetic, and both of these medical
incidents were related to a drop in his blood sugar. Both times, Applicant ,vas taken
to the hospital without incident. Heightened security was employed, however, because
of another inmate's escape years before during transport to the hospital. A search of
Applicant's cell yielded a variety of food items (candy, cookies, chips) that had to be
confiscated. This discovery led jail staff to believe Applicant was manipulating his
blood sugar and his commissary orders were restricted. One night, Applicant's cell
was accidentally left unlocked, but he made no attempt to escape. On the other hand,
Applicant kept a list of every interaction with the officers and the comings and goings
in that area of the jail. He also changed his sleeping position so the officers had to
enter his cell in order to check on him. One otlicer was disciplined for documenting
15-minute checks on Appli<·ant that he ne,·er perl<.mned. (!,() RR l.'>7-~)4).
Two correctional experts, James Aiken and Frank Aubuchon, testitied about
the prison system and its ability to manage inmates, including Applicant.
Aiken described the prison classification system generally,. noting inmates are
evaluated every six months to a year and systems are continuously modilied and re-

43

examined. The classification system is designed to control and predict inmate
behavior, and it works. Inmates become more compliant v,,ith age and prior
institutional behavior is a reliable predictor of future institutional beha,·ior. Afrer
reviewing Applicant's records and meeting with him personally, Aiken concluded
Applicant could be "adequately kept and secured in a correctional environment for
the remainder of his lite without causing undue harm to staff, inmates or the general
public." H e believed Applicant's diabetes, background in law enforcement, and age
would make him vulnerable in prison. Aiken acknowledged the most important factor
in evaluating an inmate's security status is his crime. H e a1-,rreed prisons are dangerous
and no matter how hard the staff works there will still be murders, assaults, and
escapes. Certain inmates thought to be innocuous had committed heinous crimes in
prison. Applicant was very intelligent, had special law enforcement knowledge, and
had successfully manipulated others and planned his crimes. (51 RH 25-Gl).
Aubuchon, a retired T exas Department or Criminal Justice classifications
administrator who now works as a prison expert, described TD(] and its classification
system in detail. TD(] has several levels of facilities and several custody levels within
the general prison population. The system was last revised in 200:-3. Each inmate's
custody level is assessed at the diagnostic unit first and again at the designated unit.
Policies dictate an inmate's initial custody level, but an inmate can he reclassified to a
m ore restrictive level based on his behavior. An inmate serving a sentence of lite
without parole (LWOP) can never be classified below a G:1 (listody le,·el. Aubuchon
described the liberties and restrictions of each cu¼tody- level. ~ ,t!._Ot~ l LWOP
inmates can never earn good conduct time-credit, cannot ml\~ cor~ Kt vi sits, and have
limited work opportunities. TDC.J has a special prosecution unit to prosecute prison
crime and also has a Security Threat Group Management Office (STCMO) that tracks
gang members and their activities. Applicant would be c:lassitied as a c;:-3 Ie,·el inmate
with the possibility of some considerations for safekeeping type housing. Applicant
would he housed with other prisoners, some with no violent criminal history, and a
single guard can be responsible for watc:hing as many as 48 inmates at once. Certain
escapes and murders had occurred in TDC,J, and cellphones posed a serious security
problem. He said even inmates housed on death row committed violence against
guards, and guards are paid poorly and receive minimal training. (51 RR (j:-3-124).

44

Procedural History
A jury convicted Applicant of capital murder and, in accordance with the jury's
answers to the special issues, the trial court sentenced him to death 011 December 17,
2014. The Court of Criminal Appeals affirmed his conviction and sentence 011
November l, 2017. Wil/i;uns i:. State, No. AP-77,0.'>a, 2017 \tVL 494(i8G.1J (T ex. Crim.
App. 1ov. l, 2017) (not designated for publication).
On December 17, 2014, the trial court appointed the Otlice of' Capital and
Forensic Writ-, to represent Applicant in his state habeas corpus p roceeding. After
receiving extensions totaling an additional fJ IO days, Applicant filed his original
application on March 8, 2018. H e raises eleven claims for relief, challenging the trial
court's denial of his motion to disqualify District Attorney Pro Tern Bill Wirskye from
participating in the writ proceedings, and both his conviction and death sentence. The
trial court conducted a hearing on Aug-ust 12-16, 2019 at which live testimony ·was
presented on Applicant's claims 1-7. The court also admitted numerous exhibit-, from
both parties during and after the hearing.

Claims Raised
Applicant raised the following claims in his writ application:
•

The State procured Applicant's death sentence through prosecutorial
misconduct.

•

Applicant's trial counsel were ineffecti,·e in both the J.,'llilt and punishment phases
of trial.

•

Applicant was constructively denied his constitutional right to counsel under

Cionic.
•

Trial counsel's inability to review the entirety of the State's unprecedented a.mount
of discovery ,~olated Applicant's rights to due process and a fair trial.

•

The trial court's comment'i, demeanor, and inconsistent ruling demonstrated a
lack of judicial impartiality as i,,ruaranteed by the Due Process Clause.

•

Applicant's appellate counsel rendered inellective assistance on direct appeal.
45

•

Applicant's right to a fair trial was violated when his ju1y was exposed to external
influence that tainted the verdict.

•

Applicant's death sente nce is unconstitutional because it was assigned based
Texas's arbitrary system of administering the death penalty.

•

Applicant's constitutional rights vvere violated when the trial court was prohibited
from instructing the jury that a vote by one juror would result in a life sentence.

•

The future dangerousness special issue is unconstitutionally vai.,rue, renderin~ the
jury's verdict arbitra1y and capricio us.

•

The penalty-phase ju1y instruction restricted the e,idence that the jury could
determiue was mitigating.

011

Motion to Disqualify District Attorney Pro Tern Bill Wirskye
(1)
On August 21, 2018, Applicant tiled a motion entitled "Motion to Disqualify
District Attorney Pro T em Bill \i\/irskye." In the motion, Applicant contends Wirskye
is a necessary and material witness to alleged arts of proserutorial misconduct and,
therefore, his continued service as District Attorney Pro 'l 'em would ,,iolate Applicant's
constitutional rights to due process, a disinterested prosecutor, and a fair trial. The State
filed a response to Applicant's motion on September l 0, 20 l 8. This court denied the
motion on March 29, 2019.

(2)

()n Au1-,'l..lst 2, 2019, ten days before the scheduled evidenti,u-y hearing, Applicant
tiled a "Renewed '.\!lotion to Disquality District Attorney Pro Tern Bill Wirskye." The
court heard argument from the parties on Au>,'l..lst !>, 2019 and ag,1in denied the motion.
(4 WRR 9-19}.
(3)
Applicant's constitutional rights were not violated by \tVirskye's representation
of the State in these proceedings.

Backgronnd Facts
(4)
Two days after Kaufinan County Criminal District Attorney Michael McLellarnl
and his wife, Cynthia, were murdered in their homeJ the Kaufman County Criminal

46

District Attorney's Otlice ,·olu11tarily recused itself from the investigation and
prosecution of the murders and moved the court to appoint a11 attorney pro te rn. C2nd
Supp. CR 12-1:-3).

(5)
The court granted the rnotion and appointed Bill \tVirskye and Toby Shook "to
investigate and present to the grand jury any criminal offenses arising out of the deaths
of Michael and Cynthia McLelland and to prosecute any case or cases which may arise
from the grnrnl jury investiJ.,ration, said appointments to continue through any trials and
appeals of those otlenses ,md until they are relieYed o f their appointments in this matter
1
by this Court." (2'" Supp. CR ~)). Wirskye and Shook both accepted the appointment
and took the oath of otlice on April 1, 20 rn. (2nd Supp. CR l 0-1 0.
(6)
As the Criminal District Attorneys Pro T ern of Kaufm,m County in this case,
Wirskye and Shook led the investigation of the killings and presented the ir lindings to
the grand jury. Applicant was indicted for capital murder on June '27, 201 :-3. (l CR :-t?).
In December 20 14, Wirsk.ye, Shook, and otJ1er assistant district attorneys pro tern,
prosecuted Applicant on this charge, which resulted in a conviction for capital murder
and death sente nce. (I CR 17:-3; 10 CR :1~J:1.s, 4007; I l CR 4:-3 12-1:-3, 4:-3.S l ).

(7)
In accordance with the terms of h is appointment, \tVirskye, and other assistant
district attorneys pro tem, represent the State in these writ proceedings.

(8)
During the week of the live evidentiary hearing, Wirskye was present for
portions, but not all, of the hearing. The m.-\jority of the ·writ hearing: was handled by pro
tern attorneys Lisa Smith and Libby Lange. (8 WRR 98
(9)

Wirskye testified as a witness at th e writ hearing on August l.S, 20 I 9.

Applicable Law
Disqualification is a severe remedy. In re !Vitia de C V., 92 S.W.:-3d 4 U) , 422
(Tex. 2002) (citing .SiJeaJ:)· 1'. Fourd1 Cowt o!AppeaA, 797 S.W.2d 654 (Tex. 1990)). In
considering a motion to disqualify, this Court must strictly adhere to an exacting standard
to discourage its use as a dilatory trial tactic. Id
(10)

Morem·er, the court's authority to disqualify a district attorney or his staff is
limited. The ofilice of a dist1·ict attorney is constitutionally created and protected ; thus.
the district attorney's authority "cannot be abridged or taken away." / .,;111den- I'. State, 2!.i(>
(11)

47

S.W.;1d 295, ao:1-04 (rex. Crim. App. 2008) (citing St;1te ex rel. J1,1dwn
S.W.2d 1, 4 (Tex. Crim. App. 1990)); Tex. Const. art. V, ~ 21.

1·.

l~r/w;ur/..,·, 79:1

(12)
This Court may not disqualify Wirskye or his staff from these writ proceedings
absent a conflict of interest that rises to the level of a due process violation. J.,;mden, 2!>()
S. W.:1d at :104 (citing State ex rel. H1JJ 1·. P1itle, 887 S.W.2d 921,927 (Tex. Crim. App.
1994).

(13)

The Court may look to the Texas Disciplina1y Rules of Protessional Conduct
when considering disqualification issues, but the rules are merely guidelines, not the
standard for disqualification. Conxalex F. State, 117 S.W .:1d 8a 1, 8a7-:-38 (Tex. Crim.
App. 200:1); Nit/a, 92 S. W.ad at 422; see aim Tex. Disciplinary Rules Prol'l Conduct R.
:1.08 cmt'i. ~) & I 0, repni1ted 1i1 Tex. Gm·'t Code Ann., tit. 2, subtit. G, app. A (providing
Rule :1.08 is not well suited to use as a standard for disqualification, but may furnish some
guidance in procedural disqualilication disputes).
As the party seeking disqualification, Applicant bears the burden of establishing
a due process violation. Conxalex, 117 S.W.:·frl at 8:-37; !Vitia, 92 S.W.:-3d at 422. This
means Applicant must show he will suffer actual prejudice from the alleged "advocatewitness" conflict. Landers, 25G S.W3d at a04-05; Gom:alex, 117 S.W.:1d at 8:17.
Applicant does not suffer actual prejudice unless he is deprived of a fair trial or his
substantial rights are aflectecl. House t '. State, 947 S.vV.2d 251, 2.S:2 (Tex. Crim. App.
E)97) (citing Brown v. State, 921 S.W.2d 227 (Tex. Crim. App. 1996)).
(14)

Applicant Failed to Show Sufficient Grounds for Disqualification
Applicant contends Wirskye is prohibited from acting as both a witness and
prosecutor in this case under Rule :-3.08 of the Texas Disciplinary Rules of Professional
Conduct. Rule :-t08 generally prohibit'i a lawyer from being an a<h-ocate before a tribunal
ifthe lawyer knows or helie,·es that the lawyer is or may be a witness necessary to establish
an essential fact on behalf or the lawyer's client. Tex. Discipli11a1y R. Prof) Conduct
B.08(a).
(15)

(16)
Applicant has not shown disqualification is warranted under Rule :-3.08 of the
Texas Disciplina1y Rules of Professional Conduct.
A district attorney may not be disqualified for violations of the disciplinary rules
of protessional conduct alone. See L,wdeH, 25G S.W.:-3d at :-3 10.
(17)

48

(18)

In ;my e\'ent, Rule :~.08 specitically provides a lawyer 1nay ser\'e as both an

advocate and witness so long as he gives notice to opposing counsel ,md disqualifying
him would be a substantial hardship to the party. See Tex. Disciplinary Rules Prof!
Conduct R. :-3.08(a)(5).
(19)
The court finds the State gave proper notice to Applicant that Wirskye would
testify in the i11stant proceeding. (4 WRR ~)).

(20)
The court finds disqualitying Wirskye would be a substantial hardship to the
State given his knowledge of the case and particular expertise regarding the issues raised
in the writ application. 11 (4 WRR 11-1:-3).
Additionally, the court notes the principal concern addressed by Ru ic :-L08 is the
possible confusion the dual role of advocate-,,vitness could create for the fact linder.
Tex. Disciplinary Rules Pro t'l Conduct R. :1.08 cmt. 4; Ayn:s V. Canales, 790 S.\i\1.~d
5.'>4, 557 n. 4 (Tex. 19~)0). "A witness is required to testify on the basis of personal
knowledge, while an advocate is expected to explain and comment o n evidence given by
others. It may not be clear whether a statement by an advocate-vvitness should be take n
as proof or as an analysis of the proof." Tex. Disciplinary R. Prof. Conduct :-3.08 cmt. 4.
(21)

.~ee

(22)
The court finds this concern is not implicated in this case. The court, as the fact
tinder in this proceeding, has no ditlicult:y determining whether Wirskye is speaking in
his capacity as an advocate o r a witness. The court also does 11ot attribute greater
credibility to Wirskye's testimony merely because he hold s the oflice of District Attorney
Pro Tern in this case.
(23)
Applicant also has not shown a conflict of interest rising to the le\'el o f a due
process violation that would warr,mt Wirskye's disqualification.
The court finds Applicant's allegations of misconduct against v\/irskye are not
sutficient to establish a disqualifying conflict of interest. Spe;u:,, 7~)7 S.\ V.2d al (>!,(j; Stale
ex rel Hilbig 1:. McDonald, 877 S.vV.2cl 4G9, 472 (T ex. App. - San Antonio 1994,
original proceeding) (holding former complainant's accusation of prosecutorial
{24)

11

For this reason, W irskye was also exccJJled from exclusion under evidence rule (j U. Tex. R. EvieI.
6 l 4(c) (providing the rule docs not authorize excluding "a person ""hose pn:scnce a party shows to
be essential to presenting the party's claim or dcl'cnsc").

49

misconduct against two trial prosecutors insutlicient to .iustify disqualification of district
attorney's otlice from proceed ing on Applicant's motion for new trial).

(25)
Appliecmt has been afforded a fair proceeding. Applicant fails to show what, if
any, substantial rights have been atlected by Wirskye's dual role as advocate-v,~tness.
Thus, Applic.mt has not shown actual prejudice.
(26)
Accordingly, the Court concludes that Wirskye's disq ualification is prohibited
by law. Landen, 256 S.W3d at :-304 (prm·iding that a court may not disqualil}' a district
attorney absent a conflict of interest that rises to the le,-el of a due process ,·iolation).

Claim 1: Prosecutorial Misconduct
(27)
Applicant assert'i the State procured his death sentence through prosecutorial
misconduct. (App. at l 2-7a}.

Deal with Kim Williams
(28)
In Claim lA, Applicant asserts th e State violated his due process rights under
Brady v. M,uyland by failing to disclose material impeachment and mitigating evidence
pertaining to Kim W illiams. (App. at 12-3 1).
(29)
Due process is violated when the State suppresses material evidence that is
favorable to the defense. Brady i:. M;uy/and, :-37;-3 l i.S. 8:-3, 87 (196:-n; L\· /Jaltt: Lalonde,
570 S.\V.:-3d 71G, 724 (Tex. Crim. App. 20 1~}).
/\pplicable Facts

(30)
On June 27, 201.:3, the State indicted both Applicant and his wile Kim Willi,uns
on tJ1e same three counts ofca.pital murder. (l CR :-32; AX 15:-3-155).
(31)
Kim Williams \WS appointed two attorneys: Paul J ohnson as first chair and
Lalon (Clipper) Peale as second chair. (AX 15:-3-1 55; 5 \i\/RR 95-96; 7 WRR 5-G).
(32)
Prior to and during the trial, Applicant's counsel requested the State reveal ,my
deals it had with Kim Williams, and each time, the State said it did not ha,·e a deal with
he r. ( l CR 2a2-:14; 9 RR 15-17; 54 RR 141-42; AX :-30).

SD

{33)

Kim Williams testified as a State's rebuttal witness in the punishment phase of
Applicant's trial. She did not have a deal with the State, the State never gave her
immunity, and prosecutor Bill vVirskye only e,·er asked her to tell the truth. (54 RR 8-9,
~)2-9~~). She vv;1s cooperating because the families had suftered a terrible loss, and they
"deserve this, and I want to give it to 'em." The following dialogue also occurred:

Q. IStatel: Obviously you have some expectation of leniency alier this, this
process is over with Eric, is that correct?
A. !Kimi: Yes. I'm hop ing l<>r consideration.

Q. We have never ta.lk.ed about any specifics, have wei>
A. No, we have not.

Q. I refused to t1Ik. with you and your lawyers about that, is that correct?
A. Yes, that's correct.

(54 RR ~f~).
(34)

On cross-examination by defense counsel, the following dialogue occurred:

Q . IDetensel: You said that you had had some expectation of' leniency for your
participation in trial today?
A. !Kimi: Yes.

Q. And by that do you mean that you're hoping that they will spare you death
by lethal infection?
A. I'm hoping there's some kind of consideration, yes.

Q. Is that your expectationi)
A. Sure.

(54 RR 101).

51

(35)

Later, dete nse counsel asked Kim: "!Flor your testimony today, you have eH:ry

expectation that the people of Kautinan County will afford you something less than lethal
iqjectionil" And Kim testified: "I have hope that I will be gi,·en consideralion." (,11i RR

I 09).
(36)
In dosing argument, defense counsel ar6'11ed: "You heard some evide nce from
Kim \ Villiams today. I want you to think about the credibility on that. She's hopinl-{ not
to get the death penalty. The law regards ,m accomplice as a corrupt source, and you
should too." (54 RR 167).
After Applicant w,ts convicted, the State otlered Kim Williams a forty-ye;u·
prison sentence if she plead ed 1-,'llilty to m urde r, which she accepted. (AX L'J:1; f> \tVRR
165; 8 \t\/RR 88).
(37)

(38)
In his writ application, Applicant alleges the State promised Kim \iVilliams a deal
in exchange for he r testimony. (App. at 17). Applicant says Kim "clearly understood she
· was cooperating with and testifying for the State" in exchange for "the State not only
declining to seek the death penalty, but also recommend ing a sentence less than life
without parole." (App. at 2:1).
(39)
At the writ hearing, Applicant's counsel similarly alleged Kim knew she was sale
from the death pe nalty and the testimony made it "clear that capital murder was off the
table" for Kim and "lh]er lite was going to be spared." (9 \t\/RR 6-7, rn). Counsel also
alleged the State made "secret assur;mces" to Kim that if she cooperated her life would
be spared and the State had an "understanding" with Kim it did not disclose. (5 WRR
11 , 14).
(4 0)

l 1nder Ciglio

1·.

f !11ited States, the State must d isclose any a1-,Teeme11t with a
1

witness that may aflect the witness's credibility. 4,05 l l.S. 150, l.'>4-55 (1~}72). No formal
agreement is required; rather, court-; have focused on whethe r-based 011 the State's
assurances to the witness-the witness's credibility could be compromised. Id.
(41)
Kim vVilliams testified at Applicant's trial that she did not have a deal with the
State prior to testifying. (54 RR l Ol).

(42)

Applicant did not call Kim Williams to testily a t the writ hearing.

52

(43)
At the hearing, lead prosecutor Bill \!Virskye told the court he has been a
licensed attorney in Texas since 199:-3. He spent eight years as a defense attorney, and
the remaining eighteen years as a prosecutor. (8 WRR 5~)).
(44)

Wirskye stated he did not oiler Kim a deal before she testified. (8 \ t\!RR 82).

(45)
Wirskye testified every time he ta lked to Kim 's lawyers or was around Kim, awl
at every debrie Che would say:
I know we do not have a deal. Do you understand that. I know you i,,vant
a deal. I know you're not doing this out of the goodness of your heart. I
know you want something at the end of this process. But h ere's how it's
gonna he. If you come in and talk to us, if you come in and cooperate, if
you get in that car and go show us phys ical evidence, you come in at your
OH'n peril, and we better not ever catch you lying. And as far as any talk
about d eals or ·w hat's gonna happe n to you or the d eat h penalty or
anything else, ,...,e wait until we get past that first trial. And that was a, ery
disciplined position t hat we insisted on in our dealings with her counsel
and with her.

(8 WRR 86-87).
(46)
deal.

Applicant's counsel chose not to directly question Wirskye about his denia! of a

(47)
At the ·writ hearing, Kim Williams's lead attorney Paul.Johnson testified he has
been a licensed attorney for thirty-five years and has been a criminal delense attorlley for
thirty of those years. He has handled hundreds of capital cases and about twelve or fifteen
of those have gone to trial for the death penalty. (8 WRR 5-G, 14-15).
{48)
Johnson stated there was " la]bsolutely not" a deal between Kim and the State
before trial. (8 WRR 11).
(49)
At the v.1rit hearing, Kim Williams's second-chair attorney, Lalon Peale said he
has been a practicing criminal defense attorney for twenty-six or twerny-se,·en years. H e
has worked on five death penalty cases that have gone to trial. \i\fhile he could not say
how many death penalty cases he had worked up that were resolved before trial, he was

53

cu1Tently working on five to ten cases that they were "working out" (5 vVRR ~)5, 105-

07).
(50)"
Peale testified Kim did not have a deal with the State before she testified. (!,
WRR lGm.
(51)
When asked if he recalled Wirskye telling Kim that she had
testified:

110

deal, Peale

I think that he might have started every meeting out that way. I mean
there was some, and when I say spiel, I don't, I'm not trying to make light
of it, but I'm saying there was something that, prior, to my recollection,
prior to e,·ery meeting he would go back on~r and say you recall, you
know, we have 110 deal. We're asking for your cooperation. Those things.
(5 WRR 156-57).

(52)
At the ""rit hearing, Applic;mt's counsel asserted in opening argument "Kim's
own lawyer admitted to a colleague" she had a deal. (5 WRR I]). During the hearing,
however, Applic,mt's counsel was unsuccessful in her efforts to prove this through
Applicant's direct appeal attorney, Brady vVyatt, who was good friends with Kim
Williams's attorney Paul J ohnson. (!> WRR 18,0). \rVhen Applicant's counsel asked
Wyatt if Johnson said Kim had a deal in exchange for her testimony, \Nyatt stated:
"Never said he had a deal. I think. there might have been - no, I don't think he ever told
me there was an actual deal on the table." (5 WRR 17:1, l 8!>-86).
(53)
Applicant fails to prove the State had a deal ,,,~th Kim Williams to testity against
him, and the Court tinds there was no deal.
(54)
Because the State did not ha,·e a deal with Kim, no e\'idence was suppressed,
and the State did not violate 13radJ L ;\1ary/and. ,See, e.1;:, Todd i: Schomig; ~8:-{ F.:~d
842, 849 (7th Cir. 2002) ("Without an agreement, 110 evidence ,-vas suppressed, and the
state's conduct, not disclosing something it did not ha,·e, c;umot be considered a Brady
violation.").
1

(55)
As to Applicant's assertion that Kim Williams.'s hope for consideration should
have been disclosed, the court disagrees.

54

(56)

In Gi1tiio, the ( lnited States Suprerne Court found a due process violation where

a key gm·ernment witness testified no one promised he would not be prosecuted, but a
prosecutor later stated he had promised not to prosecute if the witness cooperated. 405
l l.S. at 154-55. The Court held, where a witness's credibility was important, "evidence
of any understanding or agreement as to a future prosecution would be relevant to his
credibility and theju1y was entitled to know of it." Id. at 150-55.'i

(57)
In Du41:tan 1: State, 778 S.W.2d 4G5, 4G8 (Tex. Crim. App. 1~)89), lhe Courl
reiterated it did not "distinguish express agTeements between the State and a testifying
accomplice from those agreement-; which ,u-e merely implied, suggested, insinuated or
inferred" and whether an agTeement exists depends on whether the e\·idence "tends to
confirm rather than refute the existence of some understanding for leniency." Id.
(quoting Burk.baiter v. State, 49:-3 S.W.2d 214, 2l(j-l 7 (Tex. Crim. App. 1~)7~-m. The
Court held: "It makes no difforence whether the understanding is consummated by a
wink, a nod and a handshake, or by a signed and notarized formal document
ceremoniously impressed with a wa,x seal. A deal is a deal." Id.
(58)
The Dugg;u1 Court found a due process violation where two accomplices
testified no leniency agreement existed, but the prosecutor later admitted telling the
accomplices he would consider leniency in exch,mge for their testimony. The Court held
that "some sort of understanding between the State and the accomplices did indeed
,
" Tj
exist.
1(.
In Ta.s:s·Ji1 v. C.';ui1, 517 F.:-3d 770 (5th Cir. 2008), Robert Tassin and h is wifo
Georgina 1,,vere charged with an armed rnbbe1y in which Robe1t killed a ma11. Georgi11a
testified ag-Jinst Robert, and told the jury she faced the possibility of' a li,·e to 11i11ety-11i11eyear sentence and 110 promises had been made relating to her testimony. Id. al 77:-3.
Afrer trial, Georgina's attorney tendered an affidavit stating the presiding judge had told
him in the presence of a prosecutor that, if Georgina testified, he would sente nce her to
fifreen years and, if her testimony was consistent with her police statements, he might
drop her sentence to ten years. Id. at 774, 779. The attorney communicated the "plea
oH-er" to Georgina. Id. at 775. In a post-conviction proceeding, the attorney testified
similarly to his affidavit, and Georgina testified she believed she would receive a ten-year
(59)

12

The Court of CriminaJ Appeals has recrnlly stated: "Induccmcnls to 1cs1.1ily must be d isclosed. "
1o. WR-85 ,8:-rl-0l, 2019 \1'/ L ~U-:·l!H.S:-3, al.* 1 (Tex. Crim. App.J une 12, 2019)
(nol designated for publication) {citing Ciglio).

Lxp;utc McCrcg01;

55

sentence. The Court found a Fourteenth Amendment violation, holding: "Tassin
prese11ted evidence of an 'understanding or agreement' between !his witel and the State,
evidence that showed more than a mere ' hope or expectation' of a lenient senlencel.l''
Id. at 779 (citations omitted).
Additio nal Fifth Circuit case law supports this conclusion. S ee HJ// 1·• Johnson,
210 F.:~d 481, 486 (5th Cir. 2000) (noting Hill did not point to a Supreme Court decision
holding the sul~jective belie1s of witnesses regcmling the possibility of future favorable
treatment are suflicient to trigger the State's duty to disclose under /Jrad;);_ Knox 1·.
Johnson, 224 r◄.:·M 470, 482 (5 th Cir. 2000) ("The record reflects a unilateral hope on
Smith's part rather than a deal, whether implicit or explicit, between Smith and the
State."); Coor/win 1·. Jolmso11, rn2 F)3d Hi2, 187 (5th Cir. 1998) (holding "a nebulous
expectation of help from the state ... is not Brady material"); ( !nited States i,: NiYon,
881 F.2d l :-H>5, rn 11 (5th Cir. 1989) (holding a "'~tness's impression that the government
would help him obtain a pardon in exchange for his testimony in the absence of a
"specific promise to help" was not 131r1dy material).
(60)

And the Sixth Circuit has similarly held: "IT]he mere fact that a witness has an
expectation of favorable treatment in exchange for his testimony is insutlicient to
demonstrate such ,u1 agTeement; rather, 'there must be some assurance or promise from
the prosecution that gives rise to a mutual understanding or tacit af;Teement"' 1\1e/1i//e
1 ·• { fmted States, 457 Fed. Appx. !,22 (Gth Cir. 2012) (not designated for publication)
(quoting Akrarn· v. 13ooke1; 572 F.~-3d 252, 2G:-3 (Gth Cir. 2009)) (emphasis in orig.).
(61)

(62)
The State has denied it assured or in any way indicated to Kim or her attorneys
that she would receive leniency in exchange for her testimony ,uHI the evidence docs not
show otherwise.
(63)
While neither Johnson nor Peale recounted specific conversations with Kim,
Johnson testified , when a client is cooperating without a deal, he talks to the m "at le111-:rt:h"
,
to ensure they understand they do not have a deal. Peale testified in this situation he is
"crystal clear that there are no guarantees." (5 WRR 120, 162-G:-3; 8 RR 10-11).
(64)
The evidence shows the State did not have a tacit agreement or any type of
mutual understanding with Kirn regarding her testimony.

56

(65)

The State did not have a duty to disclose Kim's sul~jective expectation for
leniency or her hope for consideration; therefore, no e,·idence was suppressed, and the
State did not , ·iolate Brady 1: Af;uy/;mr/.
(66)
Any claim by Applicant that Kim's expectation of leniency should have been
disclosed should be denied.
(67)
A lternatively, Applicant did not ol~ject_at trial when Kim testified to her
expectation of leniency and her hope of consideration; therefore, ~my Brady claim that
the State failed to disclose Kim's expectation or hope is procedurally barred. An
applicant may not raise a da.im for the first time in a habeas-corpus proceedi11g if he had
a reasonable opportunity to raise the issue at trial and failed to do so. J,,\ f J,utt: Dt· / ;1
C'ruz, 46G S.W.ad 855, 864 (Tex. Crim. App.2015). En.:n constitutional cl;tim~ ran be
fod'eited on habeas due to lack of action. Ir/.

(68)
To be timely, when alleged Brady evidence is disclosed at trial, the defendant
must raise an ol~jection as soon as the g1-ounds for the complaint become app;u·ent. See
vVJZw11 V. State, 7 S.\tV.:1d 1:1G, 146 (rex. Crim. App. 199~)).

(69)

When Kim testified she had an expectation of leniency and a hope for
consideration, Applicant's counsel did not ol~ject or request a continuance. A
defend,mt's failure to request a continuance when Brady e,·idence is disclosed at trial
arguably waives his complaint that the State has ,,i olated Bradyand suggests that the tardy
disclosure of the evidence was not pr~judicial to him. See Valdex I '. State, No. AP77,042, 2018 WL a04640:1, at* 1 1 (Tex. Crim. App. J une 20, 2018) (not designated for
publication) (footnotes and citations omitted).

"If the defendant received the material in time to use it efiectively at trial, his
conviction should 11.ot be reversed just because it was not disclosed as early as it might
have and should have been." Little v. Stale, 991 S.W.2d 864, 8G6 (Tex. Crim. App.
1999).
(70)

{71)
Applicant's counsel used Kim's testimony to Applicant's advantage at trial by
asking Kim: "!Flor your testimony today, you have every expectation that the people of
Kautinan County will atlc>rd you something less than lethal iqjectioni)" And Kim replied:
"I have hope that I will be given consideration." (!>4 RR l 09). Counsel argue d in dosing
arJ.,11.m1e11t: "You he,ml some e,·idence from Kim \ t\f illiams today. I want you to think

57

about lhe credibility on that. She's hoping not to get the death penalty. The law regards
an accomplice as a corrupt source, and you should too." (54 RR 167).

(72)
Applicant cannot show he was pr~judiced by the allegedly tardy JJ1,l{/ydisclosure
that Kim had an expectation of leniency and hoped for consideration.
(73)
Any claim by Applicant that Kim's expectation of leniency establishes a deal is
procedurally barred and should be dismissed.

Applicant\ J,,,'vidence ofa Deal
Predictions and Actions of Kim WilJiams's Attorneys

(74)
Applicant asserts the existence of a deal is evidenced hy the fact that Kim
Williams's lawyers never expected to go to trial, never tiled any motions, no trial date
was e,·er set, and the State ne,·er announced it was going to seek the death penalty. (App.
at 18-tJ; 9 WRR 12-1:-3).
(75)
Paul Johnson explained, although Kim did not ha,·e a deal vvith the Stale, he
believed the State \.vould make an oiler aher trial because he believed the evidence they
had to otler had "filled in a lot of missing pieces or it, it put together a much clearer
picture of the whole case th[a]n they had without Ms. Williams's testimony.'' Further,
"And I knew that it would certainly be an opportunity i<>l' !Kimi to, on - without ,t doubt,
to a\'oid the, being considered for the sentence of death." (8 WRR 11).
(76)

Johnson told the court:

[II think from my experience I have a pretty good idea of what, what
cooperation is worth in a case based upon the need by the prosecutors
for the information that the client possesses; and the more the need, the
more the perceived benefit that I think would accrue to my client if they
cooperate and testify and, and are truthful and prove to be truthful. So
it's some..,vhat a value added equation as to what the, what the
cooperation is going to be worth. If you're, if you're providing the critical
missing piece of evidence, you're certainly going to get a better deal than
if you ju:st have some information that would assist.
(8 WRR 10).

58

(77)
Although Lalcm Peale did not recount his specific conversations with Kim due
to the client-attorney privilege, he testified about the conversations he has with his clients
who have something to offer the State but do not have a deal up front. (5 WRR 120,
162-G:-3). Peale would have encouraged Kim to cooperate without a deal because:
ISi he was facing the possibility of the death sentence. You know, my job
· is to save their life one way or the other. And so that's, I mean, that
would he a main incentive .... IYlou just say if you take whaten.:r deal is
oflered or if there's not a deal, look, we know these people, chances are
they're not going to seek the death penalty on you. You'll be able to
new>tiate something down belo'vv a capital murder so that at some point
you would be able to get out of prison.

(5 WRH l 62-G4).
(78)
When asked what his expectaticms were for Kim's case given her cooperation,
Peale stated: "My expectations, we ,,vould, we would work out some type of plea bargain."
When asked: "Did you expect that the State would take her cooperation into
consideration?" Peale stated: "We hoped that they would. That was the whole plan.
T 'hat's why we were going about it this \lvay." (5 vVRR 148).
(79}
Although Kim's attorneys believed Kim's cooperation would likely allow her to
avoid getting the death penalty, this was based 011 their experience and well-educated
predictions in working on capital cases and not 011 any promises or assurances by the
State.
(80}
At the writ hearing, Applicant's counsel questioned Peale extensively about his
billing records ,md that they showed he tiled few, if any, motions during his eighteenmonth representation of Kim. (5 WRR 104-14D). Peale said: (1) much of the billing
records were redacted due to the attorney-client privilege; (2) the records do not contain
all his activities and associated entries; and (:-{) his billing records arc detailed enough to
refresh his memory but are not generated to defend against complai11ts. (!> \t\l RR 11 (>17, 119, 1:14, 141, 170-72).
(81)
Peale could not remember ·what motions were filed but it "would not- surprise"
him if no motions were filed other than requests for things like the appointment a
mitigation expert and/or investigator because they "weren't set fo r trial" in Kim's case,
and they were getting discovery. (5 WRR 126-27).

59

(82)
V\/irskye said a trial date vvas never set in Kim's case, but explained: "We
wouldn't. There's no need to set a trial date. We were going after the shooter lirsl, and
IKiml had started down the path of cooperating with us; and we wouldn't c,·en get to the
issue of her trial or her sentence until we were done ,,vith the Eric v\/illiams trial." (8
WRR 149).
{83)
Regardless of how many or the type of motions tiled m Kim 's case, Kim's
attorneys worked diligently on her rase.
{84)
Peale recounted some of his actions on the rase, including that he met with or
spoke with the prosecutors or law enforcement several times in Applicant's case, me!
with his co-counsel and with Kim seYeral times, went on at least one of Kim 's ride c.dongs,
and attended quite a tew, but not all of Kim's debriefings. (5 WRH 96, 117, 119, 121,

1;14<-m, 140, 144, 155-57).
{85)

Paul.Johnson "did a lot of work on the case. I mean I did a ton of work on the
easel,]" including meeting with Kim and his co-counsel many times;. reviewing discm·ery
as much as possible that was relevant to their issues; hiring an i11\'estig,1tor and a
psychologist; meeting with the prosecutors; and attending Kim's debriefings with the
State. He accompanied Kim on ride ;ilongs "vith the State to a couple of diflerent
!orations alter Kim had pro,~ded them with information that they passed along to the
prosecutors. (8 WRR !>, 7-8).
(86)
Kim's experienced attorneys made the calculated decision, with Kim's
agreement, to ha,·e Kim cooperate in the hope of obtaining some type of plea bargain
and avoiding the death penalty. And they acted accordingly; that is, their etforts were
directed toward obtaining the best possible outcome for Kim Wi lliams.
(87)
The fact that Kim's attorneys did not expect to go to trial is not e,·idern:e of a
deal between the State and Kim Williams.
Kim Williams's Participation in Ride Alongs Without Counsel
(88)
At the 1,,vrit he;u-ing, Applicant suggested Kim could have struck a secret deal with
the State when she participated in a ride along witl1 law enforcement and the State
without her counsel present.

60

(89}
In cross-exarniningJolmson, Applicant's counsel asked if Kim e,·er met with the
prosecution without him. Johnson responded:

I believe there was an occasion, maybe more than one, but I think one
time I know that I a llowed her to go to the location of where the guns
were disposed of just as, with the stipulation that there would be 11<> questioning of any type. And the Kautinan County Sheriff's ollicer
was responsible for all the transportation to and from the crime scenes ·
was a lady named Jolie Stewart, who · I've had many years workingrelationship with and I trust her completely, as I do Toby )Shookl and
Bill [Wirskye). So I believe on at least one occasion I recall I told them
that, yeah, you all can load her up and go wherever you want as long as
you're just gonna ask her to point. But if, if, you know, no questioning-.
And if that was, that was the agreement I, I believe that they held up to
it. And, and I also believe that before that occurred I met with Kim also
and told her that they 'vvere going to do it and that they would not be
asking her any questions; and I believe she confirmed that to me, that
they did n't, they did not attempt to.

tl~
I

(8 WRR 22-2a).
(90}
\,\/hen given the opportunity on cross-examination, Applicant's counsel chose
not to ask Bill Wirskye whether the State struck a secret deal with Kim during a ride
along with the State.

(91)
In closing ,u-gument, Applirant's counsel asserted: "\,Ve also heard that as pa1t
of her interactions with the prosecution, she spent time alone with them without her
lawyers present. Now I know that Mr. J ohnson said they were instructed not to ask her
any questions, but who's to say that they d idn't tell her anything in that time period." (~)
WRR 1:1).
Applicant has not offered evidence the State entered into a secret deal '"~th Kim,
and.Johnson's detailed and credible description of how the ride ,tlongs would have been
conducted demonstrates no deal would have been made at that time.
(92)

(93)
At the writ hearing, Applicant asserted that the timing of one of the ride alongs
in August 2013 corresponds to the accusations of inmates Ray'la McCurry and Yolanda

61

B,uton that Kirn left the jail, came back, and started talking about a deal. (8 vVRR 140;
9 vVRR t:-~-14; AX 22 at I ; AX 55 at I).
(94)
The testimony of inmates McCuny arnl Barton is not pcrsuasi,·c on this issue as
detailed below.

(95)
The Court finds the State did not make a secret deal with Kim during a ride
along when he r defe nse attorneys were not present.
Bill Wirskye's Email Exchange with Paul Hasse
(96)
Rather than questioning Bill \IVirskye directly 011 noss-examination about his
denial of a d eal, Applicant's counsel introduced an email exchange between Mark
H asse's brothe r, Paul H asse, and Wirskye after Appliecmt's trial, in which Paul asked
about the plan for Kim Williams. W irskye replied the prosecution team wou ld be
meeting in the next few days to decide what tootler her. Paul responded: " I know !Kimi
\ivas helpful ,md won't get the death penalty at trial but she is still incredibly guilty and
could have easily prevented these murders." AX 92.

(97)

Applicant's counsel ne\'er asked Wirskye dire ctly about this email exchange so
he could explain, but instead relied on it in closing argument to assert: "I IIit's already
been communicated to !Pa ull that we're talking in years, not death, 11ot life without
parole ." (9 \IVRR 14-15).
(98)
vVirskye indirectly d e nied this accusation when he testified on direct that the
State had taken a "pretty disciplined approach" with the family members reg-drding what
was going to happen with Kim's case be<·ause "the family members wanted the death
penalty up front. They were o bviously very sad. And we told the family, let's go get the
shooter first and talk about the wife later. And that is in fact what happened. " (8 \tVRR

87).
(99)
Paul H asse's email response is not evidence \ 1Virskye told him anything
inconsistent with the lack of a deal in this case.
Paul H asse's belief Kim Williams was not going to get the d eath penalty or lite
without parole is not evidence that the State had a deal with Kim.

(100)

62

(101) What Paul Hasse may ha\'e thought, or vvhat the State may han:: told him, is not
relevant to the legal issue of whether the State had a deal with Kim.
(102) "The government is free to reward witnesses for their cooperation 'vvith favorable
treatment in pending criminal cases without disclosing to the defend,mt its intention to
do so, provided that it does not promise anything to the witnesses prior to their
testimony." .~hah;JLz 1·. A1tuz, :-t-3G F.ad 1!>4, 165 (2d Cir. 200:-3); see Akraiv1; 572 r.:-3d at

263.
{103) That Kim obtained a plea bargain with the State for a forty-year sentence is not
sutlicient, by it"ielC to demonstrate that a deal existed between the State and Kim. See
D owthitt 1·. Johnson, 2:-30 F.:-3d 73a, 756 n.:{-3 (,Sth Cir. 2000).

Kim Williams's Letters
{104) Applicant contends the letters Kirn wrote while in the Kaufman County jail
demonstrate she had a deal with the State. (App. at 2:-3-24; AX ;-31).
{105) Applicant relies on language in one of Kim 's letters that "nny !public defender)
is only trying to keep me from getting the Death Penalty but/ don't eit·n dui1k they're
asking for Death from me anymore, so they 'may' want to give me 20+ years[.) " Kim 's
ovm language, however, shows she is speculating, and this is highlighted by her next
sentence, "I'm a babe in the woods, full of wolves \.vho want to tear me apart _just for
general principle ... to possibly make an 'example' regardless of how innocent I arni>! .
. . Nor sure how all d11:,; i,; gonna pan out JcJr me either way. Yep, Fm lic:akerl." (AX a1
at 2G-27) (emphasis added).
{106) Applicant uses Kim's statement "ltlhere's no way out of this other than a long
prison term" in support of her claim, but the entirety of the p;u-agTaph gi,·es it proper
context. (AX ~~ l at;-37 (4/~1/14) (emphasis added)).
{107) Kim wrote in one letter: "I saw my atty [sicl yesterday (\Ned) + some others.
Can't talk about it but don't worry, I'll be okay." AX aI at 11. But, in another letter, she
wrote: "I really need a miracle & lol-; of prayers so hopefull y I get out of here & go home.
Yep! I'm stressed & still blessed .... (Girl, I must be stressed b/c I almost wrote I'm too
stressed to be stressed! ... )." (AX :-31 at 7).

63

(108)

Kim never stated in her letters that the State explicitly or implicitly ollered or
promised her a deal.

(109)

Kim's letters reveal her extreme distress due to the uncertainty of any pa1ticular
outcome in her three capital murder cases, which is inconsistent with ha\·ing a deal with
the State.
(1 10) At most, these letters show Kim's speculations and hopes, which as pre,·iously
found, is not sutlicient to prove a deal existed or to establish a 1Jn1r/yviolation.
(111) In fact, Applicant states rn~ce in h is ,,vrit application that Kim's letters sho'vv she
believed the State was not going to seek the death penalty against her. (App. at 2:1-24).
While Applic;rntjumps to the conclusion Kim believed this because she had a deal with
the State, he pro,~des 110 support for this except the declaration of inmate Ray'la
McCurry, which is not persuasive.

(112)

Kim \ N'illiams's letters- as tendered by Applicant- do not establish Kim had an

explicit or implicit deal with the State.
Inmate Yolanda Barton

(113)

Applicant relies on the declaration and writ hearing testimony of inmate Yolanda
B arton. (AX 55; GW RR 7-56).
(114) In her J une 10, 20 I 9 declaration, Barton says she was incarce rated in the
Kaufman County.Jail from April to October 201:-~ and met Kim \i\/illiams. (AX 55 at I).
Barton claims she was housed in administrative segTegation (Ad Seg), her cell was directly
across from and one down from Kim's cell, and they could talk to each other through
the cell doors. (Id. at 2).
(1 15) In her dedaration, Ba1to11 says: "Something that Kim struggled with was whether
or not to affept the offor the State had gi\'ell to her. I think the Stale's oiler was around
thirty years" and " I remem ber Kim going to court once and after she was back at the jail,
she said the State was oflering her a deal." (Id. at 4-5).
(116) At the writ hearing, Ba1ton alleged Kim said "her counsel had advised her to
divorce her husband. T hat at one point in time she had been offered a deal by the
prosecutor to testify against him, and the only way she could do that was divoffe him."
64

Barton continued: "I learned that [Kimi had been otlered a deal, a plea deal if she
testified against her husband. Her attorney advised her to do it, to din)rce him, testi!)'
against him." (6 WRR 20, 28).
Inmate Barton's allegc:1tions are contradicted the testimony of \Nirskye and
Kim's attorneys, Paul.Johnson ;md l..alon Peale.
(117)

Both of Kim's attorneys expressly denied teUing Kim to divorce Appli(·,mt. (!j
WRR 146; 8 \ NRR 24). Kirn was still married to Applicant when she testified, although
she had filed for divorce. (!>4 RR ~)5; 8 WRR '.t!).
(118)

B,uton's claim that her cell in ad seg was diagonal to Kim's vvas contradicted by
evide nce of the tloorplan of the jail. (6 WRR 11- UJ; AX 252), (WSX :1).
(119)

(120) Barton has a criminal history of dishonesty. At the writ he,u-ing, Barton said she
had been in the Kaufman County jail on charges or forgery and tampering with a
government document, which she pied guilty to in 20 I :l (G WRR 9). She admitted
having numerous convictions for: forgery of a financial instrument C~O 11 ); fraudule11t use
or possession or identifying information (20 11); tampering with a goYernmenl record
(20 11 ); and forgery of a financial instrument (2012). (6 WRR 9-10).
Ba1ton's has a history of mental illness and drug use. Barton testified she has
been diagnosed with bipolar disorder and takes Seroquel and Celexa for her illness. ((i
WRR 47-49). Ba1ton acknowledged a problem huffing paint off and on for four years
several years ago. ((j WRR :-31-:-32).
(121)

(122)

B,uton's claim Kim had a deal with the State prior to testifying is not supported.

Applicant fails to prove through Barton that Kim had a deal with the State prior
to testitying.
(123)

Inmate Ray'la McCurry
(124) Applicant relies heavily 011 the declaration of Ray'la McCurry, an inmate in the
Kaufman County J ail with Kim Williams in the fall of20 l :1. (AX 22). McCurry does not
say what the charges agdinst her were, and she does not explain why she was in the jail's
Ad Seg, vvhere she says she met Kim. (Id. at l).

65

(125)

According to McCurry, Kim told her "the people at Court told he r that they
were going to seek the death penalty against her if she didn't cooperate" and if her story
·was not what the prosecution wanted then they vvould seek the death penalty. (Id. at!>,
8-9).

(126) Inmate McCurry's allegations "that Kim told her that the people at the Court
told her" are hearsay and are contradicted by Wirskye and Kim's attorneys.
(127) McCurry also makes the statement: "The prosecutors made a deal with Kim
before she testified and she took it." (Id. at 9). Mr Cuny does not explain the hasis of
this information or provide any additional details about how she came_to this conclusion.
(128) McCurry also states: "The whole time I was in Kautinan County Jail with Kim,
sh e was terrified that the State was going to kill her." (Id. at 9). This statement is
inconsistent with McCurry's claim that Kim made a deal "~th the State. If the State had
made a deal with Kim not to seek the death penalty in exchange for her testimony, then
Kim would not be terrified that the Sta te vvas going to kill her.
(129) McCuny, who was not in custody at the time o f the ,,vrit hearing, had been serYed
while in custocly with a subpoena to appear at the writ hearing, and she was scheduled to
appear but did not. (4 WRR 21-2:~; 5 vVRR 192).

(130) The Court finds McCurry's claim that Kim had a deal with the State prior to
t(!stitying; is not supp01ted by the evidence.
Article Written by Pro T e rn Bill v\/irskye
(131) At the writ hearing, Applicant's counsel introduced an a1tide written by vVirskye
titled "Answering the Call: Prosecuting the Kaufman County DA Murders." (AX 100 4;~ American Journal of Criminal I ..aw 11. :3 (2015)).
(132) In the eleven-page article, Wirskye summarizes the nearly t\-vo-year investigation
and prosecution of this case. (AX 100).

(133) In discussing Kim \Nilliams, Wirskye wrote, alter Kim ack.i10-vvledged certain
information to the FBI: "\t\/e wanted to follow up on this with her, so Toby and I emered
into discussions \l\~th her lawyers. We made it very dear that we were not otlering her a

66

deal but that we would take he r truthful cooperation into account once we had tried her
husband." (AX 100 at 118).
This excerpt generally refers to the dealings between the State and Kim
Williams's counsel. Those dealings were described in far gTeater detail in the trial and
habeas proceedings, 'vvhen the existence of a deal was specifically at issue.
(134)

This excerpt is not a substitute for the testimony and evidence elicited during
the trial and at the habeas proceedings. It is not a sworn statement, and it is not reliable
evidence about the communications bet\-veen the State, Kim Williams, and her counsel.
(135)

(136) And notably, Applicant's counsel did not question \ Nirskye about this p ortion
of the article during the writ hearing, although counsel did confront Wirskye about three
other statements in the article. (8 \tVRR I 06-08, 11 4-15).
(137) T he article does not establish the State had a deal with Kim \tVilliams prior to
testifying.
Applicant's Trial Attorneys
(138)

Applicant's trial attorneys do not prm-icle evidence of a deal.

(139) Applicant's lead attorney Matt Seym our stated in a M;m:h 2, 2018 declaration:
"The defense team believed that Kim Williams had been oflered a plea deal in exchange
fc)r her testimony." In support, Seymour relied on McCurry's decl;uation. (AX 24).
(140) Seymour's speculations based on McCurry's declaration do not establish a deal
bet\,veen Kim and the State.
(141) At the writ hearing, Seymour nen:T mentioned McCun1''s declaration. Instead,
Seymour testified he believed the State and Kim had a deal because "noth ing had
happened on any of her cases, no filings, no motions." (7 WRR G9).

(142) Seymour also said: " I want to believe that Kim had a deal with the State.... As
a criminal lawyer, I know that's not how it's done in practice I.I .. . But ... I tincl it very
hard to be lieve that she didn't have some expectation m ore than what, than just an
expectation of leniency. I, I don't know how to rectify those two things." He later said he
believed Kim was receiving some kind of consideration in exchange for her cooperation.
(7 \tVRR 70-71, 74).
67

(143)

Seymour agTeed he could be wrong about the existence of a deal. (7 W RR 71) .

(144) Seymour also agreed he was not aware of any deal Kim was oflered, explaining:
"I just speculated that she did have, at the very least, she believed, I believe that she
belie\·ed that she had something, and I don't know why, but I be lieve that she, she
thought that, but I believe that yes, she probably had." (7 WRR 75) .
(145) When asked if the deal could have been a "wink and a nod understanding,"
Seymour stated: "I don't, I don't know what it would be, but yes, I think she ldt that she
had something." (7 WRR 75).
(146) Matt Seymour's personal belief that Kim Williams had a deal with the State is
not based on tangible, credible evidence.
(147) Applicant's second chair attorney John Wright stated in a March 6 , 2018
declaration "[t[he defense team members believed that Kim Willicuns had been offered
a plea deal in exchang-e for her testimony." In support, \!\fright relied 0 11 McCurry's
declaration. (AX 22, AX 5:-3).
(148) \t\/right's personal belief and rel iance 011 McCurry's declaration do nol establish
a d eal between Kim and the State.
(149) At the writ hearing, \rVright never mentioned McCurry's declaration. Instead,
when asked if he had been aware of whether Kim had a deal in exchange for her
cooperation, \r\/right stated: "ITlhe file made things look suspicious that '"'ay; but no, we
didn't know." (5 WRR 21).
(150) John Wright's speculation that Kim \rVilliarns had a deal because there was a
lack of activity in Kim's case is not evidence of a deal between Kim and the State .

(151) Applicant's third-chair attorney Maxwell Peck Ill stated in a March h, 2018
declaration that if he had been aware of the information McCurry provided in her
decl<m1tio11, he would have used that information to impeach Kim's credibility. (AX 2(>).
(152) Peck relied solely 011 McCurry's declaration, ;rnd this does not establish a deal
between Kim and the State.
(153) Although Peck was scheduled to appear as a witness lex Applicant at the writ
hearing, he did not appe,u-. (5 WRR 8-9}.

68

(154) Applicant fails to prove the State made an express or implied deal or promise
to Kim Williams or her counsel in exchange for her testimony.
(155) Applicant fails to establish the State violated Brady 1,: 1\1;uyla11d by failing to
disclose a deal it had with Kim Williams in exchan>{e for her testimony.

(156) Because the State did not have an a.L,rreement with Kim, no evidence was
suppressed, and the State did not violate JJrady ,,. J\1;uyland.
(157) Applicant's claim that the State violated Brady v. J\1;uylandby failing to disclose
a deal with Kim Williams should be denied.
Suppression of E\'idence of Kim's Mental Health and Criminal History

(158) Applicant asserts the State suppressed mental heallh and criminal history
information about Kim \tVil1iams that would ha,·e impeached her. (App. at 2!J-'.H5) .
(159) Applicant's sole evidence in support is the declaration of his third-chair attorney
Maxwell Peck, which provides Peck spoke with Kaufman County District Attorney
Erleigh Wiley after Applicant's trial and she "mentioned something about Mrs. Willi,m1s
ha,~ng a criminal case reg;mling stealing, or attempting to steal a baby, and the fact that
while in jail awaiting trial, Ms. Williams had been found to be in possession of illeg;il
drugs." (AX 2G).
(160) Peck did not appear at the hearing to testity for Applicant as scheduled.
According to Applicant's counsel, ( l) Peck had been responsive until the hearing ne;u-ed
and then he "went silent;" (2) Applicant's team had emailed him a subpoena two weeks
before the hearing, but he "avoided that email, stopped returning calls, stopped
responding to text messages;" G-3) the Potter County Sheriffs Otlice had been unable to
serve him; and (4) counsel had previously told Peck the date of the t.vrit hearing. (!5 \IVRR
8-9).
(161) At the writ hearing, Applicant failed to adduce any corroborating eYidence in
suppo11 of Peck's allegations.
(162) Although Applicant's counsel called Kaufman County District Attorney Erleigh
Wiley as a witness at the writ hearing, counsel did not ask DA Wiley whether she had

69

made these statements to Maxwell Peck or whether there was any truth to these
st1temenl-;. (G WRR 157-1 66).
(163) Wirskye never heard or had information that Kim kidnapped a baby or had
been found \-,~th drugs in jail. (8 WRR 88-89).

(164) Applicant fails to carry his burden of proving, by a preponderance of th e
evidence, that the State suppressed mental health and criminal histo1y information about
Kim.
(165) Applicant fails to establish the State violated Brady i: 1'\1/;uy/al}(/ by suppressing
mental health and criminal history information about Kim Williams.
(166) Applicant's claim the State suppressed mental health and criminal histoty
information about Kim should be denied.

False Testimony
(167) In Claim l B, Applicant assert-; the State presented false and misleading
testimony at the guilt <ill<l penalty phases of Applicant's trial. (App. :11 -:-32, 50).
(168) The Due Process Clause is violated when the State uses materially false
testimony to obtain a conviction. See Naupe v. flhi101:s·, :1(i0 l J.S. 2(i4, 269-70 (l ~Vi9); 1',\p;ute l..alonde, 570 S.W.Bd 71G, 722 (Tex. Crim. App. 2019).
(169) In order to be entitled to post-conviction habeas relief on the basis of false
evidence, an appliGmt must show by a preponderance of the evidence that (1) false
evidence was presented at his trial, and (2) the false evidence was material to the jury's
guilt or punishment verdicts. J-,x pmte We1i1ste1i1, 421 S.\tV.:1d (i,')(i, G5~)-65 (Tex. Crim.
App. 2014).

(170) In determining whether a particular piece of evidence has been demonstrated
to be false, the relevant question is whether the testimony, taken as a whole, gives the
jury a false impression. E~ pa1te De La l,}u;,:, 46G S.W.a d 855, 866 (Tex. Crim. App.
20 15).
{171) False testimony is material only if there is a reasonable likelihood the false
testimony affected the jury's judg1nent. Ex p;ute Lalonde, .'J70 S.W .:1d at 722 (citing Lr
p;11te We1i1ste1i1, 421 S.W.3d at 6G5).

70

Punishment Phase
{172}

AppliGmt assertc.; the State presented false testimony through Kim Williams.

(App. at:-H-49).
Kim vVilliams ~5 Denial o/a Deal with the State
{173) Applicant asserts Kim vVilliams testified falsely whe11 she denied haYing a deal
with the State. (App. at :-3:1<-35). Applicant relies solely on inmate Ray'la McCuny's
declaration. (AX 22 at !J-10).
(174) As previously found, Ray'la McCurry's allegatio11s-that Kim had told her she
had agreed to cooperate with the State in exch~mge for the State not seeking the death
penalty-are not credible.
(175) As previously found, the State did not have an express or implied deal with Kim
to testily against Applicant.
(176) In addition, both parties told the jury Kim had an expectation ·or consideration
for her testimony. (8 WRR 81-82, l .'>0; 54 RR 9:-3, IOI, l 09, l (j7).
{177) As Bill Wirskye explained al the vvrit hearing, when a prosecutor does not have
a d eal with a testifying accomplice or rodefendant:
The potential pitfall in doing it this way and where I've seen prosecutors
get in trouble is they don't account for the expectation of, of
c~msideration. So that is something that we tried to make n ~ry sure
~throughout our deal ings with Kirn Williams and certainly during her
testimony that that expectation of consideration was accounted for. So
just the fact we didn't have a deal, we never had a deal, we didn't want
anybody to think that she wasn't trying to get something, that she wasn't
trying to get some consideration, and that there may not be a deal
commg.

1

(8 WRR 82). Wirskye said: "IWle didn't hide anything." (8 WRR 150).
(178) Kim's testimony, taken as a whole, painted a complete picture of her
cooperation, and it did not give the jury a false impression. l:x pa1te De La Crux, 4GG
S.W.;1d 855,866 (Tex. Crim. App. 20 l!J).
71

(179)

The true nature of Kim's cooperation was conveyed to the jury.

Applicant fails to prove Kim falsely testified she did not lia,·e a deal with the
State before trial.
{180)

{181)

The State did 11ot present false testimony.

Applicant's claim that Kim Williams testified falsely about having a deal with the
State should be denied.
(182)

Kim William..,<'> R ole 1i1 the Offenses & I-fer P01trayal olApph'cant

Applicant assert'i Kim prc)\'ided false and misleading testimony regarding her
involvement in the otlenses and she inaccurately portrayed Applicant. (App. at :1!><-36).
Specifically, he claims Kim testified falsely that (1) she sat in the car during the McLelland
murders, (2) Applicant directed her to dispose of the bag containing guns iu Lake
Tawakoni, and (m her marriage to him involved "quite a bit of violence," including
threats a11d Applicant firing a firearm at or near her. (54 RR 59, 6D-70, 82, 84, 87).
(183)

In support, Applicant relies 011 inmate Ray'la Mc:Curry's declaration alleging
Kim told her (1) she w;.L'i inside the house when the Md..ellands ,,vere killed, (2) it was
her idea to get rid of the gun in the lake, a nd (~-3) Applicant was not an abusi\'e husband
or a ,~olent man but that "the prosecutors put lies in lherl head to make up this story
about how Eric was an abusive husband vvho beat herl.l" (AX 22 at 5-8).
(184)

As previously found, this court finds McCurry's declaration is not credible. And
Applicant otlers no additional evidence that Kim's trial testimony was false.
(185)

\i\'irskye stated although the State reached out to Kim's attorneys soon alter Kim
went to jail:
(186)

We specifically did not want to debrief her at that point. We were
concerned that she was still in the midst of some kind of drug induced
fog, 'cause we had seen her interviewed a week or so before. We were
concerned she still had affection for her husband. And we vvanted her to
lead us to physical evidence to basically corroborate her good faith
attempt to cooperate with us before ,-ve ever started debriefing her. ...

72

And in fact we made a \'ery conscious choice to delay the debrieling as
long ,L"i possible in the process, hoping her mind would clear!. I

(8 vVRR 82-8a).
(187) Applicant fails to prove Kim falsely testified about her role in the otlenses or
inaccurately portrayed Applicant.

(188) The State did not present false testimony regarding Kim's role in the otlense or
the violence Kirn sutlered in her marriage.
(189) Alternatively, even if Kim's testimony about her role in the otlenses and her
portrayal of Applicant could be regarded as false, it would not be material because there
is no reasonable likelihood that it aflected the jury's judgment.

(190) For one, Kim 's statement-; were not the only evidence, m uch less the most
compelling, regarding Applicant's violent nature. The evidence induded: (I) the
testimony of Applicant's former girlfriend J anice Gray, that he held her at gunpoint in a
crowded bar and told her, "If you walk away, I'll use it." (50 RR 7-2,'>); (2) e,.'iclence
Applicant threatened physical harm to two lawyers and their families (4D HH 141-42; .'30
RR B0-44); ancl G-3) evidence Applicant threatened harm to others in his Crime Stoppe rs
tips. 1:1 (4!> RR 18:-3-89).
(191) Also, Kim testified about Applic;.mt's violent act-; and threats toward others,
which Applicant does not challenge as false, including that Applicant: pulled a pistol on
a couple in a church parking lot; threatened Kim's elderly father by shining a flashlight
in his face and threatening to hit him with it; ;md shot two cats. (54 RR 8/5-87).
(192) Regarding Kim's testimony that she stayed in the car when A pplicant went inside
the McLellarnl's house, no evidence sho'vvs Kim, o r anyone else besides Applicant, fired
the shots; that killed Mike and Cynthia McLelland.

13

In an email exchange bctwcen Applicant and Crime Stoppers alicr the l'vkLellall(I murders,
Applicant wrote: "Your act of good faith will result in no other attacks this week." (.1.5 RR I 8:l-8€>) .

73

(193) Also, substantial evidence implicates Appliecmt in the Mcl..elland murders.
Whether Kim was in the c,u: or inside the McClelland's home does not decrease
Applicant's culpability.

(194) Kim ,ulmitted her guilt in all three capital murders, testil'ying that, while
Applicant pulled the trigger in all the murders, she was a willing participant. (.'>4 RR

m.

(195) Regarding the McLelland murders, Kim told the jury about her participation,
including that she went with Applicant to test-tire dillerent .t,runs to pick one to kill Mike,
and she drove Applicant to the Mcl..elland's house so he could take reconnaissarn:e
pictures. Kim admitted knowing Applicant planned to kill Mike by dressing up like law
enforcement so Cynthia would more likely ans,,ver the ~loor. Afrer Applicant killed the
McLellancls, she and Applicant were both "happy and satistied." Later that day, they
"celebrated" by cooking steaks at her parent's house." (54 RR 5/i-.'>9, (>4, (>7-(i~)).
(196) Likewise, even if it had been Kim's idea to dump the gun Applicant used in the
McLdland murders in the lake, this would have done little to increase her culpability.
Kirn folly inculpated herself when she admitted she and Applicant both clro\'e to Lake
'1~w]J<oni and she _was ~ully aware Applicant "~1as planning to-and did-throw a bag full
(5'!· ~
)Ver the bndge mto the lake. (54 RR 69-70).
_
{197) Because Applicant fails to establish Kim's testimony regarding her role in the
otfenses and her portrayal of Applicant were false or material, he fails to establish that
he is entitled to relief.

(198) Applicant's claim that Kim provided false and misleading testimony regarding
her involvement in the otlenses and inaccurately portrayed Applicant should be denied.

14

Rcg,trding Mark Hassc's murder, Kim admitted she drove Applicant lo the parking lot, even
though she knew Mark would lose his lik. Kim t.estilied they hoth wanted to kill Mark Hasse, and
were both excited about ii. Aficrward, they were both happy. (5,l RR :-3::l-:·H., 1J.2-,1:-l, 11.7).

74

Ki1n WJJ/J;uns\ Testimony and .Sir1.teme11ts· to J,;iw Enfhffement
(199) Applicant asserts Kim Williams's trial testimony on direct examination was false
and misleading because it was inconsistent with, and contradicted, her statements to law
enforcement in A pril 201:-3. (App. at ~1G-42).
In support, Applicant relies solely on a record-based comparison between Kim's
trial testimony and her statements to law enforcement on April 1(j and 17, 20 I which
Applicant had access to at the time of trial. (54 RR 8-94; AX 27, 28).
(200)

a,

(201) 'fhis daim should be procedurally barred because Applicant could have
ol~jected or othe1wise claimed at trial that the State vvas presenting false e,·idence through

Kim \tVilliams.
{202)

Generally, a convicted person may not raise a claim for the first time in a habeascorpus proceeding if he had a reasonable oppo1tunity to raise the issue at tri;d or on
direct appeal and failed to do so'\ 1~:¥ p;ute De La Crux, 4GG S.W.:-3d 855, 8€>4 (T ex.
Crim. App. 2015). Even constitutional claims can be forfeited on habeas due to lack of
action. Id.
Here, Applicant's counsel could "reasonably be expected to have known that
the testimony was false at the time it was made." J,_,:~1rada i:. State, :1 1:1 S.W.:-3d 27/f., 28(i88 (Tex. Crim. App. 2010). Applicant had an adequate opportunity at trial to ol~ject or
otherwise claim the State was presenting false testimon y through Kim Williams.
{203)

{204) Several months before trial, Applicant's attorney Matthew .Seymour had Kim's
April W, 201 :-3 audio/visual recorded interview with law enforcement transcribed. (AX
27; 7 WRR 71). Seymour also asked retired police detective Jim Trainum to analyze the
State's interrogations of Kim, which would have included Kim's April 17, 20 I recorded
police inten·i ew. (AX 28; 7 \tVRR 71). Trainum compared Kim's April 201:1 statements
with known facts and produced a list of conflicting statements, which Seymour utilized
in cross-examining Kim. (7 WRR 71-72).

a

15

IL appears the Court of' Criminal Appeals has not definitively determined that a false-evidence
claim can be procedurally barred. Sec, c.g:, J,. ,\ p;utc C11avcx, a71 S.W.:ld 200, 2l(i (Tex. Crim.
App. 2012) (Keller,
dissenting).

rJ .,

75

(205) In cross-examining Kim, Seymour pointed out many of the inconsistencies
between her interrogation statements ,md her testimony. (.'j4 RR l 04-07; 7 WRR 7:1).
(206) Thus, at the time of Applicant's trial, Mattl1ew Seymour was fully aware of the
inconsistencies between Kim's statements to police in A pril 2018 and her trial testimo n y
that now forms the basis of Applicant's d ue-process complaint. Applicant could ha\·e
raised the instant daim at the time of trial.
(207) Because defense counsel could ha\'e, but did not, ol~ject or othen visc complain
at trial that the State was presenting false e\·idencc through Kim \iVilliams, his claim is
procedurally barred. A writ of habeas corpus should not be used as a substitute for an
appeal. J,,\ p;ute Banks·, 7G9 S.W.2d s:-39, !>40 (Tex. Crim. App. 1989).
(208)

This claim should be dismissed.

(209) Alternatively, Applicant's complaint is more in the nature of a sufficiency of the
evidence claim than it is a false testimony daim. That is, Applicant asserts that "the
discrepancies between Ms. VVilliams's statements to law enforcement and her trial
testimony undermine the reliability of her trial testimon y and undermine her credibility."
(App. at 37). Sutliciency claims are not co~ni,..able in a habeas application. J:,:v pa1tc·
Perales, 21!> S.W.:-M 418,41 9 ( l'ex. Crim. App. 2007). Because Applicant actually raises
a sutliciency claim, it should be dismissed.
(210)

Alternatively, Applicant fails to pro\'e Kim W illiams's trial testimony ,vas false.

(211) "A mere claim that a witness gave 1i1consi:.,1ent testJinonyis not enough to charge
the prosecution's knowing use of f;tf.,·e lestJinonJ; it may well be Lhat the witness'
subsequent statement-; were true, in which event the claim on inconsistency is not a
constitutional question." P1ice i:. J ohnston, ~1~-34 l l.S. l l .S. 266, 288 (l ~)48), 0t 'enuled on
other1;rowl(f,;, McCleskey v. Zant, 499 l l.S. 467 (1991).
(212) Discrepancies in a witness's testimony merely establish a credibility question for
the jury and do not suflice to establish the testimony was false. Koch v. Puckett, 907 F.2d
524, 5;-31 (5th Cir. 1990).
(213) In d etermining whether a particular piece of evidence has been demonstrated
to be false, the relevant question is whether the testimon y, t.tken as a whole, gives the
jury a false impression. Lx pa1te De J,;1 Crux, 46G S.W.:-3d at 866.

76

(214) On direct examination, Kim admitted that when she was i11te1Yiewed hy law
enforcement aJter Applicant's arrest, she lied for hours saying she and Applicant were
not im·olved in the murders. At some point during the interview, s he broke dmvn and
gave a partial confession, but she still did not tell the whole truth. Kim explained she vvas
a drug addict at that time. (54 RR 91-~)2).
(215) On cross-examination, defe nse counsel impeached Kim with some of the
inconsistencies between her interview st1tements and her testimony, as detailed in Claim
2, and Kim acknowledged many of the inconsistencies and the fact that she was not
completely honest in her April 1G, 201 a police interview. (54 RR 104-07).
{216) Thus, the jury was aware of the inconsistencies between some of Kim's trial
testimony and her earlier statements to law enforcement. And the jury was aware that, in
the past, Kim had not been fo1thright and had downplayed her knowledge ,md le,'ei of
involvement in the murders. The totality of Kim's testimony was not misleading, and it
did not create a false impression.
(217)

The jury reconciled all of Kim's testimony, and it chose to com·ict Applicant.
See l~r p,ute De /,a Crux, 4(>G S.vv.:~d at 870-7 1.
(218) Applicant fails to establish that certain inconsistencies hetv,1ee11 Kim's trial
testimony and her earlier statements to la:w enforcement constituted fa lse evidence.
{219) Alternatively, any specific inconsistencies in Kim's testimon y that the jury did
not hear would not be material because there is no reasonable like lihood they would
ha\'e affected the jury's assessment of punishment.

(220)

Applicant asserts Kim's version of events was critical to the State's effort to
portray him as a future danger and secure a death verdict; and therefore, the State's
reliance on her false testimony was material. (App. at 48).
(221) The jm)' was aware Kim's trial testimony was inconsistent with some of the
earlier statements to the police.

(222) And, even to the extent Kim's testimony was inconsistent from her April 20 l :1
statements to law enforcement, her trial testimony was truthful. Indeed, much of Kim's
testimony was corroborated by physical evidence, as set out in detail in the State's
response to Claim 2.

77

(223) Fu1ther, Bill Wirskye testified at the writ hearing that the State was able to
corroborate Kim's information with physical e\·idence and he folt Kim was being honest
during her debrietings. Kim testified consistently with 'vvhat she said in the dcbridings.
(8 WRR 82-8G). The State was not accusing Kim or lying. (.', RR l:i9; 8 vVRR 144).

1
';

(224) While the State relied in part on Kim's testimony as evidence of Applicant's
future dangerousness, it also relied on other evidence separate from Kim's testimony.
(225) Other evidence of Applicant's future dangerousness included: (l) the testimony
of Applicant's former girlfriend J anice Gray, that he held her at gunpoint in a crowded
bar and told her, "If you walk away, I'll use it." (50 RR 7-2.'>); (2) e,·ide11ce Applicant
threatened two lawyers and their families physical harm (49 RR 141-42; 50 RR :-W-44);
and (:-n evidetKe Appliecmt threatened harm to others in his Crime Stoppers tips (4,'i RR
18:1-89) . Also, the uncont.roverted evidence showed Applic.mt had stockpiled an arsenal
of firearms, firearms components, ammunition, and other weapons. (4.'i RR 74-75; 4G
RR 48-.'i0; 49 RR 84-~)5).
{226) Importantly, even without Kim's testimony, the jury found Applicant guilty of
the McLelland murders. And in the punishment phase, the State relied on C ynthia's
murder to show Applicant's future dangerousness. Specifically, the State argued that,
when Applicant heard 6!>-year-old Cynthia moaning, "you would thillk if there ,,vas
anything in that soul that would make him not dangerous, it would have been touched";
but instead, Applicant "h,vlalks calmly over to her, takes that rifle, points it at the top of
her head, and shoots her. And that tells you all you need to know about how dangerous
IApplicantl is and what a threat he's going to be." (54 RR 154). Later, the State ,u-gued
Cynthia's death "makes your decision clear." (.~4 RR 20:~).
(227) The State also argued Applicant was a future danger because he kille d three
people, arguing: " How many people have to die before someone stops him:>" (54 RR
20:-3).

16

When asked if Kim had aclclcd any new information during her lcstitllo11y that he had 1101 heard
before, \Virskyc po i11Lcd lo Kim's leslirnony that "Eric's anger was my anger."

78

(228) Applicant fails to prove ,my inconsistencies in Kim's trial testimony the .iu1y did
not hear about were material to the jury's decision to assess Applicant's punishment at
death.
(229) Applicant's claim that Kim's inconsistent testimony constituted material, false
evidence should be denied.

Applicant\ Rclationsl11jJ vVith 1}na Hall
(230) Applicant asserts Kim Williams testified falsely that he had
H all. (App. at 42-4m.

a11

affair with Tina

(231) In suppo1t, Applicant relies on T ina Hall's post-trial affidavit in which she denies
having an atfair with Applicant and states she and Applicant were "nen ~r more than
friends and colleagues." (AX 7) .
(232) Hall watched portions of Applicant's trial ,·ia li\'e-stream \'idco on t11e internet,
including the testimony of defense witness Cathy Ad;uns, who testified in the puni:;lunent
phase. (AX 7 at 4).
(233) Cathy Adams testified she knew Applicant as a friend and colleague, and she
described Applicant as an "excellent husband." (5:-3 RR 1!>7-60). On cross-ex,unination,
the State asked Adams if she was a'vvare of the affair Applicant had "vith Hall. Adams
acknowledged knowing Hall, "who was currently living in H awaii," but she denied ,my
knowledge or suspicion of an affair. According to Adams, Applicant and Hall were j ust
friends. (,1:-3 RR 182-84).

(234) Defense counsel ol~jected that no evidence supported the State's line of
questionin.!{, but the State said it had a good faith basis for it. 'l 'he State pursued tl 1is issue
because Adams had lefr a false impression about the type of husband Applicant was. (S~-3
RR 18a; 8 \NRR 97-~)8).
(235) According to Hall, later that night she faxed a letter to Bill Wirskye, asking him
to correct the false st1tement he had made about the a.tfair. (AX 7 at 4).
1
'

17

The kuc:r appears lo have been faxed lo Wirskye's Dallas ollicc, although the trial was conducted
in Rockwall. (AX 7 al 7) (Alladuncnl A).

79

(236) The next day, Hall appe,U"ed in court and approached members of the
prosecution team and denied having an atfair with Applicant. (AX 7 at 4; 8 \tVRR ~)798).
Later that same day, Kim Williams testified in the State's rebuttal case that
Applicant 'vvas a goo<l husband but he was unfaithful and had extramarital atfairs,
including one with Hall. ((,4 RR 90). Applicant did not ol~ject-or otherwise daim the
State was presenting false evidence at that tin1e.
(237)

This daim should be procedurally barred because Applicant had an adequate
opportunity at trial to ol~ject or otherwise raise this claim but did not. Generally, a
convicted person may not raise a claim for the first time in a habeas-corpus proceeding
if he had a reasonable opportunity to raise the issue at u·ial and failed to do so. 1~ .See J,, \
/Jilltt: De La l}u;,;, 46G S.W.ad at 864.
(238)

(239) Here, Applicant's counsel could "reasonably be expected to have known that
the testimony was false at the time it was made." 1~,'trada v. State, :-3 l ~~ S. \IV.ad 274, 28G88 (Tex. Crim. App. 2010).

(240) First, ddense counsel had previously ol~jected "there's no e,·idence of this nature
at all" when the State asked Cathy Aclcuns: ''And Tina Hall and !Applicant] had ,m atfair
while he was m,uTied, isn't that true?" (5a RR 18:➔). Thus, Applicant's counsel w,ts aware
of the issue.
(241) Hall recounts in her atlida,~t, alter she speaking with the prosecutors, she sat "in
the courtroom waiting to be called as a witness." She met with Applicant's counsel one
week earlier. (AX 7 at !i).
·
(242) \,\/hen Kim Willicuns testified about the affair, Applicant's counsel did not ol~ject
or otherwise claim the State was presenting false eYidence, although Applicant's counsel
had ol~jected the day before to the State's questions about the same topic.

18

The CourL of Criminal Appeals has nol definitively clclermined thal a false evidence claim can he
procedurally barred. Sec, e.g:, Ex pillic Cha vex, :-371 S. \ ,V .ad 200, 216 (Tex. Crim. App. 2012)
(Keller, PJ., dissenting).

80

(243} Because Applicant had the basis to raise a false-testimony claim ,vhen Kim
testified, but chose not to, his claim should be procedurally barred.
(244) Applicant's claim Kim testified falsely about an affair with Hall should be
dismissed.

Alternatively, Hall's denial of an affair does not prove by a preponderance of
the evidence that Kim's testimony about the affair was false. Hall had a motive to refute
being imdved in the sensational case.
(245)

Also, Hall spoke with the detense team about a week before trial, but the State
was told she was living in Hawaii when it tried to interview her. (AX 7 at .'>; 5:1 RR 1828:1; 8 WRR 97-98). Hall does not explain why the State may have thought this, and
instead states when she approached the State at trial, "I ti hey looked like they had seen a
ghost, because I think they thought I was in Hawaii at the time." (AX 7 at 4).
(246)

(24 7)

And, even in the face of Hall's denials, lead prosecutor Bill Wirskye testified at
the writ hearing: "We developed information during the investigation that the defendant
'"'as having affairs with several people, Tina Hall ,unong them. During one of the later
debriefs with Kim Williams, she contirmed that." (8 WRR 97, 15 I). Wirskye said:
" ITlhere was no doubt in my mind after talking with !Kim] that she knew that her
husband was having an affair with Tina Hall." (Id. at 15 l).
(248)

Applicant fails to establish Kim testified falsely about the affair.

b ·en assuming Kim's testimony Applicant had an affair with Hall could be
regarded as false, it was not material because there is not a reasonable likelihood it
afferted the jud.1-,ri11ent of the jury.
(249)

(250) In light of the evidence Applicant committed three murders, the jury's hearing
Applicant had an affair with Hall would have been inconsequential. And, the affair
would have been several years earlier when Kim became addicted to drugs, ,mcl when
Applicant and Kim were first having marital problems. (AX 1, :-3; 54 RR LS-17).
Although Kim testified Applicant had an affair, she also testified she had loved
Applicant for many years and he had provided her with all she needed. (54 RR 94-9G).
(251)

(252)

Kim's testimony about Applicant's affair was not material.

81

(253)

Applicant's claim Kim testified falsely that Applicant had an affair with 'J'ina Hall
should be denied.

Guilt Phase of Tn'al
(254) In a two-page argument, Applicant asserts the State presented false or mis leading
testimony at the guilt phase of his trial. (App. at 50-52).
(255) Applicant says James Jetfress's testimony regarding firearms analysis \Vas "not
just unreliable and i11flammat01y but blatantly false, arnl thus amounted to no evidence."
(App. at 50).

(256)

Applicant fails to aUege facts to su pport his argument.

(257) Applicant also argues the State "presented false testimony from its fingerprint
and DNA expert'i, in violation of Ibis] right to due process. See Claim T wo, Sections
A(~-3), inka." (App. at 51).
(258) Applicant fails to allege fact'i lo support his argument. Applicant's general
reference to his ineflective assistance claim on the fingerprint and DNA experts is not a
suflic:ient substitute for presenting and applying fact'i to this specific claim.
The argument the State's ballistics, finge rprint, and D NA experts testified falsely
is unsupported by any evidence.

(259)

(260)

Applicant fails to present facts that entitle him to relief.

Applicant fails to prove the State presented false or misleading testimony at the
g11ilt phase of trial.
(261)

The State's expert'i did not present false or misleading testimony, and this claim
should be denied.
(262)

Participation of Recused Assistant District Attorney
In Claim l C, Applicant contends his due process right'i we re \'iolated because a
member of the recused Kautinan County Criminal District Attorney's Office assisted in
his prosecution. (App. 5:-3-GS).

(263)

82

(264) · Specitic:ally, Applicant asserts Kautinan County prosecutor Sue Korioth had a
conflict or interest by participating in Applicant's prosecution,· which conflic.:t was
imputed to Prosecutor Pro Tern Bill Wirskye.
Applicant relies primarily on emails between Korioth and vVirskye during the
investigation and prosecution of Applicant. (AX 177).

(265)

(266)

Applicant fails to prove Korioth had an actual conflict of interest.

Applicant fails to show Korioth was a decisio1Hnaking member of the
prosecution team or otherwise influenced Wirskye such that he did not make his own
independent decisions.
(267)

(268) l lltimately, Applicant fails to demonstrate prosecutor pro tern Bill Wirskye had
an actual conflict of interest rising to the level of a due process violation.

Background Fact5 9
At the time of the writ hearing, Sue Korioth had been an attorney for thirty-seven
years. She 'vvas board certified in niminal law in l 9~):-3 and in criminal appellate law in
2011. She had recently retired and did not renew her criminal law ce rtification. (fl \t\/RR
,S8, 120-21).
(269)

Korioth was a prosecutor at the Dallas County Criminal District Attorney's
Oflice from January 1987 to April 1999. She ran the appellate division frorn l ~)~)4 to
1999. ({> WRR 57-60, 120).

(270)

In September 2009, Kauhnan County Criminal District Attorney Rick Harrison
hired Korioth as the office's sole appellate attorney. The oJ-lice employed about thirteen
attorneys, and ""ith staff, about thirty-five people. Korioth lived in Dallas and commuted
to Kaufman two to three days a week. The other days, she worked from home. ((j \VRR
6~-3-G5).
.
(271)

19

A pplicant called Sue Korioth as a wilness al the writ hearing, and the Stale called Bill \Nirskye.
Much or the following backgrnund facts an.- based on their testimony.

83

(272)

Harrison also hired experienced prosecutor Mark H asse. (S:-! RR 4(,, 55).

(273) In 20 l 0, Kauhnan County elected Mike Mcl..elland as iL"i new criminal district
attorney, and he was sworn in January 2011. Bod1 Korioth and Hasse remained at the
office. (S:-3 RR SS; 6 WRR 64-GS).
(274)

Md..elland and H asse became good friends. (6 WRR 72).

(275) Korioth and Hasse previously worked as prosecutors at the Dallas County
Criminal District Attorney's Otlice. The Dallas otlice employed about two h undred
assistant district attorneys. According to Korioth, they never really worked together, but
she "probably had dealings with him on a tew occasions." (6 WRR S9).

(276) In March 20 12, McLelland and Hasse tried Applicant for the burglary of county
computer monitors while he served as a j ustice of the peace in Kautinan County . AjUJ)'
convicted him and he was remm·ed from otlice and lost his bar license. (44 RR (,8, 7:-376, 2as-:1G; 6 WRR 8:-3, 90, 127-28; 8 WRR l 18; swx 8).
(277) On the morning of Thursday, J anua1y :11, 20 l :1, Mark H asse was murdered
near the Kaufinan County Courthouse. Korioth was at home asleep in Dallas at the time.
(6 WRR G8-G9).
(278) \tVhen Ko rioth met with Md..ella11d at the office the following Monday, he was
upset and convinced Applicant had killed Hasse. (6 vVRR 69-72, l :-3 1-a2).
Korioth wondered how H asse's murder woulcl be solved. According to Korioth,
H asse could be ditlicult to deal with, he loved going to trial, ;md he "loved to mess vvith
people." A large field of potential suspect"i existed just in H asse's Kautinan cases. Hasse
had also worked in Dallas and made a lot of enemies because of his aggressive
prosecutions. H asse had fifteen or twenty years in between bis jobs in Dalias and
Kautinan County, so he likely had made some people ang1y. According to Korioth,
"anybody in the courthouse" could have killed Hasse. (G WRR l 28<W).
·
(279)

Acron ling to Korioth, someone called her-likely either the sheriff or one of his
deputies-and asked her to talk to McLe lland because he was "ma.king a ruckus" and
"hampering the investigation" by asking law enforcement to pick U!p Applicant and his
friends. Confusion ensued because "you have multiple agencies, and you've got the
sitting D.A. lsayingl do this, do that, and the otlicers know they can't like pick somebody
(280)

84

up without probable cause or reasonable suspicions [sic!,

it creates a bad situation.'' (G

WRR 71 -72, 1:-H -:-32).
(281) Korioth convinced McLelland he should recuse himself because he was so upset
about Hasse's murder. (6 WRR 72).
(282) Korioth suggested they ask defense attorneys and law partners Bill \ Nirskye and
Toby Shook to be attorneys pro tern, and she and McLelland called ,uid cleared it with
them. (G WRR 72-7:-3; 8 vVRR 66, 114).
(283) Korioth had worked with Wirskye and Shook when they were in the Dallas
D A's Otlice and also when they were in private practice. Both Wirskye and Shook had
extensive experience trying capital murder and murder cases, and they both had prior
experience wo rking with the Texas Rangers, local law enforceme nt , the FBI , a11d the
ATr◄• (6 WRR 60-61, 84, t-37).

(284) At the D allas DA's O flice, \Nirskye and Korioth had been on friendly terms.
According to Wirskye, after he left the office and bec,une a defense attorney, Korioth
became one of h is m,my "legal phone a friends," whom he would call when he wanted
to bounce off legal issues with someone he trnsted. According to Korioth , s he ,md
\Nirskye had a working relatio nship first, a nd then a friendship develo ped over the years,
although they did not socialize. (6 vVR GO-G1, 14:1; 8 \ NRR G!>, l J:-3;- 14).
(285) \tVirskye tried a m urder case as a special prosecutor in Kautinan County a wec.:k
or so before Hasse's murder. H e spoke with H asse ,md met McLelland during that time.
Wirskye had previously tried another case in Kaufman County as special prosecutor, so
he was somewh at known around the small-town courthouse. But he did not practice in
K autinan, and had no ties to that community. WvVRR 7.2-7:-3; 8 WRR (>2, 64, 1:18).
(286) Korioth advised Mcl..ellarnl that Wirskye would be ''a good murde r D. A.," he
"understands prosecuting a murder case," and he would "be able to work with the.:
ditlere 11t agencies and, and get something done on this." ({i W RR 7:1-7 4).

(287) Wirskye lived and worked in D allas, and he did not know many people in
Kaufman. (8 WRR 62).
(288) On February 8, 201:-3, Mcl..elland filed a recusal motion, dratted by Korioth,
asking District Court.Judge Michael Chitty to recuse the Kautinan County D A's Office

85

from the im·estigation and prosecution of oHe nses related to the death of Mark Hasse
and to appoint an attorney or attorneys pro tem. The motion's stated reason for the
recusal was "in order to avoid any conflict of interest or appearance of impropriety which
might result from the investigdtion and prosecution of this otlice of the murder of one
of its own employees," and the request was made under Article 2.07 (b-l) of the Code of
10
Criminal Procedure. (AX 194; 2nd Supp. CR 4-5).
(289) Judge Chitty granted the recusal motion that same day and appointed attorneys
Wriskye and Shook to investigate and prosecute any criminal offenses relating to the
death of \!lark Hasse. (AX 1~)4; 2nd Supp. CR G).
(290) In the days following Hasse's murder, a manhunt ensued, and multiple law
enforcement agencies convened at a comm,md center set up in tmvn, including the FBI,
the ATF, the T exas Rangers, and the Kautinan County Sheritl's Otlice among others.
(6 WRR 71; 8 \IVRR 63).

(291) As Wirskye testified at the writ hearing: "\tVhen a prosecutor gets killed, it's a
very different scenario because there's so many extra suspects." (8 WRR 71)).
(292) As time passed and leads ran cold, the investigation starte d shutting down. (8
vVRR 71).
,
(293) Then on March 30, 201a, McLe lland and his wife Cynthia were murdered in
their home. ((j WRR 75).
{294} Following the Mc:Lelland murders, Kaufman County's First Assistant Criminal
District Attorney Brandi Fernandez tiled a recusal motion, which was ,·irtually Lhe same
as the prior motion. (AX 195; 2nd Supp. CR 12-1:-3).
(295) Wirskye and Shook were appointed as pro terns in the Md..elland murders. ((i
WRR 79; 2nd Supp. CR

m.

20

As sci out in the rccusal motion, Article 2.07(b-l) provides: "An attorney for the stale wlio is 1101
disqualilicd lo act may request the court to permit him lo recuse himsclr in a case for good cause
and upon approval hy the court is disqualified." Tex. Cock Crim. Proc. art. 2.07(h-l).

86

(296)

At that point, clearly the H asse and \1cLe lland murders were related and
Applicant's burglary trial ""as a common denominator. (6 WRR U~4-:1.'i).

(297)

In April 201:-3, Judge Erleigh Wiley was appointed as the Kautinan County

District Attorney. (54 RR 124; (> WRR 79, 157).

(298)

In April 201:-3, Applicant vvas arrested for capital murder.
The Emails at Issue

{299)

In his writ application, Applicant asserts, "records obtained by post-com'i<:tion

counsel" reveal Sue Korioth continued to be involved in the inYestigation and
preparation of the prosecution of his case. (App. at 55-5G).
(300) In fa.ct, the State allowed Applicant's writ counsel to review its file in February of
2017, before counsel filed Applicant's writ application. Wirskye testified he "wanted the
whole file opened up because I didn't want any surprises. I wanted to have o ne good
writ hearing hopefully and just let everything out there. " (,1. WRR :-30; 8 W RR ~)!J-~)(>;
SvVX 1).
(301) In his writ application, Applicant's counsel relied on several emails between
vVirskye and Korioth, that were in the State's tile. (App. 5:-3-65; AX 45-49).

{302) Prior to the writ hearing, the State located additional emails that were not in the
State's trial tile in February 2017 and turned tl1em over to Applicant's counsel. Wirskye
said his personal laptop computer cont1ini11g his emails from this prosecution had been
missing and when found, it was not working. \ 1Vhen he got it functional, he printed all
emails involving Korioth off both his Gmail and Outlook email accounts. (4 \NRR :iO;
8 WRR 70, 96, 155-56; SWX 1).
{303)

There were many duplicate emails in the two email accounts. (8 vVRR 155).

(304) The State turned over all emails between vVirskye and Korioth during the
relevant time period, even though some of the emails did not relate to Applicant's case.
In some of the emails, Korioth was answering legal questions for vVirskye in his defense
practice. (8 WRR 155-!>6).

(305)

D uring the writ hearing, Applicant's counsel introduced some of the emails.

87

(306) Afrer the writ he~u-ing, Applicant's counsel introduced a set of the emails the
parties agreed were the least duplicative and mostly related to the case. (AX l 77).
(307) The emails as a whole demonstra te generally Korioth assisted \Virskye in certain
ways during the investigation and prosecutio11 of Applicant. They do not establish
Korioth was a decision-making member of the prosecution team or otherwise inll uenced
Wirskye such that he was not making his own independent decisions.

While the emails show generally that Korioth otlered her opinion on certain
issues, the evid ence does not show if: or to what extent, Wirsk.ye adopted and applied
those opinions.
(308)

Although the emails reveal communications between Wirskyc and Korioth at
the time of the investigation and prosecution of this case, the emails are nonetheless
sul~ject to interpretation and must be viewed in the larger context of the wide-ranging and
unique scope of the investigation and prosecution.
(309)

{310) During their testimony at the "vvrit heari11g, \tVirskye and Korioth explained many
of the emails.

\tVirskye's and Korioth's testimo11y establishes Korioth did 1101 make critical,
c:011t:rolli11g decisions about the investigation or prosecution of Applicant.
{311}

Wirskye's and Korioth's testimony also establishes Korioth did not have a
personal interest in investigating and prosecuting Applicant and Wirskye and his team
were not under her influence.
(312)

Apphcable Law
A prosecutor is "disqualified" from a case ifhe is barred by faw from conducting
the prosecution. In contrast, a prosecutor is "recused" when he voluntarily withdraws
from the prosecution. See Coleman v. State, 24G S.W.:-3d 7G, 81 (Tex. Crim. App. 2008).
Once the trial court approves a voluntary recusal, the district attorney is deemed
disqualified under the statute. See Tex. Code Crim. Proc. a1t. 2.07(b-1).
(313)

When ,m alleged conflict of interest is at issue, a district attorney or his staff may
not be dii;quahfied unless (l) an actual conflict or interest exists, and (2) the conflict rises
to the level of a due process violation. See 1~:r p;ute Reposa, No. AP-7!>,9(>5, 2009 \tVL
(314)

88

:~47845!.i, at * l 0 (Tex. Crim. App. 200~)) (orig. proceeding, not designated for
publication); [,ande1:,· v. State, 256 S.W.:1d 29!.i, :-304 (Tex. Crim. App. 2008); H aJWO(){/
v. State, 844 S.W.:-3d 4!i4, 452-!ia (Tex. App.-Dallas 2011, pet. refd).
The l fnited States Supreme Court has held: "An arrangement represent'i ,m
a<·tual conflict of interest if its potential for misconduct is deemed intolerable." Young 1:
{ lnited States ex rel. Vuitton et Fils-.S'.A., 48 l ll.S. 787, 814 (l 987).
(315)

The Court of Criminal Appeals has deemed "intolerable" the situation where a
prosecutor represent'i the State in prosecuting someone he previously represented in the
same ca'ie. There, "the conflict of interest is obvious and the integrity of the prosecutor's
otlice suffers correspondingly." Ex p;ute Reposa, 2009 WL 84784!>5, at * l 0. ·
(316)

In other situations., the c:ontlic:t is not so o bvious as to require automatic:
disqualitication, and the defendant must establish a due-process violation by showing
"actu al pr~judice."
(317)

One type of conflict that 111ay arise is a prosecutor's personal bias or g1wlge
against the defendant. ,'iee Ex p;ute Rep osa, 200~) WL :-34784!.i!>, at * l 0. This type of
conflict does not merit automatic disqualification. Applicant must demonstrate an ac:tual
conflict o f interest existed which pr~judiced him in such a manner as to rise to th e level
of due process ,·iolation. Id. ; see Haywood, 844 S. \ ,V -~~d at 4G2.
(318)

In d iscussing a conflict of interest d aim based on a prosecutor's personal bias,
the Court of Criminal Appeals has relied 011 lan1-,,uage in MaHlw/1 I '. J errico, Inc., 446
l T.S. 2:~8, 242 (1980). See J~y p;ute Reposa, 2009 WL :-34784!>5, at * 11 .
(319)

(320) In JI/an/Jal/ 11•.fenico, the l lnited States Supreme Court held: "Prosecutors need
not be entirely 'neutral and detached[.! 111 an adversary system, they are necessarily
permitted to be zealous in their enforcem ent of the law." Id. The Due Process Clause
places limits on the "partisanship of ... prosecutors." Id. at 24~). "A scheme iqjec:ting a
personal interest, financial or otherwise, into the enforcement process may bring
irrelevant or impermissible factors into the prosecutorial decision and in some contexts .
r,tise serious constitutional questio ns." Id at 249-!i0. Although the Court declined to
specify when a prosecutor's personal interest necessitates recusal or disqualification, it
left open the possibility that "diHerent considerations might be held to apply if the alleged
biasing influence contributed to prosecutions against particular persons, rather than to a
general zealousness in the enforcement process." Id. at 2!i0 & 11. 12.
89

No Actual Conflict .Existed
Applicant asse11s his due process right-; to a disinterested prosecution were
violated because Sue Korioth held a deep resentJnent and animosity toward him, and
this "interest" was imputed to the prosecutor pro tern Bill Wirskye when she assisted
him and his team.
(321)

Applicanl does not assert Wirskye had a conllict of interest in h is ow11 right.
Instead, Appli<·,mt assert'i Wirskye was not a disinterested prosecutor because he sought
o ut the assistance, legal advice, and im·estigat.ive services of Korioth , who had an axe to
grind vvith Applicant. (App. at 60).
(322)

As set oul in detail below, Applicanl fails to establish (1) Korioth was a derisionmaking membe r of the prosecution team or otherwise intluenc:ecl vVirskye surh that he
was nol making his own independent decisions; (2) Ko rioth had an actual c:onllict of
interest; or G1) prosecutor pro tern Bill \ Virskye had ,m actual c011llirt or interest that
rose to the leYe l of a due process violation.
(323)

1lle / ,;uge-Scr1/e /m -estig;1tio11
Both Wirskye a nd Shook were appo inted as attorneys pro Lem but Wirskye
primaril~ m ·ersaw the law enforcement i1l\"estigalion. (6 VVRR 89; 8 WRR 69).
(324)

(325) At least eighteen slate, local, and tederal agencies were i11volved. According to
Wirskye, "there was a massive etfo1t to p rotect different people, so they had all sorts
ditlerent agencies coming to assist." Wirskye testified he had tried many cases hut this
was a "one of a kind case." "No one had ever seen an attack launched on the criminal
justice system before." (8 vVRR (j0-62).

or

(326)

Regarding the scale of the i1n-estigalio11, vVirskye explained:
En~ry morn ing during the heigh t of this, both post-Hasse and postMcLelland , the mornings would start out with an 8:00 a.111. c:omm,uHlcrs'
meetings. I would be there, the lead ele me n ts of every, the big three
involved investigative agencies would be there, a nd we would kind of plot
strate 6ry for that clay in the investig-ation. After those meetings we re over,
we would go out to a big briefing where generally one of the FBI agents
would brief the assembled officers and agents and de puties every

90

morning- lo kind of g-et e,·e rybod y an update on where 'vve were. Onre
that brieting was over, those officers and agents would disperse and go
run clown leads.
(8 WRR G8).
(327)

Wirskye further testified, in addition to the two big meetin,t.,rs en!t")' morning:
I was in a series of meeting-s, almost cn~ry day I was out there, l>olh formal
and informal. Almost every agenry that was out there had to brief up
their chai n of c:onunand. The FBI had daily briefings to their local
<.·om ma11d. They had it bark to their national rommand. ATF, DPD. I
would attend various o f those meetings in orde r just to kind of assist those
different agencies in briefing up th eir chain of command.

(8 WRR G8-G9).
(328)

Wirskye said there were hundreds of meetings. (8 WRR 69).

From at least February to M ay 201 :1, \tVirskyc was essentially working out of his
car. ((j WRR 88-89).
(329)

(330)

Wirskye ,md Shook did not have the resources of a d istrict attorney's otlice
behind the m. (8 WRR61). Wirsk.ye explained:
There was l O1, 1000 and l things that when you're operating as special
prosecutor in a county that you need to talk to a D.A.'s ol1ice about. That
ma.i.;nitude is multiplied when the victim wo rks in the office and potential
witnesses work in the office. So it's easy to han: a single point of contact
that I trust, and [Koriothl was that single point of nmttct for that ollire
when I needed something.

(8 WRR 125).
(331)

Wirskye stated he used Korioth as a liaison, explaining:
There were just too m any things that we - for instance, I didn't have
forms. I needed to know how to do grand jury subpoenas. In a very real
sense, we stood up a second D.A.'s oflice at that command post. And

91

without having local knowledge as to who the clerks were, what the forms
were, how do we do this, it would have bee11 impossible. And that is one
of the crucial roles that she played during the investigation in helping us
stand up that D.A.'s ollice, that indepe ndent D.A.'s office that wa s oH~
site.

(8 \VRR 74).
(332)

\tVirskye further testified Korioth helped in relaying some information lo the
Kautinan Cou11ty D.A.'s Otlice. Specifically,

II]t was more unspoken than anything, but [Korioth[ and I truste d one
another. So she would not ask me what was going on, but she was aware
m ore than anyone in Kaufo1an that we were working and we were actively
following lead s. And I kne"v [Korioth] would come back and disperse
that message .... So I re lied on IKoritoh] to kind of reassure p eople
when I wasn't around. Listen, l\·e talked to [\Virskye[ , I've talked to
[Shook]. The investigation is proceeding. They are working hard.
b ·eryon e would come up with different suspects, and [Koriotli ] would
tell them hey, they're, they're working, they're working. And in that
respect I think she played an important role, kind of managing the psyche
of the Kaufinan County community, especially the criminal justice
community.
(8 WRR 74-7.S).
Korioth told the court that, at this time, she had been in Kauhnan for years, and
she "was pretty ,.veil trusted around the counhouse and knew pretty much the ditlerent
departments and players." She tried to always be there as a resource if \Virksye needed
something from the DA's otlice, the county, or the court'i. And, "e,u-ly on there were a
lot of things that he needed." (6 vVRR 89).
(333)

(334) Korioth said norma lly when a pro tern is appointed, the pro tern can take that
file and walk away and handle it. But, when the DA and one of his assistants are killed,
"the ollice is part of the crime scene basically." So, "it wasn't like they could walk away
and not have to deal with the courthouse or our office and not have to deal with our
records.'' (G WRR 90).

92

(335)

Korioth further explained:
The first two months whe11 they had that big task force, I don't know, I
know they fielded a lol of calls.... I know that they 1vvould come to us
and ask for tiles. Arlylan Brotherhood files, Jiles that !Hasse l had
handled, old liles !H asse] had handled. They asked for the tiles 011 the
burglary trial on the Applicant here. They asked for other information.
And so I tried to be a, a single central source for them, both so that they
'vveren't making phone calls all day trying to get that information and also
so that they weren't talking to somebody whose sister-in-law worked for
so and so so that it was all over the county in ten minutes.

(G WRR 90-~) l).

(336) Korioth saw her role in this case as a legal researcher and paralegal for 'vVirskye
and Shook. They had no back up until the cases were indicted a11d others came on
board. Korioth explained she had done a lot of research over the years, and she had
access to \tVestlaw; so, if \tVirskye called and asked her to !ind a case, she would do it. ((j
WRR ~H-9:·3; AX 206).
{337) Korioth never atte nded the daily law enforcement meetings, or if she did, it was
happenst;mce; she was not invited. \!Virskye said Korioth did not have much
in volvement in the investigation. (8 W RR GG, (i8).
(338) \tVirskye told the court Korioth was wonied about McLelland's focus 011
Applicant as Hasse's killer to the near complete exclusion of any other suspect but
Wirskye was "able to assure her, without giving her details, that the investigation was
looking at a variety of suspects and not,iust IApplicantl." (8 WRR (>7).
Before the Mcl..ellands were killed, Applicant was a person of interest, but he
did not become a suspect until after the Mcl..elland murders. Applicant's hurgfary
com~ction connected the two cases. ((> W RR I ~~4; 8 W RR 117).
(339)

(340) Applicant asserts the information Korioth provided the FBI after the Md ..elland
murders aided in the investig-dtion and eventual prosecution of Applicant. As set out
below, however, the information she provided about Applicant was that McLe lland had
believed Applicant had killed Hasse; Mcl..elland and Hasse carried .1-,runs when the cases
first started with Applicant; and McLelland had told her that a judge told him Applicant
93

had a hit list. This information was known by others; Korioth did not possess unique
information. (App. at 58-G0; AX 49; 8 WRR 115-17).
(341) Korioth also f>rm~ded the FBI vvith her thought'i about other possible a\'enues
to pursue, including that McLelland had been "working 011 an iqjunction case on the gun
range on FM 2S78" and had been trying to !ind a way to ,uTest the owners." She ach-ised
"the gun range case was heated" and McLell;md had taken it upon himself to prosecute
the case. (AX 49).
(342) Local, state, and federal law enforcement otlicials investigated all potential
suspects, collected · evidence, and determined Applicant killed Hasse and Lhe
McLellarnls.

(343) Applicant presents no evidence Korioth influenced the investigation,
evidence indicates she swayed the investigation to focus on A pplica11t.

a11d 110

(344) Independent of the involvement of Korioth, the evidence of Applicant's guilt is
strong. No showing exist'i that the investigation improperly focused 011 Applicanl, or
improperly focused 011 Applicant because of Korioth's efforts.

1 he Prosecwion Team
(345) Wirskye stated members of the prosecution team included "tirsl and foremost"
Wirskye and Shook. They vvere both decision makers. Wirskye was the prima1y
decision maker because Shook was also minding the law practice. (8 \NRR 69, 7 1).
(346) Much later, alter Applicant's arrest, Wirskye and Shook started to assemble a
trial te;un. (8 \ \/RR 121).
1

(347) Wirskye and Shook had the following people sworn in:Jerri Sims from the i ·.s.
Attorney's Ollicer; T om D'Amore, who was in private practice; Tarrant County
prosecutor Miles Brissette, and Tarr;u1t County investigator Danny Nutt. \t\l hen the trial
was moved to Rockwall County, vVirskye ,md Shook had the Rockwall Cou11ty Criminal
District Attorney Kenda Culpepper and her first assistant Damita S,u1germano sworn in.
Closer to trial, they had Collin County prosecutor John Rolater and Lisa Smith sworn
in. (8 WRR 71-72, 11 l, 121).

94

(348) Wirskye testified Korioth was not on the team, and she was never going to be
on the te,un. (8 WRR 7 l·, 78).
(349) Korioth did not consider herself a member of the team, and she knew she did
not "have any authority." (6 \tVRR 141, 14!>).
(350) To the extent Applicant suggests the mere number of emails including Korioth
demonstrates an inappropriate level of im'Olvement, this is not supported by the record.
Wirskye testified he communicated a lot through email and the number of emails that
included Korioth was a "fraction of the emails" he exchanged in this case. D epending
on the stage of the investigation, he exchanged well over a hundred emails, texts, and
phone calls a day. (8 WRR 70).
(351) Also, Wirskye "over-included" people on the emails he sen t. He did not know
how Lo use email gToups, so ,.voulcl often include ma ny people to make sure lie didn't
leave anyone out. Likewise, Korioth testified \tVirskyc would sometimes send out "bulk
emails." (6 WRR l52-5a; 8 WRR 122).
(352) To the extent Applicant suggest-; that, because Korioth was included on emails
about meetings, she attended many meetings, Wirskye's and Korioth's explanations
show otherwise.

(353) Wirskye kept Korioth in the loop in part because he told everyone i11 Kauhnan
County to call her if they needed to know something because she would h,n-e the latest
updates that could be disseminated. (6 WRR 142, 149-!>0; 8 \tVRR 74) .
(354) Wirskye told the court Korioth was included on emails about meetings not
necessarily to invite her but to keep her informed. He explained: "There are probably
some lemailsl vvhere I invited her to meetings, there are probably some that are just the
FYI. " (8 WRR 122).
(355) \tVirskye said many combined prosecution and law enforcement meetings were
held about evidence and the trial. Korioth was invited to some of those, but \tVirskye
only remembered her attending one. (8 WRR 121-22).
(356) One email from Wirskye to Shook, Sims, Brissette, Nutt, Rolater, and Korioth
stated in pa.it:

95

404(b) meeting this Friday at l pm al our office.... Also, we ha\'e an
i11formal meeting at our office Thursday at l :30 pm with the defense to
discuss p retrial motions etc (Sue will have to sit that one out.) Finally, ~ve
are meeting with the DNA and firearms people Wednesday at l O am at
their lab in Garland.
(AX 229).

(357) Regarding the above email, \ t\!irskye explained he thought Korioth w,ts im·ited
lo the 4(M(b) meeting but she ,vas not invited to the meeting with the defonse because
she was not on the team. H e never vvould h,ffe invited her to the forensic and ballistics
meetings. (8 vVRR 12:,n.
(358) The only evidence of what meetings Korioth actually attended was provided by
Korioth. She said she went to two or three meetings over the course of a ye,ir or tv,10
when Wirskye updated and provided information to the local law enforcement and
other agencies. (6 vVRR I 04-05).
(359) Applicant's counsel asked Korioth about a chain of emails in which Wirskye
thanked her for attending a meeting and wrote: "Not sure if I foe! better or worse about
discovery." The emails also indicate prosecutor Miles Brissette attended the meeting.
While Applicant characteriz:es this as Korioth and Brissette meeting about discovery, the
emails show it was some type of .1,rroup meeting that included an FBI agent. Korioth did
not specifically remember such a meeting. (6 WRR l 04-0!J; 9 \ 1\/RR 1O; AX 21 7).
As set out below, there were many reasons why Korioth would have been
included 011 emails even though she was not part of the team, including that Korioth's
duties at the Kaufo1;.u1 County DA's oflice overlapped with issues in Applicant's
prosecution; \Virskye wanted to keep Korioth informed about how the prosecution was
progressing so, when appropriate, she could pass it on to the re le,·ant people; and
Wirskye sought discreet pieces of legal and factual information from Korioth.
(360 )

Korioth :,, D uties at d1e Kaufimw County DA \- Oflice On!1lapped with hwes that
Arose in the Prosecution o/Applic;wt
Korioth explained, "I ti here were a lot things where I was representing the county
and on, on our end of things like the HIPAA issue on !Applicant's I jail records ·when
(361)

96

the detense wanted them. And so those situations, I was just trying to art as a, a middle
point, a link between the two worlds." (G WRR 142).

(362) For one, Korioth was the open records attorney for the Kautinan County D A's
oflice, and advised the Kautinan County Sheriffs Office on open records requests. After
H asse was killed, the DA's oflice, the Sheriffs offices, and Wirskye received open
record requests from the pre ss ;md others, and she answered them all because that
responsibility never got shifted over. ((> WRR 89-~JO, 148; 8 \ V RR 7!,-7(>).
(363) Korioth and vVirskye also had to coordinate etforts when vV.irskye decide d it
was time to arrest Applic,mt. There was an issue as to whether to arrest him on his appeal
bond on his burglary case, in which Kaufinan County still represented the State, or
whether to arrest him on a new charge. Although Koroith drafted som e motions and
orders for Wirskye relating to Applicant's burglary conviction, Wirskye made the
decisions reg;u-ding Applicant's arrest. (6 WRR 9(>-98; 8 WRR 78; AX 212).

{364)

Simil;.u·ly, when an issue arose regarding A pplicant's use of a Kaufman County

Lexis~exis account, Korioth tracked down information about the county's vanous
LexisNexis accounts. (G WRR 14.S-48; see, e.g:, AX 177 at 240-42).

(365) Wirskye contacted Korioth when Applicant's counsel filed a change of , ·enue
motion. The emails show Korioth drafted some "rough-ish drahs of response , order,
and aflidavit," but they mostly show her efforts to gather names for potential State's
aHiant~. Korioth "vas "well trusted around the courthouse" and "pretty much knevv the
diHerent departments and players." In the end, the prosecutors pro tem and Applicant's
defense team agTeed to a change or n .:nuc to Rockwall County.i 1 (:-3 RR .1~-.S; <> \ V RR 81),
I 0G-08; AX 218-222).
(366) Additionally, afrer Applicant was in jail, Charles Brownlow committed capital
murder in Kautinan County, and the county decided to seek the d eath penalty against
him. Korioth was one of the prosecutors assigned t:o the case. The same defense
attorneys representing Applicant were representing Brm,vnlow. Korioth and Wirskye

21

On the eve or trial in October 20 l [., Applicant likcl a second change of venue motion. Alier a
licaring, the trial ,c ourt clrnied that request. ('27 RR 5-'29).

97

shared information because they were getting a lot of the same motions in bot!1 cases. (.'>
WRR ~i7-:i8; G\tVRR G:-3, 150-.'>2; 8 \t\'RR 76).

WJ1skye Sought KOJioth \ Assi~lance as a Fnend, Fonner Co/k,l).;ve, and Rc::.'>pccted
A ppellate Atton1e;~ hut !Vot as a Deci,·1<m J1aker
(367) Applicant argues that, even with a prosecution team, Wirskye continued to seek
and rely on Korio th's advice, knowledge. and assist,mce in order to secure a co1wirtion
and the prosecution team frequently adopted and pursued Korioth's ideas regarding
strateh'Y and development of their case. (5 WRR I :-3).
{368)

Applicant overstates Korioth's level of participation and influence.

(369) Applicant fails to present evide nce that Korioth made critical, controlling
prosecutorial decisions.
(370} There is no evidence-and the emails do not reveal- that Wirskye abdicated his
decision-making responsibilities to Korioth. otably, Toby Shook. was also a d ecision
maker, and it is reasonable to presume he would ha,·e monitored and collaborated with
\tVirskye on all critical decisions.11

Although \tVirskye sought Kc>rioth's advice, knowledge, and assistance, this was
not because she was a te;un m ember but because she was a trusted friend and a respected
appellate attorney.
(371)

(372) Wirsk.ye described Korioth as a trusted friend and "one of the smartest criminal
lawyers in T exas." Wirskye related "everyone respected her legal experience and her
opinion." (8 WRR 65-66, 7G).

But their interactions had boundaries, and Korioth was not a decision maker. ((j
WRR 14~~, 152; 8 WRR 69, 78, 80).
(373)

Korioth testified she did not use her friendship with Wirskye to inselt herselr in
the case. (6 WRR 144).
(374)

22

Applicant did no! call T oby Shook lo testily and docs not spccilically argue that he had a conllicl.

98

(375) Wirskye said Korioth did not play the "friendship card" to get information she
was not entitled to and, although he gave her more information than he gave other
people, "it was still kind of on a need to kno1vv basis" f<x her. (8 vVRR 80, 12G).
(376) Korioth got late night phone calls from vVirskye decornpressing atier long days
in l,u-ge part because she is a night owl, ,Lnd she was probably the only person he knew
who was up at 1:00 a.m. She listened as a friend. But they tried to respect the situation's
boundaries, considering that sometimes there was not a bou11da1y; for instance, when
Wirskye needed information from Kautinan County tiles. (6 vVRR 88-8~), 14m.
(377) Wirskye described Korioth as one of many friends he called and \'ented to. (8
WRR 125-2G).
(378) Wirskye sought Korioth's input on certain things like who he could trust in the
Kautinan community, hut ultimately, he made the decisions on hmv to use the input. (8
\iVRR 6G-7).

(379) When Wirskye called Korioth with a legal question or some discreet question
about something in Kautinan, she would answer it, and they would hang up. Wirskye
testified: "Arni to her credit as a pro!essional, she never put me in the spot where I had
to divulge anything that I tl1ought was scnsiti,·e to her." (8 WRR 80, l 2(i).
(380) Korioth described her assistance as that of a legal researcher or paralegal saying,
"I wasn't making decisions. I wasn't saying you're gonna put this on, you're gonna put
that on. Saying this is what the case law looks like to me, here, you read it." (G WRR ~H ,

100-01, 12G, 144-45).
(381) Korioth never was a decision maker for the prosecution team. "l \tl] y ,·ote didn't
count for ;mything, you know. I me,m my case law did to the extent that it was correct
and they could read it, but my \'ote did not, and I didn't expect it to." ((i \VRR 152-!>:~).
(382) Korioth drafred and re,·iewed documents for Wirskye but "I may have drafted
this or that, but I didn't, I mean like the, the major documents st;uted other pl.an!s or
were drafted other places. ' rhey weren't my, product of m y advocacyl.l" (G WRR 155).
(383) The night the investigative team dratted a search warrant to search Applicant's
house, Wirskye couldn't find another lawyer to come to the command post to re,·iew it,

99

so he asked Korioth to do it because he "needed a second set of eyes to look at that ,md
look for typos and make sure that lit! was good to go." (8 WRR (i7).
(384) When Applicant's counsel tried to suggest at the 'vvrit hearing that Korioth
dratted tl_1e allidavit for the search WcUT,mt on the storage unit, \ Virskye disa1-,1Teed and
explained Korioth had looked at it along with other people because they wa11ted as many
eyeballs on it as possible. Although Korioth stated in the email she was "trying to cut
some of the clutter and compress some info" and she would send it to him "for what it's
worth," there is no correlating evidence shmving the nature of her edits or whether
Wirskye relied on or incorporated her edits. (8 WRR 119-20; AX 89).

(385) Korioth acknowledged she reviewed and re,,i sed the arrest "''arrant allidavit for
Applicant's arrest. She did not know where the allidavit originated from, but she- thought
she may have cut and pasted infonnatiou from some search warrants the Plano police
had put together the ,veek before. When \Virskye emailed Korioth a question ahout the
aHidaYit, Korioth responded: "l\t\l ]hat do I know, I'm recusedl.l" Korioth said that. was
her way of telling Wirskye she was not trying to give him legal ach·irc. l iltimately, a
magistrate approved the afiida,rit and signed the 1vvarrant. (G RR 91, 99-l OI; AX ~ l :1).
(386) Korioth acknowledged sending \tVirsk.ye an email with six indictments attached,
including three indictmentli for Applicant and three for Williams. When asked if she
dra..hed the indictmentli, Korioth stated she did not know who originally drafted them;
she had forms used by the Kautinan County gTand jury; and she was sure she put the
language they had on the forms as a matter of word processing. (G \tVRR l Ol; AX 214).
Korioth sent vVirskye three draft indictments on Applicant's case three days earlier. (AX
177 at 057). Whether Korioth dratted the indictmentli or not, nothing suggests she
decided the course of the litigation. And no correlating e,~dence showing if, or the extent
to which, Wirskye relied on or incorporated Korioth's suggestions. (1 CR :12).

Applicant's counsel argued at the writ-hearing dosing arguments that Korioth
suggested legal strategies, asserting she recommended proceeding 011 the indictment "for
the Mcl..ellands" and that was what happened. (9 \tVRR 11 ). Presumably, counsel was
relying on a chain of emails where Wirskye asked for John Rolater's input 011 "the 404b
issue with putting the Hasse murder on during case-in-chief 011 the Cynthia McLelland
indictment." Wirskye also copied Toby Shook and Korioth on the email. After Rolater
responded, Korioth responded in pa.rt "lwle have a lot of reasons for going with Cynthia
first." (AX 177 at 190). Although the State proceeded on the indictment alle14ing the
(387)

100

Mcl..elland murders rather than the Hasse murder, this July 7-8, 2014 email chain was
written afrer the indictment had been tiled on June 27, 20m. (l CR :-32). Korioth's
statement fails to show she dictated which indictment \tVirskye and Shook filed or their
reasons for doing so.
One e mail sho1vvs Wirskye sent Korioth a dralt of a notice to seek the death
penalty against Applicant and asked if she had "any thoughts or edits." Korioth
responded: "looks tine." \ ,Vhile Applicant highlighted this at the writ hearing, it does not
demonstrate Korioth had any say or influence in the pro terns' decision to seek the death
penalty against Applicant. (G WRR 102-0a; AX 215).
(388)

Emails show Korioth reviewed and otlered her opinion 011 drafts of the guilt and
punishment phase ju1y charges prepared by prosecutor pro tem J ohn Ro later liYe
months before trial. (6 \1/RR I IG-17; AX 2:-3G-27).
(389)

In one of the jury-charge emails, Koro ith wrote: "!lit is really strange to b e trying
to work on a capital when you also are kind of in the middle of it. Really skew
perspective, even afrer a year and 1/2. I'm so glad we got a quick recusal on this thing,
even though I frequently feel that it's ruining IWirskye'sl lite." (6 WRR l lG-17; AX 2~~6a7). This demonstrates Korioth knew her limitations and role.
(390)

While the emails and testimony show Korioth assisted \tVirskye, Applicant fails
to show Korioth made critical, controlling decisions in the investigation and prosecution,
or that Wirskye abdicated his and T oby Shook's independent decision-makin~ power
to Korioth.
(391)

Thus, Applicant fails to prove prosecutor pro tern Bill Wirskye had an actual
conflict of interest.
(392)

J,,'vidence Korioth ,,vas Pa1tial, "Interested" and an Actual Conflict of/nterest
Applicant assert-; Korioth was an "interested" prosecutor because (1) her ollice
had been recused from the investig-dtion and prosecution of the deaths of H asse and the
McLellands; (2) she was dose friends with Mark Hasse; (:-3) the otlice was a crime scene,
and the employees were traumatized; (4) she was a potential witness who was interviewed
by the FBI; and (5) she had an ax to grind against Applicant. See WJight v. l !niter/States,
7:-32 F.2d l 048, l 056 (2nd Cir. 1984) (holding that a prosecutor "is not disinterested if
(393)

101

he has, or is u11der the influence of others who haYe, a11 axe to gTi11d against the
detendant").
Applicant fails to p rove Korioth was an "interested" prosecutor who had an
actual conflict of interest.

(394)

K aulinan County DA \ ()/lice \tVi1s Vo/untan'/]' Recused
{395) Applicant asserts his right to a disinterested prosecution was ,·iolated whe11
Korioth disregarded the tria1 court's recusal order. (App. at .'>.'5).
(396) The Kautinan County D A's Ollice voluntarily requested to be recused from the
investigation and prosecution of otlenses related to the deaths of H asse ,md the
McLellands in order "to avoid any conflict of interest or appearance of impropriety,"
under Article ~.07(b-l) of the Code of Criminal Procedure. The motion was granted.
,See Tex. Code Crim. Proc. art. 2.07(b-I} (AX 194, EJ5).
(397) A prosecutor is "disqualified" from a case if he is barred by law from conducting
the prosecution but, a prosecutor is "recused" when he n>lunt.arily withdraws from the
case. See Co/em;u1, 246 S. W .~-3d at 81 . ( )nee the trial court a1 >proves a volu11ta1y recusal,
the district attorney is deemed disqualified under the statute. See T ex. Code Crim. Proc.
art. 2.070>-l); I11re Simo11, No. o:~-16-00090-CV, 201G vVL a5 17889, at *G (Tex. App.Austin.June 22, 2016) (orig. proceeding) (not designated for publication).
{398) A statutory disqualificatio n is distinguishable from an actual co11llic:t that rises to
a co11stitutio11al due process ,·iolation. See generally Stale ex rt:!. Hdl 1• Pntle, 887
S. W.2d 921, 927 (T ex. Crim. App. I994) ("A trial court may 11ot clisqualil)' a d istrict
attorney or his staff on the basis 011 a conflict of interest that does 11ot rise to the Je ,·el of
a due process ,1olation .").
{399) As frmnd below, Ko rioth did not have an actual conflict of interest, and the
appearance of impropriety, alone, does 11ot establish the kind of due process violation
required to d isqualify a prosecutor. See H aywood, a44 S.W3 d at 46:1

102

(400) Also, the recusal order in the Hasse case provides "the Kauhnan County District
Attorney and his o ffice are recused from investigatlon and prosecution of offenses
relating to" his death.'11:1 (AX 19Li; 2nd Supp. CR 6).
(401) Korioth did not im ·estigate or prosecute the murders of Hasse and the
McLellands.
(402) To the extent Applicant relies on a violation of a state statute to support his claim,
a state statutor1' claim is not coh'lli,..able in a habeas proceeding where no Yiolatio11 of
federal constitutional rights has occurred. J,;,y pr.Ute Craves, 70 s.vv.:-~d 1oa, l 09 ( l'ex.
Crim. App. 2002).

(403} H ere, any violations of artide 2.07 do not establish a constitutional claim
because Korioth did not have an actual conflict of interest that violated Applicant's due
process right'i. I.a11de1:~·, 25(j S.W.:-3d at :-304.
Applicant's claim Korioth had a conflict of interest because she ,·iolated a state
statue, 'vvithout a sho"'~ng of a constitutional violation, is not cogni,,ahle in this habeas
proceedi11g.
(404)

Jl1ark H asse
(405) Applicant assert'i Korioth ,vas "interested" in Applicant's p rosecution because
she was "dose friends" with Mark Hasse . (9 vVRR 8).
(406) Applicant relies primarily on an article Bill Wirskye wrote titled "Answering the
Call" in which Wirskye wrote "Mark Hasse was also an assistmt D.A. in Kauhncm, and
he and IKoriothl were dose friends." (8 WRR 108, 114-LS; AX 100).
(407) This excerpt from \i\/irskye's article does not constitute reliable, conclusi,·e
evidence.

At the writ hearing, when asked if Korioth and H asse had been close friends,
Wirskye said: "I think they'd been friendly. I can't really characterize - I know they
(408)

23

T he "Order Appointing AL!orneys Pro Tern" in the Md ,elland case docs not contain rccusal
language; but appoints allorneys pro tcm Bill 'vVirskyc and Toby Shook. (2nd Supp. CR 9).

103

worked together, and it was a small otlice. I think they knew one another fairly well from
their days in Da llas." (8 WRR 114- l f>).

(409) Korioth said she was not friends with Hasse, although they "worked line
together." "IWle, to say things mildly, we saw things very dille rently in lile; and we didn't,
didn't socialize. I don't think I even knew where he lived until he got murdered." ({i
WRR 66).
(410) Korioth's first-hand, personal testimony regarding the status of her friendship
with H asse is relevant and condusi\'e on the issue.
(411) Regardless of the status of Korioth and Hasse's friendship at the time of Hasse's
death, Applicant fails to prove Korioth committed misconduct toward A pplicant's
prosecution based on her friendship with H asse.

(412) Applicant fails to prove Korioth's relationship with H asse caused her to have
"an axe to g1-ind" against Applicant.

Dis·tnc'f Attorney WIiey:-,· Penonal Conlhct ofInterest
(413) District Attorney Wiley was a witness at Applicant's trial l>e<:c1use she was 011 his
hit list. (54 RR D, 76, 123<-38; G WRR 165-G(i).

wa~;Ji/~~J~

(414) . Korioth _testi,fied she w~s cautio~s about wh~t information she_
regardmg Applicants prosecution. Konoth also said she vvas cardul anout t:1e
information she shared with Wiley. (6 WRR 139-40, 150).
(415) To the extent Wiley had an actual conflict of interest, no e,,idence shows this
conflict was imputed to Korioth. See In re S1i11on, 2016 WL ;15 17889, at * 7 (noting that
the Cou1t of Criminal Appea ls has never held that an e n tire district attorney's oflice must
be disqualified when a district attorney is disqualified).

(416) Likewi:se, no e,~dence reflects Korioth passed along Wiley's conflict by inserting
any irrelevant or impermissible factors into the prosecu tion of Applic;rnt.

104

171e Office ;1s P;nt ofthe lhme Scene
{417) In a similar claim, Applicant asserts Korioth was "interested" in this case because
the Kaufinan County DA's Office was a crime scene, and the employees were
traumatized. (9 WRR 7-8).
(418) \tVhile the employees at the DA's oflice would have been affected emotionally,
this does not mean Korioth had an improper inte rest in seeing /\pplic:allt prosecuted
other than simply "a general zealousness in the enforcement process." Nlan-hall I'.
./enico, 446 U.S. at 250 n.12.

(419) Also, precisely because the otlice was a part of the crime scene, prosecutor pro
tern Wirskye needed a point person in the Kaufm;m County DA's ollice to provide any
relevant documents and information needed to investigate and prosecute the oflenses.
As Korioth testified, when a pro tern is appointed, normally the pro tem can take the
file, walk away, and handle it; but, when the DA and one of his felony assistallts is
murdered, "the otlice is part of the crime scene basically. So it wasn't like they could
walk away and not have to deal with the courthouse or our otlice and not have to deal
\i\~th our records." (6 WRR 90).

(420) Applicant tails to establish Korioth had an actual conflict because she worked in
the Kautinan County DA's Otlice when both Hasse and the McLellands were killed.

FJJI In ten iew
(421) Applicant asserts Korioth was a fact witness because the FBI interviewed her and
because her "personal knowledge of the circumstances surrounding [Applicant's! case
made her a fact witness." (App. at 58-59; .5 WRR 12; 9 WRR 8; AX 49).
(422)

Applicant relies primarily on the FBI's April 2, 201:-3 interview of Korioth. (AX

49).

{423) Korioth vvas at home at the time of both murde rs, did not have actual knowledge
of the Hasse and McLellcmd murders, and was not a fact witness. (G WRR I :-32) .
(424) Korioth's interview with the FBI alter the McLelland murders did not make her
a fact witness.

105

(425)

According to vVirskye, everyone in the Kautinan County oflice should haYe
been intervie"vved by the FB1 afrer the Hasse and McLelland murders. (8 WRR IL'>).

(426)

During the FBI inteniew, Korioth told the FBI in part that McLelland "vas
convinced Applicant killed Hasse; Md.ellarnl and Hasse carried guns when the cases
tirst started with Applicant; a11d McLelland had told her a judge told him that Applicant
had a hit list. (AX 49).

(427) The FBI report demonstrates Korioth provided infcmnati011 many people likely
possessed. For instance, the Kaufrnan County Sheriff was aware of McLelland's belief
the Applicant killed Hasse, and according to \ iVirskye, "people were talking about the
hit list" right alter Hasse's murder. Also, \1\/irskye testified Applicant was a person of
interest from moment'i after Hasse was shot. (G vVRR 71-7~; 8 \tVRR l W).
(428) Korioth also told the FBI: that Mcl..dland had often said he went to bed early
and work up early; the murders could have happened in the morning; she did not belie,·e
the Mcl..ellands would have answered the door in the middle of the night since they were
011 edge; if Mcl..elland answered the door, it was because he trusted whoever was at the
door; and she believed McLelland had his paper delivered and that he may have been
getting the paper in and had the door unlocked.

Korioth's beliefs about the Md..elland's habits and her speculations about how
the murders may have occurred did not make her a fact witness, especially in light of the
investig-dtions conducted by all the various law enforcement agencies.
(429)

(430) Korioth was not a fact witness to the Hasse awl Mc:Lelland murders, and
Applicant overstates the significance of the information she gave the FBI when he says it
"aided in the investigation and eventual prosecution of IApplicantl." (App. at 59).
AfJp/icant

Applicant asserl'i Korioth had severe animosity and deep resentment toward
him and she had an "ax to h,i·ind" against him. (App. at 59-G0; 5 WRR l 2; 9 W RR ~)).
(431)

In support, Applicant relies primarily on an excerpt from the book "T~l!'get 011
My Back: A Prosecutor's Territying Tale of Lite on a Hit List," written by Kaufman
County Criminal District Attorney Erleigh Wiley, published in 2017.

(432)

106

(433) Applicant's counsel did not introduce the book into e,·idern:e hut instead read
excerpt<.; out loud.

{434) Applicant relies specifically on a scene portrayed in the book where \ Viley seeks
Korioth's advice regarding whether to recuse the otlice from Applicant's case, and
Korioth is alleged to have said: "Before this motheducker gets the needle, there will be
all kinds of shit thrown at the wall . ... And we don't want him breathing because we
had a DA who was the judge signing a search warrant." (App. at GO).
(435) Applicant also relies on ;m excerpt when \tViley stales: " I didn't trust lier totally
in this case. She had too much of a personal conflict." ((j \tVRR lG~-3) .
(436) Wiley testified at the writ hearing that her book was "based on a true story" but
she took "literary license." She did not take notes at the time of the events, and it was
based on her own personal experiences and perception. (6 WRR 16 l-G2).
(437) In the b ook, Korioth was described as "ve1y colorful," she was a "gi-eat character
to embellish," and "sometimes what IKoriothl is as a character, it's several people, but
you use one focal person to adopt a sentiment, maybe even for yourself or something."
(G vVRR 16 I).

(438) \tViley explained: "So some statements are actually attributed, some statement<.;
are a combination or accumulation of thoughts and processes I. I"
(439) \ 1Vhen asked what Korioth's pe rsonal conflict was, Wiley stated: " I don't know,
that two people in our office ,,vere killed." When Applicant's counsel suggested \ Viley
vvas questioning Korioth's moti,·ation for asking her to recuse, Wiley stated "No,"
explaining that Korioth was a professional, and she was just telling her what could be a
problem. ((j WRR I Ga-(j4).
(440) \tVhen asked about her statement-, to Wiley, Korioth said she had 110
independent recollection of it but "it wouldn't be an ything outside of what I would
normally say." (6 WRR 85).

(441) Korioth has a reputation for being foul mouthed and for "talking like a sailor."
(6 WRR 122; 8 \tVRR 65).

107

(442) Korioth elaborated: "The implication that because I used n;lorful or profam:
language in referring to this defernlcmt that I had something against him is ludicrous. It
would not be unusual for me to make a comment like that trying to convince her she
needed to stay out of it." (G \tVRR 8G-97).
(443) Korioth told the court, afrer reading the relev,mt chapter in Wiley's hook, he r
impression was that \tViley "seemed to be kind of doing one of those based 011 fact nmds
!Tl.Ore than a book because it all seemed contused." For instance, the quoted
com·ersation about recusal was actually about ·whether \tViley should get back into the
prosecution of Applicant after the otlice had been recused. (6 \i\/RR 84-8!>, 87, l :{3).
(444) Korioth said it was possible that when she said "motheducker," she was not
referring to Applicant but to "whatever MF" was a rrested. ((j RR 1:-3:-3-:-34).
(445) Excerptc.; from \tViley's hook are not reliable, credible evidence Korioth had an
ax to grind with Applicant.
(446) Applicant fails to tender any credible evidence that Korioth had a deep
resentment and animosity toward Applicant on a pe rsonal level that was so "intolerable''
it created an actual conflict o f inte rest.

The record demonstrates Korioth did not have a personal ax to grind against
Applicant.
(447)

Korioth lived in Dallas, commuted to the oftice three days a week, and was not
a ''Kaulinan County person." (G \tVRR G5, 81 ).
(448)

(449)

Korioth's interactions with Applicant before his burglary trial were limited.

(450) Korioth answered a legal question from Applicant when he was a JP, and she
attended a couple of meetings Applicant likely atte nded. (6 WRR 122-24).
(451) Korioth w;L" 011 the periphery of Applir,mt's burglary trial. She probably d id
some research for Hasse on the case, because of her role as the appellate attorney in the
oflice, but she did not remember what the rese,m·h issues were. (G WRR l 2!i-2G).

I...eading up to the trial, she had been sick and was not in Kaulinan any mo re
than she had to be. She saw the \~deo implicating Applicant and ag-reed it was a good
case; but she did not attend or help much with the trial. She heard about tl1e trial from ·
(452)

108

MrLelland, Hasse, ,md another assist.ant, and it sounded like it was a "really angry trial."
(6 \tVRR 12G-29).
(4 53) Korioth represented the State 011 the appeal of A pplicant's burglary trial because
she handled all the appeals in the ollice at that time. ((i WRR 1215).
When asked about her opinion of Applicant, Korioth testified: I didn't really
have one. I'll, I'll say I wasn't terribly impressed "'~th any of the JPs in Kautinan County,
but they were small townJPs, you know, and that's me being ugly. But I don't think I
really had much opinion." (6 WRR 12!>).
(454)

Korioth explained Rick H arrison, who hired her, seemed to like Applicant but
Mc Lelland seemed to despise him. When asked if she had strong leelings about
Applicant, Korioth stated: "What's the point. You know, I didn't live there. 1 didn't know
who was right and who was wrong, so I basically just kind of dismissed both of their
opinions." (G WRR 12!5).
(455)

When Korioth was asked whether her sole motivation was to see Applicant in
j,til or "''bet.her it was to see the killer caught, Korioth testified:
(456)

My motiYation was to see whoever was murdering people get caught and
prosecuted, and hopefully by doing that to stop people from getting shot.
I .ike it is in any case, you never want to see more people get shot. But
no, I, I didn't have anything against !Applicant] and in fact wouldn't want
him to he prosecuted if he wasn't the one doing the murders.

(6 \ t\/RR 13:-n.
(457) Korioth ensured an impartial investigation. She talked constantly to McLelland
about asking law enforcement to pick up Applicant and his friend~, telling him: "IYlou
know, Mike, I know you're upset, but we can't just go pick people up." ((j \tVRR 7 1-72,
1a 1-a2).
Applicant relies on an email Korioth sent the State before the writ hearing, when
she wrote: "It just pisses me off that that sniveling little bastard ,-vas stealing \tVestlavv lsicl
services from the county fc>r 4 or fj years l.l " But Korioth testified this did not indicate
extreme prejudice, rather: "I think anybody that steals from the county, from taxpayers,
is kind of a sni,·eling little bastard. That's just how I tee!." No e,·idence in the record
(458)

109

shovvs Korioth contaminated the capital murder prosecution of Applicant because
Applicant had stolen LexisNexis senices from the county. (6 WRR 118-1 9; AX 207).
(459) Korioth's testimony she did not have a personal animosity or resentrnent against
Applicant rising to an actual conflict of interest is supported by the evidence.
Applicant fails to prove Korioth was partial o r "interested" or that she had an
actual conflict of interest in this case.
(460)

No Due Process Violation
To succeed on his conflict claim, Applic;mt must establish an actual conflict of
interest existed that pr~judiced him in such a manner as to rise to the len~l of' a dueprocess \'iolation. ,'iee See 1:\- pa1te Reposa, No. AP-7 5,96!>, 20m) \tVI, ~-34784,S.S, at * l 0
(Tex. Crim. App. 2009) (orig. proceeding, not designated for publication).
(461)

(462) Applicant's claim that prosecution by an interested prosecutor is fundamental
error not suhjecl to harmless error analysis is not supp01ted by the applicable law.
(463)

Applicant does not show he was actually pr~judiced.

Applicant\' C'onflict of'/nten:st C'/;uin i\· Suliect to a Prt;/udicc Rei iciv
(464) Applicant argues Korioth's involvement in his prosecution constitutes
fundamental error not sul~ject to harmless error re\~ew.
(465) In support, Appliec.mt relies on Young v. ( ~.S: ex rel. Vwtton ct FJZ\· .S:A., 48 l
l i.S. 787 (1987), and Lx p;11te .SjJain, 589 S.W.2d 1a2, 1:~4 (Tex. Crim. App. 1~)7~)).
T'he holdings in Vuitton and .', jJaii1 are not dis positive.
(466) In Yuu111-1; Louis Yuitton, a leather goods manufacturer, sued S.K. for trademark
infringement. S.K. settled with Yuitton and consented to a permanent iqjunction
prohibiting him from making or selling fake Yuitton goods. Later, S.K. was caught
making and selling the counterteit goods. Vuitton's attorneys asked the trial court to
appoint them as special prosecutors in a criminal contempt action for the \·iolation of
the settlement i1uunction, which the court granted. A jury comi cted S.K. of criminal
contempt. S.K. argued the appointment of Vuitton lawyers violated his right to be
prosecuted by an impartial prosecutor.

110

{467)

In overturning the conviction, the Young-Court declined to address whether the
prosecutorial conflict of interest was unconstitutional; instead, it relied 011 it-; "supervisory
authority" over the federal courts' procedures to enforce their orders and held that
"counsel for a party that is the beneficiary of a court order may not be appointed as
prosecutor in a contempt action alleging a violation of th,tt orde r. "

(468) Also, the Young Court was split as to whether the conflict of interest was sul~ject
to h,mnless error analysis. A plurality of the Court he ld it 'vvas not, but an equal number
ofjustices, four, argued that since the error was not of constitutional dimension, the case
should have been remanded to the lowe r courts for harm ,u1alysis. See Young, 481 l 1.S.
at 809-10, 8'.W-27; seeah;o54 Baylor L. Rev. at 188.
{469)
Thus, the Young case "did not settle the issue or whether a prosecutor's lack
of disinterestedness can constitute a per se ,·iolation ol' due process or whether
disinterestedness is sul~ject to harmless error analysis." Edward L. \ 1\/ilkinson, C'cmlh<·ts
of1nterest in T exas C'nininaf Cases, .'>4 Baylor L. Rev. 171 , 187 (2002).
(470) Also not dispositive is the holding in .Sj;;11i1 that, when a prosecutor prosecutes a
dde 11dar1t whom he formerly represented as defense counsel in the same case, no
specific prejudice need be shown by the dele nd,mt; such a violation constitutes a due
process \·iolation. !J89 S.\tV.ad at 1:-34; see Landen, 25(j S.\tV.:-3d at
("For a
prosecuting attorney to 'switch sides' in the same criminal case is an actual conflict of
interest and constitutes a due-process violation, even without a specific showing of
pr~judice."). This situation does not apply to the instant case.

:-m4

{4 71)

And court, have he ld the rule is somewhat ditlerent where the nmtlict-ol~interest
daim does not involve prior representation in the s,une criminal matter. /,,;u1den, 25G
S.W.:-3d at :-H)4.
(472) The Court of Criminal Appeals has held a conflict of inte rest alleged to han.:
arisen from the prosecutor's personal bias or grudge against thc defencbnt is not an
obvious conllict on its face that merits automatic disqualitiration; instead, in Lhis situation,
the applicant must demonstrate an actual conflict of interest existed that pr~judiced him
in such a manner as to rise to the level of a due-process violation. ,See]';\ pa1te Reposa,
2009 WL :-347845[), at* 10; see Haywood v. State, ;-344 S.W.:-3d 4.'>4, 462-63 (Tex. Crim.
App. 2011) (requiring a showing of actual pr~judice to the dete ndant where a conflict of
interest is alleged).

111

(473) This requiremenl is consistent with the ge11eral habeas law that a post-co11Yictio11
habeas corpus application must allege facts showing both a cognizable co11stitutio11al .
violation and harm. See 1.;,r p;ute Wei11ste1i1, 421 S.W.:·M G5<>, GG4-65 (Tex. Crim. App.
2014).
(474)

Applicant's conflict claim is sul~ject to a pr~judice analysis.

Applicant Cannot Show fie H1;1s Actually Pnjurliced
Applicant has not met his burden to show he was actuaHy prt:iudired by the
circumstances of his prosecution such that his due process rights were ,·iolated.
(475)

Applicant has not shown Korioth iqjected a personal interest into the
enforcement process that brought irrelevant or impermissible factors into the
prosecutorial decision. See A1w:,;ha/J v.Jenico, Inc., 446 l l.S. at 242, 248-50.
(476)

Applicant does not ~stablish Korioth directed or controlled the investigation to
ensure Applicant was targeted for prosecutio11. In fact, the record shows the opposite:
Korioth slo'vved down, if not stopped, Md .dland's dforts to target Applicant
immediately after Hasse's death. Ct: vVnght 1·. l !nited States, 7:-32 F.2d 1048, I 0!>7 (2d
Cir. 1984) (petitioner did not allege interested attorney was "the real instigator of the
decision to proceed before a new grand jury").
(477)

Significantly, local, state, and federal law enforcement officials investigated all
potential suspects and determined the perpetrator by collecting evidence lx:lhre any
indictments were issued.

(478)

Applicant does 11ot assert and the e,·idenre does not show he would not ha,·e
been i11dicted or convicted had Korioth not been involved whatsoeYer. See 1-Ia;wood,
~-344 S.W.3d at 4G;-3.
(479)

(480) Applicant's wife, Kim \tVilliams, implicated herself and Applicant m the
murders, and law enforcement corroborated her statementli.
(481) Applicant has presented no evidence Wirskye or Shook had an improper
motive in prosecuting Applicant or that they unfairly prosecuted him. See /Juntion 1,:
State, 482 S.W.3d 58, 77 (Tex. Crim. App. 20 l G) (holding that 110 actual misconducl by
the district attorney's office was shown in pursing the death penalty in Buntion's case).
112

(482) The e,·idence sho\.vs prosecutors pro tem Wirskye and Shook represented the
State fairly and exercised sound professional judgment during the prosecution.

l lltimately, Applicant was tried by an impartial judge and jury, he was
represented by counsel, and he had a full opportunity to present his case. The jury had
(483)

suHicient e,·idern:e to support its finding that Applicant was guilty and that he deserYed a
death sentence.
(484)

Applicant fails to prove he was actually pr~judiced by Korioth's assislancc in his

case.

(485) Korioth's assistance in Appliecmt's case did not ,~olate Applicant's due process
rights.
Applicant's claim that his right-; to due process and fair trial were violated
because Sue Korioth participated in his prosecution is denied.
(486)

Communications with Jury
Applicant asserts the State violated his due process rights under the Texas and
Federal Constitutions by engaging in ex p,ute communication with the jury during the
penalty phase deliberations.~•
(487)

For a defendant to ha,·e a fair trial, the jury must decide the case on the basis of
the evidence presented at trial. Sec Parker 1: (.,'Jar/den, :18,S l r.S. :1G:1, :1(>4 (I 9(>f>); Ocon
1·• .',iate, 284 S.vV.:1d 880, 884 (Tex. Crim. App. 2009); /J;m1t·tt I'. .~talc, ,1~0 S.\tV.:~cl
188, 19:1 (Tex. App.-Amarillo 20t1, no pet.).
(488)

Any private communication, contact, or tampering with a juror, directly or
indirectly, during a trial about the matter pending before the jrn11 is presumptively
pr~judicial, if such contact is not authorized by the court and is made without the
(489)

Applicant also discusses Article ;~(i.22 or the Code or Criminal Procedure , which prohibits rn11tact
with jurors. Tex. Code Crim. Proc. Ann. art. :-Hi.22 (\Vest 200(;). To the extent Applicant 1·clics 011
this staluLc, such argument is 110! cog11i1.ahlc 011 habeas review because it docs 1101 allege a
fundamental or constitutional violation. Er partc Swcho:, 918 S.vV.2cl 526, 527 (Tex. Crim. App.
1996).
24

113

knowledge of the parties. Remmer 1: [ !nited States, ~147 li .S. 227, 229 (I ~)54);~; O!i1 -er
1: Qu;utennan, !>41 F.:-M :129, :1:14-:16; /Jalderas 1: State, 517 S.W.:·kl 7!>6, 782 (Tex.
Crim. App. 20 lG).
Applicant bears the burden of showing a co11versatio11 occurred between a juror
and an unauthorized person. See l~r pa1te Lalo11rle, !>70 S. W.:1d at 725 (applicant hears
the burden to prove by a preponderance of the evidence facts that entitle him to re lie!);
see aim J-lu1;hes F. ,State, 24 S.W.Bd 8:f3, 842 (Tex. Crim. App. 2{)00) (delendant has
tl1e burden of proving the allegation of juror misconduct); 1Ja111ett, 420 S.W.:1d at 19:1;
see generally Remme1; a47 l 1.S. at 229.
(490)

Applicant's sole evidence is the declaration of his father, Jim Williams. Jim
stayed at the same motel as the jurors the night they were sequestered at the punishment
phase. H e claims while he was outside smoking that night: "two women and two men
who I recognized as jurors came down to the smoking area while l was out there. \ 1\/e
did not speak to each other but I was close enough to h ear their conversation." He says:
"As they were fo1ishing their cigcu-ettes, one of the women said they h etler get back up to
the 'meeting room' because the prosecutors wanted to talk to them." (AX 20 at 11-1 2).
(491)

Procedurally Barred
(492)

or trial or

(493)

"llln general, claims that could have been raised 011 appeal cannot be raised at

Applicant fails to prm·e he could not have raised this issue at the time
on direct appeal.

all 011 habeas." J1,:x p;ute Lalonde, !>70 S. W.ad 71 G, 727 n.11 (Tex. Crim. App. 20 l!))
(Keller, P ..J, and Slaughter, J., concurring). " By raised on direct appeal, we mean, that
the claim was or could have been raised at trial or in a motion for new trial, 'vvhich would
make it raisable 011 direct appeal." Id. at 727 n.9.
The Court of Criminal Appeals has recently highlighted its "trend to draw
stricter boundaries regarding what may be advanced on habeas petitions because the
Great Writ should not be used to litigate matters 'which should . h ave been raised 011
(494)

The Rcmmcr presumption or prejudice has hee11 questioned. Sec c.g, l !niter/ Stales c-. Smith,
:15,1. F.:-M :-l!)O, :-nr; (5th Cir. 20(>:H; O/i1·cr, 5-11-1 F.:M at :l-1-1.

25

114

appeal or at trial." Id. at 727 11. 11 (quoting J::r p;ute.fiinem-:✓., :1G4 S.\V.:1<1 8GG, 880 (Tex.
Crim. App. 2012)).

(495) Applicant alleges "the State's misconduct-which occurred outside of the
courthouse and, presumably, outside the knowledge of the Court and trial counsel-went
undiscovered until post-conviction investigation, preventing Mr. \ 1Villiams from maki11g
ol~jertions to the misconduct!.!" (App. at 72).
Applicant neither alleges nor proves when he learned wha.t his father ,dlegedly
overheard.
(496)

Although Applicant presents.Jim's declaration,Jim does 11ot address whether he
relayed this alleged information to anyone at or 11e,u- the time it happened. (AX 20).
(497)

(498)

Thus, Applicant fails to sustain his burden of showing his clai,111 is re,·iewable.

/\pplicant's claim that prosecutors communicated with sequestered jurors
should be dismissed as procedurally barred.
(499)

Apphcant Fails to ADege Facts that Entitle Him to Rehef
As Applicant's father, Jim Williams is a biased witness, ,md has not been
confronted and sul~jected to cross-examination.
(500)

AssumingJ im vVilliams heard jurors say they v\lere meeting with the prosecutors,
it seems reasonable to expect him to immediately com e forward and tell someone <'>11
the detense team, the baililt or the trial cou11.
(501)

Jim Williams fails to explain why he did not come forward at or near the time
of trial, or under what circumstances he decided to tell someo11e. His delay and lack of
explanation calls into question the accusation's veracity. If raised at the time of trial, the
claim could have been immediately investigated.
(502)

(503)

Even assuming.Jim \t\/illiams overheard jurors talking while sequestered, a high
probability exists that he misunderstood what was said .
(504)

At the writ hearing, lead detense counsel Matthew Seymour told the court
Applicant's father is hard of hearing. (7 \tVRR !J7). A memorandum written by 1nitigation

115

specialist Stephanie Bell provided: "Jim Williams has trouble hearing out of his right
ear." (SWX 7 at 14 1 - 8/ l :-3/ 14 memo p. B & Bates Stamp 08 l679).

(SOS)

At the tim e of trial.J im was at least 85 years old and taking tranquilizers to reduce
the tremors in his hands. (SWX 6 at I:-3 - 4/24/ 1:-3 memo p. 2 & Bates stam p 0~J?:-378;
SWX G at 55 - 7/ 11/rn memo p. B & Bates Stamp 082028; SvVX G at .'>8 - 7/ 11/20 1:-3
memo p. (j & Bates stamp 0820:11 ).
(506) Jim Williams's ,-vritten statement he heard jurors say they ,,vere meeting with the
prosecutors does not establish that actually occurred.
{507) While Applicant sperilic:ally requested a hearing in his writ application in order
to "pro,·e the merit" of his claim," he offered no additional evidell!ce at the hearing 011
this issue. (App. at 72-7:-3).
(508)

Applicant has not prmided corroborating evidence.

(509) Applicant fails to tender statements or testimony from any jurors. See Tex. R.
Evid. 60G(b) (allowing ajuror to testity on whether "any outside inl1uence was improperly
brought to be,u- on any juror"); Mc(Jua1rie i:. State, 880 S.W.Jd 145, 154 (Tex. Crim.
App. 2012).

(510)

On direct examination at the writ hearing, lead prosecutor Bill Wirskye denied
he had any ex p,ute cont.act with jurors. (8 \ V RR 97). Applicant's counsel did not
question \ Virskye about this issue.

(511)

The trial court's verbal and written admo nitions and instructions to the jurors
ad d credence to \tVirskye's denial and call into question .Jim Williams's allegations.

(512)

The court verbally instructed the jurors on the lirst day of trial:
No one may discuss this case with you during your sen·ice as jurors....
To maintain the integrity of the jury system, the law prohibits lthe
lawyers! from speaking with you u ntil you are released from duty 011 this
case. I/someone does contact you or hies to contact you, rep01t that /;l('f
to the baihff'at once. . . . The lawyers in this case are outstanding lawyers
and totally ·and completely ethical. There won't be any situation with

116

them. But there may be other people that try to contact you. Jl1ak.e sure
that you let me knm v or !he baJ/J/J.\· k.1101 v //'that occunl. I
44 RR 1(j (emphasis added).

The court's statement highlights both the extreme unlikelihood one or the
prosecutors in this case would engage in ex parte communication with sequestered jurors
and the jurors' knowledge that any such conduct would be wrong and should be
reported.
(513)

The trial coul1's charge lo the jury in the punishment phases instructed the jurors
not to "talk about this case to anyone not of your jury," that " 110 one has the autho rity to
communicate with you except the ollicer who has you in charge, and finally: " Do not
attempt to talk with the oflicer, the attorneys, or the Court concerning any questions you
may have." (11 CR 4292, 42~)6).
(514)

A re,~ewingcourt presumes thejury followed the trial court's instructions, unless
there is e,·idence to the contrary. .'iee.fe11.kli1s ,,. State, 49:-{ S.W.:·M 58:-3, <> l(j (Tex. Crim.
(515)

n•,r ·,
A Jli!Jt"<-

Ol~
Lt'r;./

1(>') •

Applicant fails to proffer any credible evidence thatjurors talked about m eeting
with the prosecutors or met with the State while they were sequestered.

(516)

(517) Applicant fails to prove, by a pre ponderance of the evidence, the facts that ,vould
entitle him to relief. See Fx JHJtte La/011de, 570 S.W.:1d at 725.
Applicant's claim the State engaged in prosec:utorial misconduct by
c:ommunirating with the sequestered jurors should be denied.
(518)

Claim 2: Ineffective Assistance of Trial Counsel
(519) In Claim 2, Applicant contends trial c:ounsel rendered ineftecti,·e assistance in
both the guilt and punishrnent phases of his trial. (App. at 74-7G).
(520) The benchmark for judging any claim of ineflective assistance of counsel is
whether counsel's conduct so undermined the proper functioning of the adversarial
process that the trial cannot be relied upon as having produced a just result. Strick/;wd
i-: Wasluiigton, 466 ll.S. 668,686 (1984); H en1andex .-. State, 72G S.W.2d
57 (Tex.
Crim. App. 1986). An applicant asserting a claim of ineflective assis tance must pro\'e by

s:~,

117

a preponderance o f the evidence that: (I) counsel's representation tdl below an ol~jecti\·e
standard of reasonableness, and (2) there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding would haYe been diHerent.
See 7710mpson v. St::ite, 9 S.vV.:·M 808, 812 (Tex. Crim. App. 1999) (explaining the
standard under Stnc·kl;wd). A reasonable probability is simply "a probability sutlicient
to undermine confidence in the outcome." Stn'c·klanrl, 4G6 ll.S. at 694. That requires a
"substantial," not just "concei\"able," likelihood or a ditlerent result. Cullen 1·. I'1i1hol~·,c1;
!J6:1 l i.S. 170, 189 (2011) (citing l-farni11;to11 I". Richte1; !j(i2 l l.S. 86 (2011)).

(521) Isolated errors or omissions of counsel do not amount to delicienr performance.
1~:r pa1te JJm vman, !>Ba S.vV.:1d a:17, :1!J0 (Tex. Crim. App . 20 17). Counsel's
perfonmmce is judged by the totality of his representation. Id. Constitutionally
competent legal representation is not a static thing: "there are countless ways to provide
effective assistance in any given case." Id. (quoting StJickl;wr~. "ICI ounsel's hmction, as
elaborated in prevailing protessional norms, is to make the adversarial testing p rocess
work in the particular case." Id. The presumption is that counsel "rendered adequate
assistance and rnade all significant: decisions in the exercise or reasonable protessional
judg1nent." Id. An applicant who cannot overcome this p resumption by a
preponderance of the evidence will not succeed in his Sixth Amend rnellt claim. Ir/. The
applicant must identify with particularity "the acts o r omissions or counsel that are alleged
not to have been the result of reasonable protessionaljudgrnent." Id.
{522) Applicant fails to demonstrate by a preponder;mce of the e,idence any
deficiency in trial counsel's representation or him in the gu ilt or punishment phases of
his trial.
(523) E\·en assuming counsel's representation at trial was cleficie11t, Applicant fails to
demonstrate by a preponderance of the evidence any resulting pr~jmlice.
(524) Further, the record shows Applicant's suHered no violation of his Sixth
Amendment right to effective assistance of counsel.
(525) Applicant received dlective assistance of counsel in both phases of his trial, and
Claim 2 should be denied.

118

Punishment Phase Representation
Mitigation Investigation
(526) Applicant contends his trial counsel rendered indkctive assisla11ce by faili11g- to
conduct an adequate mitigation im·estigalion. In pa1ticular, he claims counsel should
have further investig-dted and presented evidence of (I) brain damage and (2) a history
of family trauma, dysfunction, addiction, poverty, and mental illness. (App. at 74-7!>).
(527) "Counsel has a duty to make reasonable i11vestigations or to make a reasonable
decision that makes particular investigations unnecessary." Strickland, lj.6(; l l.S. at G9 I.
"fAl p,uticular decision not to investigate must be directly assessed for reasonableness in
all the circumstances, applying a heavy measure of deference to counsel's judgments."
WJ.i:g1i1s , : S1nith, 5~i9 l 1.S. 5 10, 524 (200~1). " ISltrategic choices made afrer thorough
investigation of law and facts relevant to plausible options are \·irtually
u11d1allengeable[.I " Stricklan(/, 466 ll.S. at 690. Counsel is not required "to investigate
every conceivable line of mitigating evidence no matter how unlikely the effort would be
to assist the defendant at sentencing." Wig;q1i1s, .1~19 l l.S. at S:1:1. "In assessing the
reasonableness of ;u1 attorney's investigation, ... a court must consider not only the
quantum of e\·idence alread y kno'vvn to counsel, but also whether the known evidence
would lead a reasonable attorney to im·estigate further." Id at ,1'27.
(528) When assessing pr~judice from an inadequate mitigation investigation, the
applicant must demonstrate a reasonable probability that the jury wou ld not ban~
sentenced him to death if the post-conviction mitigation evidence had been presented at
trial. StJicklanrl, 46(j l l.S. at (j94-95. This means the applicant must show a reasonable
probability that at least one juror would have answered the mitigation issue in his faH>r.
WJgg1i1s, 5:-N l 1.S. at 5:-37. To determine whether the applicant has met this burden, the
aggravating evidence is weighed against the totality of the available mitigating evidence,
including both the trial and habeas evidence. Id at .Sa4. Whe n counsel has presented
some mitigating evidence, the failure to conduct an adequate mitigation investigation will
not pr~judice the detense if the new mitigating evidence "would barely have alte red the
sentencing profile presented" to the decision-maker. Sean;,-. I 1pton, 5G l l 1.S. 9,tr,, 9!>.1
(20 I 0) (quoting StJickland).

(529)

Applicant fails to show a deficiency in counsel's mitig-c1tio11 investigation.

119

(530) Applicant also fails to demonstrate a reasonable probability that but for counsel's
allegedly deficient investigation the jury 1tvould not have sentenced him to death.

Brain Damage Investigation Not Deficient
(531) Applicant claims counsel was deficient for not timely requesting funding for
brain imaging and the expert assistance of a neuroradiologist. He also claims counsel was
deficient for not employing an expert to conduct a thorough psychological evaluation
and an expert who could educate the jury about the impact or diabetes 011 his furn:tioning.
(App. at 81-86, 91-95). Applicant theori✓.es that the murders were precipitated by a
signiticant brain i1umy, likely caused by his diabetes, which inhibited his emotional
control, his judg111ent, his memory, and decision-making. (App. 74-75, !)~)). He claims
"highly mitigating" evidence o f this could have been presented at trial but for counsel's
delay in conducting the necessary i11vestig-c1tion. (App. at 81-82).
(532) Applicant fails to show by a preponderance of the evidence that coimsel was
deficient for delaying the request for brain imaging and a neuroradiologist's assistance.
{533} Applicant fails to show by a pre ponderance of' the evidence that counsel was
deficient for not ha,·ing an expert conduct a psychological e,·aluation o l" applicant.
(534) Applicant fails to show by a preponderance of the evidence that coun sel was
deficient for not presenting a.n expe11 at trial to attest to the impact of diabetes 011
Applicant's hmctioning.
(535) Applicant fails to rebut the presumption that counsel made sound strategic:
decisions with respect to the brain damage investigation.
(536) At trial, counsel presented no evidence Applicant suffered from brain damage.
But contrary to Applicant's contention, counsel conducted a timely and thorough
investigation into his physical and mental health. Counsel also requested ,unple expert
assistance in developing evidence to support a neuropsychological mitigation ddense at
punishment. l Tltimately, counsel made a strategic choice to shitt their focus to other,
more viable mitigation theories.

120

The Investigation

(537)

The investigation beg;-m during counsel's first meeting with Applicant on April
22, 201a, immediately after his arrest and two months before his July 27 indictment.
During the meeting, counsel collected a client history including Applicant's current
health concerns and medications, hospitali;.;. ations and emergency room Yisit~, drug and
alcohol usage, and mental health history. Applicant was a Type I diabetic who took
insulin daily,
used a sleep apnea device nightly, he had passed out from low blood
sugar in 2011 .;md driven himself to the hospital for stitches to his nose, he had been
hospitalized in September 2010 for acute pancreatitis and acute renal failure, he had gall
bladder surgery in 2005, and he had gone to the emergency room i11 2002 and 200:-3 for
low blood sugar. Counsel also learned Applicant had sutlered from anxiety and
insomnia or a sleep disorder. Counsel also obtained the name and contact information
for Applicant's primary physician, Dr. Mark Sij. Afrer collecting this information,
counsel discussed Applic,mt's medical issues with him. (S\1\/X (> - memo elated ,'l/24/ I:1;
Initial Client Information Worksheet dated 4/ 24./1:1).

he

(538) On Fe brnary 14, 2014, counsel requested fonding for Dr. Steven Yount, an
osteopath. Dr. Yount was hired to evaluate Applicant's health. (Unsealed CR 88-92; :1"1
Supp. CR 27-~1 l) (Ex parte Motion F). The court granted the motion on March 17, 2014.
(Unsealed CR 110).
(539) ( )n April 14, 2014, counsel sought input from Richard Burr, a criminal defense
attorney with si.i.,ri1iticant experience in death penalty litigation who regularly consults with
other attorneys in capital defense matters. (5 WRR 48-50; 7 WRR l a0-:-3 1; AX 59).
Counsel met Burr and his wite, Mandy Welch, in person to discuss mitigation tl1emes
and investigation. (SWX G - memo dated 4/21/14, Bates Stamp ~8:-3G2-28~1G:1). They
discussed the possibility Applicant sutlered from psychological issues or disorders. Id.
Counsel was already considering tl1is possibility and planned to conduct a battery of
medical testing and brain scans or imaging. Id. Burr recommended, howe,·er, that
counsel consult a neuropsychologist before conducting any tests. Id. At Burr's urging,
the defense subsequently o btained funding l<.>r expert assistance from Dr. J ames
Merik,mgas, a psychiatrist and neuropsycholo.i.,~st. Id.; (:-3'<1 Supp. CR ~).'VJ9; ,'> WRR ,'>05 l; 7 \t\/RR 182). Dr. Merika.ngas's role was to provide an armchair assessment of
potential psycholo1,~cal issues and help counsel locate additional assistance in developing
e,~dence of those issues. lrl Dr. Merikangas did not perform a psychiatric evaluation of
Applicant. (7 WRR l~-3:-3).

121

(540)

On May 20-21, 2014, counsel prm'icled. Dr. Yount with arcess to a ,·a.riety of
Applirant's medical records, including Dr. S~j's records. (l lnsealed CR J,S4-!):'>; AX (j2).
(541) In May 2014, counsel had a conference rall with Dr. Merikangas, Dr. Yount,
and Burr. (5 \ tVRR 50; 7 WRR 1:-30-:-H; AX 95, 9G). During this conference, counsel
theorized "something was wrong with !Applicant's! thinking and that his medical issues
might have resulted in mental issues." (7 \IVRR 1:-32). Dr. Yount remarked there vvas a
high rate of bipolar people with diabetes. (7 \IVRR 1:-3:-3). Dr. Merikangas recommended
an MRI. (7 'vVRR taa-:-34).
(542) In June 2014, Dr. Yount examined Applicant and ordered laboratory tests. He
found Applic;mt's blood sugar to be dangerously low and ended the exam early. Dr.
Yount opined Applicant's diabetes was poorly controlled. He recommended au MRI.
(58 RR 9-10, 14-1!); 7 WRR 1:14; AX 62).
(543) On J uly :-30, 2014, the court authorized funding for Dr. Joan Mayfield, a
neuropsychologist, to conduct neuropsychological testing. G1'd Supp. CR 48 - Order on
Ex parte Motion M). The comt also authorized fonding for medical laboratory testing.
(l lnsealed C R a6:-3-6!)).
(544) On August 1-2, 2014, Dr. Mayfield administered a battery of neuropsychological
tesl-; to Applica.nt in the Rockwall County jail. These tests measured Applicant's cognitive
strengths and weaknesses. (58 RR 62-6m.
{545) On Auf.,'l.lSt l 8, 2014, Dr. Mayfield reviewed the test results with counsel in a
phone conference. (f> \tVRR G2-(ja; 7 WRR 1:-37-:-38; AX l 09). Overall, Applicant's scores
\-Vere within the normal or average range. Some were above average ,md a few were low
average. one showed significant deficits. Applic,mt had some weakness in his language
scores, but it was still within functional ability. (!)8 RR G~-3-69). The absence of any deficits
meant any anomalies in Applicant's brain structure were not atlecting his cog11itin~
functioning. (58 RR G9). Mayfield did not do emotional testing, such as the MMPI or
the PAI and she normally isn't asked to do such testing. (58 RR 70-71). Mayfield
recommended an MRI. (7 v\/RR

mm.

(546) In September 2014, Dr. Yount arranged for additional laboratory testing on
Applicant. The lab work included Applicant's glucose level, insulin level, c-peptide
levels, liver en;;,ymes, lipids, and thyroid hormones. ·or. Yount reported the results of
122

this testing to nmnsel 011 September 25, 20 I 4 and inquired about conducting brain
scans. (AX 62; AX I OG).

(54 7) On September 28, 2014, counsel notified the State of its designated expert
witnesses. The list included Drs. Mayfield, Merikangas, and Yount. (IO CR 11,00~)-IO).

:-n,

(548) On October
2014, counsel requested hmding for assistance from Dr. J ohn
Fabian, a neuropsychologist. The request was premised on the need fc.>r expert assistance
in determining the types of brain imaging to be peticmned and whether Applicant
suflered from a mental illness. (an! Supp. CR 5 1-.5~-3 - Ex pa1te Motion R).
(549) According to Dr. Fabian, the defense team asked him to "evaluate whether
!Applicant's I history of having hyperglycemic blackout, as a result of his poorly treated
diabetes could explain aspect, of the capital murder allegations." Fabian interviewed
Applicant and reviewed Dr. Mayfield's test results. He did not reYiew any other records,
and the defense team instructed him not to conduct any psychological testing. Based on
the neuropsychological test battery resulb, news media articles, and his inten·ievv with
Applicant, Fabian believed Applicant was exhibiting symptoms of a serious mental
illness, paranoia, but he could not confirm this without psychological testing. (AX 2.'>).
(550) On November 9, 2014, counsel requested funding for brain scans or brain
irnaging, inducting but not limited to an tMRI and PF.TS CAN. Counsel wished to hire
Dr. William ( )rrison, a neuroradiologist, to interpret sc:ans and determine whether
Applicant sutlered from a brain tumor or other abnormality that may or may not be
associated with his diabetes. (GOI RR Court's Exhibit l - Ex pane Motion T).
On November l l, 2014, the court asked counsel to provide additional support
for the request Lead counsel, Matthew Seymour, f<>rwarded this request to the rest of
the defense team. Two days later, the court followed up with another email to counsel,
asking if he planned to provide additional support for the request. Counsel immediately
responded he would provide the support after the Daubert hearing scheduled the next
day, but he did not forward the additional support to the cou,t until November <J.7, 20 14.
(601 RR Court's Exhibit I ; 7 WRR 1:1G-:17).
(551)

On December l, 2014, 1J1e first day of trial, counsel tiled a supplement to their
second motion for continuance urging, f<>r the first time, the need to conduct medical
testing to determine if as a result of his diabetes, Applicant was sutlering from brain
damage. (IO CR 425.'>). T'he court denied this supplemental motion. (44 RR l 0).
(552)

123

On December :i, 20 l 4, the court granted the motion for fonding to cover the
expense of Dr. Orrison's assistance and brain imaging. (:i"1 Supp. CR 7~)).
(553)

Although trial had st,uted, counsel contacted Dr. Yount and asked hi m to search
for a facility where diffuse tensor imaging (DTI), a particular type of MRI, could be
conducted. Yount had ditlicu lty finding a facility in the D allas/ Fort \!Vorth area that could
perform an MRI with DTI. (.'i:-3 RR 8; .'>8 RR L'i-lG; AX 62).
(554}

On December 8, 20 l 4, counsel tiled another supplement to their second
motion for continuance claiming additional time was needed to arrange for th e brain
scans that the court had now agreed to h.md. (10 CR 4286). The court denied this
supplemental motion. (48 RR 7).
(555)

And on December l .'i, 2014, the day before trial ended, counsel filed yet another
supplement to their second motion for continuance; in this pleading, counsel asserted
that Dr. Orrison would testify to the presence of any brain abnormalities shown by the
imaging and that Dr. Fabian would testifi C(regarding the ellects on beha\·ior of brain
abnormalities detected by the brains scans done at the direction of Dr. Orrison." (l OCR
4:-30.'i-06). T he court denied this supplemental motion. (5:-3 RR 7-m.
(556)

1

(557) Counsel imaged Applicant's brain 011 J anua1y 9, 2015, about three weeks alter
trial. The results were reviewed by two neuroradiologists - Dr. VVilliams ( )rrison and
Dr. Tomas l lribe Acosta. Counsel presented the opinions of both doctors in the hearing
on Applicant's Motion for New Trial. Counsel also otlered the testimony of Ors. Yount
and Mayfield. Counsel argued they had discovered new evidence of brain chunage and
that the court had prevented them from presenting it at trial by not prm-icling them the
time and resources to develop it sooner. (11 CR 4:-367-4:-374).

But in the hearing on the motion, Dr. Yount testified counsel made the decision
not to bring up the brain damage issue at trial because of Dr. Maytidd's test results. His
testimony 1vvas corroborated by a note he made in his tile: "Decision made not to attempt
detense on basis of neuropsych, little found by Dr. Mayfield." (58 RR 47-48). In
addition, Mayfield confirmed the results of her neuropsycholo1-,rical testing e,·inced 110
functional deficits and were inconsistent with a moderate to severe brain iq jury. (58 RR
62-70). Moreover, Dr. l lribe Acosta testified Applicant's brain imaging was normal and
did not show a moderate to severe brain iqjury. (58 RR 76-87; SX MN'T 1).
(558)

124

(559)

The court denied Applicant's motion for ne\iv trial, finding: (1) the court did not
prevent Applicant from developing and presenting evidence of a brain iqjury; (2) the
defense team "investig-c:1.ted such a defense months before trial and, based 011 the results
of that investigation and the res ult'i of subsequent testing, made a sot.md strategic decision
not to pursue it at trial"; ,md (.3) the court timely responded to and ultimately granted an
"eve of trial" request for funding for brain imaging. (Supp. l CR 22-2:-n.
Sound Strategic Choice
(560) The preceding facts show counsel did not fail to pursue brain imaging and
corresponding expert assistance in a timely manner. Rather, counsel made a strategic
decision before trial to focus their time and effort'i on developing otJ1er, more ,·iable
mitigating evidence.
(561)

Applicant fails to rebut the presumption this strategic decision was a reasonable
one. Moreover, the record aflirmatively supports its reasonableness..
{562) The results of Dr. Maytield's neuropsychological test battery were i11cm1siste11t
with moderate to severe brain damage. The results showed no cogniti,·e clelicits and a
normal brain.
{563) Also, evidence Applicantsutle red from brain damage which made him irrational
and prone to outbursts would have been inconsistent with the defense's argument d1at
applicant did not pose a future danger.
(564) And evidence Applicant had a poorly functioning emotional processing system
would have been inconsistent i.,vith the fact that he had a highly successful legal career,
making the brain damage claim less persuasive or credible .
{565) Fu,thermore, the brain damage evidence Applicant claims counsel should have
developed would have required a psychological evaluation. This would have necessitated
emotional testing, such as the MMPI and the PAI. The results of this testing would likely
have yielded evidence of anti-social personality disorder or psychopathic characteristics,
which would have been highly aggra,·ating facts. Morem ·er, as the State had filed a
1-<.wnme motion, counsel could not have utilized the results of a psychological e,·aluation
to support a brain damage claim without disclosing any aggr,l\'ating results to the State
and its o\ivn psychological expert. Even if the defense did not administer the MM PI, the
State's expert would have been permitted to examine and test Applicant and he ·would
125

have administered the MMPI as well as the PCL-R (Hare Psychopathy Checklist).
Whether obt,1ined through defense or state testing, the State would certainly have
presented any agwavating data to the jury. Thus, by not pursing the brain d,unage theory
any further, counsel avoided generating and revealing ag1-,1Tavating evidence fcx the State's
use at punishment.
I .astly, by con tinuing to seek funding i<>r imaging 011 the eve of ;md during trial,
counsel increased their chances of getting a continuance and buttressed a post-con\'iction
claim attacking the denial of one. If given more time to develop it, counsel may "veil have
presented their evidence of brain damage. But absent more time, counsel's decision to
focus 011 other, readily available mitigation e,·idence that was consistent with their future
dangerousness theory was sound.
(566)

13rain Damage 1~·ndencc !\lot C'redihle or Penuas11 ·c
Even assuming counsel should have finished their brain clcunage i11restigatio11
before trial, Applicant fails to demonstrate his defense was pr~judiced by it.
(567)

Applicant argues as a result of counsel's deficie nt investigation, "highly mitigating
evidence of !his] brain abnormality was not discovered until weeks alter trial." Applicant
claims he sutlers from a severe brain impairment, particularly in h is limbic systern and
frontal lobe, and "decades of uncontrolled diabetes caused pathological changes to his
brain which, in tum, impacted his behavior." (App. at 98, I 05).
(568)

Applicant fails to prove he sutlers from brain damage. Moreover, the reliable,
evidence shows he does not.
(569}

In support of this claim, Applicant relies primarily 011 Dr. ( )rrison's opinion that
Applicant's brain imaging shovvs moderate to severe brain iqjuries. Orrison offered his
experl opinion as a neuroradiologist. 1'; Specifically, he opined Applicant suHered from
progressive moderate to severe bilateral hippocampal atrophy, changes of left frontal
(570)

26

Although also a neurologist, Dr. Orrison had nol practiced neurology in quite a long time and was
acting only as a ncuroradiologisl in Applicant 's case. (57 RR 70) .

126

sheering (diffuse ~Lxonal) inju1y, and a corresponding decrease in corpus callosum fiber
tracts anteriorly. (11 CR 4;-375-8:-3; 57 RR l 0).2;
(5 71)

Dr. O rrison's opinion is not reliable e\·idence of moderate to se\·ere brain iqjury.

(5 72) Dr. ( )rrison based his opinion on re\'iew of A pplicant's brain imaging and two
independent quantitative computer analyses of Applicant's brain. The imaging induded
Cr scans dated J une 17, 2011 ,md December 1, 20 l ~1, and an MRI vvith ditluse tensor
ima.t,~ng (DTI) dated J anuary 9, 2015. (.S7 RR 12). The quantitative computei· ;rnalyses
of Applicant's brain were performed by MINDSET and l\'euroQu;.mt. (57 RR 14) .
(573) To the extent D r. Orrison o pined the MRI showed an iqjury, he is contradicted
by Dr. l lribe Acosta, the neuroradiologist who conducted the initial re,·iew of

Applicant's Janua1y 2015 MRI. Dr. Acosta disagreed with Dr. Orrison\ conclusion
Applicant sutlered from moderate to severe brain iqjury. (58 RR 79, 8!>) . H e determined
the J a11ua1y 2015 MRI was a "normal brain MRI." H e testified Applicant "does not have
an y significant disruption of the major tracts." He saw no trace of any blood product<; in
his brain parenchyma. H e saw only mild volume loss in the right hippocampus. (.18 RR
7€>-77, 85-87; SX-MNT l).
While Dr. llribe Acosta viewed the DTI images ,·isualizing the tract o!' the brain,
he did not review the quantitative analyses by MINDSET and Neuro(Juant. (.'38 RR 7(>,
79-80). However, D r. Orrison's reliance on the quantitative analyses is suspect.
(574)

(575) Q uantitative analyses are not relied on for dia,1.,ri10sis in a clinical setting. The
N euroQ uant report expressly acknowledges this fact. The report - as set out on slide 5
of Dr. Orrison's PowerPoint presentation - states, "Charts and normative ,·,dues are
provided for reference puq>0ses only. Their use for dia.1-,ri10stic purposes has not be
appro\'ecl by any regulatory agency." (l l CR 4:-3~)0). As D r. Acosta explained, when it
comes to diagnosis, "abnormal intensity MRI int.he hippocampus or if you haYe indirect
signs of loss of volume . . . larel more valuable th,m the actual !quantitative!
measurement'i." (58 RR 80-81 ).

27

Dr. Orrison prepared two reports - one dated January l!J, 2015 and a supplc111cn1al report dated
February 20, 201!,. The record only contains a copy ol' his .January report. (11 C R ,l:17.S-87).

127

(576) OTI is not regulcu·ly used in a clinical setting either. One of the articles Dr.
01,-ison cited in his PowerPoint presentation (slide 18) points out the concen1s with
using DTI in a clinical setting. (SX-MNT :-3 - "A Decade of DTI in Traumatic Brain
lqjury: 10 Ye;us and 100 Article Later"). Moreover, other expe rts ha\'(~ ach·ised and
cautioned against it<-i use for dia.i.,rnostic purposes. (SX-M;\JT !'J - "Diffusion Tensor
Imaging in Mild Traumatic Brain l qjury Litigation" ,md "Diffusion Tensor Imaging of
Mild Traumati<· Brain Injury").
(5 77) Some have even opined that expert testimony based on DTJ is inappropriate in
legal proceedings focused on traumatic brain iqjuries. (SX-MNT 4 - "Based on this
review, we suggest that expert testimony regarding DTI findings will seldom be
appropriate in legal proceedings focused on mTBI."); see aim Andrew M. Lehmkuhl
II , Diffusion Tensor lmag1i1g:· Fai/Ji1g Dau/Je1t and Fed. R.1'.;vid. 702 in 1}-;wmatic Br:ui1
lminy Litigation, 87 ll. Cin. L. Rev. 279 (2018).
(5 78) In addition to Dr. Orrison, Applicant presents the opinions of three other
experts in these writ proceedings - Dr. George vVoods, M.D., Dr. Pamela Blake, M.D.,
and Dr. Alan J acobs, M.D. All three experts opine that Applicant suHers from a brain
i1tiu1y. (AX l <{, 57).

(579) Dr. Blake, a neurologist, independently reviewed Applicant's brain imaging. She
agreed with Dr. Orrison's findings th at Applicant sul1ers from a serious brain
abnormality and areas of his brain are significantly atrophied. (AX :1).

(580) Dr. \ ,\/oods, a neuropsychiatrist, conducted a neuropsychiatric evaluation or
Applicant in 2017. He said Applicant has brain atrophy and sutlers from a M,~jor
N eurocognitive Disorder and a Mood Disorder - both of which are secondary to his
diabetes. (AX l).
(581) Dr. Jacobs, a neurologist and neuroendocrinologist, said Applicant's
uncontrolled diabetes has damaged his brain and impacted his be havior si.1:,rnifica11tly.
(AX 2, .'>7).~x

28

In his January 7, 2017 declaration , Dr.Jacobs characlerizccl his opinion as "a hypothesis." (AX
2). In his more recent dedaralion , however, he offered "his medical ;md professional opinion, which
he held 10 a reasonable degTee o f neuroendouinological certainty." (AX 57).

128

(582)

Each of these experts base their opinion on Dr. Orrison's interpretation of the
MRI "vith DTI and the MINDSET and NeuroQuantanalyses. (AX 1-:-n. All(l Dr. Blake
reviewed the same imaging and analyses herself. (AX (n. Thus, their opinions
Applicant's brain is damaged sutler from the same reliability issues as Dr. ( )rrisou's.
(583) More importantly, their opinions ignore the limited sig11ificance of brain
.
unagmg.
.

(584) Brain scans can show activity in the brain, but cannot shovv thought~, feelings, or
behaviors. A person's behavior is a richer source of relevant evid ence about their
criminal conduct than a scan of their brain. (7 WRR 155, 157).
{585) Also, the existence of a structural abnormality in Applicant's brain does not
mean he suflered an impairment. Octavio S. Choi, MD, PhD, \If/hat /Veuros('Jence Clll
and Cannot A11swe1; J. Am. Acad. Psychiatry Lavv 45:278-85 (2017) ("[Blecause many
brain defects do not result in impairment, neuroimaging alone cannot establish, except
in rare cases, whether an individual is impaired, or, if impaired, whether the defect is the
cause. ") .

{586)

An individual can have a structural abnormality without a hmctional de ficit. They
can also have a functional defic it without a structural abnormality. (58 RR G9-70; 7 WRR
I!i5, I62-6:~).
(587) Even if Applicant had a structural abnormality in his brai11, he suflered no
functional deficits.
{588) As previously noted, Dr. Mayfield, the neuropsychologist who administered the
neuropsychologica1 battery of test<; to Applicant right before trial, found 110 significant
cognitive deficits. She found most of Applicant's test scores '"~thin the normal or average
range. In fact, the scores showed Applicant was of high average intelligence. Applicant
had some weakness in his language scores, but those scores were still within functional
ability. Dr. Mayfield was surprised at Dr. Orrison's opinion that Applicant suffere d from
a moderate to severe brain inju1y because Applic,mt's test data did not show significant
deficits. If Applicant did have such an iqju1y , she would have expected his test scores to
be lower. In her opinion, any anomalies in Applicant's brain structure were not a.fleeting
his "day-to-day" cognitive functioning. (58 RR 66-70).

129

The State's expert, Dr. J. Randall Price, also a neuropsyd1ologist, re,·iewed Dr.
Mayfield's neuropsychological test results and agreed with her interpretation of them. (7
WRR 15~-3-5G).
(589)

(590)

Dr. Mayfield and Dr. Price are qualified, experienced neuropsychologists, and
their interpretation of Applicant's neuropsychological test data is reliable <md credible.
Even Dr. Blake a1-,1Teed Applicant's cognitive functioning was normal. (7 \tVRR
l 6~i-G4; AX ~-3).

(591)

(592) Applicant's scores 011 the neuropsychological testing fell i11 the below average
range on 4% of the measures, but this is normal and does not evince a deficit. Studies
show that healthy adults given the same tests score below average between l O and 15%
of a large number of test~. (7 WRR 15~i; SX-MNT 2 - "To Err is Human: 'Almonnal'
Neuropsychological Scores and Variability are Common in H ealthy Adult'>").
(593)

According to Dr. Jacobs, aYe rage scores are abnormal for Applicant. They
re prese nt a decline in Applicant's "premorbicl state" as witnesses han:: described
Applicant as intelligent, a11 excellent lawyer, and a good student. (AX !>7 at!>).
(594) Dr. Jacobs's opinion is premised entirely on lay opinions about Applica11t's
intellect, and he fails to account for the possibility the "witnesses" may have exaggerated
or misappre hended Applicant's cognitive abilities. Furtl1ermore, Applicant presents no
prior test data against which to compare Dr. Mayfield's test result~. Thus, Dr. Jacobs's
opinion Applicant's cognitive fouctioning has declinecl is questionable .
(595) One of Applicant's expert~, Dr. Woods, states Applicant sutlers from a
hmctional deficit, namely, mqjor neurocognitive disorder. (AX 1).

(596} M,~jor neurocognitive disorder has two criteria: (1) evidence of cognitive decline
documented by standardized neuropsychological testing and (2) cognitive deficits that
interfere with independence in eve1)'day activities. DIACNOSTIC AND STATISTICAL
MANlIALOF MENTALDISORDERS, atG02 (S' Ed. 201:i); (7 WRR lGG).
(597) Dr. \tVoods premises his diag110sis on his mvn interpretation of Dr. Mayfield's
neuropsychological test data. His interpretation is unreliable. (AX I). The interpretation
of such test data is a neuropsychologist's, not a neuropsychiatrist's, area of expertise.

130

Also, as Dr. Price's testimony shows, Dr. vVoods misinterpreted the test data. (7 \ 1VRR
16G-G7, 174; AX 1).

(598) No e,·idence shows Applicant is unable to function inde pendently in eve1yday
acti\'ities and in fact, the evidence shows quite the opposite. Applicant's crime was
sophisticated and involved complex planning. (7 WRR 170). But the murders aside,
Applicant was an attorney who ran for and won public otlice and took care of his ill wile
and in-laws. H e required assistance from no one in his daily living.
(599) Dr. Price disagrees with Dr. Woods's diagnosis. Based on Dr. Mayfield's test
result~, he says Applicant does not even meet the criteria for mild neurocognitive
disorder. The record e,·idence supports his opinion. (7 vVRR l G6-f>7).
(600) Applicant's experts maintain he sutlers fro m some emotional, rather than
functional, impairment, which Dr. Maylield's testing was not designed to detect. Dr.
Woods opines Applicant sutlers from a mood disorder. Dr. Fabian says he may sulfor
from delusional paranoia. (AX l, 25). And Dr. Jacobs reports the longer Applicant's
diabetes remained uncontrolled the more aberr,mtly he behaved. (AX 2, f>7) . ·
(601) Dr. J acobs's correlation between Applicant's diabetes and "aberrant behavior"
is weak. He prm~ded no criteria defining aberrant behavior, he did not quantity a berrant
behavior, and he did not calculate a correlation coetlicient. His ;malysis is so simplistic
and inconsistent that it is questionable whether it evinces any correlation between
Applicant's beha,,i or and his diabetes. Et certainly does not demonstrate Applicant's
diabetes caused his behavior. (7 WRR lG0-61; AX 2, 57).
(602) Even assuming Applicant sutlers from an emotional imp,tirment, the e,·idence
does not show it was caused by a structural abnormality. Structure does not equal
function. The brain operates on systems of connectivity. Particular mentil a<:tivities
cannot be limited to certain parts of the brain. One part of the brain can be involved in
multiple ti.mctions. Thus, one part of the brain could be involved in the rq.,rt.ilation of
emotion as well as cognitive activities like attention, memo1y, and executi\'e functioning.
At most, the science allows for a correlation between the impairment and the
abnormality. At present, no expert can validly conclude a struclural abnormality in the
brain caused an impairment. This is a reverse inference error. (7 W RR I !.,(j.[>8).

131

{603)

Consequently, the brain damage e,~dence Applicant present'i does not show lie
committed the murders because of an impairment caused by a structural brain
ah110rmality.
(604) Further, brain damage evidence ·was a double-edged sword. As Seymour
testified, evidence Applicant sutlered from a permanent brain iqjury would ha,·e
undercut the defense's argument that Applicant would not pose a future danger lo
anyone in prison. (7 WRR 47-48); see Shore i:. Stephens, No. H-1:1-1898, 201G WL
6875G:-3, at 17 (S.D. Tex. Feb. 19, 2016) (not designated for publication) (r~jecting
inetlective assistance claim based on counsel's failure to present evidence ddendant
suflered from a brain iqjury because evidence was a "two-edged sword" that increased
the likelihood the jury would find the delendant posed a future danger).
{605) Also, Applicant's brain damage evidence is inconsistent with his achievements.
As Seymour testified:
lllt was atypical in ... that [Applicant! was a very successful man. He was most
formerly a judge. I mean he had achieved so much in his personal life out of
hard work, good ,...~11, luck, and everything else. I don't know. I mean he was
just, he had it ... IS lo I think that kind of cut crossways wi1th me that I was like
I don't know if the jury is going to buy that his emotional processing system
doesn't work well when he's achieved so much because I don't think that Lhe y
can reconcile those t1,vo things ...
(7 WRR 47).

{606) The record supports Seymour's opinion. The evidence shows e,·en with brain
abnormality or impainnent, Applicant was an intelligent, highly functioning ad ult and
had been for decades.
(607) Based 011 the foregoing, there is no reasonable probability that presenting the
brain damage evidence would have altered the outcome of Applicant's trial.

Investigation 1i1to Applicant\ B ackground, Fa1mly His101y, & Health
Applicant claims counsel's investiga.tion into his background, family history, and
health did not start expeditiously and was never completed. (App. at 87). According to
Applicant., some mitigation witnesses were never inte1Yiewed, and some of the interviews
(608)

132

were not timely or thorough. (App. at 89-90). He claims counsel's "tardy and surfacelevel investigation led to an ad hoc mitigation presentation without a cohesive and
compelling narrative of the story of [his! life." (App. at 90).
Applicant fails to prove by a preponderance of the evidence any deficiency in
counsel's investigation int<> his background, family history, and health. He also fails to
J>rm·e any resu !ting pr~judin: to his defense.
(609)

In actuality, the defense team began their mitigation investigation ,·ery early 011
in their representation of Applicant and made sig11ifica11t efforts to develop mitigation
evidence. Their efforts yielded an inordinate amount of mitigation evidence which
fostered the development of a sound mitigation theo1y.
(610)

Moreover, counsel presented a substantial amount of relevant evidence
advancing that rnitig-ation theory at trial. And the jury was not deprived of any compelling,
relevant mitigati011 evide1 ice.
(611)

Investigation

1ot

Deficient

In support of his attack on counsel's mitig-,ltion investigation, Applicant presents
declarations or testimony from John Wright (second-chair counsel), Maxwell Peck
(third-chair counsel), Jill Patterson (a creati,·e writing profossor), and Richard Burr (a
criminal defense attorney and consultant) . Altogether, these witnesses describe the
investigation as belated, disorganized, and poorly documented. They characterize the
lead mitigation specialist, Stephanie Bell (now Walker), as young, distracted, illequipped, ancl inexperienced. They depict lead counsel, Matthew Seymour, as a
disinterested, ill-informed supervisor who did not properly support and direct the
mitigation investigation. (AX 26, 5:-3, 59, (j l; 5 WRR 29).
(612)

These witnesses inaccurately portray the mitigation investigation and the skill
and performance of Bell and Seymour.
(613)

Bell was assisted in the mitigation investigation by Rodnic Ward, the te;un's fact
investig-ator, ,md Patricia Rist, the other mitigation specialist assigned to the RPD()
Terrell OHice. Bell also consulted other mitigation specialist~ working for RPDO, but
found their suggestions unhelpful. (.'j WRR 81; G WRR 11 ; 7 WRR 20-21; SWX 18).
(614)

133

(615) Applicant's case was Bell's first as a mitig,1tion specialist. But Bell worked hard,
took direction well, ,md had an education and work experience that equipped her for
the job. Before coming to work at RPDO, Bell ecm1ed a Bachelor of Science in
Psycholo1-,ry and a Master of Arts in Forensic Psycho]oh'Y· From August 2012 to April
20 l :-3, she was employed as ,m intern investigator in the Public Defender's Otlice in
vVashington, D.C. Her duties included inte1viewing potential witnesses a11d gathering
evidence in rape and murder cases. She attended training at the Airlie Capital
Punishment Conference in 201:-3, which provided useful information about mitigation
investigation and put her in contact with other detense attorneys. Notably, Bell has since
gone to law school and is now a licensed Texas attorney. (6 WRR 11, 2:-3-24; 8 W RR :-34,

88; swx 18).

(616) Bell was assigned to other cases as well, but they were in diflerent stages of the
process and she was not working on all of them while Applicant's case was pending. She
spent a gn:at deal of time, effort, and energy conducting the mitigation inYestigation. (7
WRR 2:-3-24, l O~J; AX 58; SWX 18).
(617) Numerous memos prepared by Bell, Ward, and Rist show they were capable
interviewers who made repeated and concerted effort<; to locate and acquire information
from individuals and establish relationships with potential witnesses and cultivate them
to testify at trial. Many of the mitigation witnesses who testified at trial were discovered,
interviewed, and developed as witnesses by Bell, vVard, and Rist. (7 WRR l O~J-1O; S\1\/X
G-7).
(618)

To facilitate the investigation, Bell created a timeline system. Despite stringent

limitations on funding for travel, Bell, Ward, and Rist etlectively conducted the
investigation. (7 WRR 24, :-34).
(619) Seymour directly supervised and closely monitored the work of Bell and those
who assisted her. Seymour was the only attorney working on Applicant's case for seYeral
months, and during that time, he oversaw all aspects of it. He created a ( )neNote file for
the mitigation investigation into which memos and other information about witnesses
could be digitally stored. The team took notes during interviews and they prepared
memos from those notes that were shared with Seymour and the other team members.
Seymour scheduled regulaT team meetings where members discussed tasks, vetted
issues, gave updates, and made future plans. Seymour, Bell, and Rist drove to work
together and discussed the investigation as they drove. Also, they all worked in dose

134

proximity to each other and Lalked about the investigation during ollice hours. Bell
wou ld seek guidance from Seymour, and he \\'as ,L<:<:essihle to her and other team
members. He would share insight-; and oller suggestions. Morem·er, he ,vas
knowledgeable about the mitigation evidence discovered in the course of the
investigation. (7 WRR 15-17, 21-2:-3, 48-50, 109-1:-30, 141-42; 8 WRR :14, 47-48, ,'J5-!JG;

swx 2, 18).

(620) The criticisms of Burr, Peck, Patterson, and Wright are premised on inaccurate
information and their belated in\'olveme11t in the case.
(621) Burr ..,vas not a member of the team, and his interaction with them did not occur
until April 2014, a year after the investig-ation began. He was consulted and met with the
team in person o nly once for a couple of hours and then corresponded a handful of
times by phone and email. After the April 2014 meeting, Burr's attention and assist,utce
were focused on potential neurological and psychiatric issues. H e was not present during
any other team meetings, and he did not interact with the mitig-ation specialists or fact
investi1-,rators afrer the April 2014 meeting. Nor did Burr continue to ach·ise Seymour,
\IV right, or Peck with respect to the rest of the mitigation investigation. (7 WRR l :10-:12;
AX !>9; SWX 7 - Seymour memo dated 4/22/ 14)
(622) Burr's recollection of the April 2014 meeting is inconsistent with Seymour's
documented an.'ount. While Burr nm,v says, "[Tl he team could not figure out how to
get to square one," Seymour wrote just days afterward that the te,un had already
considered "the same avenues of information" Burr recommended and that what Burr
oflered them was not "what to do, but another way to do it." (AX 59; SvVX 7 - Seymour
memo dated 4/ 21 / 14).
{623) With respect to Wright, Peck, and Patterson, they did not join the te,un until
later. They lacked first-hand knowledge about how much work the other team members
had done before their arrival and what mitigating information it had.

(624) Wright joined the team several months into the investigation, and he was
preoccupied with lwo other death penalty cases. (!> \ 1VRR 7~-3-7 4, 77-78, 8!>; 7 WRR 1415, 84-8/:i; 8 WRR 44; AX 58).
(625) Peck joined the team even later, over a year after RPDO took the case and just
a few months befclre trial, and he initially de\'oted his e lforts to jury selection, not
mitigation. (!J WRR :-32; 7 WRR 11-1:1; AX 2G, 58). Further, once Peck began working

135

on the mitig-c:1.tion case, he failed to consult Bell, the team's lead mitig-ation specialist,
about the 'vvork that she and otJ1ers had done. (SVVX 18).

(626) Patterson came to the team a.long with Peck shortly before trial. They had
previously \-vorked together and were dose. Patterso n's job was to help develop a
narrative at trial, a story to te ll the jury. Although she interviewed witnesses in Applicant's
case, this was not her area of expertise. She was neid1er a lawyer nor a trained mitigation
specialist. (5 \tVRR 81-82; 7 WRR 11-12; AX 58, Gl ).
(627) Given their late arriwtl, neither Peck nor Patterson were present for the many
te,un meetings conducted by Seymour and attended by Bell, Rist, ;rnd Ward during 20 l :1
and 2014. They were not privy to the information discussed.
(628) Although Bell and other team members prepared memos detailing m uch of the
work they did in the mitigation investigation, Patterson and Peck were unm,vare of them.
(AX 2G, Gl; SWX G-7). This may have been due, in p,ut, to their m istaken belid, that
the memos were being stored in OneNote. (AX Gl; 7 WRR 17).
{629) Also, Peck was not rea-;signed to the mitigation case because it was sutlering or
underdeveloped. He was reassigned because of his poor performance in jury selectio n.
(7 \tVRR 17- 19; 8 WRR :-37).

(630) Lastly, there was dissension 011 the d efense team. The attorneys disagreed and
argued about strategic decisions. Also, Peck's behavior atlected morale; he did not
handle disa1-,Teement well, had a temper, and was critical of Bell. The team became
divided. (5 WRR 91-9:-3; 7 WRR 11-12, 19, 44-4(>, 51 -51(., 59-60, 8!>-88, 9:-3-1)-'>; 8 vVRR
:·~4-:-37, 4G-48, 50-5:-3; SWX 2, 18; AX 108, 1G4, 180, 182, 188). This colored the
recollections and perceptions of Peck, Patterson, and Wright.
1

(631)

In actuality, the mitigation investigation beg-cm quite early and was thorough.

{632) Seymour, Bell, and Ward began the mitigation i11\'estigation in their first meeting
with Applicant o n April 22, 201:-3, just days after his arrest and over a month before his
capital murder indictment. The team ob tained information about Applicant's health
history, his physician, his parents ·a nd in-laws, his bi1thplace and childhood home, his
education, and his employment history. (SWX G - memo and initial client information
worksheet dated 4/24/ I a).
136

(633)

A week later, on May 1, 201a, Be ll and Ward met with Applicant again and

conducted a lengthy mitigation interview. Bell explained her "role as a mitigation
specialist" and that it was "irnportant to be1-,rin lherl work now." Bell asked for
information about family, friends, and colleagues. The discussion covered Applicant's
siblings, much of his work history, his relationship with Kim, and his i11"olvement in
ROTC and the Boy Scout<;. (SWX 6 - Bell and Ward memos re: .5/1/ 1:-3 visit).
(634) Later tJiat same month, Ward began interviewing Applicant's neighbors. (SWX
6 - Ward memos re: 5/ 18/ 1:-3 interviews).
(635) Two weeks later, Seymour, Be ll, and Ward met with Applicant again and
o bta ined information about his tenant, Michelle Stephens, Applicant\ and Kim's
drinking habits, his parents' drinking habits, his father's Class C assault ol' his sister T era,
abuse Tera suHered in her first marriage, Applicant's campaign for justice of the peace,
and prior conflicts he had with the District Attorney's Otlice. (SWX Gmemo re: f>/:-30/ 1:1
meeting).
(636) The preceding investigation happened before Applicant was even indicted, and
continued for o ver a year, right up until trial in D ecember 2014. (SWX G-7).
(637) Morem·er, although Bell, Ward, and Rist conducted the investigation i11 eai·nest
for more than a year, in the end, all of the team members assisted except for Parks. Julie
Williams, anotJ1er RPDO mitigation specialist, and ;-m RPDO fact investigator from the
Wichita office assisted right before trial. (5 WRR ao, 81; 7 \i\TRR 1a, S0-51, 89-90, 1424~-3; 8 vVRR :-34; SWX 7). The investigation had more than sutlicient manpo'vver devoted
to

it.

{638) Applicant's criticisms of the work perfonned by the team ignore the difficulties
posed by forces beyond it'i control.
{639) Applicant was guarded about his personal lite and less helpful in de,·eloping
mitig-c1ting evidence than the team's other client<;. Applicant seemed mostly interested in
the guilt phase of his trial. During Bell's meetings with him, she telt he was not
cooperative or forthcoming with information. This frustrated the mitigation investig-c1tion.
(7 \ i\fRR 27; SWX 18).
(640) In addition, Applicant's closest relatives - his parents, his sister Tera, ,md Tera's
husband Zach - would not s how up for meetings with the te,un or would show up late.
137

When the family members did meet with the team, they wanted to discuss evidence
related to the murders rather than mitigating evidence. The team had to separate
Applicant's mother and father in order to get needed information. Applicant's father was
hard of he<iring, interrupted others, and would "take over the conversation." (7 WRR
!>5-59; SWX (j - memos dated 7/2/ 1?,, 7/10/1:-3; SWX 7 - memos dated 5/ 14/ l!l,
5/l.S/ 14, ,)/27/ 14, 8/ 1:-3/14; SWX 18).
(641) Despite these ditliculties, Bell, Rist, and Ward repeatedly contacted ,md
inten·iewed both Applic,mt and his immediate family. They secured releases so records
could be obtained. (SWX 6 - memos dated 4/24/ 1:-3, !>/l/ I:-3, !>/ -3/1:-3, 5/:·{0/ 1:-1, 7/2/ I:-3,
7/Wl:-3, 7/ 10/ 1:-3; SWX 7 - memos dated 2/5/ 14, ,'>/15/14, 5/27/ 14, 7/22/ 14, 8/18/ 14,

7/25/ 14, 111:-3/14).
(642) The team also had difficulty obtaining information from people in Kautinan and
Azle. Applicant was not of much help in this regard, and Bell had to get creative - using
yearbooks, driving through Kautinan, and looking up attorneys online. But many people
were uncooperative or did not want to be involved. Some felt they were betraying the
victims, whom they knew as well, and others were worried about their own reputations.
(50 RR 77-78; AX 58; SWX 7 - memos dated W2/ 14, 11/7/ 14; SWX 18).
(643) Applicant alleges: "About one-third of the mitigation witnesses were interviewed
for the first time while ju1y selection was ongoing, aher Mr. Peck had joined the team ,
about ten percent were first inte rviewed during the culpability phase of !Applicant's I trial,
about ten pcrrenl H1ere interviewed for the first time during the defense's penalty phase
presentation, and about one-quarter appear to have ne\'er been interviewed at all prior
to their testimony." (App. at 90). Applicant does not identily the witnesses he is referring
to or explain his math in any 1-,rreater detail. Also, he cites to no supporting record or
extrinsic evidence.

(644) To the extent these allegations ;-u·e predicated on the asse rtions of Peck, \,\!right,
Patterson, and Burr, t11ey are not credible. As noted above, the recollection of Perk,
Wright, Patterson and Burr are misinformed or biased.
(645) As evidence of what could have been discovered and presented hut was not,
Applicant presents sworn statement') from nineteen individuals: Zacha1y Bellemare,
Duane Farmer, Annie G;u11, Tina Hall, Cara H ervey, Kent Hervey, Elisa Lyles, Ian
Lyles, Lea Lyles, Helen Murdock,James Murdock, Mark Norwoocl, Janice Overgaard,
Donald Propst, Jennifer Russell, Glenn Tadlock., J im Willicuns, Sandra H arw,ml, and

138

Teresa Craine. (AX 4-21, 2:1). But only nine of these nineteen individuals assert they
were never interviewed by the defense te,un. (AX G, 12-16, 19, 21, 2:1). Six were
interviewed. (AX 4-5, 8, 10, 20; SWX 6 - memos dated 7/9/U3, 7/ 10/ 14; SvVX 7 memos dated 5/ 15/ 14, 5/27/ 14, 7/2/.i/ 14, 8/ 1/14, 8/ l:1/ 14). And of those six, two testified:
Ian Lyles and Cara He1vey. (51 RR 182; 5:1 RR 88-I 0:1; AX 8, 11). The remaining-four
do not state whether they were interviewed and, if so, when. (AX 7, ~), 17-18). Thus,
these statements do not substantiate Appl icant's mathematical analysis. If anything, ""hen
comp;u-ed to the mitigation evidence discovered and presented at trial, the statements
show how little mitigating information was not discovered and presented.
The mitigating evidence contained in the nineteen statements Applicant presents
relate to his grandparent~' childhoods, marriages, and life traumas, his. parents'
upbringings, his father's military se1vice and excessive drinking, his sister's emotional
instability and substance abuse, his brother's abusive behavior, his wife's preoccupation
with appearances and money, diabetes in his mother's family, and alcoholism in his
father's family. They also spoke to Applicant's own unusual personality traits, his struggle
with diabetes, and how profoundly the burgla1y prosecution atlected him. (AX 4-21, 2:-n.
(646)

The record reflect~ the team discovered most. if not all, of this information and
that counsel was well aware of it. (7 WRR l 09-130; SvVX 6-7).
(647)

(648)

Also, much of it was presented at trial.

Counsel decided on an "arr of man" or "arc of lite" mitig-ation theory. This
meant presenting a full picture of whc> Applicant was and what he had to otler others,
i.e., that his lite had value. It also meant showing his crimes were an aberration. (7 WRR
46-47).
{649)

Seymour, Peck and Wright were in agTeement about this theory; they just
disagreed on how to present it. Peck ,rnd Wright were in charge of the mitigation
presentation. Peck wanted to present as many ,,~tnesses as possible and go in
chronological order. He believed the more witnesses he presented the less likely the jury
would assess a death sentence. Seymour wanted to present the strongest, most impactful
witnesses first, and then, if time permitted, back till with additional witnesses. He teared
they would have a limited time to put on their presentation and might lose the jury's
attention with repetitious witnesses. Although Seymour disagreed with Peck's strategy,
he supported and assisted him during the mitigation presentation. (5 WRR 29, 80-81; 7
WRR 51-.'35, 94-95; 8 WRR :16, 56; AX 2G).
(650)

139

(651)

In the end, the detense team presented m·er forty ,,~tnesses in support of this

mitigation theory - an unusually high number. And their testimony cm·ercd the entire
arc of Applicant's life - infancy, childhood, family, education, marriage, health,
professional lite, and loss of livelihood.
As pre,~ously noted , counsel presented testimony from Cara H ervey and Ian
Lyles. T o the extent counsel chose not to present the remaining seventeen dedarants as
witnesses, his cho ice may be attributed to reasonable trial strategy.
(652)

(653) Counsel's decision not the call those seventeen witnesses is presumed to be
sound strategy. Applicant fails to rebut that presumption. Seymour, Wright, and P,u-ks
testified at the writ hearing, and Peck and Wright executed declaratio ns in support of the
writ application. Applicant could have elicited information from ,my of his trial counsel
as to their reasons for not calling these seventeen individuals. H e chose not to.
(654}

l lsually, a record that is silent as to counsel's motivations for a tactical decision

cannot 0\'ercome the strong presumption that counsel's cornluct was reasonable . A1allett
i: State, 6,'> S.W.:-3d .'>9, 6a (Tex. Crim. App. 2001).
A reasonable basis for not calling them may he deduced fo r se,·eral, if not all,
seventeen individuals.
(655)

Applicant's father was quite elderly (85 years old at trial), hard of hearing, and
tended to go off topic during conversations. There was reason to tear how he would
pedcmn on the witness stand. (7 WRR 57; SX 7 - memo dated 8/ U3/14; SX 18).
(656)

There was also reason to tear how Applicant's brother-in-law, Zachary
Bellemare, would pedc>rm as a witness. Like Applicant's parents and sister, he showed
up late for meetings, and apparently, his interactions with the defense team were
contentious. According to Seymour, "1/....ach was an absolute nightmare. He's ,·ery lucky
he didn't get punched in the nose by me at some point." (7 \ VRR 55-5G; SWX 7 memo dated 5/ 15/ 14) .
(657)

Also, some of the information contained in tl1e declarations constituted hearsay.
Fo r example, Donald Propst relerred to specific co1n-ersations he had with T era during
their marriage, statements T era made to CPS, and statements his father made to him.
(AX 17). And in Applicant's fathe r's a.tlidavit, he rders to statements his own grandfather
made to his mother and statements his parents made to him. (AX 20). Even mitigating
(658)

140

evidence must be oHered in an admissible form. See Valle t '. State, 109 S.W.ad 500,
507 (Tex. Crim. App. 200:-3) (holding due process does not guarantee a defendant the
right to present his defense in the form he desires). Applicant fails to identity any
exception to the hearsay rule under which such testimony would have been admissible.

{659) Further, much of the information contained in the declarations is redundant or
similar to testimony counsel otlered through other witnesses. Applicant's mother's
deposition testimony covered many of the topics addressed by the dedarants, such as,
Applicant's fastidiousness as a child, his quiet introverted nature, the impact diabetes had
on his lite and career choices, his father's military service, and his relationship with his
parents and his maternal gr;mdmother. (DX 68). Applicant's friends and family alike
testified to his quiet, reserved and somewhat "nerdy" personality. (51 RR l 7G-77; .'> :1 RR
19, 71, 89-9 1, 117, 21~); DX G8). Several witnesses attested to the burgla1y trial and its
impact on Applicant. And Applicant's diabetes was covered by his mother and a couple
of his jailers. (50 RR 7:1-7,1, 14:1-47, 177-7~), 18:1; 5:-3 RR 7:1, 75, 77-78, l 7G-79; DX 68).
(660)

To the extent evidence about the lite experiences of Applicant's gTandparents
was not presented, counsel could have reasonably conduded it had minimal rele,·,mce
to Applicant and his lite. It appears Applicant never ,net three of his grandparents; thus,
they had no direct impact 011 him. (AX 5-6, 8, 20). And to the extent Applicant knew his
maternal gTandmother, counsel put on evidence about their relationship. (DX 68) .
(661)

Also, counsel could have reasonably concluded any evidence of a family
tendency toward addiction and mental illness was more aggravating than mitigating as it
showed Applicant was predisposed toward unpredictable and viole11t behavior.
(662) finally, counsel did not have an unlimited amount of time to put o n the
mitigation evidence and, thus, had to prioritize the more impactfuf, effecti,·e witnesses.
It would have been sound trial strategy to avoid taking up time with evidence that was
repetitive, far removed from Applicant, or less compelling than other evidence.
{663)

In sum, the mitigation investigation with respect to Applicant's background,
family, and health was not deficient. It was timely, thorough, and comprehensi,·e. and it-;
relevant, significant results were presented to the jury.

141

Defense Not Prejudiced by Investigation
(664) Applicant claims counsel's deficient mitigatio11 i11vestigatio 11 pr~jud iced his
detense because counsel failed to re,·eal to the jury an "absorbin,I.{ social history narrative
of family mental ill11ess, dyshmctio11, addiction, trauma, poverty,. and abuse." (App. at
74). Applicant sets out this "narrative" in se,·e11ty-seve11 pages of his writ application.
(App. llG-9:-3).
(665) Much of the narrative relates to information that was well developed at trial, such
as, Appliecmt\ childhood, the emotionally resen·ed nature of his father and father's
family, his fastidious nature, education, e mployme11t history, poorly ma11aged diabetes
and re lated illnesses, his alcohol abuse, marriage to Kim and her dedine in health, his
depression, campaign forjustice c>l"the peace, prosecu tion for burglary, a11d e,·idcrn:e of
"survi,·al ist" preparedness in his home. This evidence was admitted through both State
and delcuse witnesses. In fact, the narrative Applicant presents p~u-alle ls the State's theory
as to what moti,·ated him to murder Hasse and the Mc l..ell;.m ds.
Applicant argues the jurors did not hear that his:

(666)
•

parents were raised in pm·erty and in families rite with trauma and lacking in
aikrtion;

•

parenL-; modeled what they had learned in their upbringings in how they raised
their own childre n ;

•

parent-; drank heavily, inflicted physical viole nce on their children, and raised
their children in a home lacking warmth, love, and alle clion;

•

siblings suHered from mental illness; and

•

siblings abused suhstanc:es.

(App. at 192).
(667) Applicant paints a worse picture of his family history and it'i impact on him th;m
the evidence shows.

(668) Applica11t's parents did grow up in poverty and experie nce loss, but Applicant
sutlered little, if at all, as a result or it. Despite their own upbringings and limited li1 iancial
142

means, Applicant was raised by two parents who prm~ded for their son, were proud of
him, attended his scouting and school activities, and documented and celebrated his
accomplishments. The evidence showed Applicant had a healthy relationship with his
parent\ into adulthood. They maintained contact with him and \'d untcered for CASA
because of his work '"~th children. His mother was upset she did not get to attend his
1vvedding. Even if Applicant's parents were reser\'ecl in expressing ,dlection, they d early
lo\'ed him and showed it by their actions.
Applicant alleges he was "sul~jected to beatings from the adults in his
household." (App. at 148-49). Despite the inordinate number of declarations Applicant
obtained from family, no one reported witnessing abuse or any sig11s of it. The evidence
shows only that Applicant's mother,Jessie, once beat him 'vvith a broom when she caught
him reading in the chicken coop instead of d eaning it. (DX 68). The allegation Applicant
was an abused child is not shown in this record.
(669)

Evidence Applicant's siblings, Tera and Tony, and his maternal gr;mdmother
suffered from mental illness is purely anecdotal. Applicant presents no evidence of ,my
diagnosis or treabnent by a mental health professional.
(670)

The evidence Tera and Tony abused drugs is lik.e,,vise anecdotal. Applicmt
presenL'i no evidence either Tera or Tony were hospitalized or treated for substance
abuse.
·
(671)

(672) Even if substantiated, a family tendency toward addiction and mental illness
would ha,·e been more aggravating than mitigating because it showed Applicant was
predisposed toward unpredictable and violent behavior.
Evidence of Applicant's parents' drinking was not brought out at trial. Arni
Applicant presents e\~dence from a variety of sources supporting his allegation that his
father was an akoholic. Applicant fails to show how the failure to present this evidence
pr~judiced his cletense. He does not show he sutlered abuse from drunk parents. And
at trial, there was no dispute about his own drinking habit'i. Thus, the evidence is
mitigating only to the extent it shows Applicant's genetic predisposition to alcoholism.
(673)

(674)

{ lJtimately, counsel selected and presented sutficient witnesses to support their

mitig-dtion theory. Among those who testified were individuals who were quite dose to
Applicant and invested in his life, e.g., his mother, Lori Dunn, ancl Tam;u-a Maas. No
significant mitigating factor went undiscove red and undeveloped at trial.

143

The additional mitigating evidence Applicant presents in these proceedings was

(675)

largely redundant or minimally relev;mt and would not have altered the sentencing
profile presented to the jury. Thus, counsel's lailure to discover ,md prese nt it did not
pr~judice Applicant's defense.

Investiga.ting and Challenging Srate's Punishment Evidence
Applicant contends counsel rendered inetlecti,·e assistance in the punishment
phase by failing to investig-,:lte and challenge the State's punishment e\'idenc:e 011 a ,·ariety
of front-;. (App. at 194).
{676)

Applicant fails to demonstrate any deficiency in counsel's investigation of or
challenges to the State's punishment evidence.
{677)

Applicant also fails to show he was pr~judiced by an aHeged deficiency.

{678)

Impeachment of'Kim W11/iams
Applicant contends counsel failed to impeach Kim Williams by confronting her
with inconsistencies bet\veen her statements to law enforcement otfo:ials in April 201 ~i
and her testimony on direct ex;unination. (App. at 194-201).
{679)

Counsel did impeach Kim on cross-examination vvith inconsistencies between
her interview statements and her ttistirnony. In particul;u·, counsel pointed out
innmsistencies between Kim's statement to police and her trial testimony regarding:
{680)

•

H er description of the Mercury Sable;

•

The name of the auto part-; store where they parked the Sable;

•

The clothing Applicant wore during the H asse murder;

•

Whether she saw a gun in Applicant's hands before the Hasse murder;

•

Whether Applicant wore a vest during the Hasse murder;

•

\,\/hether she knew what Applicant was doing in the storage unit after the
H asse murder;

144

•

Whether she went to bed afrer the H asse murder and recalled nothing
afterward;

•

Whether Applicant obscured his face during the McLe lland murders;

•

H er recollection of the type of clothing Applicant wore during the McLelland
murders;

•

H er identification of the McLelland house;

•

Whether it was too dark to see anything outside at the McLelland house the
morning of the murders;

•

H ow m,my shots Applicant fired during the McLellarnls' murders; and

• The type of weapon Applic;mt used to murder the McLellands.

(54 RR I 04-07).
(681)

Applicant contends counsel should have impeached Kirn ..,,~th additional
inconsistencies between her statements to law enforcement and her testimony.
(682)

Applicant fails to show by a preponderance of the evidence that counsel was
deficient for not confronting Kim with additional prior inconsistent statements.
(683)

Further, the record affirmatively shows counsel was not deficient.

(684)

Counsel could have impeached Kim with additional inconsistencies. When
counsel cross-examined Kim, he was very familiar with the variances ben-veen her
accounts. He expected Kim to testify, and in preparation for trial, he i1l\'ested quite a bit
of time and resources into <malyzing he1· ditlerent accounts. H e hired an expert, J im
Trainum, to evaluate Kim's recorded police interviews. T rainum is a retired police
detective with expertise in false confessions. Trainum analyzed Kim's interview and
comp,u-ed it against the known fact'i. T rainum's analysis yielded a list of conflicts, "vhich
counsel utilized in his cross-ex,unination of Kim. (7 WRR 71-72) .
(685)

l lltimately, however, counsel made a strategic decision to impeach Kim with

only some, not all, of the inconsistencies ben,veen her prior statements to law
enforceme nt and her testimony. After confronting Kim with se,·eral inconsistencies and
145

watching the jurors' reaction to them, counsel determined the inconsistencies vvcre not
having much, if any, impact on the jurors. Instead of continuing to point out more of the
same, counsel opted to focus 011 examining Kim about matters that seemed to resonate
more with the jurors, such as the things Applicant did for Kim's hunily. (7 WRR 72-7a).
(686)
(687)

Applicant fails to rebut the presumption this was a reasonable strategic: decision.
The record atlirrnatively reflects this decision was reasonabl~.

Even though he did not point out every inconsistency, counsel pointed out quite
a few. In doing so, counsel communicated to the jury that, in the past, Kim had not been
fo1thright and had downplayed her knowledge and level of involvement in the murders.
Thus, he did impeach her credibility using her prior inconsistent statement-;.
(688)

Kim did not fight counsel regarding the inconsistencies and acknowledged most
of them. By doing so, Kim appeared open and honest, an impression counsel would
likely only ha\'e emphasized by attacking her harder.
(689)

And counsel was in the unique position of being able to ohsc1Yc firsthand the
etlect his examination of Kirn was h;nring- on the jurors. \t\/itnessing- Lheir apparent lack
of interest in the inconsistent statement-;, he made the sound choice to move on to
matters that held their attention and otherwise benefited Applicant.
(690)

Lastly, the additional inconsistencies Applicant claims counsel should have
confronted Kim with were no more sig11iticant than the ones he did point out. Those
counsel brought up suggested Kim was attempting to minimize her le\'el of im'Olvement
in the murders and the planning that went into them. The additional inconsistencies
would have done nothing more than reiterate this.
(691)

Applicant fails to show by a preponderance of the evidence that counsel's
decision not to confront Kim with additional prior inconsistent statements pr~judiced
his defense.
(692)

(693) Applicant claims confronting Kim with all of her prior inconsistent statements
would have discredited her version of events and undermined her credibility. (App. at
195, ::Wl). He argues Kim's testimony was critical to the State's case in establishing his
future dangerousness and the State relied on details Kim omitted from her police
interviews. (App. at 200).
146

(694) The State did argue Kim's testimony as evidence of Applicant's future
dangerousness. But additional prior inconsistent statement~ would not ha\'e -rendered
Kim's testimony unreliable, and would not have prevented the Stal:e from utilizing it as
evidence of future dangerousness.
(695) Pointing out that Kim made other prior inconsistent statements about the crimes
would only have reiterated she was untruthful back in April 201 :1; it would have done
little, if anything, to impeach her trial testimony.
(696) Much of Kim's trial testimony was corroborated by other e,·idence. For
example:
•

Ballistics evidence corrohoralcd her teslimony Applicanl used the underpass
for target practice;

•

Recovery of the mask and the Hasse murder weapons from Lake Tawakoni
corroborated Kim's testimony Applicant wore a mask during Hasse's murder
and then disposed of the guns that night in the lake;

•

The discovery in the storage unit of the crossbow and a bag tilled with
homemade napalm, crossbow arrows, bolt cutters, knife, and shoe co\'ers
corroborated Kim's testimony applicant planned to murder Ashworth by
waiting for him after the Super Bowl, shooting him with the crossbow, boring
his stomach out, and putting napalm in it;

•

Evidence the Sable had been abandoned in the storage unit and towed away
corroborated Kim's testimony about Applicant's disposal of the Sable after
Hasse's murder;

• The testimony ofJeff Reynolds, the owner of the Sable, corroborated Kim 's
testimony about the subterfuge Applicant used to acquire the car ,md the fact
that Kim accompanied him to make the purchase;
•

Evidence Applicant had conducted a computer search for Hasse's home
address and run the license plate of Hasse's neighbor's car corroborated Kim's
testimony that she and Applicant had smveilled Ha~se's home;

147

•

Barton Williams's testimony corroborated Kim's testunony about how
applicant acquired the storage unit;

•

The discovery of the firearms in the unit corroborated Kim's testimony thal
Applicant had not disposed of his weapons afrer his convictio11 as he claimed;

•

Evidence Cynthia McLelland had been shot in the top of her head
corroborated Kim's testimony Applicant told her he shot Cynthia a.11 extra
time because she was moaning;

•

Evidence the alarm system showed the front door opening a11d dosing al G:40
am and again at G:42 am corroborated Kim's testimony as to when and how
quickly the McLellcmds' murders occurred and how Applir;mt entered the
Mc Lelland home; and

•

Video of a Crown Victoria exiting and entering the storage facility before ;md
after the McLelland murders, the vehide's subsequent recove,y from
Applicant's storage unit, and video of a vehicle consistent H~th a Crown
Victoria traveling a route between the facility and the McLelland home
corroborated Kim's testimony that the vehicle was used in the murders.

(697) Moreover, while Kim downplayed her role in the murders during the initial
police interviews, she acknowledged her complicity with g1·eat detail at trial, which lent
further credibility to her testimony.
(698) Kim also acknowledged she had cooperated "vith the State before and d uring
trial in the hopes that she would benefit in her own capital murder cases. b ·idencc Kim
had an ulterior motive for her testimony, namely, to imprm·e her own situation,
impugned her credibility more than the additional inconsistencies would lian~.
(699) The State also had other evidence of Applicant's future dangerousness that
Kim's testimony had no bearing on. There were Applicant's verbal threats against John
Burt and his family, the letter threatening violence aga.inst opposing counsel in one of
his ad !item cases, and his armed, public threat to shoot a former gidfriend, J anice Gray.
(700) Even without Kim's testimony, the State had considerable eYidence implicating
Applicant in three murders. The State did not need Kim's testimony to establish
Applicant's guilt or propensity for ,,i olence.

148

(701) Confronting Kim about additional prior inconsistent statements would not ha,·e
altered the outcome of Applicant's trial. Even assuming counsel was deficient to nol
doing so, his choice did not pr~judice Applicant's defense.

(702) Applicant claims counsel failed to assert spousal pri,·ilege under rule .S04 ,vith
respect to Kirn \t\/illiams's testimony aboul statements Applicml made lo her.
Specifically, he claims counsel should have ol~jected to the admission of Kim's testimony
that Applicant:

•

threatened to kill Judges Ashworth and Wiley (54 RR 9, 3 1<12, 76-81);

•

threatened to kill Kim (!,4 RR 84);

•

threatened to shoot officers stationed at the armo1y (54 RR .SG-!>7);

•

was angry with Ashworth , H asse, and McLelland, talked badly about them,
and told her he wanted to kill them (.04 RR 24, 29}; and

•

admitted to shooting a cat in the eye (54 RR 89-90).

(App. at 201-04) .
Applicant fails to sho"v by a preponderance of the e,·idence that counsel was
deficie nt for not ol~jecting to this testimony based on spousal privilege.
(703)

(704) In order to show counsel was deficient for not objecting to the testimony,
Applicant must show the court would have committed error in overruling such an
objection. Er p;ute Ma1t1i1ez, 330 S.W.3d 891, 901 (T ex. Crim. App. 2011 ). A pplicant
fails to make this showing.
(705) . Except for Applicant's statement about shooting a cat i11 the e ye, the complainedof testimony was not privileg-ed under rule !>04 and, thus, admissible.
(706) A pplicant and Kim were married when he made the complained-of statements
to her. (54 RR 11-12).

149

{707)

H owe,·e r, the statements related to Ashworth, Wiley, Hasse, McLellaml, ,md
the ollicers at the armory, were made in furtherance of a crime and excepted from the
pri,ilege.

(708) Rule 504(4)(A) provides, the spousal privilege does not protect conlidential
communic:ations that "are made - wholly or partially - to enable or aid anyone to commit
or plan to commit a crime or fraud." Tex. Evie!. R. 504(4)(A).
(709) Kim's testimony allirmativdy showed she and Applicant were co-conspirators in
several crimes. They were not just co-conspirators in the murders or H asse and the
McLellands. They were also co-conspirators in the planned tutu re murders of Ashworth
and Wiley. The statements Applicant made regarding his animosity toward these people,
his intentions to kill them, and how he planned to kill them were patently related to that
conspiracy. So, too, were Applicant's statements about attacking the law enforn:ment
oflicers stationed at the armory who were im·estigating the Hasse a11d McLella11d
murders. See (;o/hrth 1·. State, 27:-3 S.W. 845, 84G-57 (l 925) (holding spousal
communications made in furtherance or conspiracy to manufacture liquor were not
privileged); Wolt1·. State, (j74 S.W.2d 8al, 842 (T ex. App. - Corpus C hristi 1984, pet.
rel'cl) (holding defendant's statement-; to husband regarding delend,un's plans to
facilitate murder were· made in furtherance or conspiracy and, thus, not protect.eel by
spousal pri,·i)ege).
{710) Kim's testimony Applicant was a111-,'l)' with Ashworth, Hasse, and Md .elland did
not refer to any rommunication or ulterarn:e. It referred to observable behm·ior, that is,
a display of anger, which is not protected by rule 504. See State i: 1'-1/reles, 904 S. \IV.2d
885, 890 (Tex. App. - Corpus Christi 1995, pet. refd) (holding wife's testimony about
husband's actions that she observed ·w ere not protected by spousal privilege); Freeman
1 State, 786 S. W.2d 56, 59 (T ex. App. - Houston I 1st Dist I EJ90, no pet.) (holding
spousal pri,~lege extends to utterances, not acts, therefore, testimon y relating to actions
not exdudable).
1
•

(711) And Applicant's threat to kill Kim was exc:epled from the pri,·ilege because it
constituted a verbal act, not a communic:ation. It was res gestae of an assault oflense
Appliqmt committed ag-ctinst Kim, ,md not protected. See Butlt'r State, 64.'> S.W.2d 820,
824 (T ex. Crim. App. 198:-3) (holding husband's threat-; against "'~te were res gestae or
the ollense, not privileged communications).

150

(712) Counsel is not deficient for not ol~jecting to this admissible c,·idenre. i\rlcRuland
v. State, 845 S.vV.2d 824, 84G (Tex. Crim. App. 1992), 01envled on other;.pound'i by
1Jingha1n I'.State,9 15 S.W.2d 9, (Tex. Crim. App. 19~)4).
(713) On the other hand, Applicant's admission to shooting a cat in the eye sometime
in the past was privileged as it referred to a completed crime in his past that Kim had no
pa1t in. See { lnited States v. 1\1011tgome1y, :-384 F.3d 1050, 1059-GO (9th Cir. 2004)
(holding defendant's communications with wile before she joined conspiracy were
1frotectecl by spousal privilege); see af.,D ( fm'ted States i.·. i Vood, ~)24 F.2d :·~9~), 402 (1st
Cir. 1991) (questioning whether statements in letter between husband and wile about
their crime were made in furtherance of a crime and excepted from spousal privilege
where statements were made afrer both had been arrested for crime).
(714) Nevertheless, Applicant fails to rebut the presumption that counsel's decision
not to ol~ject to Kim's testimony that Applicant told her he shot a cat in the eye
constituted re,L"ionable trial strate1-,>y.
(715) The law presumes counsel had a sound strategic reason for not ol~jccling- lo this
testimony, and Applicant fails to rebut that presumption.
(716) Applicant had the opportunity to question counsel at the writ hearing about the
decision not to ol~ject, but did not do so. Thus, the record is silent as to counsel's reasons
for not ol~jecting.
(717) l lsually, a record that is silent as to counsel's motivations for a tactical decision
cannot overcome the strong presumption that counsel's conduct was reasonable. Mallett,
<>5 S.\i\/.Bd at G:-3.
(718) Sound reasons may be deduced from the record as to why counsel did not
ol~ject. Counsel could have reasonably concluded that ol~jecting to this testimony would
have afforded little benefit and would have drawn additional attention to aggravating
evidence. Before testifying to th e complained-of statement, Kim testified to ,motl1er act
of animal cruelty. She recalled in detail an incident where applicant killed a cat and threw
it in the street. (54 RR 89). This testimony was more gTaphic and pr~judicial Lhan the
complained-of statement. Moreon::r, it was admissible; it related to an act witnessed hy
Kim, not a communication, and, thus, was not pri\'ileged. Ol~jectin~ to tl1e complainedof testimony would not have kept the jury from hearing any evidence about Applicant's
abuse of cat'i. At best, it would have resulted in the exclusion of the less graphic evidence

151

of it. And at the s;une time, it would have drawn attention to the complained-of'
statement.
(719) Applicant also fails to show by a preponderance of the e,·idence that not
ohjec:ting to these pmtions of Kim's testimony pr~judiced his detense.

(720) Even if the complained-of statements had been excluded, the jury ·would still
have heard much of Kim's testimony about all three murders. Kim was a participant in
preparing and planning for t11e murders and an eyewitness to them. H er personal
observations were not privileged and provided ample evidence of Applicant's culpability
and the heinous nature of the crimes. Also, she led authorities to the Hasse murder
weapons and other instruments that Applicant had tossed in Lake Tawakoni.
(721) Further, substantial e,·idence exisl-;, outside of Kim's testimony, implicating
applicant in the murders. The evidence shows Applicant purchased the two cars used in
the murders with cash and fake identities, illegally stockpiled an arsenal of firearms and
other weapons, sent Crime Stoppers tips containing information knovvn only to the
murderer, and had been successfully prosecuted by two of the victim s and lost his legal
career and the prestige of public otlice as a result.

(722) Considerable evidence also shows extraneous violent acts perpetrated by
Applicant. This evidence showed Applicant shot at Kim twice, threatened harm to others
in his Crime Stoppers tips, threatened physical harm to others ,md their family members,
including children, in writing and in person, and held a former girlfriend at gunpoint in
a crowded bar.
(723) Finally, the complained-of statements were not the only evidence, much less the
most compelling, of Applicant's violent nature and complicity in the murders.
Consequently, their exclusion would have yielded little, if any, benefit to Applicant.
Thus, counsel's decision not to ol~iect to them could not ha,·e altered the outcome of
Applicant's trial.
Impeachment rvith 1111a H all A/Fair
(724) Applicant contends counsel should have called Tina Hall to impeach Kim
Willicuns's testimony Applicant had an atfair with Hall. Applicant c:laims there was no
affair and H all was available to retute Kim's testimony. (App. at 205-06).

152

(725) At punishment, counsel called Cathy Adams. Adams testified Applicant was an
"excellent husband." (5a RR 160). On cross-examination, the State asked Adams if she
vvas aware of the affair Applicant had with Hall. Adams knew Hall, who was currently
li\~ng in Hawaii, but she denied any knowledge or suspicion of an atfair. According to
her, they were just friends. (5~-3 RR 182-84).
(726) Counsel ol~jected that no evidence supported this questioning, but the State told
the court it had a good faith basis and pursued this issue because Adams had left a false
impression about the type of husband Applicant was. (!>:-3 RR 18:-3; 8 \1/RR 97-98).
(727) Hall met with the detense the week before trial started, and vvatd1ed Adams
testify by live-stream video on the internet. The next day, Hall appeared in court and
told the State she had not had an affair with Applicant. And she was present in court and
available to testity if called, but neither side presented her as a witness during trial. (8

WRR 97-98; AX 7).
(728) The State subsequently called Kim vVilliams to testit)' and a-;ked her about the
affair. Kim said although Applicant was a good husband, he was unfaithtul and had had
extram,u-ital affairs, including one with Hall. (!J4 RR 90).
(729) Applicant fails to show by a pre ponderance of the evidence that counsel was
de ficient for not calling Hall as a witness.

(730) The law presumes counsel had a sound sb·ategic reason for not calling Hall to
testify, and Applicant fails to rebut that presumption.
(731) Applicant had the opportunity to question counsel at the writ hearing about the
decision not to present testimony from Hall, but did not do so. Thus, the record is silent
as to counsel's reasons for not calling Hall.
(732) l lsually, a record that is silent as to counsel's motivations for a tactical decision
cannot overcome the st::rong presumption that counsel's conduct was reasonable. J\llallett,
65 S.W.3d at G:-3.

(733) A number of well-founded reasons for not calling Hall could be deduced or
infe rred from the record. Like the State, counsel may have had good cause to believe
there had been an affair and teared a challenge would prompt the State to present
additional, credible evidence of it. They could also have believed there was 110 affair but
153

determined Hall would not make a good or credible witness. She had appare ntly led
others to believe she was living in Hawaii when, in fact, she was in Texas, suggesting she
had been avoiding questioning or a court appear.:mce. (53 RR 182-K3; 8 WRR 97-98).
And even if credible, Hall may have made a poor witness for other reasons, such as her
emotional state. Although Adams had de nied the atlair in he r testimony, Hall dem anded
an immediate retraction from the State, and the next day she approached numerous
attorneys t1ying to get someone to listen to her, all of which suggests she was upsel. (AX
7). Even if Hall would have been credible and emotionally sound , counsel may han~
thought her insistence she had not had a relationship with Applicant was unl1atlering to
him. Or counsel could ha\'e concluded that Ad,uns's denial of an affair was credible and
presenting H al l's testimonia l denial, too, would simply have dra\-Vll further, unwanted
attention to the matter. Any one of these rei:L'ions would constitute reasonable gnrnnds
not to call Hall as a witness.
(734) Applica nt also fails to show by a preponderance o f the evidence that his delensc
was prejudiced by the decision not to present H all as a witness.
(735) While Hall was availa ble ,md present to testify, her denial of an affair with
Applicant would have served little, if any, benefit to his defense. As noted abo\'e, it is
questionable that H all would have perfo1111ed well on the stand and her credibility would
have been questioned. But even if she was credible and did pedcmn well, her denial of
an atfair would have done little to redeem Applicant. In the face of three murders, an
affair se,·eral years before was inconsequential. Furthermore, other evidence disputing
the affair was a lready before the jury through Adams. She rebulfod the prosecutor's
repeated efforts to get her to acknovvledJ.{e an affair. (!.i:1 RR I W2-8:-3). It is unlikely that
additional testimony from Hall on the matter would have altered the p un ishment verdict.

Challenge to D IVA J,;viden ce
Applicant contends counsel should have challenged D NA evide nce the State
presented at punishment. Specifically, he argues counsel should have ol~jected to
inadmissible and m isleading testimony by the D NA analyst, ol~jected to hearsay
statement'i of a non-testifying analyst, focused on Applicant's exclusion from im po rtant
pieces of evidence, highlighted the discovery of unidentified male DNA protiles, and
exposed multiple instances o f contamination. (App. at 20(>).
(736)

Applicant fails to prove by a preponderance of the evide nce that counsel was
deficient in his handling of the DNA evidence.
(737)

154

(738)

Applicant fails to rebut the presumption that counsel's handling of the Di\A
evidence constituted sound trial strate.1,1y.

(739) Applicant fails to prove by a preponderance of the e,·idern:e that counsel's
handling of the DNA evidence pr~jucliced Applicant's defense.
(740) Applicant fails to acknowledge much of counsel's dfo1ts with respect to
addressing the D 1A evidence. Those etforl~ were si1-,'l1ilica11t.
(741) Counsel obtained the assistance of a DNA expert, Libby J ohnson, earl y on in
his representation of Applicant. (Unsealed CR 57-67). He also filed motions to stay
ONA testing until the testing procedures could be discussed and to ensure the defense's
receipt of bench notes and report~. ( l CR 211; 9 CR :1592-:1(;om.
{742) Johnson helped review some of the D NA reports. But more import;mtly, her
assistance was key to preventing errors in the lab during batch sequencing. She
recommended batching items in a particular way to reduce the chance of error. The
State agreed to.Johnson's recommendation and, together, Seymour and vVirskye crafted
an a_i,'l·eed order that governed the testing procedures, which the court signed. (4 HR 8-

11 ; 9 RR 11-12; 7 WRR (jl),
(743) l lltimately, the order counsel negotiated e nsured 11011-depleted samples 'vvould
be retained, touch D l A testing would be pedcmned, and the defense would recei,·e
copies of all test results, bench notes, and other lab records related to the testing. The
order also required the State to confer with the DPS lab staff ;rnd supenisors "to address
defense counsel's concern regarding batching of biological e\idenc:e for testing to
eliminate or minimize the potential for cross-contamination or spoliation of biological
evidence" and notify the defense of the arrangement~ for batching biological evidence.
(9 CR :1661-62).

(744} With the lab's a1-,rreement, J o lmson's batching recommendations were lc>llowed
in Applicant's case. In fact, her recommendation is now the standard the lab follows. (7
WRR <> l). Counsel's efforts before testing ensured the D A test results were as accurate
as possible.

(745) Counsel also negotiated and dratted a stipulation regarding the DNA testimony
that the non-appe,u-ing DNA analyst, Kimberly Mack, would give. The stipulation
acknowledged Mack's qualifications and competency, the work she perfonned jn

155

Applicant's case, ;md each of the repo11s she generated. IL also noted OPS's gene ral
policy of not conducting touch-ONA testing. And lastly, it documented the
contamination of some items of e\'idence, namely weapons, with the D NA of other lab
personnel. (SX 576).
The St1te presented no D NA evidence in the flruilt phase. And in his 1-,ruilt phase
dosing, counsel arhrued the absence of D NA evid ence linking Applicant to the
Md .dland murders. (47 RR a2, :-39).
(746)

Then later, at punishment, counsel cross-examined the testifying DNA expert,
Amber Moss. During that examination, counsel elicited that: (1) there was a partial
profile found in the steering wheel of the Mercury Sable from which one o f the State's
investigators, William Kasper, could not be excluded, (2) under testing guidelines for
capital cases, the DPS lab generally does not test for touch-D NA on items where there
has been a minimal amount of contact, such as steering wheels, shih. knobs, door
handles, etc., and (:-n touch-DNA can be transferred. (49 RR 127-:·H).
(747)

Applicant contends {'ounsel should not ha,·c agreed to the stipulation and should
have launched a full assault o n the testimony o f the expert who did testit)', D~ A analyst
Amber Moss. In particular, he would have questioned Moss about the method she
employed and tested her knowledge of the process and Mack's work. H e arhrues counsel
should have highlighted the fac:t that Mack, herselt: contaminated an item during testing.19
(748)

But Seymour stated he agreed to the stipulation rather than conduct a full-on
attack 011 the analyst's testimon y for t\,vo reasons. In his own words:
(749)

O ne, in many ways the D NA reports eliminated Mr. Williams in, in \·ast
numbers of items. Secondly, the new guidelines that had come out on,
on capital D . A processing essentially said that they should not or - test
on items of touch D NA because of the unreliability. And many of the
items where [Applicant] was tiecl to items, they were all touch D NA
items. So in large part I relied 011 her re po11s to substantiate part of my
defensive posture.

Evidence or this contamination was admiued in the November t,J., 20H D:\IA report. (SX 57/J).
Thus, evidence of the contamination was before the jury.
29

156

(7 WRR G2).
(750) Seymour's closing argument in the guilt phase bears out this slrate1-,ry, and it was
a sound one. Counsel got the best of both worlds. He could argue DNA evidence was
reliable only to the extent it excluded Applicant from the evidence of the murders.
(751)

Any further attack on the DNA evidence would have been inconsistent with
counsel's strategy and would have scored the defense little benefit.
(752)

:\llack's ,md Moss's credentials and qualifications were unimpeached and the
record shows both ,U"e qu,dified, experienced DNA analysts. (49 RR 11 (>; SX 57G).
There was no reason to doubt the reliability of their work.
(753) Further, although Applicant argues Moss's testimony was inaccurate or
misleading 011 ce1tain front,, he present, no e,·idence supporting his claims.
(754) Applicant's critique of Moss's testimony focuses largely on her testimony
"matching" his profile to the profiles found in the Mercury Sable. But this testimony vvas
not inaccurate or misleading. Moss explained the significance of a "match" depends on
its statistical relevance. Specifically, she testified:
When we have a DNA profile from the evidence and a D A profile
from a known sample, and they match each other, we then are able to
calculate statistics. So what we do is we are able to put in that DNA profile
into a, a sofrware program essentially that calculates how common or how
rare is that DNA profile, and we calculate it with the DPS in three m;.~jor
North American populations.

(49 RR 121-22) .
From this record, Moss's testimony and the results of the testing she and Mack
perlc.mned are reliable and credible. (49 RR l IG-:1G; SX !J7G-7~)).

(755)

Even assuming counsel could have impeached the accuracy of the DNA lest
results, it would have had no impact on the case. Although inculpatory, the DNA
evidence was not the linchpin of the State's case. The State otlered no 0 1 A evidence
in the guilt phase and at punishment, the evidence linking Applicant to Hasse's murder
was considerable without the DNA evidence.
(756)

157

(757) Thus, Applicant's defense was not pr~judiced by counsel's decision not to attack
the D I A evide nce tu1ther.
(758) Counsel rendered etle<:tive assistance in the handling of the D\lA e,·idence, and
this claim should be denied.

Extraneous Victiin Impact L\idence
(759) Applicant claims counsel was deficient for not ol~jecting to portions of Justin
Le'vvis's testimony about Mark Hasse. Lewis was an investigator in the Kaufina11 County
Criminal District Attorney's Oflice who worked with Hasse. (48 RR 1~)-21). Applicant
contends Lewis's testirnony was irrele,·,mt and highly inflammatory ,·ictim-impact
evidence related to an extraneous offense Yictim. {App. at 2:-w.:·H).
Specitically, Applicant argues counsel should have ol~jected to I ..e,,vis's testimony

(760)

that:
•

he was "close" to Hasse;

•

he spoke at Hasse's funeral;

•

Hasse "brought a tremendous amount of prosecutorial expenuKe to that
otlice";

•

Hasse was "considered Mike Md ..elland's top assistant district attorney"; and

•

Hasse was a certitied peace otlicer, which basically made him a police oflicer.

(App. at 2:-30.:·H).

(761} Applicant fails to prove by a preponderance of the e,·idencc
deficient for not ol~jecting to the testimony.

Lh at

counsel was

Applicant fails to rebut the presumption that counsel made a sound strate~ic:
choice not to ol~ject to the testimony.
(762)

(763) · Applicant fails to prove by a preponderance of the evidence that counsel's

decision not to ol~ject to the testimony prejudiced his defense.
158

(764) Victim impact evid ence related to an extraneous otlense is irrele,·,mt a11d
inadmissible under evidence rule 40 l. Cantu v. State, 9~-3~) S. W .2d 627, 6~-37 (Tex. Crim.
App. 1997).
(765) The complained-of portions of Lewis's testimony are not ,·ictim impact
e\·idence.

(766) Victim impact evide11ce is evidern:e "of the dlect of a11 ofle11se 011 people other
than the ,ictim." Rohe1t~· 1·• S tate, 220 S.. 1.:-3dci2 l, .S3 l (Tex. Cri1n. App. 2007).

df

(767) The complained-of portio1
Le~ testimony relate to the nature of his
relationship with H asse, Hasse's t·ole in the«fflce, and peace oflicer certification. They
did not convey information about how Hasse's murder atfocted Lewis.
(768) Notably, Lewis later testified about how the news that Hasse had been shot
atlected him, and counsel ol~jected to that testimony.30 Clearly, counsel recognized
victim-impact e,~dence when he he,ml it.1i 1 (48 RR 28-29).
(769)

To the extent Applicant suggests Lewis's testimony constituted improper ,·irtim
character evidence, he fails to show counsel should have objected.

(770) Victim character evidence is "evidence concerning good qualities possessed by
the ,·ictim." lv/at/11:.,- F. State, G7 S. W)kl 918, 928 (Tex. Crim. App. 2002) (quoting
lVloslcy 1·. State, 98:-3 S.vV.2d 249 (Tex. Crim. App. 1998)). It, too, is inadmissible with
respect to extraneous otlense victims. C;mtu, ~X1~J s.W.2d at (i:17-:18.
(771) Applicant argues Lewis's testimony pe1tai11ed to Hasse's good character and
compared his worth to other members of society. Although it could be construed as
evidence of Hasse's character, it was primarily probative of other facts in issue.

30

v\/hen asked how the news of Hasse's murder affected him, Lewis responded, "Shock al lirst, you
know. I knew somebody had been shot, but responding then; J never - it nev<:r ocru1-red lo m e that
it was - ." (11-8 RR 28-29).
31

The admissibility of this l.estin.10ny was subsequently litigated on direct appeal, and the Court
Criminal Appeals found any error was harmless. l1l1J/iams, 2017 WL 11-9'1-68G.ti, al • 28-:10.

159

or

(772) Lewis was the State's first punishment phase witness. The State used Lewis to
identity the live ,md autopsy photogTaphs of Hasse. (48 RR 22, 2~)-~-30; SX 2, !>O). Because
Lewis was unrelated to Hasse, the State needed to lay the foundation for his identification
of him. Lewis's f;uniliarity and relationship with H asse were probati,·e of his knowledge
of Hasse and, thus, his ability to identify him.
(773) Furthermore, Levvis's testimony regarding Hasse's abili6es as a prosecutor
related directly to the motive for his murder. Applicant killed Hasse because he
prosecuted him for burghu)'. Hasse's high-level role in the Kaufinan D istrict Attorney's
Office put him in the position of prosecuting Applicant.
(774) Also, Lewis's testimony that Hasse was a peace officer and, thus, akin to a police
otlicer, explained how Hasse could be lawfully carrying a firearm when he was shot by
Applicant. As a licensed peace officer, he vvas legally authorized to carry and regularly
did so.

(775) If counsel had ol~jected to these complained-of portions of Lewis's testimony,
the court would have overruled his ol~jection. The testimony was not inflammatory and
irrelevant but relev,mt and admissible.
(776)

Counsel could have concluded the s,une durinK trial and chosen not to ol~jcct.

(777) In any event, counsel's decision not to ol~ject did not pr~judice Applicant's
detense. Lewis's testimony was brief ;md unemotional and would haYe had little impact
on the jury. By comparison, the defense presented i~u- more positive e,·idence of
Applicant's character from a number of witnesses. The State presented subst,mtial
evidence of Applicant's history of violence and likelihood of future violence. Exclusion
of Lewis's testimony would not have altered the outcome of Applicant's trial.
(778) Counsel did not render ineffective assist;mce by not ol~jecting to Lewis's
testimony, and this claim should be denied.

Challenge to Exclusion ofMitigating Evidence
(779) Applicant contends counsel made faulty objections and offers of proof with
respect to the exclusion of testimony from several detense punishment witnesses. H e
claims counsel should have ol~jected to the testimony's exclusion under the W' and 14'..
Amendments as well as article :-38.:-36 of the criminal procedure code. Also, he argues

160

counsel omitted information from the oflers of proof· that would h;l\'e established the
admissibility of the excluded testimony. He claims that but for the ddiciell(:ies in
counsel's ol~jections and oHers of proof, the court ·would h;l\'e admitted the testiri1ony at
trial or its exclusion would have been reversed on appeal. (App. at 2a4-4.9).
(780) Applicant fails to prove by a preponderance of the evidence any deficiency in
counsel's handling of the excluded punishment testimony.
(781)

Applicant fails to re but the presumption that counsel exercised sound strate1-,11
in the hamlli111-; of the excluded punishme nt testimony.
Applicant fails to prove by a pre ponderance of the eYidence that counsel's
handling of the excluded punishment testimony pr~judiced his defense.
(782)

(783)

This claim relates to the following excluded testimony:

• Judge Ch itty's testimony regarding the location of the IT depa1tment i11 relation
to the JP court;
•

Regina Fogart)''s testimony regarding the imprm·eme nts Applicant wanted to
make to the magistration ,·ideo system;

•

Mark Calabria's testimony reg-arding how Applicant was perceived in Kautinan,
whether the prosecution of Kautinan officials was handled ditlerently thau other
individuals, and Applicant's isolation after his burglary trial;

•

Cathy Adams's testimony regarding whether people in Kautinan were unwilling
to speak on Appliecmt's behalt~ why Adams thought Applicant was arrested for
the burglary, the politics of Rick Harrison's campaign for district attorney, H asse's
aggressive prosecution style, McLe lland's demeanor toward Applic,mt, H asse's
reference to Applicant as Adams's "thief friend," and the personal nature of the
burglary prosecution; and

•

Rick Harrison's testimony regard ing whether McLella11d was prone to harboring
grudges, whether McLelland re membered the letter Applicant wrote on
H arrison's behalf, whether Md..elland harbored a grudge against Harrison's
supporters, the polarizing nature of the election, Harrison's immediate suspicion

161

that Applicant murdered Hasse, Harrison's friendship with the prosecutors pro
tem, and his request that they investigate Applicant.
(784) The law presumes counsel had a sound strategic reason for his actions.
Applicant fails to rebut that presumption.
Applicant had the opportunity to question counsel at the writ hearing about this
issue, but he did not do so. 'Thus, the record is silent as to counsel's reasons for not to
making the complained-of ol~jections or additions to the offers of proof.
(785)

(786)

l lsually, a record that is silent as to counsel's motivations for a tactical decision

cannot overcome the strong presumption that counsel's conduct was reasonable. Nlallt:tt,
<>5 S.W.:-M at 6:-3.
(787) The renml shows additional ol~jections or amendmenL'i to the oilers of proof
would have been pointless.
To a large extent, counsel was attempting to retry the burgla1y and thett cases
and an.,rue Applicant was actually innocent and wrongfully prosecuted. This was
improper. Applicant's burglary and thefr convictions were final. :,i The law prohibits a
collateral attack on the sufficiency of the evidence supporting a prior final conviction.
Calloway v. St;1te, !>78 S.W .2d 142, 14:1 f fex. Crim. App. 1979). To the extent the
excluded testimony was proffered for that purpose, the court properly excluded it, and
no additional ol~jections or modified otlers of proof would have rendered it admissible.

(788)

further, while Applicant contends counsel should have included information in
the otlers of proof showing the witnesses had personal knowledge about the .excluded
inlc:mnation, he makes no shcm~ng counsel could have truthfully asserted this. None of
the witnesses whose testimony was excluded gave post-com~ction atlid,n"its about what
they knew, and no other record evidence exists showing they possessed personal
knowledge of the excluded information.
(789)

(790) Finally, Applicant contends the exclusion of these witnesses' testimony deprived
the jury of evidence "tl1at the political climate around IApplicant's! election to.Justice of

32

Applicant's burglary ancl theft co11vic1jo11s were allirmecl on direct appeal on July::?!), 20l ~l, and
the mandate issued on October 18, 20 la. The instant trial took place in December 20 l ✓t,

162

the Peace was fraught, that the prosecution of IApplicantl for the theft ;rnd burglary
charges \.Vas overzealous, land I that !Applicant! became isolated after conviction." (App.
at 240). But other evidence of the same nature c;,une in through other witnesses.
As the Court of Criminal Appeals noted in it-; opinion on direct appeal, ''the
.im1' was already aware that Hasse and McLelland had successfully prosecuted Williams
for burgl,u-y and theft in 20 l 2, and that these convictions rnoti,·ated Williams to commit
the instant otlense." Willia1ns, 2017 vVL 4946865, at * 40. To the extent the excluded
testimony was evidence that the 20 l 2 burgla1y prosecution was selective or overzealous,
it was cumulative of other testimony from Ad,uns and J enny Parks. Id. at 4:1. The
excluded testimony \Vas largely redundant.
(791)

More importantly, the e xcluded evidence emphasized Applicant's moli\'e for
killing the Mcl..ellands and H asse. See id. at 40 (noting Harrison 's immediate suspicion
that Applicant murdered Hasse was not mitigating).
(792)

Given its cumulative and ag.1,1Tavating quality, the evidence's exclusion, if error,
would have been harmless on appeal.
(793)

Consequently, the failure to ol~ject on other ground s or include additional
information in the otlers of proof did not pr~judice Applicant's defe nse.

(794)

Counsel rendered eHective assistance in the handling of the excluded testimony,
and this claim should be denied.
(795)

Challenge to St:ate's Closing Argument
Applicant contends counsel rendered ineffective assistance by not ol~jecting to
three arguments by the State during dosing in the punishment phase .
(796)

(797) Applicant fails to prm·e by a preponderance of the e,·1de11ce counsel was
deficient for not ol~jecting to th e State's arguments.

Applicant fails to rebut the presumption counsel made a sound strategic choice
not to ol~ject to the State's a.r.i,'1.lments.
(798)

Applicant fails to prove by a preponderance of the evidence that counsel's
decision not to ol~ject to the .State's ,tr.!,'1.lments pr~judiced his defense.
(799}

163

(800) Counsel has 110 duty to ol~ject to argument that is proper. McRu/;wd
84!> S.vV.2d 824, 844 {Tex. Crim. App. 1992).

I'.

State,

(801) In order to show counsel was deficient for not ol~jecting to closing argument,
Applicant must show the court would have committed error in overruling an ol~jection.
l,:r pa1te Ma1tinex, ~-3aO S.W.~·M 891, 901 (Tex. Crim. App. 2011). Applicant fails to
make this showing with respect to any of the complained-of arguments.

"The purpose of dosing argument is to facilitate the jury i11 properly analyzing
the e\idence presented at D·ial so that it may 'arrive at a just and reasonable conclusion
based on the e,,i dence alone, and not on any fact not admitted in evidence.' It should
not 'c:m)Use the passion or pr~judice of the jrny by matters not properly before them."'
MJ/ton 1·. State, !>72 S.W.od 2:-34, 2o9 (l'ex. Crim. App. 2019). Proper jury argument
falls into four areas: (1) summation of the evidence; (2) reasonable deduction from the
evidence; {:-3) answer to argument of opposing counsel; and (4) plea for law enforcement.
Id. "Generally, the bounds of proper dosing argument are left to the sound discretion
of the trial court." Id.

{802)

(803) The first argument Applicant complains of re lates to the threat Applir,mt poses
to others in the future. Specifically, the prosecutor argued:

The last two people that have prosecuted him are dead. You know he
had two more people on his list. Has he added to his list since he's been
paused? \!Ve know he doesn't deal real well with the criminal trial
process. Has he added to his list? As yourself that. Ask yourse lf that one
simple question.
{S4 RR 197-98). Applicant argues this argument was inflammatory and improperly
implied if the jury did not return a death verd ict, Applicant might kill the lead
prosecutor or "possibly the jurors, too.'' (App. at 251-52).
(804) Applicant claims the State revisited this theme later and put himself more
directly in the victims' shoes with the following argument:

I don't stand up and seek revenge. He did. I stand up, like Mike
McLelland and like Mark Hasse, and ask for _justice, and ask for those
certain final answers. He must be stopped. It's that simple . How ma11y
people have to die before someone stops him?

164

(54 RR '.W:-3).
(805)

The above argument<,; were not inflammatory or othe1w1se improper.

The first cU)~111ne11t does not suggest the jury should fear Applicant's wrath. The
argument refers to prosecutors, and as Applic;mt contends, it suggests that he may pose
a future threat to the lead prosecutor in this case. But that is a reasonable deduction from
the evidence. r1'he evidence showed Applicant murdered the Kautinan County Criminal
District Attorney and one of his assistant-; in revenge for prosecuting him for burglary.
The evidence also showed Applicant ha<l a hit list of other public otlicials he planned to
kill. It logically followed Applicant would add those prosecuting him for capital murder
to the list of individuals he wished to kill. See Fifer v. State, 141 S.W. 989, 212 (Tex.
Crim. App. 1912) (holding argument that if set free defendant would "kill another good
sheriff' constituted reasonable deduction from evidence).
(806)

Further, this argument was responsive to counsel's argument challenging the
State's proof of Applic.mt's future dangerousness. Counsel had just argued that
Applicant would not pose a future danger because "his vengeance was complete." (54
RR 18 l). The State's argument pointed out that Applicant may not be done exacting his
revenge and anyone who prosecuted him risked provoking his ire and, thus,jeopardi1/.ed
their own safety.
(807)

(808) The second complained-of argument is a request for justice for the ,·ictirns and
a plea for law enforcement.
(809)

Next, Applicant complains of the following argument:
I beg you to remember the victims in this case. The D.A. and his top
assistant, who stood up for justice, who stood up against IApplicantl. I
beg you to remember Cynthia McLelland. H er death makes your
decision dear. Her death makes your decision clear. It's up to us now.
It's up to the system, it's up to you as jurors to put some fi11ality, to put
some closure to their loss, to put some finality and put some closure into
the pain that this man can inflict.

(54 RR 20:-3). Applicant contends tl)is argument "called on the jury to return a death
verdict not based on the answers to the Special Issues, as the law requires, but rather
to appease the victims' families and communities." (App. at 253).

165

(810) T his argument does not tell the _jurors to disregard the special issues. The
prosecutor asked the j uror to think of the victims a nd sto p Applicant from hurting
anyone else. Again, that is <l proper pica fo r law enforcem ent. See A.1 ,Ja 1: .')liilt.:, 2G7
S.vV.:·M 428, 4:-3.'>-:-36
App. - H ouston I 14th D ist.I 2008, pet. re l\!) (holding
ar6iument asking jury to think of victim and victim's family and deliver justice to them
constituted proper plea for law enforcement and did not ask juror to render , ·erclict
based on desires of ,,i ctim's family).

rrex.

(811) Finally, Applicant complains about aQ,ium ent reg-c1rding I lasse's murder.
Specifically, the prosecutor a r1-,iued:

Now you've heard a bout the murder of Mark H asse. You'n:: heard about
this man's lirst murder; and just as surely as Mark H asse h as risen from
the grave a nd come into this courtroom and told you who his murdere r
was, the evidence we've introduced to you le ts you know witho ut a
s hadow of a doubt, it points the accusing finger of guilt at the right pe rson.
(54 RR 19a). A pplicant contends this argument argues facts not in e , ·ide n cc and
constitutes an improper appeal to the emotions and sympathy of the jurors rather than
the evide nce prese nted .
(812) Contra1y to Applica nt's contention, this a rgument is a reference to t.he facts in
evidence proving Applicant murdered H asse. The prosecutor is referring to how strong
the case is implicating Applicant in Hasse's rnurder. It is as strong as H asse's eyewitness
account would have been had he survived . Analogizing the strength o f the e,·idcnce to
the testimony of a ghost was simply a liter.-uy tool, the use of which is acceptable in dosing
aq,iument. Broussard 1·. State, 910 S.W.2d 9!.i2, ~)59 (Tex. Cri m. App. 199!>) (holding
counsel may employ ,u1alogies in argument to emphasize and explain e,·idence).

(8 13) Regardless of any impropriety in the above arguments, counsel could haH~made
a sound strategic decision not to ol~ject to them.
(814) The decision to ol~ject to pa1ticular statemenl'i made during: closing argument is
a matter of t:rial su·ate,gy. Nicholmn ,·. State, 577 S.W.:·kl 5!>~), !.i70 ( I"'ex. App. - H o uston
I14th D ist. I 2019, pet. ret'd).
(815) Applica nt had the opportunity to question counsel in the writ hearing as to their
reasons fo r not ol~jecting, but did not.

166

(816) l lsually, a record that is silent as to counsel's motivations for a tactical decision
cannot overcome the strong presumption that counsel's conduct was reasonable. l\1aJ/ett,
65 S.W.:-M at 6:1.
{817) Counsel could have reasonably concluded ol~jecting to the compla ined-of
arguments would have needlessly drawn further attention to them, especially in light of
the court's written instruction to theju1y to consider only the e,,i dence properly admitted
at trial. (l l CR 4295)/1 see B1y;u1t v. State, 282 S.\1V.:1d 15G, 17:1 (Tex. App. - ·1·exarkana
2009, pet. refd) (holding counsel made reasonable strategic decision not lo emphasize
improper closing remark with contemporaneous objection).
(818) Finally, any impropriety in the complained-of arguments did not prejudice
Applicant's defense. None of them vvas extreme or m,mitestly improper, Yiolative o f' a
mandatory statute, or iqjected new fact'i harmful to Applicant. See J-/a wk1i1s i-. St;ite, 1:)5
S.W.:)d 72, 79 (Tex. Crim. App. 2004) (enunciating standard for reversal based 011
improper argument). And the court instructed the jury to disreganl any arguments 1101
supported by the law or the evidence, and the jury is presumed to han.: rollowed that
instruction. (11 CR 4295). Thus, counsel's failure to ol~ject to any impropriety did not
prejudice Applicant's defense.
(819) Counsel did not render inetlective assistance by not o~ ~:~11g to the above-cited
1
arguments, and this claim should be denied.
-

Guilt Phase Representa.~

-

Challenge to State's Ve.nion ofEvents
Applicant contends counsel failed to adeq uately im·estigate and challenge "the
State's version of event<;." H e argues counsel was d eficient for not investigating the
possibility that: (l) Kim Williams was mo re involved in the killings than she admitted to
law enforcement; (2) the McLell,mds were murdered around 2::10<1:00 am, r'"ither than
6:40 am; and C:1) a third person participated in the murders. (App. 262-67).
(820)

33

The Court's i11stn1etion read: "You arc instructed that any statements of cou11scl made during the
course or the trial or during arg11111cnt not supported by the evidence, or stakmcnts or law mack hy
counsel not in harm ony with Ilic law as slated lo you by the Courl in these instructions, arc lo be
wholly clisrcgardccl."

167

(821)

Applicant fails to prove counsel's investig-ation into these n1atters was deficient.
H e also fails to prove counsel was deficient for not challenging the State's case regarding
the level of Kim's involvement, the timing of the McLellands' murders, and the number
of participants in the murders.
(822) Applicant also fails to rebut the presumption counsel's decisions with respect to
these matte rs constituted reasonable trial strategy.

(823) Applicant had the opportunity to question counsel at the \>Vrit hearing about
whether he investigated any of these matters and, if not, why he did not. Thus, the record
is silent as to what investigation counsel conducted ,md why he chose not to challenge
the State's case 011 these points.
(824) l lsually, a record that is silent as to counsel's motivations for a tactical decision
cannot overcome the strong presumption that counsel's conduct was reasonable. A1allett,
65 S.W.:-3d at 6:1.

(825) And Applicant fails to show any of these alleged deticiern:ies prejudi(·ed his
defense.

Kim WJ/liams'.s- Le1el o/1mo/iement 111 Murden
(826) Applicant contends counsel should have investigated Kim \tVilliams's leYel of
involvement. He claims this investig-c1tion would have yielded information showing Kim
was more culpable than she admitted to law e nforcement. According to Applicant, Kim
was a willing participant in everything, she came up with the idea of disposing of the gun
in the lake, and she was inside the McLe lland home during the murders. In support of
this claim, Applicant cites to Ray'la McCuny's dedarat ion. (App. at 2G4-<>.1j; AX 22).
(827) Applicant fails to prove by a preponderance of the evidence that counsel's
investigation into Kim's level of inn>lvement in the murders was deficient.
(828) Applicant also fails to prove any deficiency in the investigation pr~judi(ed his
ddense.

(829) Counsel made conceited efforts to investigate Kim and her leve l of involvement.
Counsel attempted to gain access to Kim through her attorneys, moved to depose her,

168

investigated inmates who may ha\·e had contact with her during he r pretrial irn:an:eration,
and contacted Kim's former classmates. (~) CR :-3K18; 8 RR 1O; 7 \tVRR 72-7:·n.

(830) Furthermore, counsel hired an expert to evaluate Kim's recorded intetTiews with
law enforcement. And counsel impeached Kim on cross-examination wilh the
inconsistencies between her recorded statements and her direct ex,unination testimony.

(54 RR 104-08; 7 \VRR 71-72}.

(831)

Applicant relies on McCurry's declaration ,md testimony as evidence that Kim's
testimony minimized her invoh'ement in the murders. But as pre\·iously found, Mc:Curry
is not a reliable or credible source of information about Kim.

(832}

Even if counsel discovered McCurry and utilized the information m her
d eclaration, it would have done little to impeach Kim's trial testimon y.
Kim never painted herself as anything other than a v,~lling participant. She
admitted to assisting and attending all three murders. She admitted she was happy about
the victims' deaths. And she admitted she drove Applicant to the lake where he disposed
of the guns.

(833}

(834) Proving it was Kim's idea to get rid of the guns would not ha,·e increased her
culpability. And even if McCurry put Kim inside the Mcl..elland house, she did not put
the murder weapon in Kim's hands. Again, it would not have increased Kim's culpability.
(835) MoreO\·er, evidence Kim may have assisted in ways she did not acknowledge at
trial would not have reduced Applicant's culpabilily . As previously found, the evidence
implicating Applicant in the murders was considerable.

(836}

Thus, even if counsel discm·ered McCun)' and utilized the information in her
declaration, it ·would have had minimal, if any, impact and would not ha,·e altered the
outcome of Applicant's trial.

Time o{Mcl .,el/ands·' Jlfurden
{837} Applicant contends counsel had reason to investigate the possibility the
Mcl..dlands were murdered around 2::-30-:·t00 am because a couple of neighbors
reported hearing bangs or fireworks around that time. (App. at 265}. In support of this
claim, Applic;mt present, what appears to be pages from report, summarizing i11le1Yiews

169

law enforcement conducted with neighbors. (AX 42-4:-n. These reports retlect three
indi\~duals heard what sounded like fireworks around 2:a0-:1:00 ,Un Oil March ao, 20 l :1.
Id. Applicant daims counsel could have called the State's timeline of the offense into
question and raised a doubt as to his guilt if this evidence had been investigated and
presented at trial.

(838) Applicant does not ex plain how such e\'idenre would exculpate him. H rnve\·er,
the State's theory the crime occurred at G:40 am was supported by the e,·ide11ce of
Applicant's entry into and exit from his storage unit that morning.
Applicant present') no evidence counsel was unaware of these law enforcement
report'). H e also presents no evidence counsel failed to investigate whether the murders
could have occurred earlier.
(839)

(840) Counsel was likely aware of these reports. Despite ,-oluminous discm·ery, the
defense team was familiar with the State's evidence inculpating Applicanl in Lhe
~kl..ellands' murders. Counsel Matthew Seymour and defense im·estig-;ttor Rodnic
\\lard spent a significant amount of time reviewing this e,~dence ,md discussing it with
Applicant. Appliecmt's insistence that he did not commit the murders motivated the
defense team to find any exculpatory or impeaching evidence. Moreover, counsel knew
the State's e,·idence so well he even predicted what evidence the State would present in
the guilt phase. (7 \tVRR 20-21, 2!>, 27, 4 1; SWX 6-7).
Counsel could haYe reasonably determined it would he fruitless to pursue the
possibility the McLcllands were shot between 2::·m-8:00 am. The records of the alarm
company (ADT) showed no movement inside the McLelland house and no doors
opening or closing between 11 :30 pm and 6:40 am on March 29-:-30, 20 la. Absent some
evidence of movement by people or doors a.round 2:80-:1:00 am on March ~10, 20 l :-3, 110
rational person vvould have concluded the murders occurred at this earlier time.
(841)

Applicant presents no evidence irnpugning the alarm company records. And but
for law enforcement reports, he presents no e,·idence supporLing his daim the murders
occurred earlier.
(842)

Given the scarcity of the evidence supp01ting the theo1y, Applicant could not
have been pr~judiced by the decision not. to pursue it.
(843)

170

11111d Pa1tic1i>ant
(844) Applicant contends counsel should ha\·e utilized evidence that an unidentified
male's DNA was found on two items in the storage unit - a sunllower seed and a
toothpick - to show someone other than Applicant and Kim Williams had access to the
unit. According to Applicant, this evidence was exculpatory because it shmvs another
person may ha,·e participated in the murders. (App. at 266).
(845) Applicant fails to prove by a preponderance of the evidence counsel was
de ficient for not utilizing the discovery of an unidentified male's DNA 011 the su11flo1vver
and toothpick.
(846) Applicant fails to rebut the presumption counsel made a sound strategic d ecision
not to utilize this DNA evidence.
(847) Applicant fails to prove by a preponderance of the evidence counsel's decision
not to use this D NA evidence pr~judiced his defense.
(848} At the time of trial, the D NA evidence showed the presence c>f an unidentified
male's DNA on the sunflower seed and toothpick found in the storage unit. (SX 578) .
{849) The trial record ,md writ proceedings do not reflect where in the unit the seed
and toothpick ,,vere found. That someone else's DNA was found on the seed and
toothpick does not necessarily show this unidentified person entered the unit.
(850) Even if the D t A evidence showed someone else entered the unit, it does not
exculpate or reduce the culpability of Applic,mt for the murders. T'he evidence does not
put a third person at the scene of the murders or put the murder weapons in someone
else's hands. At most, it shows someone else may have been aware of ,md had access to
the unit and il'i contents. But whether or not someone else had access to the unit, the
overwhelming weight of the evidence still points to Applicant as the killer of both H asse
and the McLellands.

In sh01t, the evidence 1,,vould have yielded little, if any, benefit to the delense.
T'hus, not utilizing it was sound strateh,y and could not have affected the outcome of
Applicant's trial.
(851)

171

(852)

In 20 l G, the D NA resuhs were reanalyzed. The D ·A pro Ii le still has

been
matched to ,my other known profile. H owe,·er, the results are now inrondusi\'t: as to
B,uton \ Nilliams and four other known indi,iduals. (K3 \tVRR SWX l part SG a t p. 2:12
- O ctober 7, 201G Supplemental DNA I..a borat01y Repo1t, p. 7).
11ot

(853)

The reanalyzed results were unavailable to counsel at the time of trial. Counsel
cannot be deemed deficient for not making use or information that did not exist at the
time of tTial.
En ~n if it had existed , howe,·e r, counsel could ha,·e reasonably chose11 not to
utilize it. At most, the evide11ce could ha,·e impeached Barton \tVilliams's testimony that
except for the day he rented it, he never went inside the unit. (44 RR 241-4:1). And the
evidence's impeachment value 1,,vas minimal; it did not definitively put Barton VVilliams's
D NA in the unit. It only sho wed his profile could not be excluded, along \ivirh the profiles
or four others. And, given the m·e nvhelming e,·idence linking Applicant to the unit and
its contents, impeachment of Barton \tVilliams's testimony about the unit would haYe
benefited the defense little, if at all.
(854)

Applicant's right to etfoctive assislance of counsel was not ,·iolated by counsel's
decision not to utilize the results o f D NA testing o n the seed and tooth pick found in the
storage unit, and this claim should be de11ied.
(855)

Suppression ofLexisNexis Search Results
Applicant contends counsel should hm·e moved to suppress eYidence or
LexisNexis searches run from his IP address. The searches related to both H asse and
Md.dland before their murders, and they showed Applicant was surYeilling H asse. (Mi
RR 69-7G; 49 RR 17:1-82; SX
l , :11 lb, .584-587). Applicant claims the seard1es \\'ere
run from his own private LexisNcxis account, and were obtained them without a search
warrant, his consent, or justification for a warrantless search. Therefore , he argues,
e,idence or the LexisNexis searches was illegally obtained and inadmissible. Further, he
claims the State relied on the Lexis exis searches to obtain search warrants for his house
and storage unit and his arrest warrant; thus, any e\'idence o btained as a result or those
warrants should also be suppressed. (App. at 2G7-72).
(856)

:-n

Counsel filed a motion to suppress e,·idence of the Lexis\' exis scard1es. (1 0 CR
:1~) l 8-2 l). Applicant claims counsel "inexplicably" failed Lo obtain a hearing or ruling on
(857)

172

the motion and abandoned it. (App. at 270-71 ). Counsel did not forget about this
motion; he withdrew it. (4a RR 4-5).
(858) Applicant fails to demonstrate by a preponderance of the evidence that counsel
was deficient for withdrawing the motion to suppress.
(859) Applicant also fails to rebut the presumption that counsel's d ecision constituted
reasonable trial strategy.
(860)

And Applicant fails to prm·e his d efense was pr~judiced by cou nsel's decision.

(861) Contra1y to Applicant's assertion, the online database searches we re not
conducted using Applicant's own private LexisNexis account.
(862) Counsel investig,lted from v,1hid1 I..exisNexis account the searches were
conducted and determined that the account belonged to Kautinan County, not
Applicant. (7 WR 66).
(863) At trial, the State presented evidence through r.-vo witnesses, the Kautinan
County Lexis 1e:xis contracts, the source documents pertaining to the searches, and
spreadsheets summarizing the pertinent LexisNexis searches. The State's evidence
sh.owed all of the pertinent se;m:hes \,vere conducted using ;m account owned by
Kaufinan County; that account was identified by the bill group number l 2GMVF. (4(i
RR G9--7fi ; 49 RR 17a-82; SX :-3 1l , :-31 l a, a t l b, !>84-587).:11
(864) Moreover, the defense investigator contacted LexisNexis, and the company
confirmed Applicant did not have an account in his own name. (7 WRR G6).
(865) Applicant presents no evidence refuting Kauhnan County's ownership of the
Le:xisNexis account. His cla im is based on unsubstantiated "information and belief."
(App. 2G~)).

(866) O wnership of the account was not the only obstacle to suppression, howeYer.
No matter who owned the account, a suppression motion could not have sun·eeded
unless Applicant asse1ted standing. See MattheM(<; 1·. State, 4~-H S.W.~-3d 596, (j()(j (Tex.
Crim. App. 2014) (holding lederal and state constitutional rights ;.u-e personal and, thus,
34

Acn:ss to the CD containing some

or the records requires a password - " l ln l nvcsl."
173

accused must show search , iolatecl hi s, not third pa1ty's, le1-,~timatc expectation of
privacy). Proof of standing would have required a showing that Applicant, not a third
pa1ty, had an expectation o f privacy in the Le xisl exis searches. Jr/. {citing R akas 1·.
Ilhi101:S-, 4:-39 l .S. 128 (1 978)). Thus, Applicant \-vould have had to acknowledge that it
'vvas he who ran the complained-of se,u-ches. H e wou ld have no expectation of' pri,·,Ky
in searches run by someone else.
(867} Counsel thoroughly discussed this issue with Applicant, explaining the be nefits
he could reap from admitting standing and the consequences of de nying it. Still,
Applicant refused to acknowledge he ran the searches. Realizing the su ppression motion
would fail, counsel chose to ,vithdraw it. (7 W RR (>5-(>G; SWX 7 - Seymour me mos
d ated (;Ja0/ 14 and 9/ 15/ 14) .

(868) Given Appliecmt's refusal to acknowledge he ran the searches, counse l made a
reasonable strate1-,~c decision to withdraw his motion to suppress.
(869)

Counsel cannot be deficient for failing to pursue a meritless claim.

(870) I f counsel had presented the motion to the .court ,,~thout Applicant's
acknowledgement, the court would ha,·e denied it based o n Applicant's lack or sta11di11g.
Thus, counsel's decision not to present Lhe motion had 110 delete rious impact on
Applicant's detense.

Legality ofChitty Warrants(871) Applicant contends counsel should h,n·e mm·cd to suppress and ol~jectecl to the
admission of e,·ide nce obtained based 011 a warrant issued by J udge ~ichacl Chitty of
Kaufrnan County. According to Applic:ant, Judge Chitty authorized the search or
Applicant's house at lGOO (herloo k knm,~ng he was clisqualilicd from Applicant's case.
Applicant argues J udge Chitty's d isqualification rende red the search warrant n,id awl,
thus, the incriminating evide nce seized from his house inadmissible. (App. at ~7~1-74).
(872} Applicant fails to prove by a prepondenmce of the evidence that counsel's
decision not to challenge the validity of the search of his house was dcticient. H e also
fails to prove the decision prejudiced his d efense.
(873)

Applicant present~ no evidence J udge Chitty issued the warrant to search his

house.
174

No copy of the search warrant appears in the clerk's record on direct appeal,
,rnd Applicant tendered no extrinsic evidence of the warrant in these writ proceedings.
(874)

As it stands, the record reflect~ only that Judge Chitty issued the warrant for
Applicant's arrest in the burghffy and thefr case and set h is bond after his arrest in the
instant case. (1 CR 20; 44 RR 74).
(875)

But even assuming· Judge Chilly issued the search warrant, Applicant fails lo
show counsel was deficient for not challenging its validity.
(876)

To show counsel wa'i deficient for not challenging the warrant, Applicant must
show the court would have b een obliged to gr.mt a motion to suppress.Jackson 1·. S t;ite,
~na S.\tV.2d 954,957 (Tex. Crim. App. 1998). Applicant fails to make this showing.
(877}

Judge Chitty's issuance of the warrant would not hm·e affected its ,·alidity, and,
thus, suppression of the evidence seized under it would ha\'e been unwarranted.
(878)

A judge's disqualification aflects his jurisdiction and renders any actions by him
null and void. Lee 11. State, 555 S.W.2d 12 l , 124 (Tex. Crim. App. 1~)77). B ut Applicant
fails to demonstrate Judge Chitty was disqualified. Moreover, the record refutes the
allegation.
(879)

Applicant ,-ir.i,rues J udge Chitty's disqualification is evident from his recusal. By
recusing himself, Chitty showed "he had knowledge of a basis for him to be disqualified
from" the case. And "the basis of his recusal would ha,·e been known lo Judge Chitty al
the time he authorized the warrants that made dear !Applicant] was being investigated
for the death of the Mcl..dla nds." (App. at 274).
(880)

Applicant is wrong. Recusal is not synonymous with disqualification. A judge
may be recused for reasons that do not disqualify him. See T ex. R. Civ. P. 18b.
(881}

In T exas, a judge may be removed from a case for one of three reasons: he is
constitutionally disqualified, he is sul~ject to a statutory strike, or he is sul~ject to
disqualification or recusal under T exas Supreme Court rules. Caal v. State, :-3:-!2 S.W.:-3d
448,452 (Tex. Crim. App. 20 11). But, ge nerally, grounds for disqualification are limited
to those identified in the constitution. Id
(882)

175

(883)

Judicial disqualification occurs in a criminal case when (l) the judge is the
injured party; (2) the judge has been counsel for the accused or the State; or(:·{) the judge
is related to tht: defendant or complainant by atlinity or consanguinity within the third
degTee. See Tex. Const. art. V, ~ 11; Tex. Code Crim. Proc. Ann. art. :-30.0 l (West
2006); Tex. R. Civ. P. 18b(a).

(884) Bias may also be J,'Tournls for disqualification, but only ,,vhere it is shown to be
of such a nature, and to such extent, as to deny a defendant due process of ]a1,,v. J(emp
r'. State, 846 S.\iV.2d 289,805 (Tex. Crim. App. 1992).
(885) J udge Chitty voluntarily recused himself sua sponte alter Applicant was iudicted
for the instant capital murder. He did so vvithout identifying the reasons behind his
decision. (App. at 274; l CR :-3:-3).
(886) Applicant does not allege or show on what particular basis.Judge Chitty chose to
recuse himself. He asks the court to inter some unidentified reason for disqualification
from the record. The record supports no such inference.
Judge Chitty's issuance of the search warrant for Applicant's house would not
have legally barred him from presiding <n-er Applicant's capital murder trial. Ke1np, 84G
S. W .2d at :10G (holding mere fact that judge issued defendant's search or arrest warrant
does not disqualify him from presiding o\'er defendant's subsequent trial) .
(887)

Also, J udge Chitty's testimony at Applic,mt's trial evinces 110 grounds for
disqualification. There is no evidence that a year and a half before trial, vvhen the vvarrant
for Applicant's house was issued, Judge Chitty knew he vmuld be a witJ1ess. Although
Applicant was clearly a suspect, it was still uncertain he would be prosecuted for the
murders. More over,Judge Chitty was not a fact witness to any of the murders. He m erely
provided background infonnation, identif),ing Applicant and attestinglo his c~ireer and
his burglary prosecution. Such information could very likely have been provided by any
number of indi,·iduals.
(888)

And there is no evidence Judge Chitty was actually biased against Applicant.
Applicant present~ no extrinsic evidence of actual bias. or is actual bias e,·ide11t inJ udge
Chitty's trial testimony. His testimony appe,u-s even-tempered ,md !~Kt based.
(889)

176

(890) Judge Chitty could ha\·e voluntarily recused himself' for personal reasons that
arose well aher the search warrant issued and did not bear 011 his ability to be neutral
and detached.
(891) H e could also have wished to avoid any appearance of partiality or impropriety,
given that he presided over the burglary trial that motivated Applicant to murder Hasse
and the Mcl..ell;.mds. (44 RR G8-69, 74-76). Although insutlicient to require his
disqualification, such an appearance may have ethically obligated Judge Chitty to recuse
himself. -SeeTex. CodeJud. Conduct, Canon 2(A), repni1tt:d 1i1Tex. Gm·'t Code Ann.,
tit. 2, subtit. C, app. C (West 2019); see almTex. R. Civ. P. 18b (distinguishing gTou11ds
for disqualification from grounds for recusal).
(892) Absent evidence of some disqualifying factor, a challenge to the \·,tlidity of the
se,u-ch warrant for applicant's house would have been futile. Counsel is not required to
file futile motions. Mooney v. State, 8 I 7 S.\tV.2d 698, (i98 (Tex. Crim. App. l D9 l ); see
alm Dia;,: v. State, a80 S.W3d :10~), :1 12 ( l'ex. App. - Port Worth 2012, pet. refd)
(holding counsel not inetlective f<.>r not seeking to recuse from suppression hearing and
trial same judge who issued blood warrant).
(893)
Oil

Moreover, the failure to file a futile motion could have had

110

pr~judicial etle<t

Applicant's defense.

Judicial Bias
Applicant contends counsel should have ol~jected to .Judge Snipes's judicial bias
and mon~d to recuse him at trial. (App. at '27 !>).
(894)

Applicant fails to prove by a preponder,mce of the evidence counsel was
deficient for not making ajudicial bia~ ol~jection and moving to recuse .Judge Snipes.
{895)

Applicant fails to rebut the presumption counsel made a sound strategic choice
not to make a judicial bias ol~jection or move to recuse.Judge Snipes.

(896)

Applicant fails to prove by a preponderance of the e,·idence counsel's decision
not to make a _judicial bias ol~jection and mo\'e to recuse Judge Snipes pr~judiced his
defense.
(897)

177

(898) As set out in detail in the findings and conclusions on Applicant's Claim 5,Judge
Snipes was not biased.
(899) Applicant's right to trial before a neutral and detached hearing officer was not
violated.
Thus, any attempt to remove Judge Snipes during Applicant's trial would haYe
failed. Counsel cannot be deemed deficient for failing to pursue a meritless claim.
(900)

Counsel could have reasonably concluded that an attempt to remove Judge
Snipes would be liuitless.
(901)

Furthermore, because Judge Snipes was a neutral and detached hearing oflicer,
Applicant's defense was not pr~jud iced by counsel's decision nol to seek his removal.
(902)

Counsel's was not inettective for not seeking Judge Snipes's remo\'al and the
claim should be denied.
(903)

Challenge toJeffress Testimony
Applicant contends counsel rendered ine tlective assistance with respect to his
ha ndling of the expert testimo ny of the State's fire,u-m and tool mark examiner James
Jeffress. In particul,u-, Applicant contends counsel was de ficient for:
(904)

35

•

not challenging the technique Jeffress used;

•

not challenging his assertion the AFTE ·; Code of Ethics requires an expe1t
who disagrees with the co nclusion of another expert to contact the other expert
and work toward a mutual condusion;

•

eliciting bolstering hearsay fro m J effress that another examiner had agreed
with h is results; and

•

not making a hearsay ol~jection to J dfress's testimony vvhich implied the
detense expert a.i,'Teed with him.

1

"AFTE" stands for "the Association of Fin.:arm and Tool Mark Examiners."

178

(App. at 276-88 & fo. 274.).
(905)

Applicant fails to prove by a preponderance of the e,·ideuce counsel's handling
of.Jeffress's testimony was deficient.

(906) Applicant fails to rebut the presumption that counsel's handling of Jeffress's
testimony constituted sound strategy.
{907) Applicant fails to prove by a preponderance of the evidence that counsel's
handling ofJetfress's testimony pr~judiced his defense.
(908) Jeffress is a well-educated and experienced fore11sic scientist employed in the
firearm and tool mark section of the DPS crime lab. He was qualified as an expert in
firearm/ tool mark identification. He is a credible and reliable expert witness. (1,2 RR 749; 45 RR 121-5:-3; SWX 17).
(909) As the proponent of Jetfress's expert testimony, the State bore the burden of
demonstrating it'i reliability by dear and convincing evidence. Kelly, ,. State, 824 S.\tV.2d
!.iG8, S7:-3 (Tex. Crim. App. I 992); T ex. R. Evicl. 702. To be reliable, scientific evidence
must satist)' three criteria: ( l) the underlying theory must be Yalid; (2) the teclmique
applying the theory must be valid; and (:-3) the technique must have been properly applied
on the occasion in question. Kelly, 824 S.vV.2d at 57:-3. Factors that could affect the
determination of reliability include, but are not limited to: (1) the extent to which the
underlying scientific theory and technique are accepted as valid by the relevant scientific
community; (2) the qualifications of the expert testifying; U3) the existence of literature
supporting or r~jecting the underlying scientific theory and technique; (4) the potential
rate of error of the technique; (!>) the availability of other experts to test and evaluate the
technique; (G) the clarity '1-vith which the underlying scientific theo1y and tech11ique ca11
be explained to the court; ;md (7) the experience and skill of the person who applied the
technique on the occasion in question. Id
{910) Before trial, the court conducted a Daubert/ Kelly hearing at which counsel
challenged the validity of the scientific theory underlying J effress's testimony. This
hearing was conducted in response to a motion filed by counsel. (10 CR 4170-7 4; 42 RR
6-52). Applicant claims counsel also should have challenged the scientific technique
Jeffress used. His claim focuses on Jeffress's testimony concerning the prqjectiles ,md
casings from the McLelland murder scene, the casings from the highway underpass, and

179

~

...---

-

~-- ----------------------------------

the live round found in the storage unit. ,.l'etfress's testimony linked them all to one
firearm, the McLelland murder weapo n.:3r.

(911) In particular, J etfress said he analyzed all of the projectiles and casings found at
the Mcl..e lland murder scene. He determined all of the casings and prqjectiks suitable
for comparison were tired from the same gun. (4!J RR l 2,'>-29; SX 28,'>-8(,, 28~), 291).
He also analyzed the live round found in the bottom of the tactical bag in the storage
uuit and found markings on the li,·e round consistent with having been d1amhered and
~jected without being fired. Those markings matched the markings on the 20 casings
found at the McLe lland murder scene, indicating the round had once been chambered
in the murder weapon. (45 RR 129-80; SX 287). Lastly, he analyzed the .22:-~ casings
found at the underpass on highway l JS 175. He determined the markings on those
casings matched the markings on the casings from the murder scene and the live round
from the bag in the unit. (44 RR 158; 45 RR rn7-:-38; SX 221-:-34, 2:-3<>, 290). The
Mcl..dland murder weapon ,,vas never recovered. Thus, Jetli-ess did not compare the
pn~jectiles, casings, and li\'e round to ammunition test tired h·om or cycled through a
known firearm. (44 RR 147).
Applicant contends J effress did not properly apply the scientitic technique
because he did not utilize ammunition test tired or cycled through a k11ow11 firearm.
Applicant argues counsel should have challengedJeffress's testimony 011 this basis in the
Daubert/ Kelly hearing. He attributes this omission to counsel's failure "lo perform
necess<u-y legal and factual research into the question or whether the firearms analysis in
this case was adrnissible." (App. at 27~)).
(912)

Applicant's diaracteri,.,ation of counsel's effo rts is inaccurate. Seym our spent a
significant amount of time, e11en,ry, ,md resources preparing to challenge the admissibility
of Jetfress's testimony. He extensively researched the issue by reading numerous
scientific journal articles and contacting some of the authors, he utilized a trial resource
guide from a forensic ballistics group website, and he retained a ballistics expert, Dr.
Charles Clow. Dr. Clow evaluated all of the ballistics evidence in Applicant's case, and
his conclusions were largely consistent with those of.Jeffress. Seymour's pre paration was
(913)

36

.Jdfress also Lestilied in the punishment phase. He c:oncludc cl the three projectiles recovered from
the Hasse m urder scene, clothing, and autopsy were lired from the Ruger .:-357 revolver recovered
from the lake. (119 RR 1-1--18; SX 5:-37, 5•'1-2). Applicant raises no indkc;tjvc assist;mc;e c:omphtint with
respect to this testimony.

180

so extensive that in the process, he became something o f a ballistics expert himself. (7
WRR :-H<
·t2, 6:-3-65). Furthermore, he thoroughly cross-examined Jeffress during the
hearing and before the jury. (42 RR 24-46, 48-49; 45 RR t:-m-51). And he argued against
it~ reliability at length in dosing. (47 RR 45-47). There was nothing deficient about
counsel's preparations for J effress's testimony.

(914) Furthermore, no matter how mud1 effort counsel put into this issue, a challenge
to the reliability of.Jeffress's testimony based on the absence of a known murder weapon
vvould have failed.
(915) Citing the 2009 NAS repod1 and Sexton v. State, ~J:-3 S.W.:-3d 96 (Tex. Crim.
App. 2002), Applicant contends no firearm and tool mark examiner may identif)' a
prqjectile, casi11g, or round as having been fired from or cycled through the sanie firearm
without havin~ the firearm available for neating test tool marks. (App. at 277-84). His
ar,1.,11.11nent is based on outdated information and legal authority.
(916) Since the NAS Repo1t was published in 2009, "the Firearms and Toolmark)
community has published a large volume of studies regarding the theoretical and
practical aspects of the practice of comparing toolmarks present on bullets and cartridge
cases to both test tires generated in the laboratory as well as other items of evidence
submitted to the laboratory. These studies, even when using consecuti,-ely manufactured
components, ha,'e had eJT<>r rates ranging from O to l .!}X>." (S\tVX 17 at No. 17).

{917) As for Sexton, the opinion is neither persuasive nor controlling authority. First,
it is factually distinguishable. In Sexton, the firearm examiner's testimony comparing
mag-<1zine marks on ammunition without the magazine was excluded because he could
not explain the machining methods used to create the magazine, did not properly quality
his testimony as to the certainty of his identification, and did not provide sufficient studies
involving the analysis of magazine marks or e,,en tool marks in general. J effress's
testimony did not sutler from this deficiency; he demonstrated a full understanding of
the science and the method he employed. (4!> RR 121-!>:-3).
{918) Also, at the time Sexton was decided, there were tew validation studies pertaining
to identification by tool marks without a known tool. Now, J effress and other qualified
37

National Research Council, Strc116>thcning Forensic Science in the {Jnilecl Stales, A Path Forward

(2001)).

181

examiners can explain the scientific underpinnings of tireann/ tool mark identitication.
Moreover. there are dozens of published studies pertaining to identiliratio11 1vvithout a
kt10, n tool. (SWX 17 at Nos. 18 & I~)).
~
■

(91~) Applicant argues a known firearm is necessary to prevent an examiner from
confusing subdass characteristics with individual characteristics .. (App. at 280). A
properly trained examiner, Like Jeffress, can reliably distinguish between subclass and
individual characteristics without a known firearm. (SWX 17 at Nos. l 0-12).
(920) In short, the evidence dearly and com·illcingly shows the science does not
require a known firearm for identification. The evidence shows the technique or method
Jeffress employed in his analysis of the evidence was valid and properly applied by him.
(SWX 17); see aAo l ..ew1:~- 1·. State, No. 02-l:1-00:1G7-CR, 20 14 WL 7204708, at *7-1l
(Tex. App. - Fort Wo1th D ec. 18, 2014, pet. refd) (not desih'l1ated for publication)
(holding Jeffress's testimony that casing found at scene had been loaded into same
magazine as unfired ca11ridge found in accomplice's truck premised on re liable scientific
methodology despite lack of test from known ,,v eapon).
(921) Applicant contends Jerfress misrepresented that the AFI'E Code of" Ethics
requires an ex,uniner who disagrees with the conclusions of another examiner to contact
the other examiner and "come to a mutual conclusion." (45 RR 15a). Applicant claims
counsel should have exposed this on cross-examination of.Jeffress.
(922)

The AFTE Code of Ethics pro,~des the following:

It shall be regarded as ethical for one examiner to re-examine e,·idence
material previously su bmitted to or examined by another. \Nhcre a
difference of opinion arises, however, as to the significance of the
evidence or to the test results, it is in the interest of the profession that
every et1c>rt be made by both examiners to resolve their conflict before
the case goes to trial. However, work product and trial strategy may
require ('(msent of counsel.

(SWX 17 - Appendix 2),
(923) On its face, the prmision does not require ,m examiner to contact an examiner
whose conclusions he disagrees with. Thus, if counsel had confronted Jeffress with th is

182

provision, he could have impeached Jeffress on that point. But it would have had little
pr~judicial impact on J ethess's credibility.

(924) The introduction of the AFl'E Code of Conduct states it is a guide, not allinclusive or immutable law. The introduction also states the code represenl-; "general
standards, which each worker should strive to meet." (SWX 17 - Appendix 2 ofJetfress
Affidavit). Thus, ·while the code does not require communication and resolution ol'
disagreements among examiners, it endorses it as the ethical standard by which
examiners should abide, a fact the St~1te could easily have established on re-direct
examination ofJ elfress.'1~
(925) In light of this, counsel could have reasonably concluded attacking.Jelfress on
this point would have yielded little benefit to the defense.
(926) Applicant claims counsel should have ol~jectecl to J etfress's testimony about the
ethics code provision as hearsay because it implied Clo'vv, the defense expert, agreed with
J effress's conclusions. (App. at 28G fo. 274).
(927)

J effress testified 011 re-direct examination that:
•

afrer he completed his analysis of the evidence, he packaged it and released it
to a firearms exa1niner at the T'arrant County Medical Examiner's Office;

•

the Tarrant County lab has good firearms examiners that do work for defense
attorneys; and

•

no one contacted him afrenvards disagreeing with his conclusions
Applicant's case.

Ill

(4!> RR l f> 1-f>m.
T he State elicited this testimony in response to counsel's concerted effort-; 011
cross-examination to impeach the reliability or .leffress's co11clusio11s. (45 RR l :-m-51 ).
Thus, to the extent Applicant argues the complained-of testimony was "bolstering," he
is incorrect. C'o/111 i '. State, 84~) S. vV.2d 817, 8 I 9 (Tex. Crim. App. 19~);-~) (defining
(928)

38

vVhildcffrcss himsclr docs not belong lo AFTE (S\1VX 17 al 1o . 2:-_l), ii ,tppcars Clow is a board
m ember or the organization. Sec h11ps://arLc.org/abou1-us/ board-ol~dircetors.

183

bolstering as improperly using evidence to add credence o r weight to another
unimpeached piece of e,~dence offered by the same party). The State was rehabilitating
J etfress after impeachment.
Even assuming this testimony constituted inadmissible hearsay, it did not
pr~judice Applicant's ddense. If counsel had ol~jected to it, at most, he would h,n·e kept
out the implication tJ1e defe nse expert impliedly agreed vvithJeth-ess's conclusions. The
State could still have elicited from J effress the fact that the evidence had been mad e
available to the defense for testing. This would have been responsive to counsel's
impeachment o r.Jeffress on cross-examination and not hearsay.
(929)

Morem·er, to the extent the complained-of testimony implied the ddensc expc11
agreed with J effress, it was correct. (7 \V RR 7:-3-711.). In other words, the State did not
present false testimony to the j ury 011 the matter.
(930)

(931) Lastly, Appliecmt arh'1.les counsel should have objected toJ etfress's testimony that
his conclusions were verified by a second firearm/ tool m,u-k examiner. (4.'J RR 14:-3).
Applicant argues tl1is testimony was inadmissible hearsay and not responsive to the
prosecutor's question. He claims counsel should have ol~jected and moved to strike the
testimony. (App. at 288).
(932) Again, the complained-of testimony occurred on re-direct examination,
follm,~ng counsel's impeachment ofJetli·ess. (4!> RR 1<~~)-51).
(933) Even assuming the complained-of testimony was nou-responsive and
inadmissible hearsay, counsel could have made a reasonable strategic decision not to
ol~ject to it. ff prevented from eliciting this information through J dfress's hearsay
testimony, tl1e .St1te could have presented the second examiner as a witness to testil)1 to
the results of Ibis own analysis of the s,une e,·idence. This would han:: been responsi\'e
to counsel's im.peachment of.Jeffress and not hearsay. It would also ha,·e drawn furt her
attention to highly inculpatory evidence. Opting to avoid emphasizing this e,·idence and,
instead, allow the complained-o f hearsay testimony was a sound strategic choice. In doing
so, counsel avoided greater prejudice to the dete nse.

Counsel rendered eflective assistance in his handling of.leffress's testimony, and
this claim should be denied.
(934)

184

Challenge to Fingerprint Evidence
(935) Applicant contends counsel should have requested a Daube1t/ Kelly hearing and
challenged the admissibility of expe11 testimony identifying latent fingerprints found in
the Crown Victoria and on one of the firearms recovered from the storage unit as
Applicant's fingerprint-;. The State presented the fingerprint identi tication evidence
through two DPS latent fingerprint examiners - Jack Fl,mders alld Mark Wild. Both
expert-; analyzed the print e\·idence utilizing the ACE-V method. (46 RR :l'J-55; SX :-mlao7). Applicant argues the ACE-\/ method is not "foundationally valid" and Flanders
and Wild did not reliably apply it. Applic.mt claims a challenge to the method and its
application would have resulted in the exclusion of the evidence and altered the outcome
of his trial. (App. at 288-:-l22).
(936) Applicant fails to p rove by a preponder;mce of the evidence counsel was
deficient for not challenging the admissibility of fingerprint identification evidence.
(937) Applicant fails to rebut d1e presumption counsel made a sound strategic choice
not to challenge the admissibility of the fingerprint identification e,idence.
(938) Applicant fails to prove by a preponderance of the evidence that counsel's
decision not to challenge the admissibility of the fingerprint identification evidence
pr~judiced his defense.
{939) The proponent of expert testimony bears the burden of demonstrating its
reliability by clear and convincing e\~dern:e. K elly 1'. State, 824 S.W.2d 568, !J7 :-3 (Tex.
Crim. App. 1992); Tex. R. Evie!. 702. To be reliable, scientilic evidence must satisty
three criteria: (1) the underlying theory must be ,·,did; (2) the technique applying the
theory must be valid; and (a) the technique must have been properly applied 011 the
occasion in question. Kelly, 824 S.W.2d at !J7a. Factors that could alkct the
determination o f reliability include, but are not limited to: (1) the extent to which the
underlying scientific theo1y and technique are accepted as valid by the relevant scientific
community; (2) the qualifications of the expert testifying; (:-3) the existence of literature
supporting or r~jecting the underlying scientific theory and technique; (4) the potential
rate of error of the technique; (5) the availability of other experts to test and evaluate the
technique; (6) the clarity with which the underlying scientific theory and technique can
be explained to the cou1t; and (7) the experience and skill of the person who applied the
technique on the occasion in question. Id

185

{940) The court may respond to a challenge to the reliability of expert testimony by
holding a "Daubed' or" KeJJ}'' hearing at which the parties are afforded the opportunity
to demonstrate the reliability or unreliability of the expert testimony. Wolfe 1·• State, S09
S.W.:1d :125, :128 (l'ex. Crim. App.2017); T ex. R b-i<l. 705.

If counsel had requested it, the court would hm·e conducted a hearing 011 the
reliability of the fingerprint iclentitiration testimony. But Applicant fails to show the
(941)

testimony was unreliable and, thus, exdudable.
In his attack on the validity of the ACE-V method, Applicant points to "the NAS
Report,":i, "the OIG Repmt,"'0 and "the PCAST report."" Appiicant suggests these
reports call into question the "foundational validity" of the ACE-V method.
(942)

The l ·As Report did not conclude fingerprint evidence is so unreliable as to
render it inadmissible. It stressed the sul~jecti\'e nature of the judgments made by an
examiner during the ACE-V process, and focused on the need to prevent overstateme nts
about the accl.l!racy of a comp,u-ison ,md the need for additional research. See l i.S. , ·.
Rose, G72 F.Supp. 2d 72:1, 72[) (D. Md. 2009); see aim Commonweaflh i: Camhora,
457 Mass. 7 l!J, 9a:-3 N.E.2d 50, 58 (20 l 0).
(943)

The OIG Report regarding the Mayfield case did not discredit the ACE-V
method either. l lltimately, the ACE-V method was used to correctly idcntili• the
fingerprint at issue in the Mayfield case. The OIG Report conce rned the import,mce of
independent ,·erification of an ex,uniner's lindiug-s and the importance of a delendant's
opportunity to have an independent expert examine the latent prints at issue in a
particular case. Id. at 726.

(944)

And the PCAST Report concluded "that latent fingerprint analysis is a
foundationally valid sul~jective methodolo~'Y-" Furthermore, it determined,
(945)

39 .

ational Research Council , Strengthening Forensic Science in the l ;11itecl Stales, A Path Forward
(2009).

40

Ollice of Inspector General , A Review of' the FBI 's Handling or the Brandon Maylidcl Case

(200G).
41

President's Council of Advisors on Science and Technology, Forensic Science in Criminal Courts:
Ensuring Scientific Valiclily of Feature-Comparison Methods (2016).

186

"Condusions or a proposed identification may be scientitically rnlid, JH·m·ided that they
are accompanied by accurate information about limitations on the reliability of the
conclusion." PCAST Report at 101.
The ACE-V method is foundationally valid.

(946)

Applicant fails to show Flcmders and Wild did not validly apply the ACE-V
method in his (',l,e.
(947)

The PCAST Re portc:onduded valid application of the ACE-V method requires
that an expert:
(948)

•

Have undergone appropriate proficiency testing to ensure he or she is capable
of analyzing the full r,mge of latent fingerprints encountered in casework and
reports the results of the proficiency testing;

•

Disclose whether he or she documented the features i11 the l,ttcnt print in
writi11g before comparing it to the knovvn print;

•

Provide a written analysis explaining the selection and companso11 of the
features;

•

Disclose whether, when performing the examination, he or she was aware of
any other fact, of the case that might influence the conclusion; and

•

Verif}' the latent print in the case at hand is similar in quality to the -range of
latent prints considered in the foundational studies.

PCAST Report at l 02.
{949) Applicant argues the State would have been unable to prove that Flanders and
Wild were capable of reliably applying the ACE-V method, they did reliably apply it, or
their asse1tions '"'e re valid. (App. at a l 0). He fails to substantiate this claim.

Applicant presents 110 evidence showing Flanders and \Nild were not qualitied
or properly trained. Appli('ant claims there is 110 e,·idence that they received regular
proficiency testing, but he makes no shov\~ng they did not receive it.
(950)

187

(951) Moreover, the record indicates both experts were qualified and properly trained.
In addition to his degrees in anthropology and biology, Flanders completed a year-long
DPS training progTam in fingerprint ,malysis that covered processing and comparison of
la.tent prints, digital photography, lifting, and report writing. Since this training, Flanders
completed continuing education courses covering these same ,u-eas. H e had been
comparing prints l"ix about one-and-a-half years, and demonstrated a thorough
understanding of the ACF,.V method. (46 RR a,r,-:18). Although Wild did not detail his
own training, he confirmed he, too, worked in the DPS Crime Lab on a daily basis. (4G
RR 47).

(952) Applicant points out Flanders made a mistake applying the method with respect
to other latent prints collected in Applicant's case. Specifically, he did not compare them
in the proper orientation. Applicant fails to show how this isolated mistake me,u1s
Flanders could not reliably apply the method. That it was caught and rectiVied indicates
Flanders and the crime lab were vigilant in pursuing accurate and reliable result~.
(953) Moreover, to the extent this mistake impugned Flanders's opinion, it did 11ot go
u1moted at trial. It was reflected in Flanders's l m ·ember 24, 2014 report, and counsel
confronted Flanders with it during cross-examination. (4G RR 4.'>; SX :10,r,).
(954) Applicant also notes that somehow the DN A of tvvo other DPS fingerprint
examiners w,t'i found on some of the weapons seized from the storage unit. Apparently,
the examiners touched the firearms before they ""ere processed for D NA. Flanders's
D NA was not found on the firearms. H e and every other member of his section were
required to attend a contamination prevention pro1-,1T,un. (4D RR :16<{8).
(955) Applicant fails to explain how this impugns Flanders's and Wi!d's testimony. It
does not relate to the application of the ACE-V method, and had nothing to do with
their handlin~ of the evidence. The fact the "contamination" was discovered and
remedial action was taken indicates the crime lab is vigilant in policing its work and
ensuring it-; reliability. Moreover, counsel brought it to the jury's attention during crossexamination of Flanders in the punishment phase. 11 (49 RR :16-:-37).

Applicant docs nol allege counsel rendered inclkctive assistance by not rhalknging the reliability
of Flanders's punishment phase testimony iclcntifying the latent prints found on a Ii her board in the
Sable as those of its prior owner, J eff Reynolds.

42

188

(956) Applicant daims counsel failed to confirm the latent prints 1,,vere of sufficient
quality to support the experts' identification opinions. In support of this claim, Applicrnt
cites to the prints as they appear in the exhibit volume of the reporter's record. ((iOE RR
SX ao 1-0:i, :i0G-07). Applicant presents no e,·idence counsel did not have access to the
original print'i or other reproductions that were of higher quality. Applicant had the
opportunity to ask counsel what he had access to and chose not to.
(957) Applicant claims there is no evidence Flanders and vVild completely
documented their analysis of the latent before comparing it to Applicant's known prints.
Applicant does not present Flmulers's ;rnd \ ,Viki's files for review. Thus, he fails to show
they did not generate the proper documentation.
Applicant also fails to present any cvidenc:c the examiners did not follow proper
procedure. In fact, Flanders's testimony refutes such a claim; Flanders testified he
completed his analysis of the lifted laten t prints befc>re comparing them to Applicant's
known prints. (4,(j RR 44).
(958)

(959) Applicant also fails to present any evidence showing Flanders and W!.d were
exposed to contextual bias, that is, were influenced by irrelevant information.
Applicant argues Flanders and vVild used improper terminology, 0Ye,,stat;1t tl1e
accuracy of their comparisons. (App. at :-3 l 4-W). The record shows th~ experts referred
to "making an identification." More specifically, they identified points of comparison on
the both the unknown and known prints, compared them side by side, and determined
whether they originate from the same source or not. By "making ,Ul identification," the
experts determined the unknown and known prints originated from the s,une source.
The experts made an identification only if there were suflicicnt points of comparison, or
common characteristics. (LU> RR :i7-a8, 48-50). This testimony did not leave a false
impression with the jury about the reliability of the opinions. Sec L~cohar I'. State, :\o.
AP-76,!>71, 201:-3 vVL 609801!>, at* 19-'.21 ( l'ex. Crim. App. Mar. 10, 20 1,-1.); Foster i:
State, No. 04-l 8-00:i26-CR, 20 E) WL :-~80549~), at * 1-2 (Tex. App. - San Antonio Aug.
14, 20 t), no pet.) (not designated for publication).
(960)

In short, the record indicates Flanders and Wild were trained experts who
properly employed the ACE-V method in Applicant's case. Applicant's claims to the
contrary are unsubstantiated.
(961)

189

(962) Counsel likely knew any challenge to the fingerprint identitication evidence
would fail and, thus, opted not to pursue it. To the degree he could do so, counsel did
impeach the expert<;' testimony 011 cross-examination. Moreover, counsel relied 011 the
fingerprint evidence to argue the existence of unidentified prints on the Crown Victoria.
(47 RR a8-a9). Attacking the fingerprint experts' testimony would have been inconsistent
with this argument. This was sound trial strategy.
E,·en if the fingerprint identification testimony had been excluded, it would not
have affected the outcome of Applicant's trial. Although th e testimony linked Applica11L
to the murders, it was far from the only evidence that did. Even without the fingerprint
identification testimony, Applicant's culpability i.vas shown. The State linked Applicant
to the murders through a substantial amount of circumstantial evidence, including the
incriminating Crime stoppers tip sent from Applicant's IP address, the ,·ideo and storage
unit records showing the Crown Victoria coming and going from the unit at times
consistent with the McLellands' murders, the recovery of the H asse murder weapon and
the mask from Lake Tawakoni, and the bullet from Applicant's storage unit that was
cycled through the McLell,rnds' murder weapon.
(963)

Thus, counsel's decision not to challenge the reliability of the tingerprint
identification testimony did not pr~judice Applicant's defense.

(964)

Applicant's right to etlective assistance of counsel was not violated by counsel's
decision not to challenge the fingerprin t identification testimony, and the daim should
be denied.
(965)

Challenge to Chain ofCustody
Applicant contends counsel should ha,·e ol~jected the State failed to establish a
proper chain of custody for State's Exhibit l 02, an unfired round found in Applicant's
storage unit. J ames J effress, a DPS forensic firearm ;md tool mark examiner, analyzed
the round and determined it had been fired from the same weapon used to kill the
McLellands. (45 RR UH<-36; SX 28a-84, 288).
(966)

Applicant claims the State failed to establish proper chain of custody for the
round because the sponsoring witness, FBI Agent Diana Strain, did not testify about
"who seized the round, what kind of identifying mark was placed on it, who placed the
round in storage and who brought it to trial." (App. :-322). Applicanl argues a proper
(967)

190

ol~jection would have resulted in exclusion of the round or the jury gi,·ing it less -.veight
and, as a result, there \IVOUld have been a ditlerent outcome in his trial. (App. at a22-2m.
Applicant fails to prove by a preponderance of the evidence counsel was
d eficient for not objecting or that the decision pr~judiced his defense.
{968)

Further, the record supports counsel's decisio n was reasonable trial strategy and
h ad no deleterious impact on Applicant's delense.
{969)

{970)

The State presented the prc~jectile through FBI Agent Diana Strain, the team
leader of the E'vidence Response T eam (ERT) in the Dallas FBI Otlice. (4!> RR !>5).
The ERT processes scene and has a2 members, including agents and suppo1t personnel.
A senior team leader handles the administrative procedures and the remaining members
are divided into three te,uns. Each team has a team leader, a photo1,,11·apher, an evidence
technician, a sketcher, and additional people conducting the search. (4.'3 RR !>(>).
Extensive training is required to be an ERT member, and Strain had been a team leader
for tive years. (45 RR !>7).
(971)

Agent Strain described the ERT's procedures for processing scenes. Onn~ERT
members arrive at the scene, they receive a pre-briefing of the farts of the investigation.
Then the team leader ,md assistant team leader e nter the scene and conduct a
preliminary survey. They retu rn to the team and re-brief them. First, the photographer
and the sketcher document the condition of the scene upon the team's arri\'al. T hen the
rest of the team begins to process the sce ne. (4!> RR .'37-.'>8).
Agent Strain led fourteen ERT members in the processing of the storage unit.
The team was assisted by T exas R,mgers and an ATF agent. During the search of the
unit, the ERT discovered a bag containing tactical equipment and a .2'.t3 calibe r Lake
City round. The round was found loose in the bottom of the bag. (4!> RR 77~78). The
prosecutor showed Strain State's Exhibit l 02 and she identified it as the live .22:1 Lake
City round collected from the bag. According to Strain, it was marked as FBI No. 127
and the bag it was found in was marked FBI 1o. 128. The round 1vvas subsequently
admitted into evidence without ol~jection from counsel. (4!> RR 88-89; SX l 02).
(972)

A photograph of the round in the trial record shows handwriting on the
underside of the baggie containing the round; only a portion of the handwriting is
discernible. The baggie is stored in a larger baggie bearing two stickers. One sticker bears
a bar code, identification numbers, a 2015 storage date, and the description "O i E
(973)

191

ROl iND WITH GI ASS VILE OF Gl r." The other is ,m exhibit sticker. ((>OC RR SX
I 02).
(974) Applicant had the opportunity to question counsel at the 1vvrit hearing about the
decision not to ohiect to the round, but didn't. The record is silent as to counsel's reasons
for not ol~jecting.
(975) l lsually, a record silent as to counsel's motivations for a tactical decision cannot
m·ercome the strong presumption counsel's conduct was reasonable. 1'1allett, (jf> S. w.;-3d
at (i:-3.
(976) From the record, it may be deduced counsel's choice nol to ol~ject constituted
reasonable trial strategy. The State did not offer each person who touched the round at
the storage unit or each person who transported the round following its seizure, but the
State did not do this for most of the physical evidence. This was not surprising given the
sheer volume of physical e,~dence seized and the time it would have taken to present
every link in the chain for every piece of e\·idence offered. Thus, counsel likely
concluded the State was not unable to prove up each link in the chain but was simply
trying to be efficient. St.rain's testimony indicates the State would h,l\'e had 110 trouble in
proving up each link in the round's chain of custody. Her testimony shows experienced
federal agents v,1ith significant training in crime scene processing marked and processed
the round with c,u-e. It also shows the round was found by an ERT member and gi\·en a
specific number. Moreover, counsel knew the round Jud been analyzed by DPS forensic
analystJames J etfress and knew it had been transported to the lab after seizure.
(977) The only alteration to the round was its disassembly during subsequent lab
analysis, which the State ac:knovvledged before otlering it into evidence and counsel
would have bee n well aware of given his extensi\'e preparation on the ballistics evidence.

(4!> RR 8~>).
(978) Applicant does not allege or demonstrate the round was tampered with or
counsel had any reason to suspect it had been tampered with.
(979) Counsel could and likely did ded uce that ol~jecting would only have resulted in
drawing further attention to a damning piece of evidence.
(980) Even if counsel had ol~jected to deficient auth entication of the round, it would
not have resulted in its exclusion. Nor would the round have been gi ven less eYidentiaI)'

192

weight by the _jury. As Agent Strain's testimony indicated, the State could han; supplied
the "missing" finks in the chain.
(981) Laurie Gibbs, the former co-case agent for the FBI in the investigation, attested
by atfidavit she participated in the search of the storage unit, noticed the round in the
bag, and brought it to the ERT's attention because she believed it was significa nt. She
was present when the ERT members collected and packaged it. She also attested that all
evidence was turned over to the Kautinan Sheritrs Oflice before be ing submitted to the
Garland DPS lab. Agent Gibbs's affidavit fills in any gaps in the chain custody for the
round. (SWX 15). See /Von-is· 1·. State, 507 S.\tV.2d 79G, 7~)7 (Tex. Crim. App. 1974)
(holding officer of local crime lab 's testimony he received exhibits i11 question from local
police otlicers, logged them in and turned them over to analyst was sutlirient to establish
chain of custody).

or

(982}

Thus, Applicant was not pr~judiced by counse l's decision not to ol~ject.

Challenge to St.ale's Closing Argument
(983) Applicant contends counsel rendered inetlective assistance by not ol~jecting to a
comment made by the State during d osing argument in the guilt phase.

(984) Applicant fails to prove by a preponderance of the evidence counsel was
deficie nt for not ol~jecting to the State's argument.
(985) Applicant fails to rebut the presumption counsel made a sound strategic choice
not to ol~ject to the State's argument.
(986) Applicant fails to prove by a pre ponderance of the evidence counsel's d ecision
not to ol~ject to the State's argument pr~judiced his dete nse.
(987) The law governing pro per argument as set out in response to Applicant\ Claim
2 is incorporate d here by reference.
(988)

Applicant contends co unsel should have ol~jected to the following ,ll'J..,'Ulllent:

If not IApplicantl, then who? If it's not IApplicantl, the n \lvho is the
mystery murderer that simultaneously harbors a murderous rage against
the McLe llands but also bears the intelligence and the ill will against
!Applicant! to frame him? Who is this person ? They say Kim Williams.
193

Well, that doesn't work. She may hate the McLellands, but 'vvhy would
she frame her husb,rndi> If not him, then whoi> Ask yourself that question
as you consider the evidence. Ask yourself that question as you go back
and look at motive in this case. If not him, then whoi)
(47 RR 51). The State repeated the "if not him, then ·w ho" refrain during its closing.
(47 RR 52, 55). Applicant contends this argument improperly assigned a burden to
the defense to present an alternate suspect and shifted the burden to him to JJrm·e liis
innocence. (App. at :-324). Applicant mischaracterizes the argumen t and takes it out of
context.
(989} The State made 'the abm·e argument in rebuttal. The State opened its guilt
argument with a len.1-,rthy and detailed recitation ol' all of the e,·idcnce implicating
Applicant in the McLelland murders. The State likened the circumstantial e\'idencc
linking Applicant to the murders to a tingerprint. (47 RR 11-:-32). Counsel followed with
an ;u-gument that Applicant was innocent and the State's evidence was weak and
circumstantial. (47 RR :-32-50). The above rebuttal argument did not tell the jury to shift
the burden of proof to Applicant but challenged counsel's argument Applicant was not
the murderer and the circumstantial e,~dence of guilt was weak.

Moreover, during the opening argument, the State expressly acknowledged its
burden of proof and argued how the State had met its burden. (47 RR 11-1~. 14-16, :t2).
And in rebuttal, the State expressly addressed counsel's attacks on the purported
weaknesses in the State's evidence. (47 RR 51-57). The State did not suggest Applicant
should shoulder the burden instead.
(990)

The court would have overruled an ol~jection the complained-of argument
improperly shifted the burden of proof to Applicant.
(991)

Regardless of any impropriety in the ahm·e argument, counsel could have made
a sound strategic decision not to ol~ject to it.
(992}

The decision to object to particular statements made during closing argument is
a matter of trial strategy. 1Vid10/.mn, 577 S.W.:·M at 570.
{993)

Applicant had the opportunity to question counsel in the writ hearing as to their
reasons for not ol~jecting, but did not.
(994)

194

(995}

l !sually, a record silent as to counsel's motivations for a tactical decision can11ot
o vercome the strong presumption counsel's conduct was reasonable. Ma/fell; G5 S. W.:-ld

at Ga.

(996) Cou11sel could have reasonably concluded ol~jecting to the complained-of
arguments would have needlessly drawn further attention to them, especially in light
the court's instructions the law placed the burden of proof on the State and any
arguments inconsistent with the law should be disregarded. (11 C R 427(,, 4278);~1 sec
131Jw1t, 282 S.\tV.8d at 17~-l.

or

(997) Finally, any impropriety in the complained-of aq.,11.11nents d id not pr~judice
Applicant's defense. It was not extreme or manifestly improper or violati,·e
a
mandatory statute, and did not inject new fact'i harmful to Applicant. Sec Hawkin.\~ 1:-l!J
S.W.ad at 7~). T he court properly instructed the jwy on the law gm·eming the burden
of proof and told the jurors to disreg;u-d any argument<.; conflicting with the lavv. ( 11 C R
427G, 4278). The jury is presumed to have followed those instructions. Counsel's
decision not to ol~ject did not pr~judice A pplicant's defense.

or

(998) Counsel did not render inetlective assistance by not ol~jecting to the al>m·e-cited
arguments, and this claim should be de nied.

Claim 3: Cronic
(999) In Claim 3, Applicant contends that trial counsel's failure to re,,iew all of the
State's discove1y before trial constituted inetlective assistance under the standard
enunciated in [ lmted States 1: Cronic, 4GG { l.S. G48 (1984). (App. at a:-i 1-40).

Claim Not Previously Raised on Direct Appeal
(1000) Applicant could have but failed to raise this claim on direct appeal.

(1001) Habeas corpus will not lie as a substitute for direct appeal. Ex p;11te Townsenr/,
1:-37 S.\tV.3d 79, 81 (Tex. Crim. App. 2004). Even a constitutional claim is forfeited if
43

T he Court's inslruclion read: "You arc inslruclcd that any slalcmcnls or counsel mack d u ring the
course or the Lrial or during argument not supported by the cvicknc:e, o r statements or law mack by
counsel not in harmony with the law as slated lo you by the Court in these inslruclions, an: to he
wl10lly disregarded."

195

Applicant had the opportunity to raise it on appeal and did not. The writ of habeas
corpus is an extraordinary remedy available only when there is no other adequate
remedy at law. Id.
(1002) Nothing prevented Applicant from raising this daim on direct appeal.

(1003) The only new evidence Applicant has to support Lhis claim thal was not already
part of the appellate record is additional statements from counsel reiterali11g the
tremendous amount of discovery that they never finished reYiewing. (5 VVRR :-N-4:i; 7
WRR 41-4:-3; AX 5:1).
(1004) Applicant's Gh}l]ic claim is an improper attempt to use the vvrit as a substitute
for appeal.
(1005) Applicant's liomc·daim is not rog11i1.ahk: and should be denied.

No Cronic Violation
(1006) Alternatively, Applicant fails to demonstrate a violation of his right t<> dlecti\'e
assistance under Cronic.
(1007) The Supreme Court handed down Strickland and Cronic on the same day.
Under Strick/all(/, claims of inadequate legal assistance require a detendant to show
deficie nt performance by counsel as well as pr~judire. De ficient performance means that
counsel's representation tell below ;m ol~jecti\·e standard of reasonableness under
prevailing profossional norms. Stn!·khuul, 1t(i(j l :.s. at (j88. Courts indulge a strong
presumption counsel's conduct falls within the wide range of reasonable professional
assistance, and a defendant must overcome the presumption the challenged action might
be considered sound trial st::rate>,1)'. Id. at 689.
(1008) To show pr~judice, a defendant must show a reasonable probability that, but for
counsel's errors, the result of the proceeding wou ld have been different. Id at 694. In
the punishment phase of a death penalty trial, the standard is whether there is a
probability sufficient to undermine confidence in the outcome, or "absent the errors, the
sentencer .. . would have concluded that the balance of aggTavating and mitigating
circumstances d id not warrant death.'' Id at 695; J\1;utine;,; v. (Jua1term;u1, 481 F.:-M 249,
254 (5th Cir. 2007) (applying Strickland standard in Texas death penalty case).

196

(1009) The o pinion in lhmic eliminates .~trick/and\- pr~judice requirement if the
circumstances are so likely to pr~judice the accused that the cost of litigating their etlert
is unjustified. lirmic, 46(i l l.S. at (i!,8. These circumst;mc:es exist in three situations: (l)
when there is the complete denial of counsel at a critical stage, (2) wheu counsel eutirely
fails to sul~ject the State's case to meaningful adversarial testing, and (:1) whe11 the
likelihood that any lawyer--even a folly competent one--could provide eHective assistance
is so small that a presumption of pr~judice is appropriate without inquiry into the actual
conduct of the trial. See Bell v. Cone, 5a5 l l .S. 68!>, G9f>-G97 (2002).
(1010) Applicant contends he is entitled to re lief under Cionic because without more
time to linish reviewing discovery, no competent counsel could have rende red etlecti\·c
assistance in his case and his counsel could not sul~ject the State's case to mea11i11gful
adversarial testing. (App. at a40).
(1011) Applicant fails to prove by a preponderance of the evidence that no counsel
could have rendered etlective assistance without additional time to finish reviewing Lhe
discovery. He also fails to prove his coun sel entirely failed to sul~ject the State's case to
m eaningful ach·ersarial testing because he did not finish re\•i ewing the discoYe ry.
(1012) The circumstances in Applicant's case did not prevent competent counsel from
rendering etlective assistance, and counsel did sul~ject the State's case to adversarial
testing.
(1013) It is undisputed the State provide d a J..,11·eat deal of discovery in A pplicant's case
and Applicant's counsel did not review it a ll before trial. 11 (2 RR 7; 4 RR 12-14; 6 RR l 21B9 RR a2.a5; 4:-3 RR 8-9; 5 WRR a9-4:-3; 7 WRR 87-4:1; 8 WRR 89-~J l; AX 5~-3).
(1014) But the State provided more discovery than it was required to provide in
Applicant's case. The State c hose to comply with the Michael Morton Art, the current
version of article :19. 14 of the criminal procedure code, even though the act was
inapplicable to Applicant's case. l fltimately, the State gave the cl dense a copy of
everything in il,;; possession. (6 RR 16; 8 WRR 89-90).

44

Rckrcnccs to the amount
WRR 110; 8 vVRH 89).

or dat.a have ranged from
197

17 lo 2.5 tcrabytcs. ((i RR 17; ,tJ RR 8-9; .5

(1015) Thus, Appliecmt's claim is predicated on counsel's failure to re,·iew items the
State was not legally obligated to prmide to the defense.

or

(1016) Relying on the ABA Guidelines for the Appointment and Performance
Defense Counsel in Death Penalty Cases, Applicant argues counsel is obligated to review
,rnd be familiar with the State's file. (App. at a22).
(1017) But Applicant provides no authority for the proposition counsel must review
everything in the State's possession in order to render etlecti,·e assistance.
(1018) And Cromc·it-;elf indicates otherwise. In Crome·, defense counsel was appointed
25 days before trial in a case the State had taken 41/:1 years to investigate and during which,
had accumulated and reviewed thousands of document-;. T he Supreme Court
concluded the circumstances did not warrant a presumption of pr~judice, stating,
"Neither the period of time that the Government spent investigating the case, nor the
number of document-; that its agent-; revievved during that investig-<1tio11, is necessarily
rele,·ant to the question whether a competent lawyer could prepare to defend the case
0
.
r.: <Iays. " l'romc,
. 4('('
111
-t.,J
> > l '1.,S
. . at ('(''J
> >o.

(1019) In other words, just because the State collects. and reviews something does not
mean the defense must do so. As noted in Crome:, "The Government's task of finding
and assembling evidence that will cany it'i burden of proving J.,'l..lilt beyond a reasonable
doubt is entirely different from the defendant's tLo;;k in preparing to deny or rebut a
criminal charge." Id at 664.
(1020) The investigation in Applicant's case generated a lot of data because of the
nature of his crimes. Applicant murdered an assistant prosecutor; then two months later,
he murdered the elected prosecutor and his wite. (;iven H asse\ profession, at first,
authorities had a \-Viele variety of suspects, and a manhunt invoh~ng multiple agencies
ensued. During this initial manhunt, a substantial amount of data was generated. Much
of that data, however, was irrelevant to Applicant's defense. For instance, there were
hotel manitesl, from the interim between the murders, and in-car video from law
e nforcement traflic stops afrer H asse's murder. (!, WRR 11 2; 7 WRR 4 1-42, 98). The
investigation focused on Applicant only alter the McLellarnls' murders. At that po int,
the data generated by the investigation beg-;m to revolve around Applicant.
(1021) · Although much of the data generated between Hasse's arnl the McLellands'
murders had little bearing on Applicant's defense, the defense received it in d iscovery.

198

Thus, the defense received a significant amount of data that was of little use or benefit to
Applicant.

(1022) That said, the State did not bury the defense in immate rial information to thwart
counsel's trial preparation. Rathe r, the State provided discovery in a timely fashion and
in an accessible, organized format.
(1023) Once the State realized the quantity and complexity of the information at issue,
it obtained the services of the Tarrant County Criminal District Attorney's Otlire to
process, organize, and deliver the discovery to the defe nse te;m1. With the assistance of
the Tarrant County otlice, the discovery was professionally managed, duplicated, and
delivered to the defense. (G RR l:i-15; 7 \tVRR :-!7; 8 \tVRR 90-~Ki).

(1024) Morem·er, the State did not oppose the defense's first or second motions for
continuance. Rather, the State confirmed that, in terms of discovery, Applicant's case
was the largest case anyone on the prosecution team had seen and that counsel's remarks
about discovery were "well taken." ( 10 CR 4002-06; 4 RR 12-1 7).
(1025) tinder Brady and a1tide :-39.14, \ 1\/irskye prepared a "person of interest"
spreadsheet. The spreadsheet identified where the detense could locate information in
the discovery related to each "person of interest" identified in the investigation. Wirskye
e mailed directly to counsel items that were time-sensitive, required disclosure under
Brady, or were otherwise significant. Also, on request, Wirskye directed counsel to items
or information counsel had difliculty locating in the discove1y. Arni at Wirskye's
direction, any copies made during the discovery process were provided first lo the
defe nse to ensure they had access to it as soon as possible. (l 0 CR :-3947-48; l Insealed
CR ~-378-95; 7 WRR 42-4a; 8 WRR 91-9B).
(1026) As in Cronir_~ the State utilized its resources to asseml~le, organize, and
summarize a substantial ;m1ount of data, thus, simplifying the work of the detense team.
Id at 6(i:i-G4 ("ITlhe time devoted by the Government to the assembly, organi1,atio11,
and summari1.ation of the thousands of written records ... unquestionably simplified
tl1e work of the defe nse counsel ... ").
(1027) The court was aware early on that discove1y involved an enormous amount of

data, and monitored the discove1y process. (2 RR 7). The court required writte n u pdates
from both sides about how much discovery had been provided and when and how much
more remained to be delivered. (9 CR :-3612-16; GRR 7-8).

199

(1028) The court gave counsel additional time to prepare for trial based, in part, on the
need to review discovery. The court initially scheduled jury selection to begin on .M ay 5,
2014 and trial to start on October 20. (8 RR G). The court postponed jury selection
nearly 4 months (from G/2/ 14 to 9/22/14), and delayed the trial date by ,lll additional G
weeks (from 10/20/ 14 to 12/ 1/ 14). (G RR 21; 9 RR :-37). From the date the State
announred its intent to seek the death penalty (6/2:-3/ la), the defense had m ·er l G months
to prepare for trial. ~, (1 CR 6a; 4 RR 15). This was longer than the judge had granted
counsel three other death penalty cases he presided over. (4 RR 15).
(1029) The State and the court facilitated the defense's receipt and re\·iew of the
discove1y.
(1030) Furthermore, the a.mount of discm·ery was not so gTeat that its review could not
have been completed by the defense team before trial.

(1031) Applicant argues that to finish reviewing the discovery before trial, it would ha,·e
taken a team of individuals devoted solely to that task. He claims the State had such a
team. In support of this allegation, he points to the assistance the T,uT,uit County
Criminal Disb·ict Attorney's Oflice provided the prosecution. (App. at 8:-34<1'>) .

(1032) The State did enlist the senices of the Tarrant County Criminal District
Attorney's Ollice, but that office primarily assisted in processing the evidence and
creating exhibit"i for trial. Most of the review was conducted by a handful of c>thers. All
of the documentary evidence was reviewe d and organized by vVirsk.ye himself. (he r the
summer of 2014, he looked at every single piece of paper the investigation generated
and created the person of interest spreadsheet; he did this after hours, spending his days
run ning his private practice. Wirskye did not review all of the digital media edde11ce
(DME), but he did review all the rele\·,mt portions. The DME consisted oh-icko, phone
extractions, hard drive images, and other digital media containers; it was re\·ie,,ved in its
entirety by a handful of investigators and interns before trial. (8 WRR ~)0-~).'>, l O,S-11 ,
l!>l-S2; SWX 12, l G).
{1033) 1otably, although the discovery was accessible to everyone on Applicant's trial
te,un, not all were reviewing it. (7 WRR :-39, l 02). In the end, four attorneys, an
45

Counting from the date
prepare. (9 RR :-l6).

or counsel's appoinlmcnl (.1/22/ l ~l), the ckfrnse had over l ~) months lo
200

investig-Jtor, and at least two mitigation specialists assisted in Applicant's defense. Yet
most of the discovery review "",L"> conducted by just two of them - Seymour and his
investigator, Rodnic Ward. (7 WRR 20-21, 41, 102, 108)
(1034} But more importantly, Applicant also fails to show what parts of the d iscm·e1y
or how much data was not reviewed by counsel.
(1035} Seymour could not quantify the amount of disrm·ery he did re,·iew. (7 WRR
4J). He described the discovery he received, ide11tii)1ing the dates he recei,·ed disrm·ery
and generally describing what was delivered, that is, a certain number of disks, hard
drives, paper, cmd digital media evidence. (7 WRR 98-99, 104A)8). But Applicant
presented no evidence of how much data was on each disk, hard drive, etc:, and the
record shovvs some of the drives were not full. (6 RR 18). The record also shows the
State provided multiple copies of some items. The State provided the defense with four
copies of a set of four terabyte-sized drives. So, the defense was provided with four copies
o f the same fou r terabytes, 11ot sixteen distinct terabytes of data. (SWX I G).
(1036) Wright testified he doubted the detense reviewed a quarter of the discovery
received, but he spent little time re,~ewing the discovery himself. (5 WRR 44; 7 vVRR
14-15, 108). Seymour and WcU·d spent much time reviewing discovery; Seymour did not
stop reviev,~ng it until November 14, 2014, right before trial. Also, both men
demonstrated extensive knowledge of the information contained in the discm·ery.
Seymour's knowledge is apparent from his trial performance; Ward's knowledge is
reflected in his numerous pretrial memos. (7 WRR 4:~-44.; 8 WRR 101-02; SWX G-7).
(1037} Applicant also fails to shrnv the nature of the unrevie,ved data, that is,
"underlying raw data" versus "human readable data." With respect to the digital media
evidence (DME), a substantial amount of the data likely relates to underlying raw data.
(SWX l6).
(1038) Applicant has not shown what the sul~je<:t matter of the unreviewed discovery is.
He does not sho'vv to what phase of the trial it would have related. Thus, he makes no
showing of its sig1liticance to his case.
(1039} Counsel may have reviewed the significant p01tions of the discove1y and nothing
of impm1 remained for review. Seymour, who was most familiar with the discovery, said
reviewing the remainder would not have changed the verdict. (7 WRR 4.:-3-44). And
Applicant's habeas counsel have had the discove1y for years, but ha,·e produced nothing
201

relevant, much less material, to Applicant's delense that went undisrm·ered. (9 vVRR

16-24) .
(1040) l lltimately, Applicant has not shown that no competent counsel could finish
reviewing the discoveq1• He has only shown his own counsel did not finish their re,·iew
of it. Apparently, the defense team prioritized other matters 0\'er completing the
discovery review. This appears to have been a sound strategic choice.
(1041) In his declaration,John Wright, Appliecmt's second chair counsel, asserted the
failure to finish reviewing discovery prevented the defense from making a fully informed
decision about a theory of defense or a mitigation theoq1• (AX 53). The record refutes
his assertion.

(1042) Contrary to Wright's declaration, an email exchange between himself and
Seymour a tew months bef<xe trial shows Wright did not consider further review of the
discovery important to Applicant's defense. (SWX 2 at p. 2) ("All that discovery is
unlikely to make Eric not guilty. We might find a nugget of mitigation or two, but vve are
better off trying to develop our own that to gle,m it from the efforts of the state.")
(1043) Moreover, the trial record shows counsel did sul~ject the State's case to
meaningful ach·ersarial testing. Counsel mounted a reasoned, well-de,,eloped defense,
which was substantiated by evidence, in both the guilt and punishment phases or
Applicant's trial.
(1044) The defense had everything the State otlered at trial. And there were no
surprises. Seymour correctly anticipated most of the evidence the State otlered in the
guilt phase. (7 WRR 44; 8 WRR 9:-3-94).
(1045) In guilt, counsel challenged the reliability and weight of the ballistics evidence
linking him to the McLellands' murders, attacked the highly circumstantial nature of the
State's case, and avoided opening the door to the admission of evidence of Hasse's
murder. Counsel also made a "full throated actual innocence" dosing argument in the
guilt phase that surprised and impressed \tVirskye. (8 WRR 101-02).
(1046) In punishment, counsel theorized and presented evidence showing Applicant
was not a future danger and his lile still had value. Specifically, counsel presented expe11
and lay testimony sho½~ng the prison system could control inmates with violent
proclivities and Applicant no longer had violent prodi,·ities since he had exacted

202

re,·enge. Counsel also presented considerable testimony showing the totality ol'
Applicant's contributions to his family, friends, and community. (7 WRH 1H>-47).
(1047) Counsel's failure to finish reviewing the discovery did not Jffc,·ent the m from

adequately preparing and presenting a meaningful defonse.
(1048) Applicant's right Lo effective assistance under Cronic was not ,·iolated, and this

claim should be denied.

Claim 4: Discovery Due Process
(1049) In Claim 4, Applicant contends his right to due process was ,·iolated by "the
State's data dump of an unprecedented quantity of discoYery material." Applicant claims

his counsel could not re,~ew it all before trial and were forced to trial without k!1rnvleclge
of the "universe" of exculpatory, impeachment, and mitigating e,~de nce it could contain.
As a result, he argues, "counsel could not adequately present their own case or challenge
the State's." (App. at :-341-42).

Claim Not Previously Raised on Direct Appeal
(1050) Applic:a11t could have but failed to raise this claim

011

direct appeal.

(1051) Habeas corpus will not lie as a substitute for direct appeal. Er p;ute T ownsend,
ta7 S.W.:-M 79, 81 (Tex. Crim. App. 2004). Even a constitutional claim is forfeited if
Applicant had the opportunity to raise it on appeal ,md did not. The writ of habeas
corpus is an extraordina1y remedy available only when there is no other adequate
remedy at law. fr!
(1052) '.\iothing prevented Applicant from raising this claim 0 11 direct appeal.
(1053) The only new evidence Applicant has to support this claim thal was not already
p,ut of the appellate record is additional statements from counsel reiterating the

n-emenclous amount of discovery that was not completely reviewed. (5 \IVRR a9-4:1; 7
WRR 4 l-4a; AX .r,;-n.
(1054) Applicant's claim is an improper attempt to use the writ as a substitute for appeal.
(1055) Applicant's claim is not cog11i1.able and should be denied.
203

No Due Process Violation
(1056) Even if his claim were reviewable, Applicant fails to prove by a preponder;rnce
of the e\idence any violation of his due process rights.
(1057} Applicant's claim presupposes that he had a constitutional right to re\·iew all of
the discove1y provided to him. But, "Itihere is no general constitutional right to discm·e1y
in a criminal case, and JJ1;:u/ydid not create one." \!Veathedhrr/ 1·. 1-JuHey, 429 l r.s. ,S45,
559 (1977). "IT]he Constitution does not require the prosecutor to share all useful
information with the defendant." United States v. Ruiz, 5:-36 ll.S. 622, G29 (2002).
Furthe rmore, while Brady 1'. M;uylanrl, :-37:-3 ll.S. K~ (l 96:-3) prohibits the State from
concealing exculpatory evidence, it does not place any burden on the State to conduct a
ddendant's investigation or assist in the presentation of the defense's case. f !nited States
1·. 1\!/anc·10, 904 F.2d 2.Sl , 2Gl (5th Cir. 1990).

(1058) In addition, as a general rule, the go\'ernment has no duty to direct a ddendant
to exculpatOI")' evidence within a larger mass of disclosed evidence. l lmted States 1·•
Skilling, 554 F.Jd 529, 576 (5th Cir. 2009). vVhere potentially exculpatory information
is available to the de!endant through an exercise of due diligence, there is no suppression
for the purposes of Brady. Id.
(1059) Applicant contends e\~de nce favorable and material to his defe nse was
suppressed by the voluminous nature of the discm·ery. He suggest-; the discovery was so
voluminous it could not be reviewed in the time the Court allotted the dele11se team.
Specitically, he assert'i there were more than 2.S terabytes of discovery comprised of
more than 35 single-terabyte external drives, more than 250 CD's, and thousands of
loose pages of documents. (App. at 345-4(> & fil. 295).
(1060) Applicant fails to shovv the discove 1y was so voluminous it could not be reviewed
in the time allotted. While it is undisputed the amount of discovery was
"unprecedented," the exact ;unount has yet to be proven. As previously noted, there
have been references to anywhere from I 7 to 25 terabytes of data. ";

46

While the scale or the discovery in Appliranl's rnse was novel lo the p,Lrlies, it is not without
precedent. Sec United Stales v. ltVim-/iak, G:-ll F.:3d 26G, 295 ((i1h Cir. 20 l 0) (State provided
discovery provided :3 "tera-drivcs" containing 17 million pages, over 500,000 hard copies of
documents, 275 discs grnnd jury materials, and l :1 discs potential trial exhibits); Sk1!/in;;; 5511. F.

or

or

204

(1061) Seymour generally described the discovery he received, identifying the elates he
received discovery and generally describing what was delivered, that is, a certain number
of disks, hard drives, paper, and digital media evide nce. But Applicant presented no
evidence of how much data was on each disk, drive, etc Morem·er, the record shows
some of the drives were not full. (G RR 18; 7 \tVRR 98-9~), l 04-08).
(1062) Also, as stated above, the State provided multiple copies of some items--four
copies of a set o f four terabyte-sized drives, not sixteen distinct terabytes of data. (S\tVX
l (j).
(1063) Despite the size, the State reviewed all of the discovery. All of the evidence ,vas
viewed by a h<mdful of individuals on the prosecution team. All of the documentary
e,idence was n::,·iewed and organized by Wirskye himself O,·er Lhe summ er of 20 l 4,
he looked at every piece of paper the investigation generated and created the person of
interest spreadsheet "after hours" while running his private practice. Wirskye did not
review all of d1e digital media evidence (DME), only the relevant po,tions. The DME
consisted of video, phone extractions, hard drive images, and other digital media
containers and was reviewed in its entirety by a handful of investigators and interns before
trial. (8 WRR 90-95, 105-1 L, 151-52; SWX 12, 16).
(1064) In contrast, although the discovery ,vas accessible to everyone 011 Applicant's
trial team, not a ll were revie,,ving it. (7 \tVRR :-m, l 02). Most of the review was conducted
by only two of the team's members-Seymour and Ward. (7 WRR 20-21 , 4 1, 102, 108).
If other team members or od1er employees of RPDO assisted in d1e re,·ie'vv of d1e
discovery, the defense may have been able to review it all before trial.
(1065) Applicant suggests the State thwarted a complete review o f the discovery by
providing "no ~uidance as to ·what information was contained 011 the numerous dri,·es
and discs." H e ,u-1,'1.Jes some or the files could not be opened and ,·iewed and suggests
th e State padded the discovery with duplicative and irrelevant data. (App. at :H(>-47). l11
short, Appliecmt accuses the State of bad faith in the discovery process.

Jd at .576 (State purportedly provided several hundred million pages of documents); l lnitcd States
v. Gross, No. 8:18-CR-000U, 2019 vVL 7 1121961 (C.D. CD Cal. D ec. 20, 201 9) (State provided
over 6 million pages of docwncnls and 1600 audio recordings; l lmicd States v. .fonpson, No. :l:09CR-249-D, 2011 \ 1VL 9782:~5, {N .D. Tex. Mar. 21, 2011) (not designated for publication) (State
provided 200 terabytes of data in discovery). ·

205

(1066) Applicant fails to prove these allegations, and the record refutes them.
(1067) Altl10ugh the discovery did not come with ;m index, it was org,mized. The State
realized the quantity and complexity of the information at issue and obtained the sen-ices
of the Tarrant County Criminal District Attorney's Otlice to process, organize, and
deli,·er the discm·ery to the d efense team. With the assistance of the Tarrallt County
otfice, the discovery was prolessio11ally managed, cluplicatecl, and deli,·ered to the
defense. ((> RR l :i-l!.i; 7 VVRR a7; 8 WRR 90-!J:i).
(1068) Wirskye prepared a "person of interest" spreadsheet to assist the defonse in its
review of the discove1y. The spreadsheet identified where the defe nse could locate
information in the discove1y related to each "person of interest" identified in the
investigation. Wirskye also emailed directly to counsel items that were time-sensitive,
required disclosure under Brady, or were othen,~se srgnific;mt. In addition, 011 request,
\iVirskye directed counsel to items or information counsel had ditfo:ulty locating in the
discon.Ty. And at Wirskye's direction, any copies made during the discovery process
were provided first to the defense to ensure they had access to it as soon as possible. ( l 0
CR 3947-48; l Tnsealed CR B78-95; 7 WRR 42-4:-3; 8WRR91-93; AX 100). See Skilling;
!.i54 F.3d at !.i77 (holding due process not violated by State's ,·olU1mi11ous "open file,"
\•vhere St.ate provided data in electronic and searchable form, produced a set or "hot
documents" thought import.ant to case or potentially relevant to the case, created indices
to other documents, and provided defendant access to databases) .
(1069) As previously stated, some of the data pro"ided was duplicati,·e or not material.
But the duplicates 1,,vere provided so each attorney on Applicant's team could haYe their
ovv11 copy to re,·iew; it was uot provided to slow the review process down. (SWX H>).
The only data Applicant identified as irrelewmt ,-vas information pertaining to the initial
manhunt, which counsel apparently had no ditliculty in identifying and did not spend
much time on. (!.i WRR 112; 7 WRR 41-42, 98). Thus, it does not appear it detracted
from counsel's review of other, relevant data.
(1070) While Applicant asserts some of the tiles were inaccessible, he presents no
evidence substantiating this claim. Seymour's testimony contradict'i it. Seymour stated
he was impressed v,,itl1 the State's management of the discovery "as far as corralling,
packaging, indexing, and sending it over to us." According to Seymour, the only problem
with the discovery pipeline was "it didn't turn off." (7 \ VRR 37).

206

(1071) Applicant contends the State failed to deliver the discovery in a timely manner.
Again, applicant fails to substmtiate his claim.
(1072) The discovery was not dumped on Applicant right before trial. Seymour's
testimony shows he received regular deliveries between August 201:-3 and ~m'ember
2014. The process took some time because of the ,unount of data i11 a variety of forma ts
that had to been documented, copied, and deli,·ered in an accessible form. Still,
Seymour's testimony shows more than six months before trial, the lion's share of the
discovery had been delivered. (7 WRR 104-08).
(1073) Applicant claims counsel failed to prepare and present an adequate defense
because they did not tinish the discove1y review. To the extent Applicant assumes that
no counsel could have adequately prepared without first reviewin1-; all of the discovery,
the law does not support him.
(1074) As previously noted, just because the State collects and reviews something does

not mean the defense must do so. "The Government's task of tinding and assembling
evidence that will carry it'i burden of {>rO\~ng ~ruilt beyond a reasonable doubt is entirely
dillerent from the ddendant's task in prep,u-ing to deny or rebut a criminal charge."
Cron/c, 4GG l 1.S. at (j€>4. The time the State devotes to the assembly, organization, and
summari1.atio11 of the thousands of n-Titten records can simplit)' the work of the defense
counsel. Id. at GG3-G4.

(1075) To the extent Applicant contends his own counsel could not adequately prepare
for trial 'vvithout finishing the discovery re\'iew, he fails to substantiate his claim.
(1076) As previously stated, Applicant fails to demonstrate how much of the discove1y
was not reviewed. He also fails to show what the remainder consisted ot: much less its
si_!,rr1iticance. And he makes no showing Brady material went undiscovered, though his
habeas counseI have had the discovery materials for years.
(1077) Counsel mounted a reasoned, well-developed detense, substantiated by
evidence, in both the guilt and punishment phases of Applicant's trial.

(1078) Applicant's due process right-; were not violated by the amount of discovery
provided to him, the manner in which it was provided, or the denial of additional time
to finish reviewing it; his claim should be denied.
207

Claim S: Judicial Bias
(1079) l11 Claim f'>, Applicant contends the tri,d _judge's comments, demeanor,
inconsistent rulings and behavior outside the courtroom demonstrated a lack of,iudicial
impartiality as guaranteed by the Due Process Clause. (App. at :-35:1).
(1080) Judge Michael R. Snipes, an experienced b·ial judge, was appointed to preside
over Applicant's trial proceedings.
(1081} During the course of the trial, Applicant did not ol~ject to the trial judge's alleged
comments, demeanor, and/ or inconsistent rulings.

(1082) After Applicant had presented 29 of his 40 witnesses during the punishment

-~

phase, Applicant's trial counsel noted for the record his impression the b·ial court was
growing impatient or frustrated with the defense. (f>a RR 9-11). Counsel die! not wa11t
this to impact the jury's consideration of their punishment witnesses, so rhey requested
a jury instruction on the matter. (5~-3 RR 11). The trial court granted the request and gave
the following oral insnw.:tion to the jury: "II If you have seen anything in my demeanor
or attitude which leads you to conclude that I han.! certain opi11io11s about the case or
certain beliefs ;1bout what lawyers are doing in the case, you're to wholly disregard that
and consider only the e\'idence that's before you from the wib1ess stand." (!>a RR 12-1

m.

(1083) After Applicant was convicted and sentenced to death, he filed a motion for new
trial alleging the trial judge's rulings from the bench, facial expressions, demeanor, and
behavior in ancl around the courthouse demonstrated he was biased against Applicant.

(11 CR 4:-3(>D-70, 446 1-G2).
(1084} Judge Webb Biard ·was appointed to preside o,·er the motion lex new trial and
set the matter for a live evidentiary hearing. (11 CR 4404-05). At the hearing, Applicant's
counsel presented audiovisual recordings of the trial proceedings that they obtained from
the Dallas CBS affiliate after trial. (59 RR f>-7). Defense counsel also presented a
spreadsheet they had prepared describing their "impressions" of the expressions and
comments made by.Judge Snipes during 8 of the 12 days of trial. (59 RR f'>-7; DX-M NT
16). During dosing ar_1.,rument, Applicant's counsel ;u-1-,rued the trial _judge exhibited a
pattern of inconsistent rulings and disparate treatment between defense counsel and the
prosecution. (!J~) RR l G). Counsel ;tlso noted that, after the punishment , ·erdict, the trial
judge compared Applicant to notorious murderers, which revealed the court's attitude
to the Applicant. (59 RR 18-l~J).

208

(1085) After hearing evidern.:e and argument presented by both sides, J udge Biard
denied the motion for new trial. (11 CR 4476). vVith regard to Applicant's _judicial bias
claim, the court found:
The trial courtjudge, the Honorable Mike Snipes, was not biased against
the D efendant. The Defendant established no extn~judiciai source giving
rise to any judicial bias. furthermore, evidence of the J udg;e's demeanor
and his rulings during the course of trial do not evince a deep-seated
favoritism or antagonism toward the defendant that would make fair
judgment impossible. Lastly, there is no evidence that any frustrations
the court may have expressed toward the parties had any influence on
the jury deliberations or ,·erdict.
(CR 1st Supp. 22).

(1086) On direct appeal, Applic;rnt alleged the trial court erred in denying his motion
for new trial ou the basis of judicial bias. The Court of Criminal Appeals overruled this
point ot· error, noting Applicant had failed to identify in the record ,,..,here he preserYed
the claim at trial, and he failed to identify ·which of the _judge's rulings were inconsistent
and where the judge disparately treated Applicant's counsel. See Williams 1·. State, AP77 ,0.'>:1, 20 17 \tVL 49468fi.'>, at * 26 (Tex. Crim. App. ov. 1, 2017) (not designated for
publication).
(1087) In 2019,Judge Snipes became a retired visiting-judge and was assigned to presid e

over Applicant's writ proceedings. See Tex. Code Crim. Proc. Anll. art. 11.07 I , ~ !)(<:)
(West Supp. 2019) (providing that either the current presiding judge of the convicting
court or the judge who presided over the original capital folony trial, if qualified under
Section 7 4,.054 or 74.0.'>.5, Government Code, may preside m·er the habeas
proceedings).
(1088) Applicant tiled a motion to recuse Judge Snipes, arguing his recusal is mandated

by rule l 8b of the civil procedure rules because (1) the judge's imp,utiality might
reasonably be questioned, (2) he is actually biased, and (:-{) he has pe rsonal knowledge
of disputed evidentiary facts. (Recusal Motion at l -2) . Applicant's contentions were
premised on Judge Snipes's comments and conduct during trial, his reference to
presiding over Applicant's trial in a letter to Congresswom,m Eddie Bernice J ohnson
applying for the position of l T.S. Attorney fo r the Nmthem District o f Texas, and his

209

appe;u-;rnce at a book signing for Kaufrnan County District Attorney Erleigh Wiley's
"Target On My Back." (Recusal Motion at 1-2).

(1089) Judge Oa\id EY,UlS was appointed to preside m·er the recusal proceeding and
held a hearing on Applicant's motion on M,u·d1 l, 20 l 9. (:1 \VRR !J-(>). After considering
the a1J.,11.11nent and e,~dence presented by the parties at the hearing and the applicable
law,Judge E,·ans granted Applicant's motion to recuse Judge Snipes. (Recusal ( )rcler at
1-2). The order granting recusal specified the ruling was not based on J udge Snipes's
conduct during the trial or the letter written to Congresswoman Eddie Bernice J ohnson,
but was based on the appearnnce of impropriety created by him attending vViley's book
signing en::nt alter trial. (Recusa] Order at l-2).

Procedural Bar
(1090) l lnder Texas law, the failure to ol~jec:t at trial generally wai,·cs the error for
collateral re,iew. ,See Tex. R. App. P. :-3:-3. l (a) (requiring a specific ol~jection and a ruling
from the trial judge to preserve error for appellate purposes); see alm E\· p;ute Pena, 71
S.W.ad aa<i, :r18, n.7 (Tex. Crim. App. 2002); J,;,y p;ute Bagley, 509 S.\ V.2d :1:-32, :1:1:1a4 (Tex. Crim. App. l ~)74) (holding that the appellate rule requiring a trial ol~jection also
applies in habeas cases).
(1091) As Applic;mt did not ol~ject to the lrial judge's com111e11L-;, dc.:me;mor, ;mcVor
inconsistent rulings during trial, he failed to preserve his judicial bi;L~ daim for re,·iew.

(1092) Applicant cites JJ/ue 1,: State, 41 S.W.:-3cl 129, l:1l-:1a (Tex. Crim. App. 2000)
(plurality op.), for the proposition that no trial ol~jection was necessa1)1 because the trial
judge's actions rose to the le,d of fundamental error. (App. at :1.17). Howc\'er, the Texas
Court or Criminal Appeals has recently recognized there is no "fu11clame11tal error"
exception to the rules of error prese1Yatio11. Proenxa 1·. State, !,41 S.vV.:1cl 786, 7~)4 ( l'ex.
Crim. App.2017).
(1093) Claims of improper judicial con1menrs raised under A1tide :18.0!> of the Code
of Criminal Procedure rcq uire no b·ial ol~jection to be considered on appeal. See
Proenxa, !J4 l S.W.:1d at 80 l. This principle, however, is inapplicable here because
Applicant's complaint pertains to the trial judge's demeanor and conduct, not to a
particular comment made in violation of Article :-38.05.

210

(1094) b ·en if

trial ol~jection was nec:ess,ffy to preser\'e error, this claim is
procedurally b,uTed because it was litigated in the motion for new trial and 011 direct
appeal. Issues which have been raised and r~jected on direct appeal are not c:ogni1..able
in post-conviction habeas proceedings. S ee l ~\· p;ute Naiiw; 149 S.W.ad 12!>, l:·H<12
(Tex. Crim. A p p. 2004); l ~'< prt1te ToJTe..,~ 94:i S.W.2d 4(>9, 47!> (Tex. Crim. App. 1~)~)7);
l:.r P,utc: Acosta, G72 S.vV.2d 470, 472 (Tex. Crim. App. 1984).
110

(1095) To the extent Apphcant is attempting to raise a new daim of judicial bias not
pre,·iously liti~1te d, this is procedurally barred and sho uld ha,·e been raised on direct
appeal. S ee L \"/Nllte B oyd, 58 s.w.:1d 1:14, 1aG r r ex. Crim. App. 2001) (citing l ~rp;ute
B agley, 509 S.W .2d ~ia2, :1~14 ( J'ex. Crim. App. 1974)) (the writ of habeas corpus may
not be used to litig-c1te matters that could have been raised at trial and

011

direct appeal).

No Violation of Due Process
(1096) b ·en if rc\'ievvable , Applicant's claim is without merit.
(1097) T he D ue Process C lause guarantees a defendant a fair trial before ajudge with
no actual bias against the ddendant or interest in the outcome of the case. C'e!J:.,· 1: State,
:154 S.W.a d 7, 2 1 ( l'ex. App.- Corpus Christi 2011), ;,Jl'd, 4 W S.W.~id 4 E) {Tex. Crim.
App. 20 1:1) (citing Bracy ,.; Cr;unley, !>20 l l.S. 899, 904- 0!> (1997)).

or

(1098) T rial cou1ts have broad discretion in manahiing the course
a trial ge nerally.
See Dang i: Stale, 154 S.W.:-3d (i l(i, <i l 9 (Tex. Crim. App. 2005); In re Stale e.r rel.
Skurka, ,r; 12 S.W.:1d 444, 4.'>2 (Tex. App.- Corpus Christi-Edinburg 20 l G, o rig.
proc:eecling); see al.m T ex. R. Evid. (i 11 (requiring the court to exercise reasonable
control over the mode and order of examining witnesses and presenting e,·idem:e so as
to: (l) make those procedures eHective for determining the truth; (2) a\'C>id wasting time;
and (:1) protect witnesses from h;u, tssm en t o r undue embarrassment).
(1099) A trial court possesses the authority to express itself in exercising its broad
d iscretion. In re Commitment o/'JJ;ubee, 192 S.W.ad 835,847 (Tex. App.- Beaumont
200(>, 110 pet.). A trial cou1t may properly intervene to maintain control in the courtroom,
to expedite the trial, and to preve nt what it considers to be a waste of time. Id. Generally,
T exas law imputes good faith to a trial judge's jud ic ial actions in controlling a tria l. Id
(1100) J udicial rem arks d uring the course of trial that are critical or d isapproving of, or
even hostile to , counsel, the parties, or their cases, ord inarily do not suppo1t a bias or

21 1

partiality challenge. Liteky 1·• { lnited States, !> IO l l.S . .'>40, fjfjfj, 11 4 S. Ct. 1147, 127
L.Ed.2d 474 (1~)94); /3;ufit:ld v. State, 464 S.W.:·kl 67, 81 (Tex. App.-Houston I14th
Dist.I 20 L0, pet. refd). Moreover, expressions of impatience, dissatisfaction, annoyance,
and even anger do not establish bias or partiality. Liteky, 510 l i.S. at ,'3,SS-f>G. A _judge's
ordi11a1)' efforts at courtroom admi11istratio11-e,·e11 a stern and short-tempered judge's
ordinary efforts at courtroom admi11ist:ration-remai11 immune. Id. at .S,SG; Garn:, i:
State, 246 S.\tV.:-M 121, 147 (Tex. App.-San Antonio 2007, pet. ret'd) .
(1101) During the 'vvrit he,u-ing, Brady \tVyatt, one of Applicant's attorneys who worked
011 the direct appeal, described Judge Snipes as a great judge who runs a "tight"
courtroom. (5 \tVRR 189). Judge Snipes expects parties to arrive in his courtroom
prepared and on time. (fj WRR 189). H e is focused on making sure _jurors are taken
care of and their time, and the court's time, is not wasted. (5 WRR 189-90).
(1102) Applicant's lead trial counsel, Matthew Seymour, was familiar with.Judge Snipes
from his time practicing in Dall;•L~ County. (7 vVRR :15-:1<>). Seymour knew.Judge Snipes
ran a tight ship and would expect punctuality, protessionalism, and accuracy from all the
lawyers working on the case. (7 WRR :-35-:16). During Applicant's trial, Judge Suipes
maintained control of the proceedings and kept things running on time, as Seymour
expected. (7 WRR 66-€>7). At times he was brusque, but he tried to be uniform in his
treatment of the patties. (7 VVRR 67). Seymour disagreed with two of Judge Snipes's
rulings, but nonetheless felt.Judge Snipes ga\'e Applicant a fair trial. (7 \VRR (j9, 77-78).
(1103) Co-counsel Doug Parks has known.Judge Snipes for many years and tried cases
beh'1re him. (8 \ i\/RR 49). Parks described Judge Snipes as a "no-nonsense" judge. (8
\VRR 32). Parks teltJudge Snipes ga\'e Applicant a fair trial. (8 WRR (t2).
(1104) Applicant has failed to prove by a preponderance of the evidence the trial judge's
comments, demeanor, rulings or behavior out~ide the courtroom show the trial judge
was biased against him or he was denied a fair trial.

Comments and Demeanor
(1105) In the writ application, Applicant contends the trial court showed bias by
repeatedly expressing frustration with the detense team's allocation of time in presenting
punishment witnesses and chastising trial counsel for attempting to ask questions o f
witnesses they should have been able to ask. (App. at :-35:1-54).
212

(1106} l11 supporl of his claim, Applicant presented a11 allida,·it from Jill Patterson, a
member of the defense Learn who assisted with the de,'elopment and prcse.ntation of
mitigation witnesses at Applicant's trial. Ac:cording to Patterson, the trial judge sometimes
railed the defense witnesses boring and suggested breaks during their testimony. He did
not allow much testimony from a couple of defense witnesses and shut down a lot of
testimony about Applicant's prior theft trial. He also got mad at the defense te;un for not
being able to fill the day "'~th witness testimony. Patterson also alleges when she was
helping Applicant's elderly aunt who has cancer walk to the v\~tness stand, the trial judge
told her to "stop putting on for the jwy." (AX 61; 15 WRR 2:t?<-M.).
(1107) Judge Biard, who presided m 'er the motion for new trial proceedings, found
Judge Snipes's comment'i and demeanor during Applicant's trial did not show judicial
bias. (CR 1st Supp. 22).

(1108) Judge Evans, who presided over the recusal proceedings, found Judge Snipes's
conduct during Applicant's trial did not show judicial bias and did not support rerusal.
(Recusal Order at 1-2).
(1109) Likewise, this Court finds J udge Snipes's comments and demeanor during
Applicalll's trial do not show judicial bias.
(1110) With reg,ml to the last allegation raised in Patterson's allidavit, Patterson appears
to be referring to Applicant's 80-year old aunt with stage l<.mr lung cancer, Lanm
Humphries. (51 RR 127). The record does not rdlectJudge Snipes told Patterson to
"stop putting on for the jury" or made any statement of the sort when Humphries
approached the stand. (51 RR 12!>-27). The record reflects; he was courteous to
Humphries, directed her to walk all the way up to the witness stand, and directed her to
keep her ,·oice up during her testimony so the ju1y could hear her. (j I RR 12G). If the
trial judge, at any point, did make a comment to Patterson, it is not in the record and
was not in front of the jury awl would not show bias.
(1111) That the trialjudge may have expedited or limited testimony and ordered breaks
during certain testimony does not establish bias. See JJ;11hee, 192 S. W .:-3d at 847 (a trial
court may properly intervene to maintain control in the courtroom, to expedite the trial,
and to prevent what it considers to be a waste of time).
(1112) The t.rialjudge's expressed frustration and annoyance with delense counsd does
not establish bias. See B;ufiekl, 4G4, S.W.:·M at 81 (judicial remarks during the course of
213

a trial critical or disapprovi11g- of, or even hostile to counsel, the parties, or their cases,
ordinarily do not support a challenge for bias); Liteky, 510 l i.S. at .S5.'J-.'j(j (expressions
of impatie nce, dissatisfaction, annoyance, <md even anger do not establish bias or
partiality).
(1113} Moreover, the record demonstrates the trial j udge's annoyance and fru stration
with counsel's presentation of punishmen t "vvitnesses was justified.
(1114} By the time the defense began presenting witnesses during punishmenl, the
parties were well aware of h ow the trial judge maintained order in his courtroom so as
not to waste the jurors, or the court's, time. (7 WRR GG-67; 8 \N RR J2).
(1115} Maxwell Peck, one of the attorneys on Applicant's trial team, was primarily in
charge of mitigation witnesses. H e called an unusually large numbe r of witnesses to testify
on Applicant's be half during the punishment phase. His strategy was to bring as many
witnesses as he could, even if they were all saying the same thing or had little or nothing
to add to what had already been said. (8 WRR :~G-:-o, .SO-.S l). Se}1mour d id no t ai.,•Tee
with this strategy ,md thought they should focus on the most rele,·ant mitigation vvituesses.
(7 WRR 52-55). Seymour warned Peck his strate.i,')' might bore the jury and annoy the
judge to the po int he would t1y to move things along or shut it do'vvn. (7 WRR 54, 95).
Peck persisted.
(1116} Peck had a hard time managing his e xtensive witness list. (7 WRR 54). His

prese ntation of the punishme nt witnesses was repetitive and not well-prep,u-ed. (7 vVRR
.'?2-5:1; 8 WRR .150-5 I). He presented man y witnesses who had not seen the Applicant in
· years, making the jury grow restless ,md lose interest. (7 WHR 54, ~)5). Peck ignored
admo nishme nts from the tri:aljudge, as well as co-counsel, about his re petitive witnesses.
(8 WRR 50-51). Peck also allotted too much time when p lanning for each witness, which
resulted in huge gaps in the schedule and annoyed the judge. (7 WRR 55). Even Peck's
own teammate telt the trial _judge's frustrations with him were _justified. (7 W RR 67, 7879).
(1117) The record contains 1mu1y instances of the trial judge exerting "ordinary efforts

at courtroom administration." Liteky, 510 l :.S. at 5.SG. For ins lance:
a. Outside the presence of thejury, Judgc Snipes asked defense counsel to p l;m
better for witnesses so he did not have dismiss jury e,u-ly when '\ve could be
putting witnesses on" (50 RR 208);
214

b. While discussing scheduling out'iide the presence of the jury, Judge Snipes
pointed out that defense had presented 29 witnesses so far in the punishment
phase, many of whom were cumulative of each other, and had already taken
as much time as the State took in its punishment case-in-chief (.'>2 RR 1:-37-38);

c. Judge Snipes admonished defense counsel about having their witnesses ready
to take the stand (5:-3 RR l 04);
d. Out~ide the presence of the jury, Judge Snipes admonished defense counsel
about presenting witnesses who were ~tll testifying to the same or irrele\·ant
information and instrncted counsel to direct the future witnesses to go directly
to testimony rele\'ant to Applicant (5:-3 RR 154-5(>);
e . Outside the presence of the jury,J udgc Snipes ,varncd dcfonsc counsel he was
risking contempt by disregard ing his rulings concerning the admissibility of
certain testimony (5:-3 RR I G4-65);

f. Judge Snipes twice instructed defense counsel to "wrap up" his direct
examination of the defense's 16th punishment witness of the day (5:-3 RR 227,
23 I).
(1118) As these excerpt-; show, when Judge Snipes displayed frustration or annoyance,
it was not without cause.Judge Snipes's frustration stemmed from delays and inefficiency
in the presentation of evidence, a periect:ly reasonable response from the person
responsible for overseeing the proceedings.
(1119) The record reflect-;Judge Snipes attempted to focus the defense's efforts 011 the
development of novel information rele\ant to Applicant. His efforts show an attentive,
diligent jurist, not a biased one. j ee Liteky, .'> I O l l.S. at 542-556 (holding judge's
limitation of cross-examination, cautioning defense counsel to confine questions to
material matters, admonishing v,~tnesses to keep ,UlS\-vers responsive to questions asked,
and admonishing counsel not to make political speech in closing argument were ordinary
and routine matters of court administration).

Inconsistent Rulings
(1120) Applicant also contends the trial judge's rulings were inconsistent and resulted
in disparate treatment of Applicant. (App. at :-355; AX 61).
215

(1121) Applicant does not articulate which rulings he is complaining about or show how
the trial judge's rulings were erroneous under the law. Thus, he fails to allege facts
supporting his claim for relief.
(1122) The record showsJudge Snipes treated the pa1ties similarly. He d id not resc1Ye
his expressions of frusb·ation for the defense. (52 RR 1:-!9-1 40; 55 RR 2:i~)). H e imposed
restrictio ns 011 the State's presentation. H e sustained defense ol~jertions to the tes timony
of State's vvitnesses (see e.J:, !,() RR 154, 1W); .1>:1 HR G:-3; ,'j4 RR S 1, 70, 8:1, 8(>, l lG), he
told the State to "wrap up" it<; cross-examination of a defense witness (!.i:1 RR '.Z:.~4), and
he limited the State's presentation o f the audio-recorded co1n-ersatio11 be tween
Applicant, a T exas Ranger, and a police chief. (49 RR G9-70).
(1123) The record is also replete with comments by Judge Snipes showing h is high
regard for Applicant's trial counsel and their work on his case. Before and during trial,
he repeatedly complimented them and lauded their efforts on Applicant's be ha lf. (2 RR
7-8; GRR 22; 9 RR :15; 27 RR f>, 28-29; 42 RR 52; 4:1 RR 7-8; 44 RR 10, 16; 4GRR 14849; 47 RR 10; 4 9 RR 146). 'These remarks refute the complaint ofjudicial bias.

Sentencing Remarks
(1124) Applicant also complains abo ut the following rem ,u-k, made by the trial _judge
after sentencing in this case:
As to you, Mr. \,Villiams, you made yourself o ut to be some sort o f
Charles Bronson death wish vigilante in this case. I never bought that.
And to any diluted !sic] souls out there who may have bought it, at the
e nd of the day, you murdered a little o ld lady; and you wou ld ha\'e
murdered two other innoce n t people if you h ad the opportunity. That
puts you right there with Charles M a nson, J effrey Dahmer, and Richard
Speck.
(55 RR 7-8). Applicant conte nds these final comments confirmed the judge's bias
toward Applicant. (App. at a54).

(1125) The law recognizes judges are human beings, not automatons. "A judge who
presides at a trial may, upon completion of the evidence, be exceed ingly ill dis posed
towards the defendant, who has been shown to be a thoroughly reprehensible person."
Liteky, 5 10 l l.S. at 5!.i 1.
216

( 1126) A judge is free to form opinions based on fact-; introduced or e,·enls occurring
in the course of trial. Liteky, 5 IO ll.S. at 555. Remarks by a judge that are critical or
disapproving ot or even hostile to a defendant do not support a challenge for bias unless
they reveal an opinion derived from an extr',\judicial source. Id.; Badiek/, 4G4 S.W.:id
at 81.
(1127} Here, there is no evidence J udge Snipes's opinion or Applicant was acquired
extra:iud icially. It was made after the trial had concluded, alter he had sal through a
lengthy presentation of evidence during both the 1:,ruilt-innore1 ice ,md pur 1ishme11t phases
of trial. It is reasonable to deduce it was based entirely upon the evidence presented
during Applicant's trial, and Appliecmt presents no evidence to d1e contraiy.

(1128) No evidence shows the feelings Judge Snipes formed over the course of trial
affected his ability to afford Appliecmt a .fair trial. J udge Snipes grante d every defense
request for expert assistance and fonding, two motions for continuance, and one change
of venue. (5:1 RR 9; 5 WRR 88; 7 \ ,VRR a2-:i:1; 8 W RR 18). He explicitly expressed his
concern Applicant receive a fair and speedy trial. (4 RR 14, I 6). H e ordered Applicant
not be shackled during the proceedings. (4 RR 18-1 9). He in structed the j urors
throughout the trial not to expose themselves to media about the case. See e.15:, (44 RR
274-75; 45 RR 198-~)9; 4G RR 150; 47 RR !59). H e repeatedly admonished reporters not
to tilm the computer screens of the attorneys. (44 RR 228, 4G RR G).

Letter and Book Signing
(1129} Applicant also points to the trial judge's behavior outside the courtroom in
support of his judicial bias d aim. H e claims Judge Snipes's bias was d emonstrated by his
reference to presiding over Applicant's trial in a letter to CongTesswoman Eddie Bemire
J ohnson applying for the position of U.S. Attorney for the Northern District of Texas,
and by his appearance at a book signing for Kautinan County District Attorney Erleigh
Wiley's "Target 011 My Back." (App. at :i!>5-!>G; AX 50, 52).
(1130) During the recusa l proceedings, J udge E,·,ms found J udge Snipes's le tter to
Congresswoman J ohnson did not show judicial bias and therefore did not support
recusal. (Recusal Order at 1-2). Judge E vans did not specifically find J udge Snipes's
attendance at the book-si6>ning event showed judicial bias but granted the motion to
recuse based 011 the appearance of impropriety, concluding Judge Snipes's atternhmre
could be perceived as paitiality by reasonable members of the public at lcu·ge. (Recusal
Order at l-2).
217

(1131) J udge Snipes's letter to Co11gresswoma11Johnso11 requesting appointment to the
position of l :.s. Attorney was, in effort, his resume for that job. 111 the letter,Judge Snipes
describes his military service, his experience as tederal prosecutor along with the
prosecution rewards he received, and his experience as a state court judge. In addition
to the more than 300 bench trials he presided over, the letter specifically referred to
Judge Snipes's then current assignment - presiding over Applicant's capital murder trial.
The responsibility of presiding over the trial was no small task. It required someone with
the ability to shoulder significant responsibility while in the national spotlight. for this
reason, in itself, the assigument was noteworthy. 'The letter neither explicitly nor
implicitly reflects Judge Snipes's opinion of Applicant's guilt or punishment.
(1132) With reg,ml to the hook sig11ing, this was a public e\'ent occurring in 2017, three
years after Applicant's trial had concluded. WRR 51-52). Judge Snipes left the bench
after Applicant's trial and was not presiding over Applicant's case at the time he attended
the book signing. (:-3 WRR 49-5:-3).

m

(1133) The fact Judge Snipes attended one of Ms. Wiley's book-signings and was
photographed with her does not demonstrate he endorsed the contents of the book. As
the book itself shows, .Judge Snipes was not one of its reviewers. See Em .UCH WILEY,
A TAHc;i-; r 01\' MY B ACK: A PHosi-:ct 1ToH's TLHHIFYINC TALE oF LI FE o . 1 A H IT LisT
(2017).
(1134) Additionally, Judge Snipes's attendance of the book-signing e\'ent years aifer
Applicant's trial had concluded is not evidence of favoritism tow,ml the State duni1gthe
trial, which is the claim in this proceeding.
(1135) Neither.Judge Snipes's letter to Congresswoman Johnson nor his attendance of
the book signing after the trial demonstrate judicial bias during Applicant's trial.

Facial Expressions
(1136) Although not specifically pied, Applicant also reterences the trial judge's
counten;mce, facial expressions, and body l,mguage as evidence of his bias. (App. at :1.14i-) .

r..
,),)

(1137) According to the affidavit of Patterson, Judge Snipes ofren rolled his eyes and
made aggressive facial expressions at the defense team. During the motion for new trial

218

proceedings, Patterson watched the audirn·isual recordings from the trial a11d noted Lhesc
instances. (AX 61).
(1138) Applicant does not cite any specific instances of inappropriate facial expressions
in the writ application.
(1139) Moreover, there is conflicting evidence in the record as to whether such
expressions were made and, if they were, whether they were directed entirely at the
ddense or at both parties.

(1140) Parks testitied at the writ hearing that he did not observe any unusual l>eha,·ior
from Judge Snjpes during Applicant's trial. (8 vVRR a2-:-3~1). He never saw Judge Snipes
making faces or rolling his eyes. (8 WRR 50).
(1141) Likewise, Seymour did not remember Judge Snipes making any unusual facial
expressions during the trial. (7 vVRR 67).
(1142) I ;don P eale, one of Kim Willicuns's attorneys, watched many days of Applicant's
trial and took detailed notes. (.'> WRR 114). There is nothing in his notes about.Judge
Snipes making inappropriate facial expressions. (.S WRR 114-15). Peale does recall
hearing other attorneys talk about it after the trial, but his understanding was that it went
both ways, to the State and the defense. (5 vVRR 11 4-15).
{1143) Applicant also has not shown the alleged facial expressions were seen by theju1y
or influenced their view of the evidence in any way. The jurors were specitic:ally
instructed if they saw anything in the judge's demeanor or attitude which led them lo
conclude he lud certain opinions about the case or certain beliefs about what the lawyers
were doing, they were to \lvholly disreg-J..rd it and consider only the eYidence presen ted
from the vvitness stand. (5~1 RR 12-l a). The ju1y is presumed to ha\·e followed this
instruction, and Applic.rnt presents no evidence to the conn·,uy.
{1144) N one of the complained-of actions by the trial judge demonstrate bias against
Applicant or that Applicant was denied a fair trial.
(1145) Applicant's due process rights were 11ot ,·iolated; this daim should be denied.

219

Claim 6: Ineffective Assistance of Appellate Counsel
(1146} Applicant claims his appellate counsel rendered ineHective assistance of counsel
because he failed to raise 1neritorious issues on appeal.
(1147) On appeal, as at trial, applicant has a constitutional right to e!'lectin: assistance
of counsel. A complaint appellate counsel was constitutionally deficient is governed by
the standard enunciated in Stnc:k/;md 1: Was/11i1,ttton. Smith 1: Robhli1.s~ 528 l 1.S. 2!?),
285 (2000); Exp;11te 13utle1~ 884S.W.2d 782, 78:-3 (Tex. Crim. App. 1994). The decision
about which claims to raise on direct appeal is a strategic o ne, and under Str.icklanr/,
appellate counsel is afforded the presumption his representation is consistent with
reasonable trial strateh,y.

;t

(1148) \ 1/here counsel's decision not to raise a particular complaint on a~~ ,L i~
issue, it must be determined ( l) whetl 1er reasonable appellate cow 1sel woul< I ha\·e'fais~ \
it, that is, whether it was a\·ailable and meritorious, and (2) whetl1er there is a reasonable
probability raising the issue would have led to a ditlerent outcome in the appeal, namely,
reversal. Butle1~ 884 S.W.2d at 783.

(1149) As with any indlectiveness claim, Applicant bears the burden of proving
counsel's ineftectiveness by a preponder;rnce of the evidence. Stri'ck/;u1rf, 466 l l.S. at
687. Morem·er, as applicant is seeking habeas relief, he bears the burden of J>rm·ing his
factual ;-1llegations by a preponderance of the e,·idence. J.,\ p;ute i11onrnr~ 9!>2 S. W.2d
5;-30, 5:-34 (Tex. Crim. App. 1997).
(1150) The court finds Applicant fails to prove any of the claims discussed below had
merit or would have resulted in reversal. Consequently, he fails to prm·e appellate
counsel \V,L'i constitutionally deficient.

Appellate Counsel
(1151) Applicant was represented on appeal by J ohn Tatum and Brady \tVyatt, both
experienced attorneys.
(1152) Tatum's extensive experience and qualifications are laid out in his atlidavit,
which was admitted by the Court. (SWX 11 at 1).
(1153) \IVyatt testified at the habeas hearing. (5 WRR 17:1-92).
220

(1154} Tatum was the prim,u11 author of Applicant's brief on appeal. (S\VX 11; !> vVRR

180).
(1155} W yatt's role was to argue the case and review the video for the judicial bias claim.
(SWX l l; 5 WRR 180).

(1156} T atum made the final decision about what issues to raise
182;
11).

swx

0 11

appeal. (!> vVRR

(1157} Tatum reviewed all aspects; of the appellate record, indudi11gjury selection, the
guilt phase, the punishment phase, and the motion for new trial. (SWX 11 ).
(1158} Tatum reviewed all claims made by the detense in the trial. (SvVX I I).
(1159} Tatum conferred with Applicant- who was an experienced attorney himselt~
regarding the claims he wished raised on appeal. (SWX 11).
(1160) Tatum's atlidavit reflects; a reasonable investigation of appellate claims for a case
of this kind. (SvVX 11).
{1161} Tatum's affidavit is credible. \Nyatt's testimony at the habeas hearing was
credible.

Continuance Claim
(1162} l lnder this sub-claim, Applicant complains appellate counsel was inetlecti\'e in
failing to raise a claim on appeal regarding the trial court's denial of his motion for
continuance related to discovet)'. (App at J(> I-G7).
(1163) Applicant has failed to rebut the presumption of sound strategy regardin~ this
claim.
(1164) Applicant has failed to prove his appellate counsel were constitutionally
ineflective as to this daim.
(1165) On appeal, a claim that a continuance was erroneously denied is reviewed for
abuse of discretion. Callo v. State, 2:i9 S.vV.ad 757, 764 (Tex. Crim. App. 2007).

221

(1166) To succeed on appeal with such a claim, a defendant must show "with
considerable specificity how [he[ was harmed by the absence of more preparation time
than he actually had." Conxales 1: St;lte, :-304 S.W.:-3d 8:-38, 84:-3 (Tex. Crim. App. 20 l 0);
see aJ,;o Geo rge E. Dix & John M. Schmolesky, 4~ Texas Practice ~ :-t120. Generally,
this requires the defendant, ,·ia motion for new trial, to show what information, e , ·ide nce
or witnesses the defense would ha,·e had a,·ailahk had the motion for co11ti11uann.: been
granted. Id.

(1167) H ere, A pplicant has failed to show what information, evide nce, or ·witnesses
Applicant could have called had his motion for continuance been granted.
(1168) Applicant's habeas counsel have had S years to comb through the trial records
and the relevant discovery in order to uncover evidence not used by trial counsel.
(1169) l lll(ler Claim :-3, the Court made extcnsi,·e findings regarding Applicant's claim
th at the discove1y process in this case depri,·ed him of elfoctin.: assistance or counsel.

(1170) U nder Claim 4, the Court made extensive findings reg;u-cling Applicant's claim
th at the discovery process in this case d eprived him of due p rocess of law.
(1171) The Court's findings under Claims :1 and 4 sh ow A pplicant was not harmed by
the absence of more time to prepare for t.rial.

(1172) l lnder Claim 2, the Court made extensi,·e fi ndings regardi11g Applicant's claim
his counsel was inellective in its handling of a claim Applicant had brain d amage.

(1173) The Court's findings under Claim 2 show Applicant was not harmed by the
absence of more time to investigate and present evidence of any brain condition.

(1174) Applicant cites no analogous authority supporting his argument that this was a
, ·iable appe llate claim.
{1175) Appellate counsel were not inetlective
continuance claim on appeal.

Ill

their decision not to raise this

Second Change of Venue Motion Claim
(1176) Applicant next claims appellate counsel was inetlective fo r failing to challenge
the trial court's denial of his seco nd change of venue m otio11. (App. itt BG7-72).

222

(1177} Applicant has failed to rebut the presumption of sound strategy regarding th is
claim.
(1178) Applicant has failed to prove his appellate counsel were constitutionally
ineflective as to this claim.
(1179) On appeal, a challenge to an order denying a change of venue is reviewed for
abuse or discretion. Ranso1n 1.: State, 920 S.W.2d 288, 299 (Tex. Crim. App. 1994).
(1180) A motion for change of venue based 011 pretrial publicity must establish that "the
publicity was pervasive, pr~judicial, and inflammatory." Gon;,;a/es 1: State, 2'.l'.l S.\tV.:·M
446, 449 (Tex. Crim. App. 2007) {citing Sa/;v,ar i: State, :18 S.W.:1d 141, 1/i0 (Tex.
Crim. App. 200 l ). "Widespread publicity by itself is not considered inherently
pr~judicial. Indeed, even extensive knowledge of the case or the delernlcun in the
community as a result of pretrial publicity is not sufficient if there is not also some
sl1<)v,~ng of pr~judicial or inflarnmatory coverage." Id. (citing Faulder 1: Stale, 7 4!.i
S.W.2d :127, :1:18-8:19 (Tex. Crim. App. 1987).
(1181) The State tiled cont:rm·erti11g aflida,·its in response to Applicant's second motion
for change of n:nue. (CR 40{,!i-7 1). The trial court heard e,·idence and argument on the
second motion for ch,mge of ,·enuc. (27 RR5-29).
(1182) Applicant has cited no evidence from the extensive individual ,,oir dire in the
case in support of this claim. (App. at 3G7-72).
(1183) Applicant alleges in a footnote that some 90 percent of the venire had been
exposed to media coverage, but he does not cite any evidence in the record supporting
that statement. (App. at 370 11. :10!.i) .
(1184) During the hearing on the second motion for change of ,·enue, the Stale
challenged Applicant's daims about voir dire, noting that, at the time oft.he hearing, 8
jurors had been seated and only 2 prospective jurors had indicated they could not be fair
due to pretrial publicity. (27 RR 16-1 7).
(1185) Applicant alleged (j prospective jurors had indicated they could not be fair due
to pretrial publicity. (27 RR 8).
(1186) About :-3000 prospecti,,e_jurors were summoned for Applica1 it's trial. (27 RH 22).
223

(1187) About 4:-3 percent or the summonses were answered, resulting in a11 initial pool
of nearly 1JOO prospective jurors. (.See 27 RR 22).
(1188) Applicant identified no pr~judicial news coverage in the hearing, in that he did
not identity coverage with pr~judicial evidence aga.i11st him or confessions. (27 RR 5-2~)).
(1189} At the hearing, Applicant identified no specific, recent m edia con:rage of his
case. (27 RR 17-18).
(1190 ) O ver 18 months elapsed between the last or the murders and Applicant's trial.
(1191} The population of Rockwall County exceeded 85,000 at the time of trial. (CR

40G7).
{1192) Here, the record shows Applicant brought 110 meaningful e,·ide11ce of
pr~judicial ne\vs coverage after his first change of ,·e1me, 110 m eaningful e,·id encc o r the
prospective jurors' exposure to media cm·erage, and little to no e \·ide11ce of the etlect ot'
media coverage 011 the jurors.
(1193) Applicant could not sho'vv the trial judge abused his discretion by denying a
second change of venue. See Conxales, 222 S.W.~-3d at 45 1-,'>2 (change of venue not
required where actual evidence of media coverage otlered at hearing, including
broadcast video of the oflense, 2/?, of prospective jurors had seen media co, ·erage of the
case, and l/:-3 of prospective jurors could not set aside that cm·erage).
(1194) Appellate counsel were not inetfoctive for declining to raise a claim on appeal
ab out the second change of venue motion.
·

Death Qualified Jury Claim
( 1195) Applicant complains appellate counsel failed to raise a claim 011 appeal regarding
his trial motion to ha Ye tvvo juries hear his case, one on guilt and another on punishment.
(App. at :-372-7 4).
{1196} Applicant has failed to rebut the presumption of sound strategy regarding this
claim.
(1197) Applicant has failed to prove his appellate counsel were constitutionally
inetlective as to this claim.
224

(1198) The Court of Criminal Appeals has held it does not violate Due Process to h,l\·e
the s,m1e jury determine guilt and punishment in a death penalty case . .~j;;u/.;_s I '. State,
No. AP-76,09~), 2010 WL 4U{27G~J, at *17 (Tex. Crim. App. Oct. 10, 2010) (not
clesig1 iated for publication).
(1199) The Supreme Court has held it does not violate Due Process to han:'. the same
jury determine guilt and punishment in a death penaity case. Lockh;ut 1·• lvlcCn:e, 47(i
l l.S. 162,178, 18:~-84 (198G).

(1200) Applicant cites no analogous authority supporting the proposition that a single
jury assessing guilt and punishment in a death penalty case violates due process.
(1201} Appellate counsel were nol ineHecti,·e for declining to assert a claim regarding a
"death qualified" jury on appeal.

Incendiary Device Claim
(1202} Applicant claims appellate counsel were indlective in failing lo assert on appeal
the trial court erred by admitting a photogTaph of ,m incendia1y device recm·ered from
the storage unit during the guilt phase of trial. (App. at :-37 4-7G).
(1203) Applicant has failed to rebut the presumption of sound strate1-,>")' regarding this
claim.
(1204) Applic,mt has failed to prove his appe llate counsel were ronstitulionally
inetlecti,·e as to this claim.

(1205) During the guilt phase of trial, the State ollered multiple photos of items seized
from Applicant's home and a storage unit as well as multiple items seized. (4,5 RR 5154).
(1206) Applicant's trial counsel ol~jectecl lo State's Exhibit 155, a photograph he
described as "an improvised incendiary device." Counsel noted the item was listed on
the State's notice of extraneous offenses and was more prejudicial than probative. The
ol~jection was overruled. (45 RR 52; SX 155). Counsel later clarified he ol~jected to the
exhibit on the gTound it was evidence of an extraneous otlense; the trial court understood
that as the basis for the ol~jection. (45 RR .5a) .

225

(1207) State's Exhibit 155 is a photograph of a plastic bottle of charcoal lighter Huid that
has a tennis-ball-,md-rope dog toy attached to it 1rvith duct tape. A cigarette lighter is also
attached Lo the bott le. The exhibit depicts front and back views of the item. (SX 15.'>) .
(1208) An FBI agent later testified the item was "an improvised ince11diary device." (45
RR 82).

(1209) Trial counsel did not ol~ject to the FBI agent's testimo11y. (4,'> RR 82).

(1210) T o preserve error for appeal, a party must make a timely, specific ol~jection and
obtain a ruling. Tex. R. App. P. :-ti 1.
(1211) To tl1e extent Applicant's claim depe11ds upon the FBI agent's testimony, it was
not preserved fc:x appeal.

(1212) Evidentiary rulings at trial are reviewed for abuse of discretion. A clear abuse of
discretion is shown only where the trial court's dete rmination falls outside "the zone of
reasonable disagTeement" '"~th regard to the determination. Mo11t,1;-omc1J · 1•• State, 8 10
S.W.2d :172, :-38(), :~~)l (Tex. Crim. App. 1991) (op. 011 reh'g). A trial court's decision
admitting evidence should be upheld on appeal if it is right for any reason. Romero 1·•
Slate, 800 S.\tV.2d 5W), :34~1 (Tex. Crim. App. 1990).

(1213) Applicant cites no analogous authority in the application supporting his daim
that admission of this photogTaph was error.
(1214) O ther items offered contemporaneously and without ol~jertio11 included State's
Exhibit l :-{!)-a photo of a crossbow; State's Exhibit 14.'>- a photogT;1 ph of an AR lower;
St1te's Exhibit l4G-a photograph of an J\R lower; St1te's Exhibit 147-a photog-raph of
an AR lower; State's Exhibit l 48- a photo,1.,rraph ohm A R lower; State's Exhibit 149-the
A R lower from SX 148 with magazines and a SHERIFF patch; State's Exhibit 15:1-a
photograph from a footlocker labelled "WILLIAMS, ERIC"; State's Exhibit 157- a
photo,1.,1rnph of two loaded A R magazines; State's Exhibit 170-a photograph of a Desert
Eagle pistol.

(1215) The Desert Eagle pistol was seized from Applicant's garage. (45 RR G4-6.1>).
(1216) The other items were seized from Applicant's storage unit in Seagm·ille. (45 RR
72, 77-81, Ha).

226

(1217) The componentc.; d e picted in State's Exhibit 155 are not themseh'es illegal:
charcoal lighter tluid, a dog toy, and a cigarette lighter.
(1218) Abundant e,-i dence proved Applicant committed the ,·iolent murder of the
Md..ellancls. As recounted l>y the Court of Criminal Appeals, "the j ury could rea sonably
inte r from the ample circumstantial e,·idence" that Applicant shot C ynthia Md ..dland ,S
to 8 times and Mike Mcl..e lland at least l O times in their home on March :-30, 20 l (1.
Wi/h'ains v. State, No,. AP-77,05~-3, 2017 vVL 491G865, at * 1-4 (Tex. Crim. App. Nm·.
2, 2017) (not designated for publication).
(1219) Non-constitutional errors like that ,1lleged in this claim are reversible on appeal
only if they allect a substantial right of the accused. Tex. R. App. P.. 44.2(b).
(1220) Applicant cites 110 analogous authority in the application supporting his claim he
was harmed by any erroneous admission of this exhibit.
{1221) Applicant sutlered no harm even if the exhibit was erroneously omitted, gi\'en
the nature of the crimes, the relatively be11i6r:r1 nature of the challenged exhibit, and the
multitude of other vveapons seized from the same location admitted vvithout ol~jection.
{1222) /\pplica11l likewise sufte red 110 harm because the FBI agent's testimony about
th e incendiary de,·ice was admitted without ol~jection.
(1223) Appellate counsel were not inetle r tiYe i11 declining to appeal the ruling
photo ·of the incendiary device.

011

the

Victim Impact Evidence Claim
(1224) Applicant next claims appellate counsel were indlective fo r failing to raise a

claim on appeal complaining of the admission of alleged victim impact e,·idence during
the guilt phase of trial. (App. at :-377-80).

(1225) Applicant has failed to rebut the presumption of sound strate1-,1y regarding this
claim.

(1226) Applicant has failed to prove his appellate counse l were constitutionally
inetlective as to this claim.

227

(1227) "Victim impact evidence" generally refers to evidence regarding the etlect of the
victim's death 011 others. Mosley i:. State, ~JH:1 S.\N.2d 249, 2<> I ( !'ex. Crim. App. 1~)~)8).
(1228) "Victim character eYidence" generally refers to e ridern:e regard ing a ,·ictim's
good qualities. Id.
(1229) At trial, the lead prosecutor asked the McLelhmds' son-in-law if Cynthia
Mcl..elland had an y medical issues. App licant's trial counsel ol~jected 011 grounds of
re levance, and the ol~jection was overruled. (44 RR 81-82).
(1 230) To preserve error for appeal, a p,uty must make a timely, specific ol~jection and
obtain a ruling. T ex. R. App. P. aa.l.
(1231) A trial ol~jection urging a claim diHerent from that urged 0 11 appeal is i11suflicie11t
to preserve the appellate issue. See Wheatf;i// 1·. State, 882 S.vV.2d 829, 8:1G (Tex. Crim.
App. l ~)94)(holding that an ol~jection to the voluntariness of a statem ent did not prese1Ye
a claim that it was a comment on post-arrest silence}; l';11nad10 v. State, 8()4 S.vV.2d
524, 5:12-:1:1 (Tex. Crim. App. 199:1)(holdi11g that hearsay and relevancy ol~jec:tio11s did
not preseJYe a claim regarding improper admission of extraneous ollense e,·idence).
(1232) The re levance ol~jection by Applicant's trial cou nsel d id not presern: a claim
that the testimony was improper victim impact e,·idence.
(1233) The challenged testimony was not victim impact testimony because it did not
relate to the effoct~ of the victim's death on others.

(1234) T he testimony was relevant because it allowed the _jury to assess whether Cynthia
had ,my ability to resist her attacker.
(1235) Non-constitutional e rrors like that alleged in this claim are re,·ersihle
only if they aflert a substantial right of the accused. Tex. R. App. P. 44.2(h).

011

appeal

(1236) Abundant other e,~clence from the guilt phase showed Applicant m urdered the
Md .elland's in their home.
(1237) Applicant cites no fact-specific authority supporting that his trial o l~jection
preserved the error he asserts, the objection had merit, or he was harmed.

228

(1238) Applicant's reliance on J\11//er-J:;J L State, 782 S.W.2d 892 (Tex. Crim. App.
1990) is misplaced because the challenged evidence in that case dealt with the long-term
prognosis for a victim in light of their injuries rather th an basic bio.graphical facts about
the \ictim.

(1239) Appellate counsel were not ineffective for failing to challenge the ruling
regarding Cynthia Mcl..elland's disabilities on appeal.

Individualized Sentencing Claim
(1240) AppliGmt next claims appellate counsel 'vvere inetlective for failing to challenge
testimony regarding the actions of other inmates. (App. at :-38 l-8a) .

(1241) Applicant has failed to rebut the presumption of sound stratq,,y.
(1242) Applicant has failed to pro,·e his appellate counsel were constitutionally
inetlective.

(1243) E,·identiary rulings at b·ial are reviewed for abuse of discretion. A clear abuse of
discretion is shown only where the trial court's determination falls outside "the zone or
reasonable disa.i,rreement" with regard to the determination. Mo11tgome1y F. State, 810
S.W.2d :-372, :-386, :-39 1 (Tex. Crim. App. 1991) (op. on reh'g). A trial court's decision
admitting e'vidence should he upheld on appeal if it is right for any reason. Rmnero 1:
State, 800 S.W.2d 5J9, 54:-3 Cl'ex. Crim. App. 1~)90).
(1244) During the punishment phase or a death penally case in T exas the jury is

required to answer what is commonly referred to as Special Issue No. l. Tex. Code
Crim. Proc. art. ~-37.071, ~2(b)(l), This special issue requires the jury to answer "whether
there is a probability that the detendant would commit criminal acts of violence that
would constitute a continuing threat to society." Id. The State has the burden o f proof
on this issue by proof beyond a reasonable doubt. Id. ~:-37 .071 (2)(c).

(1245) D uring the punishment phase, Applicant called C;u-!;1 Stone, the Kaufinan
County J ail Administrator. Stcme testified extensi,·ely about general operations of the jail
and about Applicant's time in the jail. (50 RR 157-94).

229

(1246) Stone's testimony included evidence about Applicant's medical incidents, lapses
by guards during his jailing, and the jailers' belief he was manipulating his blood sugar
levels. (50 RR 178-81, 18a).
(1247) During cross-examination, the prosecutor asked Stone about a11 incident where
another inmate managed to escape during a trip to the hospital. (50 RR 188-8~)).
(1248) Applicant's trial counsel ol~jected on the basis of "individualized sentencing,"
and the trial court overruled the ol~jection, stating trial counsel had "opened the door."
(50 RR 188-89).

(1249) The point of Applicant's direct examination of Stone was inmates cannot be
dangerous in jail; this was a false impression.
(1250) Stone's limited testimony about the escape answered the fabe impression left by
direct examination.
(1251) This testimony was relevant to Special Issue No. l because it related to whether
Applicant could be safely held in prison.

(1252) Applicant's authorities do not support his claim that evidence regarding the
actions of other inmates violates his right to individualized sentencing. (App. at :-ml).
(1253) The opinion

direct appeal r~jected a similar claim regarding e\·idence of
prison escapes admitted during cross-examination of Frank Aubuchon. Hlilkuns, '.2017
WL 4946865 at * :11-a:1.
011

(1254) Eve11 if erroneously admitted, the substantial volume of other evidence regarding
the three murders committed by Applicant, his other convictions, his plans to kill others,
and his threats against others would render such an en-or harmless beyond a reasonable
doubt.

(1255) Appellate counsel were not inetlective for dedining to appeal the ru ling
regarding the escape attempt by another Kautinan County inmate.

Inadequate Briefing Claims
(1256) Applicant claims appellate counsel were inetlective because multiple
meritorious claims in the brief on appeal were inadequately briefed. (App. at :18~1-9 l ).

230

(125 7) Applicant has failed to JH'm•e his appellate counsel were constitutionally
inetlective as to this daim.

(1258) Applicant merely lists claims he believes were inadequately briefed or that 'vvere
held to be inadequately briefed on appeal. App. at 38:~-9 l.
(1259) To prove inetlective assistance of counsel on appeal, Applicant must actually
J>rm·e there is a reasonable probability that properly brieting an issue wou ld have led to
a ditlerent outcome in the appeal, namely, re,·ersal. See Butle1; 884 S.\N.2d at 78:-t
(1260) Applicant has not brieled in the Application the claims to de monstrate they ha,e
merit.

(1261) Applicant fails to acknowledge that several of the alleged inadequately brieted
claims were considered on the merits. See WIJ/iams, 2017 WL 494686!> at *21
(considering Point of Error I 9), * 28-30 (Point of Error 27), * 38-40 (Point of Error 32).
(1262) Applicant has adduced 110 evidence demonstrating the dairns ha,·e merit.
(1263) Appellate counsel was not constitutionally inetlecti\'e in the writing of his
appellate brief.

Cwnulative Effect
(1264) Finally, Applicant claims the cumulati,·e etlect of his appellate counsel's
representation resulted in the deprivation of etlective assistance of counsel.

(1265) Applic:ant has failed to prove his appellate counsel were inellective as regards
any of his sub-claims under Claim 7.
(1266) Because he has failed to show any viable sub-claim, his claim of a cumulative
e tlect lacks merit.
(1267) Applicant has failed to prove he received inetlective assistance of counsel on
appeal.

231

Claim 7: Jury Tampering
(1268) In Claim 7, Applicant claims the State's ex pa1ie communication ,-vith the
sequestered jurors during the punishme n t phase ,·io lated his ro11stitutio11al righl to a fair
and impartial j ury and tainted the Yerdicl. (App. :-39:-3-9.'i).
(1269) As previously found with respect to Claim l D , Applicant fails to protle r any
credible evidence that sequestered jurors talked about meeting with, or actually met with,
prosecutors.

(1270) Applicant fails to prove by a pre ponderance of th e e,idence any ,·iolation of his
right to a fair a nd impartial jury.
(1271) Applicant's claim the State's ex parte communications with the sequestered
jurors was an external influence that violated his right to a fair and impartial ju1y should
be denied.

Claims 8-11: Challenges to Texas's Death Penalty Scheme
(1272) In Claims 8 through 11 , Applicant challenges the constitutionality of 'l 'exas's
d eath penalty scheme. (App. at :-3~)€>-4:-3 1).

Procedurally Barred
(1273) Claims 8 through 11 are all procedurally barred on habeas re,iew.
(1274) With reg;-ml to claim 8, Applica nt failed to present his complaint at trial by
motion or ol~jection. Matters not raised at trial cannot form the basis for habeas relief.
See J._,:v p;ute Dutchove1; 779 S.W.2d 7G, 77 (Tex. Crim. App. 1989); J,,\ p;ute Cn\pe11,
777 S.W.2d l 0:-3, l 05 (Tex. Crim. App. 1989); J-,'x 1;;ute B;~fey, 509 S. W.2d :-3:-32, :-3:-3:-3
(Tex. Crim. App. 1974) ("T he same rule as to the necessity of ,Ul o l~jection to
complained of e,~dence has been applied by this Court in habeas corpus cases.").

(1275) Applicant also failed to present claim 8 for review on direct appeal. WJ/kuns,
2017 WL 49468G5. Habeas review is not to be used as a substitute l<>r appeal. 1',:r p;utc
Clore, 690 S.W.2d 899, 900 (Tex. Crim. App. 1985). If a claim could have been raised
on appeal, but \<vas not, the Applicant is procedurally b;uTed from raising the issue for
the first time through habeas. See J,,\: pa,te Cruxata, 220 S. W.:-3d 5 18, 520 (Tex. Crim.
App. 2007); see, e.g:, Er pa.1te Ramos, 977 S.W.2d 616, Gl 7 (Tex. Crim. App. i~)98}
232

(holding that because claims concerning the jury charge at punishment should have been
raised 011 direct appeal, the claims would not be addressed 011 habeas). Applicant was
not preYented from raising claim 8 on appeal; he simply chose not to . .See H/ilkuns,
2017 WL 49468G!J.
(1276) Finally, habeas corpus is not to be used to relitigate matters that '"-'ere addressed

on appeal. See Lr /JrJite Drakt:, 883 S.W.2d 21a, 21!> (Tex. Crim. App. l!)~J4); see, e.g:,
J-.,'x p;ute Acosta, 672 S.W.2d 470, 472 (Tex. Crim. App. 1984) (holding that matters
addressed on direct appeal would not be addressed on habeas). Applicant raised the
allegations in claims 9 through 11 011 direct appeal. He briefed them in points of error
:-38 and :-3~), and the Court of Criminal Appeals r~jected them. WJJJiams, 2017 vVL
494686!>, at * 46. Thus, they may not be relitigated in these proceedings.
(1277) For all the foregoing reasons, claims 8 through 11 are procedurally barred and
should be dismissed.

Challenges to Death Penalty Scheme
(1278) Alternatively, Claims 8 through 11 are meritless and should be denied.

Claim 8: Constitutionality ofthe Texas Death Penalty Scheme
(1279) In Claim 8, Applicant alleges the T exas death penalty framework is

unconstitutional because there are geographic and racial disparities in the exercise of
prosecutorial discretion to seek the death penalty. Applicant claims these disparities
violate the constitutional guarantee of equal protection. His argument could also be
construed to allege a violation of the constitutional guarantee against cruel and unusual
punishment. (App. at 396-409). Applicant fails to prove any constitutional violation.
(1280) The constitutionality of the State's discretionary authority to seek the death
penalty in capital murder cases is unquestioned. See, e.~:, J\1cC'/eskJ' I'. Ke1np, 48 1

ll .S. 279, :-311-13 (1987) (discussing the "hmdamental" need for prosecutorial
discretion in the capital punishment system); Roberts 1:. State, 220 S.W.ad 52 1, 5:-3!>
(Tex. Crim. App. 2007) (stating it has previously rejected the notion that there should
be "a state,"~de policy or standard for determining in which cases the State will seek
the death penalty as opposed to leaving the decision in the hands of the individual
district attorneys"); Crutsinger I-'. State, 206 S.vV.8d 607, {,12 (Tex. Crim. App. 200{,)
("We have held that prosecutorial discretion does not ,·iolate the Eighth and

233

Fourteenth Amendments."); Ha11k1i1s I'. State, t:·32 S.\N.:-3d :-380, :188 (Tex. Crim. App.
2004) ("The State has discretion to seek the death penalty and this prosecutorial
discretion is not unconstitutional."); Thread;pJ/ v. State, 146 S. \t\1.ad G54, 671-7 2 (Tex.
Crim. App. 2004) (r~jecting the claim that a1ticle :-37.071 "fails to provide a mechanism
by which the state determines the death worthiness of the Defendant"); Ladd 1·. State,
:-3 S.W.:-3d 547,574 (Tex. Crim. App. 1999) (r~jecting the claim that defendant's death
sentence violates his Eighth and Fourteenth Amendment rights because Texas law
gives prosecutors complete discretion on whether to seek the death penalty);
l'vfcR11Ja11d I'. State, 928 S.W.2d 482,511 (Tex. Crim. App. 1~)9(>) ("[lit is well settled
that the discretion afforded the State to seek the death penalty is not unconstitutional
.... "); JJarelield v. State, 784 S.W.2d :18, 46 (Tex. Crim. App. 1989) ("We adhere to
the proposition that the imposition of the death penalty is not unconstitutional because
the discretion given the prosecutor."); see generally Greg;.;- v. (..,'emgia, 428 t :.s. LS:-3,
199 ( l 97(>) (rejecting defendant's complaint that the prosecutor has "unfettered
authority to select persons whom he wishes to prosecute for a capital olknse and to
plea bargain with them").
(1281) The l lnited States Supreme Court has recognized "the capacity of prosecutorial
discretion to provide individualized justice is 'firmly entrenched in American law,"' and
offers substantial benefits to the criminal defendant. McC'/esky, 48 1 ll.S. at :-31 1-12
(citations omitted). Along with the prosecutor's discretion to seek the death pe nalty is
the prosecutor's discretion to decline to charge, ofter a plea bargain, or decline to seek
death. See id. A capital punishment system that does not allow for sue h discretion
"would be totally alien to our notions of criminal justice." Id. (quoting Crel{J;; 428 l l.S.
at 200 n.50).
(1282) A prosecutor's discretion is not limitless. It is still sul~ject to certain constitutional
constraint,. Seel lmted States v. Annstrong, 517 l J.S. 4!.iG, 464 (1996). l ;nderthe equal
protection component of the Fifth Amendment, the State may not base its decision 011
an arbitrary dassitication suc h as the defendant's membership ill a protected rlass. See
id. (explaining that the decision to prosecute may not be based 011 "an uqjustiliable
standard such as race, religion, or other arbitrary classification") (quoting 0;'1er 1·• JJo/es,
:1f>8 l l.S. 448, 4!.i6 (1962)); McC'/esky, 48 1 l 1.S. at :-3 10 n.:-W ("This Court has repeatedly
stated that prosecutorial discretion cannot be exercised on the basis of race."). A criminal
detemlant's equal protection rights ,ffe violated when the prosecutors in hi~·case act with
such a discriminatory purpose. See McCYesky, 481 l !.S. at ~92.

234

(1283) Applicant does not allege the State's decision to seek the death penalty in his
case was based on his membership in any protected class or discriminatory intent o r
act by the State. Consequently, Applicant has not alleged a cognizable equal protection
claim. See Taylor v. Jolmson, ?57 F.~-3d 470, 47:-3 (5th Cir. 200 l) {explaining that an
individual asserting an equal protection claim must allege and prove that he was treated
differently from similarly-situated individuals, and that this unequal treatment
stemmed from a disc:riminatory inte nt).
(1284) Applicant cites law review articles reterring to studies that purportedly
establish a connection between race and geography and the State's decision to seek
death. Applicant does not provide the empirical data from those studies. Also, many
of the studies do not specifically relate to T exas. More importantly, none of the
referenced studies show the State acted 'vvith a discriminatory purpose in seeking the
death penalty in Applicant's case. See /Je/11·. State, 9J8 S.W.2d :ir;, ,r; I (Tex. Crim.
App. 1996).

(1285) Applicant disregards other studies showing no racial discrimination in the
exercise of the prosecutorial discretion to seek the death penalty. See e.g:, D. Baime,
Report to the Supreme Court Systemic Proportionality Review Prqject: 2000-200 l
Term GI (20(H); D. Baldus, G. Woodworth, G. Young, & A. Christ, The Disposition
of Nebraska Capital and Non-Capital Homicide Cases (I 97:-3-1999); A Legal and
Empirical Analysis, Executive Summary 14-22 (200 l); Joint Legislative Aud it ,md
Review Commission, Review of Virginia's System of Capital Punishment, iii (2002);
Klein & Kolph, Relationship of Olknder and Victim Race to D eath Pe nalty Sentences
in California, :12 J urimetrics J. :-3<3, 44 (l 99 l).
(1286) Applicant's argument that geo~raphical disparities exist in the exercise of
prosecutorial discretion to seek death has been r~jected by the Court of Criminal
Appeals. See Civt~i11ge1; 206 S.W.:·ld at 611-1:-3; Allen v. State, 108 S.\tV.:-3d 281, 28!>87 (Tex. Crim. App. 2008); King v. State, 9:'.i:1 S.W.2d 26G, 274 (T ex. Crim. App.
1~)~)7); JJe/1, 988 S.W.2d at 55.
(1287) Applicant asserts seven Texas counties are responsible for fifty percent of the
inmates currently sitting o n d eath row and forty-nine percent of executed inmates.
(App. at 40 I). He attributes this disparity to ditlerences in "ideology, experience
litigating capital cases, and resource availability." (App. at 404). But agair\, the law
affords prosecutors broad discretion in the decision to seek death and p ermits

235

consideration of these kinds of factors in the exer('lse of that discretion. See
C'rutsinge1; 20(j S.vV.:-3d at 612. Applicant fails to assert or demonstrate disparate
treatment between himself and other similarly "geographically" situated defendants.

(1288) Finally, the Texas death penalty framework cloes not ,·iolate the constitutional
guarantee of equal protection or the constitutional prohibition against cruel and
unusual punishment. If reviewable, Claim 8 should he denied.

Claim 9: Constitut:J.onality ofthe 12-10 Rule
{1289) In Claim 9, Applicant contends the' f exas death penalty framework ,·iolates his
constitutional rights against cruel and unusual punishment and to due process of law.
U.S. CONST. amends. VIII & XIV. Specifically, he maintains the ten-vote requirement
. to return a " no" answer to tI1e t·irst spec1a
. 1 issue
.
I.or tI1e .JUry
ancI a " yes " answer to tI1e
mitigation issue coerces minority "life" voters to vote with the majority in the belief that
their vote is worthless without nine otherjurors to join them. .See Tex. Code Crim. Proc.
Ann. art. :-37.07 1, ~~ 2(d)(2), (t)(2) (West Supp. 2019). He also contends, contrary to
existing law, the ju11' should be informed the failure to a.i-,rree with respect to either issue
results in a lite sentence . .See Tex. Code Crim. Proc. Ann. art. a7 .071, ~ 2(a) (I) (\Vest
Supp. 2019) (requiring jury not be told the etlect of a deadlock). (A pp. at 4 10-1 7).

(1290) The Court of Criminal Appeals has repeatedly decided these issues against
Applicant. See, e.~;, Raylhrd v. State, 125 S.vV.:-3d 521, 5a2 (Tex. Crim. App. 200:1).
In addition, the Supreme Court has held the Eighth Amendment does not require the
_jury to be instructed "as to the consequences of a breakdown in the deliberative
process." S ee.Jones 11. { fnitedStates, 144 L.Ed.2d a70, :-382-8:-3 (1999).
{1291) Applicant complains nonetheless the l 0-12 rule acts as an improper dynamite
charge in violation of Mills- 11. A1a1yland, 48G l l.S. :-3G7, :-38:-3 (1988). The _jury charge in
iWilJ~-was determined to be unconstitutional because it prevented the jury from acting
on mitigating evidence unless it unanimously agreed a particular factor was mitigating,
allowing a single juror to impose a death sentence . .See 1\1il/.~·, 486 l l.S. at ~-380. The
charge in M1JA violated the rule that the sentencer may not b e prevented from
considering, as a mitigating factor, all relevant evidence. Id. at :-37 4-7.'>.
(1292) 'l'he legitimacy of Texas's l 0-12 rule has already been addressed in relation to
MJ/J.,, and upheld. See Williams v. State, ~J~-37 S.W.2d 479, 4!JO (Tex. Crim. App.
1996). The Texas statute allows a single juror to give effect to any piece of mitigating

236

evidence by voting "no" on any special issue. R ousseau
n.26 (Tex. Crim. App. 199.:-3).

1·.

State, 85.~ S.W.2d 6<i6, G87

(1293) Moreover, the court specifically instructed Applicant's jury they need not
agree on what particular evidence supports a negative answer to special issue one or
au atlirmatin: answer to special issue two. (11 CR 42~):1-94) . Applicant's jury was
instructed they could not ans-vver the special issues in a manner that ,vould result in a
life sentence unless ten jurors agree to that answer. Id. But the charge also informed
.
. on l er to vote " yes " to spec1a
. 1·issue one an< l" no " to spena
. 1·issue two, tI1at
tI-ie Jurors
m
is, vote for the death penalty, they had to do so unanimously. Id.
(1294) l lnder these facts, Applicant's argument the jurors were misled lacks merit
because every juror knew capital punishment could not be imposed without the
unanimous agreement of the jury on both special issues. See Lawton 1·• Stale, 91 ;-3
S.W.2d 542, 55~) (Tex. Crim. App. E)95). While the jury was not iuformed of the
consequences of a hung jury, each juror knew that, without his or her vote, the death
sentence could not be imposed. Id.
(1295) If reviewable, Claim 9 is meritless and should be denied.

Claim 10: Constitu.tionahty ofthe Future Dangerousness Issue
(1296) 111 Claim l 0, Applicant claims the future-dangerousness special issue, as set out
in article :i?.071, section 2(b)(l), ,·iolates the Eil,{hth and Fourteenth Ame11clmenL-;
because the terms it employs are vague and do not properly channel the sentencer's
discretion. More specitically, he claims the statute's failure to define terms such as
"probability," "continuing threat to society," and "criminal acts of violence" Yiolates the
constitutional requirement that each statutory agi.,rravating circumstance genuinely narrow
the class of persons eligible for the death penalty. (App. at 418-2a).
(1297) It is well-settled the terms "probability," "criminal acts of violence," and
"continuing threat to society" require no special definitions. ,See~ e.g:, Saldano, 2:➔2
S.~1.3d 77, 91 (Tex. Crim. App. 2007); RayfiJrd, 125 S.\V.:1d at 5:12; MuqJhy v. State,
112 S.W.Bd S92, 606 (Tex. Crim. App. 2003). The terms are "taken ,uid understood in
their usual acceptation in common language," and the ju1y is presumed to understand
them without being provided with their definitions. See 'l 'ex. Code Crim. Proc. Ann. art.
:1.0l (\ 1Vest 2015); see alw Ha1vey v. St;1te, 123 S.W.ad G23, 628 (Tex. Crim. App.
200:-3); Fddman 1,: State, 71 S.W.:1d 738, 757 (Tex. Crim. App. 2002) . Consequently,
237

complaints about the statute's failure to define such terms are without merit. .See, e.g:,
Mwph;r, 112 S.W.ad at 60G (holding the future-dangerousness special issue is not
unconstitutionally va.L,rue for failing to deline "probability," "criminal acts of ,·iolence,"
,mcl "continuing threat to society"); Cantu i: St:,tc, 842 S.\i\f.2d 667, (j~)I (T ex. Crim.
App. 1~)~)2) (r~jecting assertion that judge should define "probability" and "criminal acts
of violence"). Therefcxe, if revievvable, claim 10 should be denied.

Claim 11: Constitutionality ofthe Mitigation Instructions
(1298) In Claim 11 , Applicant contends the statutory detinition of mitigating evidence
violates the Eighth and Fourteenth Amendments because it limits the jury's
consideration of mitigating factors to those that render a capital defe11da11t less morally
blameworthy. l ;,s. CONST. amends. VIII & XIV. (App. at 424-:·H).

(1299) The mitigation spe<·ial issue instructs the jury to answer "yes" or "no" to the
following question:
Whether, taking into consideration all ol the endence, including the
circumstances of the offense, the defendant's character and background, and
the personal moral culpability of the defendant, there is a sufficient mitigating
circumstance or circumstances to warrant that a sentence of life imprisonment
•.vithout parole rather than a death sentence be imposed.
Tex. Code Crim. Proc. Ann. art. ~-37.071, ~ 2(e)(l) (vVest Supp. 20E)) (emphasis
added).
(1300) Section 2(f)(4) of article a7.071 requires the trial court to instruct the jury it shall
consider "mitigating e,~dence" to be "any evidence that a juror might regard as reducing
the defendant's moral blameworthiness." .See T ex. Code Crim. Proc. Ann. art. .071,
~ 2(0(4) (West Supp. 2019). Applicant claims this definition is too narrow because it
limits the definition of "mitigating eYidence" to only e,·ide11ce that "specifically
implicates" the defendant's moral blameworthiness. He claims this delinition excludes
consideration of numerous other types of constitutionally relevant mitigating evidence,
"including evidence that he was an Eagle Scout, pa1ticipated in the math duh, and was
generally well-liked by his· classmates." (App. at 428).

:-o

{1301) The Court of Criminal Appeals has co11sistelltly and repeatedly r~jected this
attack on article ~-37.07 J. See, e.g:, J,ucero 1·. State, 24<> S.W.~-3d 86, ~)(j (Tex. Crim.
238

App. 2008); K1i1g; 9,'>J S.W.2d at 274; Shannon i-. State, (J42 S.W.2d !>9 1, !>97 (Tex.
Crim. App. 199G). l lnder article ~-37.071, the consideration and weighing of mitigating
evidence is an open-ended, suhjective determination made by each individual juror.
The statute explicitly requires the jury to consider "all of the evidence" in determining
the mitigation special issue. See 171readgill, 146 S.W.~-3d at G72. Moreover, it le,l\·es it
to the jurors to determine what evidence, if any, militates against a death sentence.
Shannon, 942 S.W.2d at 597. Thus, it does not narrow the jury's consideration to
factors concerning only moral blameworthiness. Id. For these reasons, if reviewable,
Claim 11 should be denied.

-----------------------------------------------------------------l lnless previously fonvarded to the Texas Court of Criminal Appeals, the Clerk
is ORDERED to prepare a transcript of all papers in cause number ~-3202 IA-4-22 and
to transmit the same to the Court of Criminal Appeals as provided by article 11.071
of the Texas Code of Criminal Procedu re .
The transcript shall include certified copies of the following documents:
1.

Applicant's subsequent application for writ of habeas corpus and any
other pleadings filed by Applicant in cause number a202 l A-422,
including any exhibits;

2.

The State's Answer to Applicant's subsequent writ application filed in
cause number :-3202 lA-422;

:-L

Any other pleadings liled by the State in cause number a202 l A-422;

4.

Any proposed findings of fact and conclusions of law filed by the State
and Applicant in cause number :-32021 A-422;

5.

This court's Amended Order (containing all findings of facl and
conclusions of law) in cause number :1202 IA-422;

G.

Any and all orders issued by the court in cause number a202 l A-422;

7.

The indictment, judgment, sentence, docket sheet, and appellate record
in cause number :-32021 -422.

239

The Clerk is further ORDERED to send a copy of this court's Amended Order
containing the above find ings of fact and conclusions of law to Applicant's counsel,
Beqjamin Wo lff, at Benjamin.Wolff@ochv.texas.gov or via mail at their address of
record and to counsel for the State, Collin County Assistant District Attorney Lisa
Smith, at lsmith@co.collin.tx.us or via mail at their address of record.

SIGNED the 15th clay of May, 2020.

J udge Moll Francis, Sitting by Assignment
422nd .J udic al District Court
Kauhnan County, TX

240

